Appendix A

e<

0043

Case: 18-16046, 03/24/2020,
Case l:17-cv-00886-AWI-EPG Document 110 Filed 03/24

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
MAR 24 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No.

MADHU SAMEER,

18-16046

D.C.No. 1:17-cv-00886-AWI-EPG
Eastern District of California,
Fresno

Plaintiff-Appellant,
v.

ORDER

THE RIGHT MOVE 4 U; et al.,
Defendants-Appellees.

Before: WALLACE, CANBY, and TASHIMA, Circuit Judges.
The panel has voted to deny the petition for panel rehearing.
The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. See Fed. R.
App. P. 35.
Sameer’s petition for panel rehearing and petition for rehearing en banc
(Docket Entry No. 81) are denied.
Sameer’s motion to recall the mandate (Docket Entry No. 82) is denied.
No further filings will be entertained in this closed case.

0044

Appendix B

. 0045

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No.

MADHU SAMEER,

FILED
DEC 13 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

18-16046

D.C.No. 1:17-cv-00886-AWI-EPG

Plaintiff-Appellant,
v.

MEMORANDUM*
THE RIGHT MOVE 4 U; et al.
Defendants-Appellees.
Appeal from the United States District Court
for the Eastern District of California
Anthony W. Ishii, District Judge, Presiding
Submitted December 11, 2019**
Before:

WALLACE, CANBY, and TASHIMA, Circuit Judges.

Madhu Sameer appeals pro se from the district court’s judgment dismissing
her action alleging federal and state law claims. We have jurisdiction under 28
U.S.C. § 1291. We review for an abuse of discretion a dismissal under Fed. R.
Civ. P. 41(b). McHenry v. Renne, 84 F.3d 1172, 1177 (9th Cir. 1996). We affirm.

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

0046

The district court did not abuse its discretion by dismissing Sameer’s action
for failure to comply with its order to amend the complaint to comply with Federal
Rule of Civil Procedure 8(a). Despite the district court’s warning and instruction,
Sameer’s third amended complaint was vague, confusing, and failed to allege
clearly the bases for her claims. See id. at 1179-80 (affirming dismissal of a
complaint under Rule 8 because it was “argumentative, prolix, replete with
redundancy, and largely irrelevant”); see also Fed. R. Civ. P. 8(a)(2) (requiring that
a pleading contain “a short and plain statement of the claim showing that the
pleader is entitled to relief’).
The district court did not abuse its discretion by denying Sameer’s motion to
proceed in forma pauperis because the court’s determination was based on its
*■»

examination of her affidavit in support of her motion and her financial resources.
See O’Loughlin v. Doe, 920 F.2d 614, 617 (9th Cir. 1990) (setting forth standard of
review and explaining that a “reviewing court cannot reverse unless it has a
definite and firm conviction that the court below committed a clear error of
judgment”).
We do not consider matters not specifically and distinctly raised and argued
in the opening brief, or arguments and allegations raised for the first time on
appeal. See Padgett v. Wright, 587 F.3d 983, 985 n.2 (9th Cir. 2009).

2
0047

18-16046

a

Sameer’s motions requesting this court to take judicial notice of the
documents she attaches (Docket Entry Nos. 24 and 68) are denied because the
documents are irrelevant to the issues on appeal. The Clerk is directed to strike the
documents. Her motions requesting to file those documents under seal (Docket
Entry Nos. 23 and 68) are denied as moot.
AFFIRMED.

3
0048

18-16046

Appendix C

0049

a

1

Case l:17-cv-00886-AWI-EPG Document 94 Filed 05/22/18 Page 1 of 9
1
2
3
4
5
6

UNITED STATES DISTRICT COURT

7

EASTERN DISTRICT OF CALIFORNIA

8
9
10
11
12
13
14
15
16
17

CASE NO. l:17-CV-886 AWI-EPG

MAHDU SAMEER,

ORDER DISMISSING PLAINTIFF’S
THIRD AMENDED COMPLAINT
FOR FAILURE TO FOLLOW
A PREVIOUS COURT ORDER

Plaintiff'
v.
RIGHT MOVES 4 U; MICHELLE
FRANKLIN; DYLAN CORTINA;
XO MOVING SYSTEMS; CONROY
REMOVALS; FIONA CONROY;
MONICA MCKINLEY; TALBOT
UNDERWRITING RISK SERVICES;
SHIPCO TRANSPORT; and DOES 1-43,

(Doc. No. 93)

Defendants
This dispute arises from the Defendants’ alleged failure to deliver Plaintiff s’personal

18

possessions from her former residence in Fresno, CA to her current residence in New Zealand.

19

Plaintiffs 110-page Second Amended Complaint (“2 AC”) sought to allege multiple claims under

20

the Racketeer Influenced and Corrupt Organizations Act” (“RICO”), as well as multiple California

21

state law claims. See Doc. No. 13. In the Court’s Order on Plaintiffs Motions (the “Dismissal

22

Order,” Doc. No. 87), Plaintiffs 2AC was dismissed for failure to provide a “short and plain

23

statement” under Rule 8 of the Federal Rules of Civil Procedure. Plaintiff, a pro se litigant, was ■

24

granted leave to amend in order to cure the Rule 8 defects, address other violations of the Court’s

25

Local Rules, and fit her complaint into the Court-imposed page limit of 50 pages. Id.

26

Plaintiff has filed her Third Amended Complaint (“3 AC”), which also substantially fails to

27

proffer a “short and plain statement” of her claims. See Doc. No 93. For the reasons that follow,

28

Plaintiff s 3 AC will be dismissed with prejudice.

0050

Zl
Case l:17-cv-00886-AWI-EPG Document 94 Filed 05/22/18 Page 2 of 9
1

A. Failure to Provide a Short and Plain Statement

2

Lesal Standard

3

Under Rule 8(a), a complaint must contain a “short and plain statement of the claim

4

showing that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2). “[T]he ‘short and plain

5

statement’ must provide each defendant with ‘fair notice of what the plaintiffs claim is and the

6

grounds upon which it rests.’” Dura Pharms., Inc. v. Broudo, 544 U.S. 336, 346 (2005). Rule

7

8(a) “requires a ‘showing,’ rather than a blanket assertion, of entitlement to relief.” Bell Atl. Corp.

8

v. Twombly, 550 U.S. 544 (2007). Plaintiffs complaint must contain facts to “state a claim to

9

relief that is plausible on its face,” allowing “the court to draw the reasonable inference that the

10
11

defendant is liable for the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
Complaints that are “argumentative, prolix, replete with redundancy, and largely

12

irrelevant” and that consist “largely of immaterial background information” are subject to

13

dismissal under Rule 8. Cafasso, U.S. ex rel. v. Gen. Dynamics C4 Sys., Inc., 637 F.3d 1047, 1059

14

(9th Cir. 2011). A Rule 8 dismissal is allowed even if “a few possible claims” can be identified

15

and even if the complaint is not “wholly without merit.” Id. at 1179 (stating Rule 8's requirements 3.

16

apply “to good claims as well as bad”). Complaints that fail to comply with Rule 8 “impose unfair

17

burdens on litigants and judges” who “cannot use [such] complaint[s]” and “must prepare outlines

18

to determine who is being sued for what.” Id. at 1179-80. “Experience teaches that, unless cases

19

are pled clearly and precisely, issues are not joined, discovery is not controlled, the trial court's

20

docket becomes unmanageable, the litigants suffer, and society loses confidence in the court's

• 21
22
23

s-

ability to administer justice.” Bautista v. L.A. Cty., 216 F.3d 837, 841 (9th Cir. 2000).
Analysis
The core of the Court’s Dismissal Order concerned Plaintiffs failure to proffer a short and

24

plain statement of her RICO allegations in her 2AC. See Doc. No. 87. Therein, the Court

25

informed Plaintiff that in a RICO action, a plaintiff must allege the following: “(1) conduct (2) of

26

an enterprise (3) through a pattern (4) of racketeering activity (known as predicate acts) (5)

27

causing injury to plaintiffs business or property.” Just Film, Inc. v. Buono, 847 F.3d 1108, 1116

28

(9th Cir. 2017); 18 U.S.C. § 1962. An “enterprise” includes “any individual, partnership,
2
0051

s-

k

Case l:17-cv-00886-AWI-EPG Document 94 Filed 05/22/18 Page 3 of 9
1

corporation, association, or other legal entity, and any union or group of individuals associated in

2

fact although not a legal entity.” 18 U.S.C. § 1961(4). A “pattern” requires the commission of at

3

least two acts of “racketeering activity” within a ten-year period. 18 U.S.C. § 1961(5).

4

Racketeering activities are also known as “predicate acts” under 18 U.S.C. § 1961. Eller v.

5

EquiTrust Life Ins. Co., 778 F.3d 1089, 1092 (9th Cir. 2015); see also United States v. Turkette,

6

452 U.S. 576, 582 (1981) (“The enterprise is an entity[.] The pattern of racketeering activity is, on

7

the other hand, a series of criminal acts as defined by the statute.”).

8

Applying Rule 8, the Court found Plaintiffs 2AC to be neither short nor plain:

9

The 110-page 2 AC contains 32 causes of action, as read from the section headers.
24 of these main headings allege RICO violations, many of which are lodged
against “all Defendants,” and most of which contain multiple subsections
apparently alleging additional RICO claims.

10
11
12
13
14
15
16
17

Plaintiff does list nine predicate acts under federal law, in a section preceding her
“causes of action,” but then fails to mention these in most of her 22 RICO causes
of action, instead citing back to, inter alia, the general RICO statute, other federal
laws (sometimes completely irrelevant to her cause of action), California state law
and various Restatements of the Law. Many of Plaintiff s claims appear
duplicative, and though Plaintiff includes almost 300 paragraphs of factual
allegations, it is near impossible to connect these facts to the elements of
Plaintiffs claims.

23

The remaining eight “causes of action” appear to be styled as alleged violations of
California common law: breach of contract, breach of duty of care, breach of
fiduciary duty/conspiracy, equitable/promissory estoppel, unjust enrichment,
negligent misrepresentation, intentional misrepresentation, and “unfair
competition.” Many of these sections, however, also have multiple sub-claims,
each of which cites to various sources of law seemingly unrelated to the
designated claim—some cite to the Restatements, some to wholly irrelevant
statutes (i.e. 29 U.S.C. 1109, governing fiduciary duties for employee benefits).
Many cite back to the RICO statute, leaving the Court with the impression that
Plaintiff is attempting to use California common law as a predicate offenses for
additional RICO claims.

24

See Doc. No. 87, pp. 5-6. The Court concluded that “the 2AC's incomprehensibility prevents this

25

Court (and Defendants) from deciphering the factual and legal basis for each Defendant's alleged

26

liability[;]” the Court granted Plaintiff leave to amend. See Id. p.6.

18
19
20
21
22

27
28

Plaintiffs 3AC, while slightly reformed, still fails to comply with Rule 8 at its most basic
level. The 3 AC contains seven “counts”, where Plaintiff divides the Defendants into individual

00^2

Case l:17-cv-00886-AWI-EPG Document 94 Filed 05/22/18 Page 4 of 9
1

entities or smaller sub-groups—the Court assumes this is Plaintiffs attempt to individualize her

2

allegations in the “counts” section to each Defendant, instead of alleging claims against “all

3

Defendants” (as was the case in the 2AC). See Doc. No. 93, at pp. 42-48. However, each “count”

4

then incorporates by reference and refers back to the body of the 3 AC, where Plaintiff sets forth no

5

less than twenty-four sub-sections of what appear to be attempts to detail predicate acts. See Id.

6

These sections are so multifarious as to still remain incomprehensible; two such examples are

7

styled as follows:

8

Intentional - Breach of Contract/Breach of Third Party Contract/Breach of
Fiduciary Duty/Tortious Interference-in aid of Racketeering enterprises (18
USC 1962 (c); (d); 18USC 1341; 18USC 1343; 18USC 1346; 18USC
1349); Restatements (Second) of Contracts (1981) Sec. 241 et. seq.;
Restatement (Second) of Torts-Sec. 874, 875, 876, 766; Restatement (Third)
of Agency (2006) sec. 6.05; 7.01, et. seq., 801, et. seq.

9
10
11
12

13
14

-

Deprivation of Civil Rights (18 USC 1962 (d); 18 USC 1341; 18 USC 1343;
18 USC 1346; 18 USC 1349; Federal Constitutional law, Article 1 Section
10; Bill of Rights - First, Fifth, and Fourteenth Amendment); 42 USC 1981;
42 USC 1982; 42 USC 1985 (3); 42 USC 1986; 42 USC 1988 (a)-(c ).

*

‘i

15

See Id. Each of these sub-sections contains a few paragraphs of factual allegations (and some

16

seemingly-conclusory statements) about “defendants’” behavior, but do not appear to come close

17

to matching up with the breadth of the multiple citations to law contained in each sub-section.

18

Like the Court held in its Dismissal Order concerning the 2AC, “courts should not have to outline

19

a plaintiffs complaint in order to find comprehensibility.” Cafasso, 631 F.3d at 1079-80.

20

Additionally, Plaintiff many other paragraphs appear to be restyled versions of Plaintiff s

21

previous attempts to allege violations of California state law. See 3AC, at pp 23-21. The Court

22

still cannot gauge how Plaintiff intends to incorporate by reference these sections, either as RICO

23

or state law acts. For example, the following headers are denoted as “Non Predicate Acts”:

24
25
26
27
28

Intentional Infliction of Emotional Distress (18 USC 1962 (d); 18 USC 1341;
18 USC 1343; 18 USC 1346; 18 USC 1349; Restatement (Second) of Torts,
Sec 46;
Unjust Enrichment 18 USC 1962(c), (d); 18 USC 1341;. 18 USC 1343; 18
USC 1346; 18 USC 1349; Restatement (Third) of Restitution & Unjust
Enrichment, Restatement (Third) of Agency, Sec 2.047, 4.08, 5.04.

4
0053

Case l:17-cv-00886-AWI-EPG Document 94 Filed 05/22/18 Page 5 of 9
1

See Id. These sections, scattered throughout the 3AC, are again followed by allegations that do

2

not appear to conform to the legal citations in the headers, either under Federal or State law. Like

3

the so-called “Predicate Acts”, these numerous paragraphs also fail provide any of the Defendants,

4

with fair notice of what Plaintiffs claims are and the grounds upon which each claim rests. Dura

5

Pharms., 544 U.S. at 346; Cafasso, 637 F.3d at 1059 (“Complaints that are argumentative, prolix,

6

replete with redundancy, and largely irrelevant” and that consist “largely of immaterial

7

background information” are subject to dismissal under Rule 8.).

8

Finally, the Court cannot decipher the factual basis for Plaintiffs damages estimation,

9

alleged to be over the implausible figure of $3 million, and questions her seemingly conclusory

10

allegations of enterprise and that unnamed “others” have experienced the same harms from these

11

Defendants. See Twombly, 550 U.S. at 555; Iqbal, 556 U.S. at 678, Chaset v. Fleer/Skybox, 300

12

F.3d 1083, 1087 (9th Cir. 2002) (“Congress enacted RICO to combat organized crime, not to

13

provide a federal cause of action and treble damages for personal injuries.”).

14

The Court’s conclusion regarding Plaintiffs 3AC is the same as with 2AC: its prolixity

15

and incomprehensibility prevents the Court (and Defendants) from deciphering the factual and •

16

legal basis for each Defendant's alleged liability. See Cafasso, 637 F.3d at 1059 (“Rule 8(a) has

17

‘been held to be violated by a pleading that is needlessly long, or a complaint that was highly

18

repetitious, or confused, or consisted of incomprehensible rambling.’”) (quoting 5 Federal Practice

19

& Procedure § 1217 (3d ed. 2010)); see also Clayburn v. Schirmer, 2008 WL 564958, at *4 (E.D.

20

Cal. Feb. 28, 2008) (“The court and any defendant should be able to read and understand

21

Plaintiffs pleading within minutes.”); Little v. Baca, 2013 WL 436018, at *3 (C.D. Cal. Feb. 1,

22

2013) (finding that unclear pleadings “leav[e] it to the Court to figure out what the full array of

23

[the plaintiffs] claims are and upon what federal law, and upon what facts, each claim is based.”).

24

Hence, the 3 AC must be dismissed. See Cafasso, 637 F.3d at 1059 (dismissing the “overly

25

burdensome” amended complaint per Rule 8); Stone v. Baum, 409 F.Supp.2d 1164, 1173 (D. Az.

26

Dec. 20, 2005) (dismissing under Rule 8 where 64-page complaint made no attempt to link alleged

27

violations of numerous predicate acts to defendants, and pleaded in conclusory and vague fashion

28

so that court and defendants could not discern conduct in question).
.

0054

Case l:17-cv-00886-AWI-EPG Document 94 Filed 05/22/18 Page 6 of 9
1
2
3

B. Dismissal with Prejudice is Appropriate under Rule 41
Lesal Standard
A complaint which fails to comply with a court order may be dismissed with prejudice as a

4

sanction. See Rule 41(b). “Although that rule appears to contemplate that dismissal will be

5

precipitated by a motion from the opposing party, a court may act sua sponte under Rule 41(b).”

6

Forte v. County of Merced, 2014 U.S. Dist. LEXIS 133826, *31, 2014 WL 4745923 (citing Link v.

7

Wabash R. Co., 370 U.S. 626, 630 (1962). The Ninth Circuit has upheld such dismissals pursuant

8

to a district court’s order for a plaintiff to follow Rule 8(a). McHenry v. Renne, 84 F.3d 1172 (9th

9

Cir. 1996); Nevijel v. N. Coast Life Ins. Co., 651 F.2d 671, 673 (9th Cir. 4981); see also Knapp v.

10

Hogan, 738 F.3d 1106, 1111 (9th Cir.-2013) ("Complaints that are filed in repeated and knowing

11

violation of Federal Rule 8's pleading requirements are a great drain on the court system, and the

12

reviewing court cannot be expected to fish a gold coin from a bucket of mud."); Johnson v. t

13

KHS&S Contractor, 2011 U.S. Dist. LEXIS 65215, at *2 (E.D. Cal. Jun 20, 2011) ("[A] district.*,

14

court may impose sanctions, including involuntary dismissal of a plaintiffs case with prejudice ,-

15

pursuant to Federal Rule of Civil Procedure 41(b), where that plaintiff fails to prosecute his or her

16

case or fails to comply with the court's orders.") (collecting cases)).

17

|

■M*-’

In considering whether to dismiss a case under Rule 41(b), courts consider: (1) the public's

18

interest in expeditious resolution of litigation; (2) the court's need to manage its docket; (3) the i*

19

risk of prejudice to the defendants; (4) the public policy favoring disposition of cases on their ?

20

merits; and (5) the availability of less drastic alternatives. See Yourish v. California Amplifier, 191

21

F.3d 983, 990 (9th Cir. 1999); Ferdikv. Bonzelet, 963 F.2d 1258, 1260-61 (9th Cir. 1992).

22
23

Analysis
Considering the above factors, only the fourth counsels against dismissal of this case with

24

prejudice, and this factor is drastically outweighed by the remaining factors. In the time since

25

Plaintiff filed her first complaint, she has amended three times to date, and until the Courts

26

admonition in the Dismissal Order, continued to inordinately expand her claims both in scope and

27

litigants. Plaintiff twice served the wrong party, despite the apparent clear instructions for service

28

listed on her insurance certificate, causing these former parties to file motions to dismiss. Plaintiff
00^5

£

Case l:17-cv-00886-AWI-EPG

Document 94 Filed 05/22/18 Page 7 of 9

1

has also filed numerous motions that border on frivolity—some of which were over 500 pages in

2

length and one of which seemingly requested the Court enjoin the order of a New Zealand court.

3

In short, Plaintiffs acts in pursuing her case cut against the public’s interest in expeditious

4

resolution of the case, the court’s ability to manage its docket, and the risk of prejudice to the

5

defendants. Ferdik, 963 F.2d at 1260-61.
Despite these ongoing problems, however, the Court granted Plaintiff s motion to amend -

6
7

her complaint. See Doc. No. 87. The Court expressly stated that upon filing her 3AC, Plaintiff >

8

“must comply with the Rules of Civil Procedure, most importantly Rule 8(a)’s requirement of a

9

‘short and plain’ statement of the claim and the facts showing that Plaintiff is entitled to relief.”

10

See Id., p. 8. The Court warned that “[ujnless Plaintiff is able to clarify her allegations in the

11

[3AC], this would demonstrate to the Court the futility of additional future amendment, and go

12

towards a showing of prejudice to defendants and interference with judicial process.” Id. The

13

Court concluded by stating: “[fjailure to comply with these commands may result in additional

14

sanctions, including sua sponte dismissal of the action without further comment or, potentially,

15

dismissal of the action with prejudice.” Id. Despite the Court admonishing Plaintiff on Rule 8

16

admonition, as well as providing her with guidance on the pleading standards for a RICO claim,

17

she has failed to proffer a “short and plain statement” in her 3 AC. The current complaint is

18

verbose and confusing, irrelevant in parts, argumentative, prolix, replete with redundancy. See

19

Section A, supra. In the Dismissal Order, the Court also ordered Plaintiff to adhere to the Court’s

20

Local Rules concerning formatting (L.R. 130), and imposed a page limit to further indicate the .

21

need for a “short and plain statement.” While Plaintiff did decrease her page count, she did so

22

partially at the expense of the page margins and spacing (in part). See Local Rule 130(a), (b), and

23

(c). By the Court’s estimate, Plaintiffs 3AC significantly extends beyond the page limit imposed

24

once forced to conform to the Court’s formatting rules. At best, this violation further highlights

■ 25

Plaintiffs failure to proffer a “short and plain statement” of her claims. These findings lead the

26

Court to conclude that Plaintiff will be unable to meet Rule 8’s pleading standards, and no less *

27

drastic alternative is available.

1 28

'

III
00^6

-

Case l:17-cv-00886-AWI-EPG Document 94 Filed 05/22/18 Page 8 of 9
1

Plaintiff has previously expressed her concern that, as a pro se litigant, she is unaware of

2

how to properly plead a complaint. However, the Court notes Plaintiff originally filed this action

3

in July of 2017, has amended three times, and has had numerous procedural issues throughout,

4

including service of incorrect parties. In short, if Plaintiff intended to procure the services of an

5

attorney to correct for her apparent inability to conform to the Federal Rules, she could have done

6

so by now. Plaintiffs pro se status does not excuse her from conforming her pleadings and

7

motions to the Rules of Civil Procedure and the Court’s Local Rules. See Briones v. Riviera Hotel

8

& Casino, 116 F.3d 379, 381 (9th Cir. 1997) (Although the court must construe pleadings

9

liberally, “[p]ro se litigants must follow the same rules of procedure that govern other litigants.”);

10

see also Local Rule 183(a) ("Any individual representing himself or herself without an attorney is

11

bound by the Federal Rules of Civil or Criminal Procedure, these Rules, and all other applicable

12

law. Failure to comply therewith may be ground for dismissal... or any other sanction

13

appropriate under these Rules.").

14

*

2

Thus, it is clear that Plaintiffs inability to conform to the tenets of Rule 8 and the-Court’s

15

order, as previously discussed, counsels dismissal of her case with prejudice. Cf. McHenry v.

16

Renne, 84 F.3d 1172 (9th Cir. 1996) (affirming district court’s dismissal with prejudice under Rule

17

41(b) due to plaintiffs violation of general pleading rules and court's prior orders requiring short,

18

clear statement of claims sufficient to allow defendants to prepare responsive pleading,^vyhere 53-

19

page third amended complaint was written more as a press release and failed to obey court's prior

20

orders to identify .which defendants were liable on which claims); Nevijel v. N. Coast Life Ins. Co.,

21

651 F.2d 671, 673 (9th Cir. 1981) (affirming a Rule 41(b) dismissal of a “verbose, confusing, and

22

almost entirely conclusory” complaint, after previously allowing amendment, because there was

23

little reason to think that an additional opportunity would yield different results); with Hearns v.

24

San Bernadino Police Department, 530 F.3d 1124 (9th Cir. 2011) (reversing sua sponte dismissal

25

under Rule 41(b) where complaint was not “replete with redundancy and largely irrelevant.”

26

(citing to McHenry, 84 F.3d at 1132)) see also Bryant v. City of Tulare, 2017 U.S. Dist. LEXIS

27

23174, *10 (E.D. Cal. Feb 7, 2017) (dismissing a multifarious RICO complaint with prejudice

28

where the complaint referenced predicate acts such as “wire fraud” or “mail fraud”, but failed to
00§7

' r ‘t

- xr

-v C ■ 3
■ M*:

’

!

Case l:17-cv-00886-AWf-EPG Document 94 Filed 05/22/18 Page 9 of 9
1

clearly establish these predicates in her facts, failed to adequately allege an enterprise, and made

2

conclusory allegations as to damages); Wright v. United States, 2015 WL 3902798, at *1 (N.D.

3

Cal. June 24, 2015) (dismissing sua sponte after the plaintiff failed to assuage the court’s concerns

4

regarding the complaint’s failure to follow Rule 8); KHS&S Contractor, 2011 U.S. Dist. LEXIS

5

65215, at *2.

6

ORDER

7

Accordingly, IT IS HEREBY ORDERED that:

8

1.

PREJUDICE;

9
10

Plaintiffs Third Amended Complaint (Doc. No. 93) is DISMISSED WITH

2.

The Clerk of the Court is directed to CLOSE this case.

11
12
13

IT IS SO ORDERED.
Dated:

May 22, 2018
**<

±NIOR DISTRICT JUDGE

14
15
16
17'
18
19
20
21
22
23
24
25
26
•

27
28
00^8

Case l:17-cv-00886-AWI-EPG Document 95 Filed 05/22/18 Page 1 of 1
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA

JUDGMENT IN A CIVIL CASE
MADHU SAMEER,
CASE NO: l:17-CV-00886-AWI-EPG
V.

THE RIGHT MOVE 4 U, ET AL.,

•i.

XX — Decision by the Court. This action came to trial or hearing before the Court. The issues
have been tried or heard and a decision has been rendered.
IT IS ORDERED AND ADJUDGED
THAT JUDGMENT IS HEREBY ENTERED IN ACCORDANCE WITH THE
COURT'S ORDER FILED ON 5/22/2018

Marianne Matherly
Clerk of Court

ENTERED: May 22, 2018
hv: /s/ A. lessen

Deputy Clerk

0059

APPENDIX D : STATUTORY LAWS

69

0060

ANTITRUST LAWS
15 U.S. Code § l.Trusts, etc., in restraint of trade illegal; penalty

Every contract, combination in the form of trust or otherwise, or conspiracy, in restraint of
trade or commerce among the several States, or with foreign nations, is declared to be
illegal. Every person who shall make any contract or engage in any combination or
conspiracy hereby declared to be illegal shall be deemed guilty of a felony, and, on
conviction thereof, shall be punished by fine not exceeding $100,000,000 if a corporation,
or, if any other person, $1,000,000, or by imprisonment not exceeding 10 years, or by both
said punishments, in the discretion of the court.
15 U.S. Code § 2.Monopolizing trade a felony; penalty

Every person who shall monopolize, or attempt to monopolize, or combine or conspire with
any other person or persons, to monopolize any part of the trade or commerce among the
several States, or with foreign nations, shall be deemed guilty of a felony, and, on
conviction thereof, shall be punished by fine not exceeding $100,000,000 if a corporation,
or, if any other person, $1,000,000, or by imprisonment not exceeding 10 years, or by both
said punishments, in the discretion of the court.
15 U.S. Code § 3.Trusts in Territories or District of Columbia illegal; combination a felony

(a) Every contract, combination in form of trust or otherwise, or conspiracy, in restraint of
trade or commerce in any Territory of the United States or of the District of Columbia, or in
restraint of trade or commerce between any such Territory and another, or between any such
Territory or Territories and any State or States or the District of Columbia, or with foreign
nations, or between the District of Columbia and any State or States or foreign nations, is
declared illegal. Every person who shall make any such contract or engage in any such
combination or conspiracy, shall be deemed guilty of a felony, and, on conviction thereof,
shall be punished by fine not exceeding $100,000,000 if a corporation, or, if any
other person, $1,000,000, or by imprisonment not exceeding 10 years, or by both said
punishments, in the discretion of the court.
(b) Every person who shall monopolize, or attempt to monopolize, or combine or conspire
with any other person or persons, to monopolize any part of the trade or commerce in any
Territory of the United States or of the District of Columbia, or between any such Territory
and another, or between any such Territory or Territories and any State or States or the
District of Columbia, or with foreign nations, or between the District of Columbia, and
any State or States or foreign nations, shall be deemed guilty of a felony, and, on conviction
thereof, shall be punished by fine not exceeding $100,000,000 if a corporation, or, if any
other person, $ 1,000,000, or by imprisonment not exceeding 10 years, or by both said
punishments, in the discretion of the court
15 U.S. Code § 6a.Conduct involving trade or commerce with foreign nations

Sections l to 7 of this title shall not apply to conduct involving trade or commerce (other
than import trade or import commerce) with foreign nations unless—
(l)such conduct has a direct, substantial, and reasonably foreseeable effect—
(A)
70

0061

on trade or commerce which is not trade or commerce with foreign nations, or on import
trade or import commerce with foreign nations; or
(B) on export trade or export commerce with foreign nations, of a person engaged in such
trade or commerce in the United States; and
(2) such effect gives rise to a claim under the provisions of sections i to 7 of this title, other
than this section.
If sections 1 to 7 of this title apply to such conduct only because of the operation of
paragraph (1)(B), then sections l to 7 of this title shall apply to such conduct only for injury
to export business in the United States.
15 U.S. Code § 7."Person" or "persons" defined

The word “person”, or “persons”, wherever used in sections 1 to 7 of this title shall be
deemed to include corporations and associations existing under or authorized by the laws of
either the United States, the laws of any of the Territories, the laws of any State, or the laws
of any foreign country.
15 USC 12. Definitions; short title

(a) "Antitrust laws," as used herein, includes the Act entitled "An Act to protect trade and
commerce against unlawful restraints and monopolies," approved July second, eighteen
hundred and ninety; sections seventy-three to seventy-six, inclusive, of an Act entitled "An
Act to reduce taxation, to provide revenue for the Government, and for other purposes," of
August twenty-seventh, eighteen hundred and ninety-four; an Act entitled "An Act to
amend sections seventy-three and seventy-six of the Act of August twenty-seventh,
eighteen hundred and ninety-four, entitled An Act to reduce taxation, to provide revenue
for the Government, and for other purposes,' " approved February twelfth, nineteen hundred
and thirteen; and also this Act.
"Commerce," as used herein, means trade or commerce among the several States and with
foreign nations, or between the District of Columbia or any Territory of the United States
and any State, Territory, or foreign nation, or between any insular possessions or other
places under the jurisdiction of the United States, or between any such possession or place
and any State or Territory of the United States or the District of Columbia or any foreign
nation, or within the District of Columbia or any Territory or any insular possession or other
place under the jurisdiction of the United States: Provided, That nothing in this Act
contained shall apply to the Philippine Islands.
The word "person" or "persons" wherever used in this Act shall be deemed to include
corporations and associations existing under or authorized by the laws of either the United
States, the laws of any of the Territories, the laws of any State, or the laws of any foreign
country.
'
*
(b) This Act may be cited as the "Clayton Act".
CLAYTON ACT
15 USC 13. Discrimination in price, services, or facilities

(a) Price; selection of customers
•
It shall be unlawful for any person engaged in commerce, in the course of such commerce,
either directly or indirectly, to discriminate in price between different purchasers of
commodities of like grade and quality, where either or any of the purchases involved in
71

0062

such discrimination are in commerce, where such commodities are sold for use,
consumption, or resale within the United States or any Territory thereof or the District of
Columbia or any insular possession or other place under the jurisdiction of the United
States, and where the effect of such discrimination may be substantially to lessen
competition or tend to create a monopoly in any line of commerce, or to injure, destroy, or
prevent competition with any person who either grants or knowingly receives the benefit of
such discrimination, or with customers of either of them: Provided, That nothing herein
contained shall prevent differentials which make only due allowance for differences in the
cost of manufacture, sale, or delivery resulting from the differing methods or quantities in
which such commodities are to such purchasers sold or delivered: Provided, however, That
the Federal Trade Commission may, after due investigation and hearing to all interested
parties, fix and establish quantity limits, and revise the same as it finds necessary, as to
particular commodities or classes of commodities, where it finds that available purchasers
in greater quantities are so few as to render differentials on account thereof unjustly
discriminatory or promotive of monopoly in any line of commerce; and the foregoing shall
then not be construed to permit differentials based on differences in quantities greater than
those so fixed and established: And provided further, That nothing herein contained shall
prevent persons engaged in selling goods, wares, or merchandise in commerce from
selecting their own customers in bona fide transactions and not in restraint of trade: And
provided further, That nothing herein contained shall prevent price changes from time to
time where in response to changing conditions affecting the market for or the marketability
of the goods concerned, such as but not limited to actual or imminent deterioration of
perishable goods, obsolescence of seasonal goods, distress sales under court process, or
sales in good faith in discontinuance of business in the goods concerned.
(b) Burden of rebutting prima-facie case of discrimination
Upon proof being made, at any hearing on a complaint under this section, that there has
been discrimination in price or services or facilities furnished, the burden of rebutting the
prima-facie case thus made by showing justification shall be upon the person charged with a
violation of this section, and unless justification shall be affirmatively shown, the
Commission is authorized to issue an order terminating the discrimination: Provided,
however, That nothing herein contained shall prevent a seller rebutting the prima-facie case
thus made by showing that his lower price or the furnishing of services or facilities to any
purchaser or purchasers was made in good faith to meet an equally low price of a
competitor, or the services or facilities furnished by a competitor.
(c) Payment or acceptance of commission, brokerage, or other compensation
It shall be unlawful for any person engaged in commerce, in the course of such commerce,
to pay or grant, or to receive or accept, anything of value as a commission, brokerage, or
other compensation, or any allowance or discount in lieu thereof, except for services
rendered in connection with the sale or purchase of goods, wares, or merchandise, either to
the other party to such transaction or to an agent, representative, or other intermediary
therein where such intermediary is acting in fact for or in behalf, or is subject to the direct
or indirect control, of any party to such transaction other than the person by whom such
compensation is so granted or paid.
(d) Payment for services or facilities for processing or sale
It shall be unlawful for any person engaged in commerce to pay or contact for the payment
of anything of value to or for the benefit of a customer of such person in the course of such
72

0063

commerce as compensation or in consideration for any services or facilities furnished by or
through such customer in connection with the processing, handling, sale, or offering for sale
of any products or commodities manufactured, sold, or offered for sale by such person,
unless such payment or consideration is available on proportionally equal terms to all other
customers competing in the distribution of such products or commodities.
(e) Furnishing services or facilities for processing, handling, etc.
It shall be unlawful for any person to discriminate in favor of one purchaser against another
purchaser or purchasers of a commodity bought for resale, with or without processing, by
contracting to furnish or furnishing, or by contributing to the furnishing of, any services or
facilities connected with the processing, handling, sale, or offering for sale of such
commodity so purchased upon terms not accorded to all purchasers on proportionally equal
terms.
(f) Knowingly inducing or receiving discriminatory price
It shall be unlawful for any person engaged in commerce, in the course of such commerce,
knowingly to induce or receive a discrimination in price which is prohibited by this section.
15 USC 13a. Discrimination in rebates, discounts, or advertising service charges;
underselling in particular localities; penalties
It shall be unlawful for any person engaged in commerce, in the course of such commerce,
to be a party to, or assist in, any transaction of sale, or contract to sell, which discriminates
to his knowledge against competitors of the purchaser, in that, any discount, rebate,
allowance, or advertising service charge is granted to the purchaser over and above any
discount, rebate, allowance, or advertising service charge available at the time of such
transaction to said competitors in respect of a sale of goods of like grade, quality, and
quantity; to sell, or contract to sell, goods in any part of the United States at prices lower
than those exacted by said person elsewhere in the United States for the purpose of
destroying competition, or eliminating a competitor in such part of the United States;
or, to sell, or contract to sell, goods at unreasonably low prices for the purpose of
destroying competition or eliminating a competitor.
Any person violating any of the provisions of this section shall, upon conviction thereof, be
fined not more than $5,000 or imprisoned not more than one year, or both.
15 USC 15. Suits by persons injured
(a) Amount of recovery; prejudgment interest
Except as provided in subsection (b), any person who shall be injured in his business or
property by reason of anything forbidden in the antitrust laws may sue therefor in any
district court of the United States in the district in which the defendant resides or is found or
has an agent, without respect to the amount in controversy, and shall recover threefold the
damages by him sustained, and the cost of suit, including a reasonable attorney's fee. The
court may award under this section, pursuant to a motion by such person promptly made,
simple interest on actual damages for the period beginning on the date of service of such
person's pleading setting forth a claim under the antitrust laws and ending on the date of
judgment, or for any shorter period therein, if the court finds that the award of such interest
for such period is just in the circumstances. In determining whether an award of interest
under this section for any period is just in the circumstances, the court shall consider only73

0064

(1) whether such person or the opposing party, or either party's representative, made
motions or asserted claims or defenses so lacking in merit as to show that such party or
representative acted intentionally for delay, or otherwise acted in bad faith;
(2) whether, in the course of the action involved, such person or the opposing party, or
either party's representative, violated any applicable rule, statute, or court order providing
for sanctions for dilatory behavior or otherwise providing for expeditious proceedings; and
(3) whether such person or the opposing party, or either party's representative, engaged in
conduct primarily for the purpose of delaying the litigation or increasing the cost thereof.
(b) Amount of damages payable to foreign states and instrumentalities of foreign states
(1) Except as provided in paragraph (2), any person who is a foreign state may not recover
under subsection (a) an amount in excess of the actual damages sustained by it and the cost
of suit, including a reasonable attorney's fee.
(2) Paragraph (1) shall not apply to a foreign state if(A) such foreign state would be denied, under section 1605(a)(2) of title 28, immunity in a
case in which the action is based upon a commercial activity, or an act, that is the subject
matter of its claim under this section;
(B) such foreign state waives all defenses based upon or arising out of its status as a foreign
state, to any claims brought against it in the same action;
(C) such foreign state engages primarily in commercial activities; and
(D) such foreign state does not function, with respect to the commercial activity, or the act,
that is the subject matter of its claim under this section as a procurement entity for itself or
for another foreign state.
(c) Definitions
For purposes of this section(1) the term "commercial activity" shall have the meaning given it in section 1603(d) of title
28, and
(2) the term "foreign state" shall have the meaning given it in section 1603(a) of title 28 .
15 USC 15a. Suits by United States; amount of recovery; prejudgment interest

Whenever the United States is hereafter injured in its business or property by reason of
anything forbidden in the antitmst laws it may sue therefor in the United States district
court for the district in which the defendant resides or is found or has an agent, without
respect to the amount in controversy, and shall recover threefold the damages by it
sustained and the cost of suit. The court may award under this section, pursuant to a motion
by the United States promptly made, simple interest on actual damages for the period
beginning on the date of service of the pleading of the United States setting forth a claim
under the antitmst laws and ending on the date of judgment, or for any shorter period
therein, if the court finds that the award of such interest for such period is just in the
circumstances. In determining whether an award of interest under this section for any period
is just in the circumstances, the court shall consider only(1) whether the United States or the opposing party, or either party's representative, made
motions or asserted claims or defenses so lacking in merit as to show that such party or
representative acted intentionally for delay or otherwise acted in bad faith;
(2) whether, in the course of the action involved, the United States or the opposing party, or
either party's representative, violated any applicable mle, statute, or court order providing
for sanctions for dilatory behavior or otherwise providing for expeditious proceedings;
74

0065

(3) whether the United States or the opposing party, or either party's representative, engaged
in conduct primarily for the purpose of delaying the litigation or increasing the cost thereof;
and
(4) whether the award of such interest is necessary to compensate the United States
adequately for the injury sustained by the United States.
15 USC 15b. Limitation of actions

Any action to enforce any cause of action under section 15, 15a, or 15c of this title shall be
forever barred unless commenced within four years after the cause of action accrued. No
cause of action barred under existing law on the effective date of this Act shall be revived
by this Act.
15 USC 15d. Measurement of damages

In any action under section 15c(a)(l) of this title, in which there has been a determination
that a defendant agreed to fix prices in violation of sections 1 to 7 of this title, damages may
be proved and assessed in the aggregate by statistical or sampling methods, by the
computation of illegal overcharges, or by such other reasonable system of estimating
aggregate damages as the court in its discretion may permit without the necessity of
separately proving the individual claim of, or amount of damage to, persons on whose
behalf the suit was brought.
15 USC 15f. Actions by Attorney General

(a) Notification to State attorney general
Whenever the Attorney General of the United States has brought an action under the
antitrust laws, and he has reason to believe that any State attorney general would be entitled
to bring an action under this Act based substantially on the same alleged violation of the
antitrust laws, he shall promptly give written notification thereof to such State attorney
general.
(b) Availability of files and other materials
To assist a State attorney general in evaluating the notice or in bringing any action under
this Act, the Attorney General of the United States shall, upon request by such State
attorney general, make available to him, to the extent permitted by law, any investigative
files or other materials which are or may be relevant or material to the actual or potential
cause of action under this Act.
15 USC 15g. Definitions

For the purposes of sections 15c, 15d, 15e, and 15f of this title:
(1) The term "State attorney general" means the chief legal officer of a State, or any other
person authorized by State law to bring actions under section 15c of this title, and includes
the Corporation Counsel of the District of Columbia, except that such term does not include
any person employed or retained on(A) a contingency fee based on a percentage of the monetary relief awarded under this
section; or

75

0066

(B) any other contingency fee basis, unless the amount of the award of a reasonable
attorney's fee to a prevailing plaintiff is determined by the court under section 15c(d)(l) of
this title.
HARTER ACT
46 USC 190. Stipulations relieving from liability for negligence

It shall not be lawful for the manager, agent, master, or owner of any vessel transporting
merchandise or property from or between ports of the United States and foreign ports to
insert in any bill of lading or shipping document any clause, covenant, or agreement
whereby it, he, or they shall be relieved from liability for loss or damage arising from
negligence, fault, or failure in proper loading, stowage, custody, care, or proper delivery of
any and all lawful merchandise or property committed to its or their charge. Any and all
words or clauses of such import inserted in bills of lading or shipping receipts shall be null
and void and of no effect.
46 USC 191. Stipulations relieving from exercise of due diligence in equipping vessels
It shall not be lawful for any vessel transporting merchandise or property from or between
ports of the United States of America and foreign ports, her owner, master, agent, or
manager, to insert in any bill of lading or shipping document any covenant or
agreement whereby the obligations of the owner or owners of said vessel to exercise
due diligence 1 properly equip, man, provision, and outfit said vessel, and to make said
vessel seaworthy and capable of performing her intended voyage, or whereby the
obligations of the master, officers, agents, or servants to carefully handle and stow her
cargo and to care for and properly deliver same, shall in any wise be lessened, weakened,
or avoided.
46 USC 192. Limitation of liability for errors of navigation, dangers of sea and acts of
God

If the owner of any vessel transporting merchandise or property to or from any port in the
United States of America shall exercise due diligence to make the said vessel in all respects
seaworthy and properly manned, equipped, and supplied, neither the vessel, her owner or
owners, agent, or charterers, shall become or be held responsible for damage or loss
resulting from faults or errors in navigation or in the management of said vessel nor shall
the vessel, her owner or owners, charterers, agent, or master be held liable for losses arising
from dangers of the sea or other navigable waters, acts of God, or public enemies, or the
inherent defect, quality, or vice of the thing carried, or from insufficiency of package, or
seizure under legal process, or for loss resulting from any act or omission of the shipper or
owner of the goods, his agent or representative, or from saving or attempting to save life or
property at sea, or from any deviation in rendering such service.
46 USC 193. Bills of lading to be issued; contents

It shall be the duty of the owner or owners, masters, or agents of any vessel
transporting merchandise or property from or between ports of the United States and
foreign ports to issue to shippers of any lawful merchandise a bill of lading, or
shipping document, stating, among other things, the marks necessary for
identification, number of packages, or quantity, stating whether it be carrier’s or
shipper's weight, and apparent order or condition of such merchandise or property
76

0067

delivered to and received by the owner, master, or agent of the vessel for
transportation, and such document shall be prima facie evidence of the receipt of the
merchandise therein described.
46 USC 194. Penalties; liens; recovery

For a violation of any of the provisions of sections 190 to 196 of this Appendix the
agent, owner, or master of the vessel guilty of such violation, and who refuses to issue
on demand the bill of lading herein provided for, shall be liable to a fine not exceeding
$2,000. The amount of the fine and costs for such violation shall be a lien upon the
vessel, whose agent, owner, or master is guilty of such violation, and such vessel may
be libeled therefor in any district court of the United States, within whose jurisdiction
the vessel may be found. One-half of such penalty shall go to the party injured by such
violation and the remainder to the Government of the United States.
46 USC 196. Certain laws unaffected
Sections 190 to 196 of this Appendix shall not be held to modify or repeal sections 181 to
183 of this Appendix, or any other statute defining the liability of vessels, their owners, or
representatives.
CARRIAGE OF GOODS BY SEA ACT
46 USC 13701

In this chapter, the term “carrier” means the owner, manager, charterer, agent, or master
of a vessel.
Notes
This chapter codifies the Act of February 13, 1893 (ch. 105, 27 Stat. 445) (commonly
known as the Harter Act). Changes are made to simplify, clarify, and modernize the
language and style, but the intent is that these changes should not result in changes in
substance.
A definition of “earner” is added based on language appearing in various provisions of the
Harter Act. The definition avoids the need to repeat in various sections of this chapter the.
list of persons to whom the requirements and restrictions of this chapter apply, and it
ensures that the list of persons is consistent in the chapter.
Carriage of Goods by Sea Act

Act Apr. 16, 1936, ch. 229, 49 Stat. 1207. as amended by Pub. L. 97-31. § 12(146), Aug. 6,
1981, 95 Stat. 166, provided:
“That every bill of lading or similar document of title which is evidence of a contract for
the carriage of goods by sea to or from ports of the United States, in foreign trade, shall
have effect subject to the provisions of this Act.
"TITLE I

“Section 1. When used in this Act—
“(a) The term ‘carrier’ includes the owner or the charterer who enters into a contract of
carriage with a shipper.
77

0068

“(b) The term ‘contract of carriage’ applies only to contracts of carriage covered by a bill
of lading or any similar document of title, insofar as such document relates to the carriage
of goods by sea, including any bill of lading or any similar document as aforesaid issued
under or pursuant to a charter party from the moment at which such bill of lading or similar
document of title regulates the relations between a earner and a holder of the same.
“(c) The term ‘goods’ includes goods, wares, merchandise, and articles of every kind
whatsoever, except live animals and cargo which by the contract of carriage is stated as
being carried on deck and is so carried.
“(d) The term ‘ship’ means any vessel used for the carriage of goods by sea.
“(e) The term ‘carriage of goods’ covers the period from the time when the goods are
loaded on to the time when they are discharged from the ship.
“RISKS
“Sec. 2. Subject to the provisions of section 6, under every contract of carriage of goods by
sea, the carrier in relation to the loading, handling, stowage, carriage, custody, care, and
discharge of such goods, shall be subject to the responsibilities and liabilities and entitled to
the rights and immunities hereinafter set forth.
"RESPONSIBILITIES AND LIABILITIES

“Sec. 3.(1) The carrier shall be bound, before and at the beginning of the voyage, to
exercise due diligence to—
“(a) Make the ship seaworthy;
“(b) Properly man, equip, and supply the ship;
“(c) Make the holds, refrigerating and cooling chambers, and all other parts of the ship in
which goods are carried, fit and safe for their reception, carriage, and preservation.
“(2) The carrier shall properly and carefully load, handle, stow, carry, keep, care for, and
discharge the goods carried.
“(3) After receiving the goods into his. charge the carrier, or the master or agent of
the earner, shall, on demand of the shipper, issue to the shipper a bill of lading showing
among other things—
“(a) The leading marks necessary for identification of the goods as the same are furnished
in writing by the shipper before the loading of such goods starts, provided such marks are
stamped or otherwise shown clearly upon the goods if uncovered, or on the cases or
coverings in which such goods are contained, in such a manner as should ordinarily remain
legible until the end of the voyage.
“(b) Either the number of packages or pieces, or the quantity or weight, as the case may be,
as furnished in writing by the shipper.
“(c) The apparent order and condition of the goods: Provided, That no carrier, master, or
agent of the carrier, shall be bound to state or show in the bill of lading any marks, number,
quantity, or weight which he has reasonable ground for suspecting not accurately to
represent the goods actually received, or which he has had no reasonable means of
checking.
“(4) Such a bill of lading shall be prima facie evidence of the receipt by the carrier of the
goods as therein described in accordance with paragraphs (3)(a), (b), and (c), of this section:
Provided, That nothing in this Act shall be construed as repealing or limiting the application
of any part of the Act, as amended, entitled ‘An Act relating to bills of lading in interstate
and foreign commerce’, approved August 29, 1916 (U.S.C., title 49, secs. 81-124),
78

0069

commonly known as the ‘Pomerene Bills of Lading Act’ [now chapter 801 of Title 49,
Transportation],
“(5) The shipper shall be deemed to have guaranteed to the earner the accuracy at the time
of shipment of the marks, number, quantity, and weight, as furnished by him; and the
shipper shall indemnify the carrier against all loss, damages, and expenses arising or
resulting from inaccuracies in such particulars. The right of the carrier to such indemnity
shall in no way limit his responsibility and liability under the contract of carriage to any
person other than the shipper.
“(6) Unless notice of loss or damage and the general nature of such loss or damage be
given in writing to the carrier or his agent at the port of discharge before or at the time of
the removal of the goods into the custody of the person entitled to delivery thereof under the
contract of carriage, such removal shall be prima facie evidence of the delivery by
the carrier of the goods as described in the bill of lading. If the loss or damage is not
apparent, the notice must be given within three days of the delivery.
“Said notice of loss or damage may be endorsed upon the receipt for the goods given by the
person taking delivery thereof.
“The notice in writing need not be given if the state of the goods has at the time of their
receipt been the subject of joint survey or inspection.
“In any event the earner and the ship shall be discharged from all liability in respect of loss
or damage unless suit is brought within one year after delivery of the goods or the date
when the goods should have been delivered: Provided, That if a notice of loss or damage,
either apparent or concealed, is not given as provided for in this section, that fact shall not
affect or prejudice the right of the shipper to bring suit within one year after the delivery of
the goods or the date when the goods should have been delivered.
“In the case of any actual or apprehended loss or damage the earner and the receiver shall
give all reasonable facilities to each other for inspecting and tallying the goods.
“(7) After the goods are loaded the bill of lading to be issued by the carrier, master, or
agent of the earner to the shipper shall, if the shipper so demands, be a ‘shipped’ bill of
lading: Provided, That if the shipper shall have previously taken up any document of title to
such goods, he shall surrender the same as against the issue of the ‘shipped’ bill of lading,
but at the option of the earner such document of title may be noted at the port of shipment
by the carrier, master, or agent with the name or names of the ship or ships upon which the
goods have been shipped and the date or dates of shipment, and when so noted the same
shall for the purpose of this section be deemed to constitute a ‘shipped’ bill of lading.
“(8) Any clause, covenant, or agreement in a contract of carriage relieving the carrier or the
ship from liability for loss or damage to or in connection with the goods, arising from
negligence, fault, or failure in the duties and obligations provided in this section, or
lessening such liability otherwise than as provided in this Act, shall be null and void and of
no effect. A benefit of insurance in favor of the carrier, or similar clause, shall be deemed to
be a clause relieving the carrier from liability.
"RIGHTS AND IMMUNITIES

“Sec. 4. (1) Neither the carrier nor the ship shall be liable for loss or damage arising or
resulting from unseaworthiness unless caused by want of due diligence on the part of
the carrier to make the ship seaworthy, and to secure that the ship is properly manned,
equipped, and supplied, and to make the holds, refrigerating and cool chambers, and all
79

0070

other parts of the ship in which goods are carried fit and safe for their reception, carriage,
and preservation in accordance with the provisions of paragraph (1) of section 3. Whenever
loss or damage has resulted from unseaworthiness, the burden of proving the exercise of
due diligence shall be on the earner or other persons claiming exemption under this section.
“(2) Neither the carrier nor the ship shall be responsible for loss or damage arising or
resulting from—
“(a) Act, neglect, or default of the master, mariner, pilot, or the servants of the carrier in the
navigation or in the management of the ship;
“(b) Fire, unless caused by the actual fault or privity of the earner;
“(c) Perils, dangers, and accidents of the sea or other navigable waters;
“(d) Act of God;
“(e) Act of war;
“(f) Act of public enemies;
“(g) Arrest or restraint of princes, rulers, or people, or seizure under legal process;
t

“(h) Quarantine restrictions;
“(i) Act or omission of the shipper or owner of the goods, his agent or representative;

“(j) Strikes or lockouts or stoppage or restraint of labor from whatever cause, whether "
partial or general: Provided, That nothing herein contained shall be construed to relieve
a carrier from responsibility for the carrier’s own acts;
“(k) Riots and civil commotions;
“(1) Saving or attempting to save life or property at sea;
“(m) Wastage in bulk or weight or any other loss or damage arising from inherent defect,
quality, or vice of the goods;
t

“(n) Insufficiency of packing;
“(o) Insufficiency or inadequacy of marks;
“(p) Latent defects not discoverable by due diligence; and
“(q) Any other cause arising without the actual fault and privity of the carrier and without
the fault or neglect of the agents or servants of the carrier, but the burden of proof shall be
on the person claiming the benefit of this exception to show that neither the actual fault or
privity of the carrier nor the fault or neglect of the agents or servants of
the earner contributed to the loss or damage.
“(3) The shipper shall not be responsible for loss or damage sustained by the carrier or
the ship arising or resulting from any cause without the act, fault, or neglect of the
shipper, his agents, or his servants.
“(4) Any deviation in saving or attempting to save life or property at sea, or any reasonable
deviation shall not be deemed to be an infringement or breach of this Act or of the contract
of carriage, and the carrier shall not be liable for any loss or damage resulting therefrom:
80

0071

Provided, however, That if the deviation is for the purpose of loading or unloading cargo or
passengers it shall, prima facie, be regarded as unreasonable.
“(5) Neither the carrier nor the ship shall in any event be or become liable for any loss
or damage to or in connection with the transportation of goods in an amount
exceeding $500 per package lawful money of the United States, or in case of goods not
shipped in packages, per customary freight unit or the equivalent of that sum in other
currency, unless the nature and value of such goods have been declared by the shipper
before shipment and inserted in the bill of lading. This declaration, if embodied in the
bill of lading, shall be prima facie evidence, but shall not be conclusive on the carrier.
“By agreement between the carrier, master, or agent of the carrier, and the shipper another
maximum amount than that mentioned in this paragraph may be fixed: Provided, That such
maximum shall not be less than the figure above named. In no event shall the carrier be
liable for more than the amount of damage actually sustained.
“Neither the carrier nor the ship shall be responsible in any event for loss or damage to or in
connection with the transportation of the goods if the nature or value thereof has been
knowingly and fraudulently misstated by the shipper in the bill of lading.
“(6) Goods of an inflammable, explosive, or dangerous nature to the shipment whereof
the carrier, master or agent of the carrier, has not consented with knowledge of their nature
and character, may at any time before discharge be landed at any place or destroyed or
rendered innocuous by the carrier without compensation, and the shipper of such goods
shall be liable for all damages and expenses directly or indirectly arising out of or resulting
from such shipment. If any such goods shipped with such knowledge and consent shall
become a danger to the ship or cargo, they may in like manner be landed at any place, or
destroyed or rendered innocuous by the carrier without liability on the part of
the earner except to general average, if any.
"SURRENDER OF RIGHTS AND IMMUNITIES AND INCREASE OF RESPONSIBILITIES AND LIABILITIES

“Sec. 5. A earner shall be at liberty to surrender in whole or in part all or any of his rights
and immunities or to increase any of his responsibilities and liabilities under this Act,
provided such surrender or increase shall be embodied in the bill of lading issued to the
shipper.
“The provisions of this Act shall not be applicable to charter parties; but if bills of lading
are issued in the case of a ship under a charter party, they shall comply with the terms of
this Act. Nothing in this Act shall be held to prevent the insertion in a bill of lading of any
lawful provision regarding general average.
"SPECIAL CONDITIONS

“Sec. 6. Notwithstanding the provisions of the preceding sections, a carrier, master or agent
of the carrier, and a shipper shall, in regard to any particular goods be at liberty to enter into
any agreement in any terms as to the responsibility and liability of the carrier for such
goods, and as to the rights and immunities of the carrier in respect of such goods, or his
obligation as to seaworthiness (so far as the stipulation regarding seaworthiness is not
contrary to public policy), or the care or diligence of his servants or agents in regard to the
loading, handling, stowage, carriage, custody, care, and discharge of the goods carried
81

0072

by sea: Provided, That in this case no bill of lading has been or shall be issued and that
the terms agreed shall be embodied in a receipt which shall be a nonnegotiable
document and shall be marked as such.
“Any agreement so entered into shall have full legal effect: Provided, That this section shall
not apply to ordinary commercial shipments made in the ordinary course of trade but only
to other shipments where the character or condition of the property to be carried or the
circumstances, terms, and conditions under which the carriage is to be performed are such
as reasonably to justify a special agreement.
"[AGREEMENT AS TO RESPONSIBILITY AND LIABILITY BEFORE LOADING OR AFTER DISCHARGE]

“SEC. 7. Nothing contained in this Act shall prevent a carrier or a shipper from entering
into any agreement, stipulation, condition, reservation, or exemption as to the responsibility
and liability of the carrier or the ship for the loss or damage to or in connection with the
custody and care and handling of goods prior to the loading on and subsequent to the
discharge from the ship on which the goods are carried by sea.
"[RIGHTS AND LIABILITIES UNDER OTHER OBLIGATIONS]

“SEC. 8. The provisions of this Act shall not affect the rights and obligations of
the carrier under the provisions of the Shipping Act 1916 [former 46 U.S.C. App. 801 et
seq., see Disposition Table preceding section 101 of this title], or under the provisions of
sections 4281 to 4289, inclusive, of the Revised Statutes of the United States [see chapter
305 of this title] or of any amendments thereto; or under the provisions of any other
enactment for the time being in force relating to the limitation of the liability of the owners
of seagoing vessels.
“TITLE II
“[DISCRIMINATION BETWEEN COMPETING SHIPPERS]
“Section. 9. Nothing contained in this Act shall be construed as permitting a
common carrier bv water to discriminate between competing shippers similarly placed
in time and circumstances, either (a) with respect to their right to demand and receive
bills of lading subject to the provisions of this Act: or (b) when issuing such bills of
lading, either in the surrender of any of the carrier’s rights and immunities or in the
increase of any of the carrier’s responsibilities and liabilities pursuant to section 5,
title I, of this Act; or (c) in any other way prohibited bv the Shipping Act, 1916, as
amended [former 46 U.S.C. App, 801 et seq., see Disposition Table preceding section 101
of this title].
"[OMITTED]

“Sec. 10. [Amended section 25 of the Interstate Commerce Act (former 49 U.S.C. 25).]
“[WEIGHT OF BULK CARGO]
“Sec. 11. Where under the customs of any trade the weight of any bulk cargo inserted in
the bill of lading is a weight ascertained or accepted by a third party other than the carrier or
the shipper, and the fact that the weight is so ascertained or accepted is stated in the bill of
lading, then, notwithstanding anything in this Act, the bill of lading shall not be deemed to
be prima facie evidence against the carrier of the receipt of goods of the weight so inserted
in the bill of lading, and the accuracy thereof at the time of shipment shall not be deemed to
have been guaranteed by the shipper.
82

0073

"[RELATIONSHIP TO OTHER LAW]

“Sec. 12. Nothing in this Act shall be construed as superseding any part of the Act entitled
‘An Act relating to navigation of vessels, bills of lading, and to certain obligations, duties,
and rights in connection with the carriage of property’, approved February 13, 1893 [now
this chapter], or of any other law which would be applicable in the absence of this Act,
insofar as they relate to the duties, responsibilities, and liabilities of the ship
or carrier prior to the time when the goods are loaded on or after the time they are
discharged from the ship.
7SCOPE OF ACT; "UNITED STATES"; "FOREIGN TRADE"]

“Sec. 13. This Act shall apply to all contracts for carriage of goods by sea to or from ports
of the United States in foreign trade. As used in this Act the term ‘United States’ includes
its districts, territories, and possessions: Provided, however, That the Philippine Legislature
may by law exclude its application to transportation to or from ports of the Philippine
Islands. The term ‘foreign trade’ means the transportation of goods between the ports of the
United States and ports of foreign countries. Nothing in this Act shall be held to apply to
contracts for carriage of goods by sea between any port of the United States or its
possessions, and any other port of the United States or its possessions: Provided, however,
That any bill of lading or similar document of title which is evidence of a contract for the
carriage of goods by sea between such ports, containing an express statement that it shall be
subject to the provisions of this Act, shall be subjected hereto as fully as if subject hereto by
the express provisions of this Act: Provided further, That every bill of lading or similar
document of title which is evidence of a contract for the carriage of goods by sea from ports
of the United States, in foreign trade, shall contain a statement that it shall have effect
subject to the provisions of this Act.
“[As to proviso in second sentence that Philippine Legislature may by law exclude its
application to transportation to or from ports of the Philippine Islands, see Proc. No. 2695,
set out under section 1394 of Title 22, Foreign Relations and Intercourse, which proclaimed
the independence of the Philippines.]
"[SUSPENSION OF PROVISIONS BY PRESIDENT]

“Sec. 14. Upon the certification of the Secretary of Transportation that the foreign
commerce of the United States in its competition with that of foreign nations is prejudiced
by the provisions, or any of them, of title I of this Act, or by the laws of any foreign country
or countries relating to the carriage of goods by sea, the President of the United States may,
from time to time, by proclamation, suspend any or all provisions of said sections for such
periods of time or indefinitely as may be designated in the proclamation. The President may
at any time rescind such suspension of said sections, and any provisions thereof which may
have been suspended shall thereby be reinstated and again apply to contracts thereafter
made for the carriage of goods by sea. Any proclamation of suspension or rescission of any
such suspension shall take effect on a date named therein, which date shall be not less than
ten days from the issue of the proclamation.
“Any contract for the carriage of goods by sea, subject to the provisions of this Act,
effective during any period when title I hereof, or any part thereof, are suspended, shall be
subject to all provisions of law now or hereafter applicable to that part of title I which may
83

0074

have thus been suspended. [As amended Pub. L. 97-31, § 12(146), Aug. 6, 1981, 95 Stat
166.]
"[EFFECTIVE DATE]

“Sec. 15. This Act shall take effect ninety days after the date of its approval [April 16,
1936]; but nothing in this Act shall apply during a period not to exceed one year following
its approval to any contract for the carriage of goods by sea, made before the date on which
this Act is approved, nor to any bill of lading or similar document of title issued, whether
before or after such date of approval in pursuance of any such contract as aforesaid.
"[SHORT TITLE]

“Sec. 16. This Act may be cited as the ‘Carriage of Goods by Sea Act’.”
46 USC 30702
(a)In General.—
Except as otherwise provided, this chapter applies to a carrier engaged in the carriage of goods to or
from any port in the United States.
(b)LivE Animals.—
Sections 30703 and 30704 of this title do not apply to the carriage of live animals.
(Tub. L. 109-304. § 6(c). Oct. 6, 2006, 120 Stat. 1516.)
Notes

Subsection (a) is added based on language appearing in various source provisions restated '
in this chapter. The word “carriage” is substituted for “transporting”, and the word “goods”
is substituted for “merchandise or property”, to use the same terminology as in the Carriage
of Goods By Sea Act (Apr. 16, 1936, ch. 229, 49 Stat. 1207). The words “to or from any
port in the United States” are substituted for “from or between ports of the United States
and foreign ports” in 46 App. U.S.C. 190 and 193, “from or between ports of the United
States of America and foreign ports” in 46 App. U.S.C. 191, and “to or from any port in the
United States of America” in 46 App. U.S.C. 192, for clarity and consistency. See Knott v.
Botany Mills, 179 U.S. 69(1900).
46 USC 30703-Bill Of Lading

(a)ISSUANCE.—
On demand of a shipper, the carrier shall issue a bill of lading or shipping document.
(b)CoNTENTS.—The bill of lading or shipping document shall include a statement of—
(1) the marks necessary to identify the goods;
(2) the number of packages, or the quantity or weight, and whether it is carrier’s or
shipper’s weight; and
(3) the apparent condition of the goods.
(c)Prima Facie Evidence of Receipt.—
A bill of lading or shipping document Issued under this section is prima facie evidence
of receipt of the goods described.
Notes
In subsection (a), the words “On demand of a shipper” are added because of the reference to
a demand in 46 App. U.S.C. 194. The words “transporting merchandise or property from or
between ports of the United States and foreign ports” are omitted because of section
84

0075

30702(a) of the revised title. The word “lawful” (which modifies “merchandise”) is omitted
as unnecessary.
In subsection (b)(2), the words “or weight” are added for consistency with the requirement
to state whether it is the carrier’s or shipper’s weight.
In subsection (b)(3), the word “order” is omitted as redundant to “condition”. The words
“delivered to and received by . . . for transportation” are omitted as unnecessary.
46 USC 30704 - Loading, stowage, custody, care, and delivery

A carrier mav not insert in a bill of lading or shipping document a provision avoiding
its liability for loss or damage arising from negligence or fault in loading, stowage,
custody, care, or proper delivery. Any such provision is void.
Notes
The words “transporting merchandise or property from or between ports of the United
States and foreign ports” are omitted because of section 30702(a) of the revised title. The .
words “may not” are substituted for “It shall not be lawful . . . to”, and the word
“provision” is substituted for “clause, covenant, or agreement”, to eliminate unnecessary
words. The words “any and all lawful” and “committed to its or their charge” are omitted as
unnecessary. The words “Any such provision is void” are substituted for “Any and all
words or clauses of such import inserted in bills of lading or shipping receipts shall be null
and void and of no effect” to eliminate unnecessary words.
46 USC 30705.Seaworthiness

(a) Prohibition.—A carrier may not insert in a bill of lading or shipping document a
provision lessening or avoiding its obligation to exercise due diligence to—
(1) make the vessel seaworthy; and
(2) properly man, equip, and supply the vessel.
(b) Voidness.— A provision described in subsection (a) is void.
(Pub. L. 109-304. $ 6(c). Oct. 6, 2006, 120 Stat. 1516.1
46 USC 30706 - Defenses

(a)Due Diligence.—
If a earner has exercised due diligence to make the vessel in all respects seaworthy and to
properly man, equip, and supply the vessel, the carrier and the vessel are not liable for loss
or damage arising from an error in the navigation or management of the vessel.
(b) Other Defenses.—A carrier and the vessel are not liable for loss or damage arising
from—
(1) dangers of the sea or other navigable waters;
(2) acts of God;
(3) public enemies;
(4) seizure under legal process:
(5) inherent defect, quality, or vice of the goods;
(6) insufficiency of package;
(7) act or omission of the shipper or owner of the goods or their agent: or
85

0076

(8) saving or attempting to save life or property at sea, including a deviation in rendering
such a service.
Notes
This section is restated as two subsections to clarify that the exercise of due diligence in
making the vessel seaworthy is a condition only to the defense of error in navigation or
management restated in subsection (a). See May v. Hamburg-Amerikanische Packetfahrt
Aktiengesellschaft (The Isis), 290 U.S. 333, 353 (1933). The words “transporting
merchandise or property to or from any port in the United States of America” are omitted
because of section 30702(a) of the revised title.
46 USC 30707 - Criminal penalty

(a) In General.—
A carrier that violates this chapter shall be fined under title 18.
(b)Lien.—
The amount of the fine and costs for the violation constitute a lien on the vessel engaged in
the carriage. A civil action in rem to enforce the lien may be brought in the district court of
the United States for any district in which the vessel is found.
(c) Disposition of Fine.—
Half of the fine shall go to the person injured by the violation and half to the United States
Government.
In subsection (a), the words “and who refuses to issue on demand the bill of lading herein
provided for” are omitted as unnecessary. The words “shall be fined under title 18” are
substituted for “shall be liable to a fine not exceeding $2,000” because of chapter 227 of
title 18.
In subsection (b), the words “A civil action in rem to enforce the lien may be brought in the
district court of the United States for any district in which the vessel is found” are
substituted for “such vessel may be libeled therefor in any district court of the United
States” for clarity and to modernize the language.
Notes
This section is restated as two subsections to clarify that the exercise of due diligence in
making the vessel seaworthy is a condition only to the defense of error in navigation or
management restated in subsection (a). See May v. Hamburg-Amerikanische Packetfahrt
Aktiengesellschaft (The Isis), 290 U.S. 333, 353 (1933). The words “transporting
merchandise or property to or from any port in the United States of America” are omitted
because of section 30702(a) of the revised title.
46 USC 40301 - U.S. Code - Unannotated Title 46. Shipping § 40301. Application

(a) Ocean common carrier agreements. —This part applies to an agreement between or
among ocean common carriers to—
(1) discuss, fix, or regulate transportation rates, including through rates, cargo space
accommodations, and other conditions of service;
(2) pool or apportion traffic, revenues, earnings, or losses;
(3) allot ports or regulate the number and character of voyages between ports;
(4) regulate the volume or character of cargo or passenger traffic to be carried;
(5) engage in an exclusive, preferential, or cooperative working airangement between
themselves or with a marine terminal operator;
86

0077

(6) control, regulate, or prevent competition in international ocean transportation; or
(7) discuss and agree on any matter related to a service contract.
(b) Marine terminal operator agreements. —This part applies to an agreement between or
among marine terminal operators, or between or among one or more marine terminal
operators and one or more ocean common carriers, to—
(1) discuss, fix, or regulate rates or other conditions of service; or
(2) engage in exclusive, preferential, or cooperative working arrangements, to the
extent the agreement involves ocean transportation in the foreign commerce of the
United States.
(c) Acquisitions. —This part does not apply to an acquisition by any person, directly or
indirectly, of any voting security or assets of any other person.
(d) Maritime labor agreements. —This part does not apply to a maritime labor agreement.
However, this subsection does not exempt from this part any rate, charge, regulation, or
practice of a common carrier that is required to be set forth in a tariff or is an essential term
of a service contract, whether or not the rate, charge, regulation, or practice arises out of, or
is otherwise related to, a maritime labor agreement.
(e) Assessment agreements. —This part (except sections 40305 and 40307(a)) does not
apply to an assessment agreement.
Title 18 - Crime
18 USC 1341 - Frauds & Swindles - mail Fraud

Whoever, having devised or intending to devise any scheme or artifice to defraud, or for
obtaining money or property by means of false or fraudulent pretenses, representations, or
promises, or to sell, dispose of, loan, exchange, alter, give away, distribute, supply, or
furnish or procure for unlawful use any counterfeit or spurious coin, obligation, security, or
other article, or anything represented to be or intimated or held out to be such counterfeit or
spurious article, for the purpose of executing such scheme or artifice or attempting so to do,
places in any post office or authorized depository for mail matter, any matter or thing
whatever to be sent or delivered by the Postal Service, or deposits or causes to be deposited
any matter or thing whatever to be sent or delivered by any private or commercial interstate
carrier, or takes or receives therefrom, any such matter or thing, or knowingly causes to be
delivered by mail or such carrier according to the direction thereon, or at the place at which
it is directed to be delivered by the person to whom it is addressed, any such matter or thing,
shall be fined under this title or imprisoned not more than 20 years, or both. If the violation
occurs in relation to, or involving any benefit authorized, transported, transmitted,
transferred, disbursed, or paid in connection with, a presidentially declared major disaster or
emergency (as those terms are defined in section 102 of the Robert T. Stafford Disaster
Relief and Emergency Assistance Act (42 U.S.C. 5122)), or affects a financial institution,
such person shall be fined not more than $1,000,000 or imprisoned not more than 30 years,
or both.
18 USC 1342 - Fictitious Name or Address
Whoever, for the purpose of conducting, promoting, or carrying on by means of the Postal
Service, any scheme or device mentioned in section 1341 of this title or any other unlawful
business, uses or assumes, or requests to be addressed by, any fictitious, false, or assumed
title, name, or address or name other than his own proper name, or takes or receives from
any post office or authorized depository of mail matter, any letter, postal card, package, or
87

0078

other mail matter addressed to any such fictitious, false, or assumed title, name, or address,
or name other than his own proper name, shall be fined under this title or imprisoned not
more than five years, or both.
18 USC 1343 - Fraud by wire, radio, or television

Whoever, having devised or intending to devise any scheme or artifice to defraud, or for
obtaining money or property by means of false or fraudulent pretenses, representations, or
promises, transmits or causes to be transmitted by means of wire, radio, or television
communication in interstate or foreign commerce, any writings, signs, signals, pictures, or
sounds for the purpose of executing such scheme or artifice, shall be fined under this title or
imprisoned not more than 20 years, or both.
18 USC 1344 - Bank fraud

Whoever knowingly executes, or attempts to execute, a scheme or artifice—
1. to defraud a financial institution; or
2. to obtain any of the moneys, funds, credits, assets, securities, or other property owned
by, or under the custody or control of, a financial institution, by means of false or
fraudulent pretenses, representations, or promises;
shall be fined not more than $1,000,000 or imprisoned not more than 30 years, or both.
18 USC 1346 - Definition of "scheme or artifice to defraud

For the purposes of this chapter, the term “scheme or artifice to defraud” includes a scheme
or artifice to deprive another of the intangible right of honest services.
18 USC 1951 - Interference with commerce by threats or violence

:

(a) Whoever in any way or degree obstructs, delays, or affects commerce or the
movement of any article or commodity in commerce, by robbery or extortion or
attempts or conspires so to do, or commits or threatens physical violence to any person or'
property in furtherance of a plan or purpose to do anything in violation of this section shall
be fined under this title or imprisoned not more than twenty years, or both.
(b)As used in this section—
(1) The term “robbery” means the unlawful taking or obtaining of personal property from
the person or in the presence of another, against his will, by means of actual or threatened
force, or violence, or fear of injury, immediate or future, to his person or property, or
property in his custody or possession, or the person or property of a relative or member of
his family or of anyone in his company at the time of the taking or obtaining.
(2) The term “extortion” means the obtaining of property from another, with his
consent, induced by wrongful use of actual or threatened force, violence, or fear, or
under color of official right.
(3) The term “commerce” means commerce within the District of Columbia, or any
Territory or Possession of the United States; all commerce between any point in a State,
Territory, Possession, or the District of Columbia and any point outside thereof;

88

0079

t
£

all commerce between points within the same State through any place outside such State;
and all other commerce over which the United States has jurisdiction.
18 USC 1952 - Interstate and foreign travel or transportation in aid of racketeering
enterprises

(a) Whoever travels in interstate or foreign commerce or uses the mail or any facility in
interstate or foreign commerce, with intent to—
(1) distribute the proceeds of any unlawful activity; or
(2) commit any crime of violence to further any unlawful activity; or
(3) otherwise promote, manage, establish, carry on, or facilitate the promotion,,
management, establishment, or carrying on, of any unlawful activity,
and thereafter performs or attempts to perform—
an act described in paragraph (1) or (3) shall be fined under this title,
(A)
imprisoned not more than 5 years, or both; or
(B) an act described in paragraph (2) shall be fined under this title, imprisoned for not more
than 20 years, or both, and if death results shall be imprisoned for any term of years or for
life.
(b) As used in this section (i) “unlawful activity” means (1) any business enterprise
involving gambling, liquor on which the Federal excise tax has not been paid, narcotics or
controlled substances (as defined in section 102(6) of the Controlled Substances Act), or
prostitution offenses in violation of the laws of the State in which they are committed or of
the United States, (2) extortion, bribery, or arson in violation of the laws of the State in
which committed or of the United States, or (3) any act which is indictable under
subchapter 11 of chapter 53 of title 31, United States Code, or under section 1956 or 1957 of
this title and (ii) the term “State” includes a State of the United States, the District of
Columbia, and any commonwealth, territory, or possession of the United States.
(c) In vestigations of violations under this section involving liquor shall be conducted under
the supervision of the Attorney General .
(d) If the offense under this section involves an act described in paragraph (1) or (3) of
subsection (a) and also involves a pre-retail medical product (as defined in section 670), the
punishment for the offense shall be the same as the punishment for an offense under section
670 unless the punishment under subsection (a) is greater.
18 USC 1957 - Engaging in monetary transactions in property derived from
specified unlawful activity

(a) Whoever, in any of the circumstances set forth in subsection (d), knowingly engages or
attempts to engage in a monetary transaction in criminally derived property of a value
greater than $10,000 and is derived from specified unlawful activity, shall be punished
as provided in subsection (b).
(b) (1) Except as provided in paragraph (2), the punishment for an offense under this section
is a fine under title 18, United States Code, or imprisonment for not more than ten years or
both. If the offense involves a pre-retail medical product (as defined in section 670) the
punishment for the offense shall be the same as the punishment for an offense under section
670 unless the punishment under this subsection is greater.
89

0080

(2) The court may impose an alternate fine to that imposable under paragraph (1) of not
more than twice the amount of the criminally derived property involved in the transaction.
(c)In a prosecution for an offense under this section, the Government is not required to
prove the defendant knew that the offense from which the criminally derived property was
derived was specified unlawful activity.
(d)The circumstances referred to in subsection (a) are—
(l)that the offense under this section takes place in the United States or in the special
maritime and territorial jurisdiction of the United States; or
f2)that the offense under this section takes place outside the United States and such
special jurisdiction, but the defendant is a United States person (as defined in section
3077 of this title, but excluding the class described in paragraph (2)(D) of such
section).
(e) Violations of this section may be investigated by such components of the Department of
Justice as the Attorney General may direct, and by such components of the Department of
the Treasury as the Secretary of the Treasury may direct, as appropriate, and, with respect to
offenses over which the Department of Homeland Security has jurisdiction, by such
components of the Department of Homeland Security as the Secretary of Homeland
Security may direct, and, with respect to offenses over which the United States Postal
Service has jurisdiction, by the Postal Service. Such authority of the Secretary of the
Treasury, the Secretary of Homeland Security, and the Postal Service shall be exercised in ~
accordance with an agreement which shall be entered into by the Secretary of the Treasury, ^
the Secretary of Homeland Security, the Postal Service, and the Attorney General.
(f)As used in this section—
(1) the term “monetary transaction” means the deposit, withdrawal, transfer, or
exchange, in or affecting interstate or foreign commerce, of funds or a monetary
instrument (as defined in section 1956(c)(5) of this title) by, through, or to a financial
institution (as defined in section 1956 of this title), including any transaction that
would be a financial transaction under section 1956(c)(4)(B) of this title, but such term
does not include any transaction necessary to preserve a person’s right to
representation as guaranteed by the sixth amendment to the Constitution;
(2)the term “criminally derived property” means any property constituting, or
derived from, proceeds obtained from a criminal offense; and
(3) the terms “specified unlawful activity” and “proceeds” shall have the meaning
given those terms in section 1956 of this title.
18 USC 659 - Interstate or foreign shipments by carrier; State prosecutions

Whoever embezzles, steals, or unlawfully takes, carries away, or conceals, or by fraud
or deception obtains from any pipeline system, railroad car, wagon, motortruck, trailer,
or other vehicle, or from any tank or storage facility, station, station house, platform or
depot or from any steamboat, vessel, or wharf, or from any aircraft, air cargo container,
air terminal, airport, aircraft terminal or air navigation facility, or from any intermodal
container, trailer, container freight station, warehouse, or freight consolidation
facility, with intent to convert to his own use any goods or chattels moving as or which
are a part of or which constitute an interstate or foreign shipment of freight, express.
90

0081

or other property; or Whoever buys or receives or has in his possession any such
goods or chattels, knowing the same to have been embezzled or stolen; or
Whoever embezzles, steals, or unlawfully takes, carries away, or by fraud or deception
obtains with intent to convert to his own use any baggage which shall have come into the
possession of any common carrier for transportation in interstate or foreign commerce or
breaks into, steals, takes, carries away, or conceals any of the contents of such baggage, or
buys, receives, or has in his possession any such baggage or any article therefrom of
whatever nature, knowing the same to have been embezzled or stolen; or
Whoever embezzles, steals, or unlawfully takes by any fraudulent device, scheme, or game,
from any railroad car, bus, vehicle, steamboat, vessel, or aircraft operated by any common
carrier moving in interstate or foreign commerce or from any passenger thereon any money,
baggage, goods, or chattels, or whoever buys, receives, or has in his possession any such
money, baggage, goods, or chattels, knowing the same to have been embezzled or
stolen—Shall be fined under this title or imprisoned not more than 10 years, or both,
but if the amount or value of such money, baggage, goods, or chattels is less than $ 1,000,
shall be fined under this title or imprisoned for not more than 3 years, or both. If the offense
involves a pre-retail medical product (as defined in section 670), it shall be punished under
section 670 unless the penalties provided for under this section are greater.
The offense shall be deemed to have been committed not only in the district where the
violation first occurred, but also in any district in which the defendant may have taken or
been in possession of the said money, baggage, goods, or chattels.
The carrying or transporting of any such money, freight, express, baggage, goods, or
chattels in interstate or foreign commerce, knowing the same to have been stolen, shall
constitute a separate offense and subject the offender to the penalties under this section for
unlawful taking, and the offense shall be deemed to have been committed in any district
into which such money, freight, express, baggage, goods, or chattels shall have been
removed or into which the same shall have been brought by such offender.
To establish the interstate or foreign commerce character of any shipment in any
prosecution under this section the waybill or other shipping document of such shipment
shall be prima facie evidence of the place from which and to which such shipment was
made. For purposes of this section, goods and chattel shall be construed to be moving as an
interstate or foreign shipment at all points between the point of origin and the final
destination (as evidenced by the waybill or other shipping document of the shipment),
regardless of any temporary stop while awaiting transshipment or otherwise. The removal
of property from a pipeline system which extends interstate shall be prima facie evidence of
the interstate character of the shipment of the property.
A judgment of conviction or acquittal on the merits under the laws of any State shall be a
bar to any prosecution under this section for the same act or acts. Nothing contained in this
section shall be construed as indicating an intent on the part of Congress to occupy the field
in which provisions of this section operate to the exclusion of State laws on the same
subject matter, nor shall any provision of this section be construed as invalidating any
provision of State law unless such provision is inconsistent with any of the purposes of this
section or any provision thereof.
18 U.S. Code § 660.Carrier’s funds derived from commerce; State prosecutions
91

0082

Whoever, being a president, director, officer, or manager of any firm, association, or
corporation engaged in commerce as a common carrier, or whoever, being an employee of
such common carrier riding in or upon any railroad car, motortruck, steamboat, vessel,
aircraft or other vehicle of such carrier moving in interstate commerce, embezzles, steals,
abstracts, or willfully misapplies, or willfully permits to be misapplied, any of the moneys,
funds, credits, securities, property, or assets of such firm, association, or corporation arising
or accming from, or used in, such commerce, in whole or in part, or willfully or knowingly
converts the same to his own use or to the use of another, shall be fined under this title or
imprisoned not more than ten years, or both.
The offense shall be deemed to have been committed not only in the district where the
violation first occurred but also in any district in which the defendant may have taken or
had possession of such moneys, funds, credits, securities, property or assets.
A judgment of conviction or acquittal on the merits under the laws of any State shall be a
bar to any prosecution hereunder for the same act or acts.
18 USC 2314 - Transportation of stolen goods, securities, moneys, fraudulent State
tax stamps, or articles used in counterfeiting

Whoever transports, transmits, or transfers in interstate or foreign commerce any goods,
wares, merchandise, securities or money, of the value of $5,000 or more, knowing the same
to have been stolen, converted or taken by fraud; or
Whoever, having devised or intending to devise any scheme or artifice to defraud, or for
obtaining money or property by means of false or fraudulent pretenses, representations, or
promises, transports or causes to be transported, or induces any person or persons to travel
in, or to be transported in interstate or foreign commerce in the execution or concealment of
a scheme or artifice to defraud that person or those persons of money or property having
a value of $5,000 or more; or
Whoever, with unlawful or fraudulent intent, transports in interstate or foreign commerce
any falsely made, forged, altered, or counterfeited securities or tax stamps, knowing the
same to have been falsely made, forged, altered, or counterfeited; or
Whoever, with unlawful or fraudulent intent, transports in interstate or foreign commerce
any traveler’s check bearing a forged countersignature; or
Whoever, with unlawful or fraudulent intent, transports in interstate or foreign commerce,
any tool, implement, or thing used or fitted to be used in falsely making, forging, altering,
or counterfeiting any security or tax stamps, or any part thereof; or
Whoever transports, transmits, or transfers in interstate or foreign commerce any veterans’
memorial object, knowing the same to have been stolen, converted or taken by fraud—
Shall be fined under this title or imprisoned not more than ten years, or both. If the offense
involves a pre-retail medical product (as defined in section 670) the punishment for the
offense shall be the same as the punishment for an offense under section 670 unless the
punishment under this section is greater. If the offense involves the transportation,
transmission, or transfer in interstate or foreign commerce of veterans’ memorial
objects with a value, in the aggregate, of less than $ 1,000, the defendant shall be fined
under this title or imprisoned not more than one year, or both.
This section shall not apply to any falsely made, forged, altered, counterfeited or spurious
representation of an obligation or other security of the United States, or of an obligation,
92

0083

■f

bond, certificate, security, treasury note, bill, promise to pay or bank note issued by any
foreign government. This section also shall not apply to any falsely made, forged, altered,
counterfeited, or spurious representation of any bank note or bill issued by a bank or
corporation of any foreign country which is intended by the laws or usage of such country
to circulate as money.
For purposes of this section the term “veterans’ memorial object” means a grave marker,
headstone, monument, or other object, intended to permanently honor a veteran or mark a
veteran’s grave, or any monument that signifies an event of national military historical
significance.
18 USC 2315 - Sale or receipt of stolen goods, securities, moneys, or fraudulent
State tax stamps

Whoever receives, possesses, conceals, stores, barters, sells, or disposes of any goods,
wares, or merchandise, securities, or money of the value of $5,000 or more, or pledges or
accepts as security for a loan any goods, wares, or merchandise, or securities, of
the value of $500 or more, which have crossed a State or United States boundary after
being stolen, unlawfully converted, or taken, knowing the same to have been stolen,
unlawfully converted, or taken; or
Whoever receives, possesses, conceals, stores, barters, sells, or disposes of any falsely
made, forged, altered, or counterfeited securities or tax stamps, or pledges or accepts as
security for a loan any falsely made, forged, altered, or counterfeited securities or tax
stamps, moving as, or which are a part of, or which constitute interstate or foreign
commerce, knowing the same to have been so falsely made, forged, altered, or
counterfeited; or
Whoever receives in interstate or foreign commerce, or conceals, stores2 barters, sells, or
disposes of, any tool, implement, or thing used or intended to be used in falsely making,
forging, altering, or counterfeiting any security or tax stamp, or any part thereof, moving as,
or which is a part of, or which constitutes interstate or foreign commerce, knowing that the
same is fitted to be used, or has been used, in falsely making, forging, altering, or
counterfeiting any security or tax stamp, or any part thereof; or
‘Whoever £1] receives, possesses, conceals, stores, barters, sells, or disposes of
any veterans’ memorial object which has crossed a State or United States boundary after
being stolen, unlawfully converted, or taken, knowing the same to have been stolen,
unlawfully converted, or taken—’ [1]
Shall be fined under this title or imprisoned not more than ten years, or both. If the
offense involves a pre-retail medical product (as defined in section 670) the punishment for
the offense shall be the same as the punishment for an offense under section 670 unless the
punishment under this section is greater. If the offense involves the receipt, possession,
concealment, storage, barter, sale, or disposal of veterans’ memorial objects with a value, in
the aggregate, of less than $1,000, the defendant shall be fined under this title or imprisoned
not more than one year, or both.
For purposes of this section, the term “State” includes a State of the United States, the
District of Columbia, and any commonwealth, territory, or possession of the United States.
For purposes of this section the term “veterans’ memorial object” means a grave marker,
93

0084

headstone, monument, or other object, intended to permanently honor a veteran or mark a
veteran’s grave, or any monument that signifies an event of national military historical
significance.
Racketeering influenced Corrupt Organizations Act
18 USC 1961 - Definitions

As used in this chapter—
(l)“racketeering activity” means (A) any act or threat involving murder, kidnapping,
gambling, arson, robbery, bribery, extortion, dealing in obscene matter, or dealing in a
controlled substance or listed chemical (as defined in section 102 of the Controlled
Substances Act), which is chargeable under State law and punishable by imprisonment for
more than one year; (B) any act which is indictable under any of the following provisions of
title 18, United States Code: Section 201 (relating to bribery), section 224 (relating to sports
bribery), sections 471, 472, and 473 (relating to counterfeiting), section 659 (relating to
theft from interstate shipment) if the act indictable under section 659 is felonious, section
664 (relating to embezzlement from pension and welfare funds), sections 891-894 (relating
to extortionate credit transactions), section 1028 (relating to fraud and related activity in
connection with identification documents), section 1029 (relating to fraud and related
activity in connection with access devices), section 1084 (relating to the transmission of
gambling information), section 1341 (relating to mail fraud), section 1343 (relating to
wire fraud), section 1344 (relating to financial institution fraud), section 1351 (relating
to fraud in foreign labor contracting), section 1425 (relating to the procurement of
citizenship or nationalization unlawfully), section 1426 (relating to the reproduction of
naturalization or citizenship papers), section 1427 (relating to the sale of naturalization or
citizenship papers), sections 1461-1465 (relating to obscene matter), section 1503 (relating
to obstruction of justice), section 1510 (relating to obstruction of criminal investigations),
section 1511 (relating to the obstruction of State or local law enforcement), section 1512
(relating to tampering with a witness, victim, or an informant),_section 1513 (relating to
retaliating against a witness, victim, or an informant), section 1542 (relating to false
statement in application and use of passport), section 1543 (relating to forgery or false use
of passport), section 1544 (relating to misuse of passport), section 1546 (relating to fraud
and misuse of visas, permits, and other documents), sections 1581-1592 (relating to
peonage, slavery, and trafficking in personsVJll sections 1831 and 1832 (relating to
economic espionage and theft of trade secrets), section 1951 (relating to interference with
commerce, robbery, or extortion), section 1952 (relating to racketeering), section 1953
(relating to interstate transportation of wagering paraphernalia), section 1954 (relating to
unlawful welfare fund payments), section 1955 (relating to the prohibition of illegal
gambling businesses), section 1956 (relating to the laundering of monetary instruments),
section 1957 (relating to engaging in monetary transactions in property derived from
specified unlawful activity), section 1958 (relating to use of interstate commerce facilities
94

0085

U.

in the commission of murder-for-hire), section 1960 (relating to illegal money transmitters),
sections 2251, 2251A, 2252, and 2260 (relating to sexual exploitation of children), sections
2312 and 2313 (relating to interstate transportation of stolen motor vehicles), sections 2314
and (relating to interstate transportation of stolen property), section 2318 (relating to
trafficking in counterfeit labels for phonorecords, computer programs or computer program
documentation or packaging and copies of motion pictures or other audiovisual works),
section 2319 (relating to criminal infringement of a copyright), section 2319A (relating to
unauthorized fixation of and trafficking in sound recordings and music videos of live
musical performances), section 2320 (relating to trafficking in goods or services bearing
counterfeit marks), section 2321 (relating to trafficking in certain motor vehicles or motor
vehicle parts), sections 2341-2346 (relating to trafficking in contraband cigarettes), sections
2421-24 (relating to white slave traffic), sections 175-178 (relating to biological weapons),
sections 229-229F (relating to chemical weapons), section 831 (relating to nuclear
materials), (C) any act which is indictable under title 29, United States Code, section 186
(dealing with restrictions on payments and loans to labor organizations) or section 501(c)
(relating to embezzlement from union funds), (D) any offense involving fraud connected
with a case under title 11 (except a case under section 157 of this title!, fraud in the sale of
securities, or the felonious manufacture, importation, receiving, concealment, buying,
selling, or otherwise dealing in a controlled substance or listed chemical (as defined in
section 102 of the Controlled Substances Act), punishable under any law of the
United States, (E) any act which is indictable under the Currency and Foreign Transactions
Reporting Act, (F) any act which is indictable under the Immigration and Nationality Act,
section 274 (relating to bringing in and harboring certain aliens), section 277 (relating to
aiding or assisting certain aliens to enter the United States), or section 278 (relating to
importation of alien for immoral purpose) if the act indictable under such section of such
Act was committed for the purpose of financial gain, or (G) any act that is indictable under
any provision listed in section 2332b(g)(5)(B);
(2) “State” means any State of the United States, the District of Columbia, the .
Commonwealth of Puerto Rico, any territory or possession of the United States, any
political subdivision, or any department, agency, or instrumentality thereof;
(3) “person” includes any individual or entity capable of holding a legal or beneficial
interest in property;
(4) “enterprise” includes any individual, partnership, corporation, association, or other legal
entity, and any union or group of individuals associated in fact although not a legal
entity;
(5) “pattern of racketeering activity” requires at least two acts of racketeering activity,
one of which occurred after the effective date of this chapter and the last of which
occurred within ten years (excluding any period of imprisonment) after the commission
of a prior act of racketeering activity;

95

0086

(6) “unlawful debt” means a debt (A) incurred or contracted in gambling activity which was
in violation of the law of the United States, a State or political subdivision thereof, or which
is unenforceable under State or Federal law in whole or in part as to principal or interest
because of the laws relating to usury, and (B) which was incurred in connection with the
business of gambling in violation of the law of the United States, a State or political
subdivision thereof, or the business of lending money or a thing of value at a rate usurious
under State or Federal law, where the usurious rate is at least twice the enforceable rate;
(7) “racketeering investigator” means any attorney or investigator so designated by
the Attorney General and charged with the duty of enforcing or carrying into effect this
chapter;
(8) “racketeering investigation” means any inquiry conducted by any racketeering
investigator for the purpose of ascertaining whether any person has been involved in any
violation of this chapter or of any final order, judgment, or decree of any court of the
United States, duly entered in any case or proceeding arising under this chapter;
(9) “documentary material” includes any book, paper, document, record, recording, or other
material; and
(10) “Attorney General” includes the Attorney General of the United States, the
Deputy Attorney General of the United States, the Associate Attorney General of the
United States, any Assistant Attorney General of the United States, or any employee of
the Department of Justice or any employee of any department or agency of the
United States so designated by the Attorney General to carry out the powers conferred on
the Attorney General by this chapter. Any department or agency so designated may use in
investigations authorized by this chapter either the investigative provisions of this chapter
or the investigative power of such department or agency otherwise conferred by law.
18 USC 1962 - Prohibited Activities

(a) It shall be unlawful for any person who has received any income derived, directly or
indirectly, from a pattern of racketeering activity or through collection of an unlawful
debt in which such person has participated as a principal within the meaning of section 2,
title 18, United States Code, to use or invest, directly or indirectly, any part of such income,
or the proceeds of such income, in acquisition of any interest in, or the establishment or
operation of, any enterprise which is engaged in, or the activities of which affect, interstate
or foreign commerce. A purchase of securities on the open market for purposes of
investment, and without the intention of controlling or participating in the control of the
issuer, or of assisting another to do so, shall not be unlawful under this subsection if the
securities of the issuer held by the purchaser, the members of his immediate family, and his
or their accomplices in any pattern or racketeering activity or the collection of anunlawful
debt after such purchase do not amount in the aggregate to one percent of the outstanding
securities of any one class, and do not confer, either in law or in fact, the power to elect one
or more directors of the issuer.
96

0087

(b) It shall be unlawful for any person through a pattern of racketeering activity or through
collection of an unlawful debt to acquire or maintain, directly or indirectly, any interest in
or control of any enterprise which is engaged in, or the activities of which affect, interstate
or foreign commerce.
(c) It shall be unlawful for any person employed by or associated with
any enterprise engaged in, or the activities of which affect, interstate or foreign commerce,
to conduct or participate, directly or indirectly, in the conduct of such enterprise’s affairs
through a pattern of racketeering activity or collection of unlawful debt.
(d) It shall be unlawful for any person to conspire to violate any of the provisions of
subsection (a), (b), or (c) of this section.
18 USC 1963 - Criminal Penalties

(a)Whoever violates any provision of section 1962 of this chapter shall be fined under this
title or imprisoned not more than 20 years (or for life if the violation is based on
a racketeering activity for which the maximum penalty includes life imprisonment), or both,
and shall forfeit to the United States, irrespective of any provision of State law—
(1) any interest the person has acquired or maintained in violation of section 1962;
(2)any—
(A) interest in;
(B) security of;
(C) claim against; or
(D) property or contractual right of any kind affording a source of influence over;
any enterprise which the person has established, operated, controlled, conducted, or
participated in the conduct of, in violation of section 1962; and
(3) any property constituting, or derived from, any proceeds which the person obtained,
directly or indirectly, from racketeering activity or unlawful debt collection in violation of
section 1962.
The court, in imposing sentence on such person shall order, in addition to any other
sentence imposed pursuant to this section, that the person forfeit to the United States all
property described in this subsection. In lieu of a fine otherwise authorized by this section, a
defendant who derives profits or other proceeds from an offense may be fined not more
than twice the gross profits or other proceeds.
(b) Property subject to criminal forfeiture under this section includes—
(1) real property, including things growing on, affixed to, and found in land; and
(2) tangible and intangible personal property, including rights, privileges, interests, claims,
and securities.
(c) All right, title, and interest in property described in subsection (a) vests in the
United States upon the commission of the act giving rise to forfeiture under this section.
Any such property that is subsequently transferred to a person other than the defendant may
be the subject of a special verdict of forfeiture and thereafter shall be ordered forfeited to
97

0088

the United States, unless the transferee establishes in a hearing pursuant to subsection (1)
that he is a bona fide purchaser for value of such property who at the time of purchase was
reasonably without cause to believe that the property was subject to forfeiture under this
section.
(d) (l)Upon application of the United States, the court may enter a restraining order or
injunction, require the execution of a satisfactory performance bond, or take any other
action to preserve the availability of property described in subsection (a) for forfeiture
under this section—
(A) upon the filing of an indictment or information charging a violation of section 1962 of
this chapter and alleging that the property with respect to which the order is sought would,
in the event of conviction, be subject to forfeiture under this section; or
(B) prior to the filing of such an indictment or information, if, after notice
to persons appearing to have an interest in the property and opportunity for a hearing, the
court determines that—
(i) there is a substantial probability that the United States will prevail on the issue of
forfeiture and that failure to enter the order will result in the property being destroyed,
removed from the jurisdiction of the court, or otherwise made unavailable for forfeiture;
and
(ii) the need to preserve the availability of the property through the entry of the requested
order outweighs the hardship on any party against whom the order is to be entered:
Provided, however, That an order entered pursuant to subparagraph (B) shall be effective
for not more than ninety days, unless extended by the court for good cause shown or unless
an indictment or information described in subparagraph (A) has been filed.
(2) A temporary restraining order under this subsection may be entered upon application of
the United States without notice or opportunity for a hearing when an information or
indictment has not yet been filed with respect to the property, if the
United States demonstrates that there is probable cause to believe that the property with
respect to which the order is sought would, in the event of conviction, be subject to
forfeiture under this section and that provision of notice will jeopardize the availability of
the property for forfeiture. Such a temporary order shall expire not more than fourteen days
after the date on which it is entered, unless extended for good cause shown or unless the
party against whom it is entered consents to an extension for a longer period. A hearing
requested concerning an order entered under this paragraph shall be held at the earliest
possible time, and prior to the expiration of the temporary order.
(3) The court may receive and consider, at a hearing held pursuant to this subsection,
evidence and information that would be inadmissible under the Federal Rules of Evidence,
(e) Upon conviction of a person under this section, the court shall enter a judgment of
forfeiture of the property to the United States and shall also authorize the Attorney
General to seize all property ordered forfeited upon such terms and conditions as the court
shall deem proper. Following the entry of an order declaring the property forfeited, the
98

0089

court may, upon application of the United States, enter such appropriate restraining orders
or injunctions, require the execution of satisfactory performance bonds, appoint receivers,
conservators, appraisers, accountants, or trustees, or take any other action to protect the
interest of the United States in the property ordered forfeited. Any income accruing to, or
derived from, an enterprise or an interest in an enterprise which has been ordered forfeited
under this section may be used to offset ordinary and necessary expenses to
the enteiprise which are required by law, or which are necessary to protect the interests of
the United States or third parties.
(f) Following the seizure of property ordered forfeited under this section, the Attorney
General shall direct the disposition of the property by sale or any other commercially
feasible means, making due provision for the rights of any innocent persons. Any property
right or interest not exercisable by, or transferable for value to, the United States shall
expire and shall not revert to the defendant, nor shall the defendant or any person acting in
concert with or on behalf of the defendant be eligible to purchase forfeited property at any
sale held by the United States. Upon application of a person, other than the defendant or
a person acting in concert with or on behalf of the defendant, the court may restrain or stay
the sale or disposition of the property pending the conclusion of any appeal of the criminal
case giving rise to the forfeiture, if the applicant demonstrates that proceeding with the sale
or disposition of the property will result in irreparable injury, harm or loss to him.
Notwithstanding 31 U.S.C. 3302(b), the proceeds of any sale or other disposition of
property forfeited under this section and any moneys forfeited shall be used to pay all
proper expenses for the forfeiture and the sale, including expenses of seizure, maintenance
and custody of the property pending its disposition, advertising and court costs.
The Attorney General shall deposit in the Treasury any amounts of such proceeds or
moneys remaining after the payment of such expenses.
(g) With respect to property ordered forfeited under this section, the Attorney General is
authorized to—
(1) grant petitions for mitigation or remission of forfeiture, restore forfeited property to
victims of a violation of this chapter, or take any other action to protect the rights of
innocent persons which is in the interest of justice and which is not inconsistent with the
provisions of this chapter;
(2) compromise claims arising under this section;
(3) award compensation to persons providing information resulting in a forfeiture under this
section;
•
(4) direct the disposition by the United States of all property ordered forfeited under this
section by public sale or any other commercially feasible means, making due provision for
the rights of innocent persons; and
(5) take appropriate measures necessary to safeguard arid maintain property ordered •
forfeited under this section pending its disposition.
(h)The Attorney General may promulgate regulations with respect to—
99

0090

(1) making reasonable efforts to provide notice to persons who may have an interest in
property ordered forfeited under this section;
(2) granting petitions for remission or mitigation of forfeiture;
(3) the restitution of property to victims of an offense petitioning for remission or mitigation
of forfeiture under this chapter;
(4) the disposition by the United States of forfeited property by public sale or other
commercially feasible means;
(5) the maintenance and safekeeping of any property forfeited under this section pending its
disposition; and
(6) the compromise of claims arising under this chapter.
Pending the promulgation of such regulations, all provisions of law relating to the
disposition of property, or the proceeds from the sale thereof, or the remission or mitigation
of forfeitures for violation of the customs laws, and the compromise of claims and the
award of compensation to informers in respect of such forfeitures shall apply to forfeitures
incurred, or alleged to have been incurred, under the provisions of this section, insofar as
applicable and not inconsistent with the provisions hereof. Such duties as are imposed upon
the Customs Service or any person with respect to the disposition of property under the
customs law shall be performed under this chapter by the Attorney General.
(i) Except as provided in subsection (1), no party claiming an interest in property subject to
►
forfeiture under this section may—
(1) intervene in a trial or appeal of a criminal case involving the forfeiture of such property
under this section; or .
(2) commence an action at law or equity against the United States concerning the validity of
his alleged interest in the property subsequent to the filing of an indictment or information
alleging that the property is subject to forfeiture under this section. .
(j) The district courts of the United States shall have jurisdiction to enter orders as provided
in this section without regard to the location of any property which may be subject to
forfeiture under this section or which has been ordered forfeited under this section.
(k) In order to facilitate the identification or location of property declared forfeited and to
facilitate the disposition of petitions for remission or mitigation of forfeiture, after the entry
of an order declaring property forfeited to the United States the court may, upon application
of the United States, order that the testimony of any witness relating to the property
forfeited be taken by deposition and that any designated book, paper, document, record,
recording, or other material not privileged be produced at the same time and place, in the
same manner as provided for the taking of depositions under Rule 15 of the Federal Rules
of Criminal Procedure.
(1) (1)
Following the entry of an order of forfeiture under this section, the United States shall
publish notice of the order and of its intent to dispose of the property in such manner as
the Attorney General may direct. The Government may also, to the extent practicable,
100

0091

provide direct written notice to any person known to have alleged an interest in the property
that is the subject of the order of forfeiture as a substitute for published notice as to
those persons so notified.
(2) Any person, other than the defendant, asserting a legal interest in property which has
been ordered forfeited to the United States pursuant to this section may, within thirty days
of the final publication of notice or his receipt of notice under paragraph (1), whichever is
earlier, petition the court for a hearing to adjudicate the validity of his alleged interest in the
property. The hearing shall be held before the court alone, without a jury.
(3) The petition shall be signed by the petitioner under penalty of perjury and shall set forth
the nature and extent of the petitioner’s right, title, or interest in the property, the time and
circumstances of the petitioner’s acquisition of the right, title, or interest in the property,
any additional facts supporting the petitioner’s claim, and the relief sought.
(4) The hearing on the petition shall, to the extent practicable and consistent with the
interests of justice, be held within thirty days of the filing of the petition. The court may
consolidate the hearing on the petition with a hearing on any other petition filed by
a person other than the defendant under this subsection.
(5) At the hearing, the petitioner may testify and present evidence and witnesses on his own
behalf, and cross-examine witnesses who appear at the hearing. The United States may
present evidence and witnesses in rebuttal and in defense of its claim to the property and
cross-examine witnesses who appear at the hearing. In addition to testimony and evidence
presented at the hearing, the court shall consider the relevant portions of the record of the
criminal case which resulted in the order of forfeiture.
(6)If, after the hearing, the court determines that the petitioner has established by a
preponderance of the evidence that—
(A) the petitioner has a legal right, title, or interest in the property, and such right, title, or
interest renders the order of forfeiture invalid in whole or in part because the right, title, or
interest was vested in the petitioner rather than the defendant or was superior to any right,
title, or interest of the defendant at the time of the commission of the acts which gave rise to
the forfeiture of the property under this section; or
(B) the petitioner is a bona fide purchaser for value of the right, title, or interest in the
property and was at the time of purchase reasonably without cause to believe that the
property was subject to forfeiture under this section;
the court shall amend the order of forfeiture in accordance with its determination.
(7) Following the court’s disposition of all petitions filed under this subsection, or if no
such petitions are filed following the expiration of the period provided in paragraph (2) for
the filing of such petitions, the United States shall have clear title to property that is the
subject of the order of forfeiture and may warrant good title to any subsequent purchaser or
transferee.
(m)If any of the property described in subsection (a), as a result of any act or omission of
the defendant—
101

0092

(1) cannot be located upon the exercise of due diligence;
(2) has been transferred or sold to, or deposited with, a third party;
(3) has been placed beyond the jurisdiction of the court;
(4) has been substantially diminished in value; or
(5) has been commingled with other property which cannot be divided without difficulty;
the court shall order the forfeiture of any other property of the defendant up to the value of
any property described in paragraphs (1) through (5).
18 USC 1964 - Civil Remedies
(a)The district courts of the United States shall have jurisdiction to prevent and restrain
violations of section 1962 of this chapter by issuing appropriate orders, including, but not
limited to: ordering any person to divest himself of any interest, direct or indirect, in
any enterprise; imposing reasonable restrictions on the future activities or investments of
any person, including, but not limited to, prohibiting any person from engaging in the same
type of endeavor as the enterprise engaged in, the activities of which affect interstate or
foreign commerce; or ordering dissolution or reorganization of any enterprise, making due
provision for the rights of innocent persons.
(b) The Attorney General may institute proceedings under this section. Pending final
determination thereof, the court may at any time enter such restraining orders or
prohibitions, or take such other actions, including the acceptance of satisfactory
performance bonds, as it shall deem proper.
(c) Any person injured in his business or property by reason of a violation of section 1962
of this chapter may sue therefor in any appropriate United States district court and shall
recover threefold the damages he sustains and the cost of the suit, including a reasonable
attorney’s fee, except that no person may rely upon any conduct that would have been
actionable as fraud in the purchase or sale of securities to establish a violation of section
1962. The exception contained in the preceding sentence does not apply to an action against
any person that is criminally convicted in connection with the fraud, in which case the
statute of limitations shall start to run on the date on which the conviction becomes final.
(d) A final judgment or decree rendered in favor of the United States in any criminal
proceeding brought by the United States under this chapter shall estop the defendant from
denying the essential allegations of the criminal offense in any subsequent civil proceeding
brought by the United States.
18 USC 1965 - Venue
(a) Any civil action or proceeding under this chapter against any person may be instituted in
the district court of the United States for any district in which such person resides, is found,
has an agent, or transacts his affairs.
(b) In any action under section 1964 of this chapter in any district court of the
United States in which it is shown that the ends of justice require that other parties residing
102

0093

in any other district be brought before the court, the court may cause such parties to be
summoned, and process for that purpose may be served in any judicial district of the
United States by the marshal thereof.
(c) In any civil or criminal action or proceeding instituted by the United States under this
chapter in the district court of the United States for any judicial district, subpenas issued by
such court to compel the attendance of witnesses may be served in any other judicial
district, except that in any civil action or proceeding no such subpena shall be issued for
service upon any individual who resides in another district at a place more than one hundred
miles from the place at which such court is held without approval given by a judge of such
court upon a showing of good cause.
(d) All. other process in any action or proceeding under this chapter may be served on
any person in any judicial district in which such person resides, is found, has an agent, or
transacts his affairs.
18 U.S. Code § 1503.1nfluencing or injuring officer or juror generally
(a) Whoever corruptly, or by threats or force, or by any threatening letter or
communication, endeavors to influence, intimidate, or impede any grand or petit juror, or
officer in or of any court of the United States, or officer who may be serving at any
examination or other proceeding before any United States magistrate judge or other
committing magistrate, in the discharge of his duty, or injures any such grand or petit juror
in his person or property on account of any verdict or indictment assented to by him, or on
account of his being or having been such juror, or injures any such officer, magistrate judge,
or other committing magistrate in his person or property on account of the performance of
his official duties, or corruptly or by threats or force, or by any threatening letter or
communication, influences, obstructs, or impedes, or endeavors to influence, obstruct,
or impede, the due administration of justice, shall be punished as provided in
subsection (b). If the offense under this section occurs in connection with a trial of a
criminal case, and the act in violation of this section involves the threat of physical force or
physical force, the maximum term of imprisonment which may be imposed for the offense
shall be the higher of that otherwise provided by law or the maximum tenn that could have
been imposed for any offense charged in such case.
(b)The punishment for an offense under this section is—
(1) in the case of a killing, the punishment provided in sections 1111 and 1112;
(2) in the case of an attempted killing, or a case in which the offense was committed against
a petit juror and in which a class A or B felony was charged, imprisonment for not more
than 20 years, a fine under this title, or both; and
(3) in any other case, imprisonment for not more than 10 years, a fine under this title, or
both.
Deprivation Of Civil Rights
42 U.S. Code § 1981.Equal rights under the law

(a)Statement of equal rights
All persons within the jurisdiction of the United States shall have the same right in every
State and Territory to make and enforce contracts, to sue, be parties, give evidence, and to
the full and equal benefit of all laws and proceedings for the security of persons and
103

0094

property as is enjoyed by white citizens, and shall be subject to like punishment, pains,
penalties, taxes, licenses, and exactions of every kind, and to no other.
(b)“Make and enforce contracts” defined
For purposes of this section, the term “make and enforce contracts” includes the making,
performance, modification, and termination of contracts, and the enjoyment of all benefits,
privileges, terms, and conditions of the contractual relationship.
(c) Protection against impairment
The rights protected by this section are protected against impairment by nongovernmental
discrimination and impairment under color of State law.
42 U.S. Code § 1982.Property rights of citizens

All citizens of the United States shall have the same right, in every State and Territory, as is
enjoyed by white citizens thereof to inherit, purchase, lease, sell, hold, and convey real and
personal property.
42 U.S. Code § 1983.Civil action for deprivation of rights

Every person who, under color of any statute, ordinance, regulation, custom, or usage, of
any State or Territory or the District of Columbia, subjects, or causes to be subjected, any
citizen of the United States or other person within the jurisdiction thereof to the deprivation
of any rights, privileges, or immunities secured by the Constitution and laws, shall be liable
to the party injured in an action at law, suit in equity, or other proper proceeding for redress,
except that in any action brought against a judicial officer for an act or omission taken in
such officer’s judicial capacity, injunctive relief shall not be granted unless a declaratory
decree was violated or declaratory relief was unavailable. For the purposes of this section,
any Act of Congress applicable exclusively to the District of Columbia shall be considered
to be a statute of the District of Columbia.
“
42 U.S. Code § 1985.Conspiracy to interfere with civil rights

(1) Preventing officer from performing duties
If two or more persons in any State or Territory conspire to prevent, by force, intimidation,
or threat, any person from accepting or holding any office, trust, or place of confidence
under the United States, or from discharging any duties thereof; or to induce by like means
any officer of the United States to leave any State, district, or place, where his duties as an
officer are required to be performed, or to injure him in his person or property on account of
his lawful discharge of the duties of his office, or while engaged in the lawful discharge
thereof, or to injure his property so as to molest, interrupt, hinder, or impede him in the
discharge of his official duties;
(2) Obstructing justice; intimidating party, witness, or juror
If two or more persons in any State or Territory conspire to deter, by force, intimidation, or
threat, any party or witness in any court of the United States from attending such court, or
from testifying to any matter pending therein, freely, fully, and truthfully, or to injure such
party or witness in his person or property on account of his having so attended or testified,
or to influence the verdict, presentment, or indictment of any grand or petit juror in any
such court, or to injure such juror in his person or property on account of any verdict,
presentment, or indictment lawfully assented to by him, or of his being or having been such
104

0095

juror; or if two or more persons conspire for the purpose of impeding, hindering,
obstructing, or defeating, in any manner, the due course of justice in any State or Territory,
with intent to deny to any citizen the equal protection of the laws, or to injure him or his
property for lawfully enforcing, or attempting to enforce, the right of any person, or class of
persons, to the equal protection of the laws;
(3)Depriving persons of rights or privileges
If two or more persons in any State or Territory conspire or go in disguise on the highway
or on the premises of another, for the purpose of depriving, either directly or indirectly, any
person or class of persons of the equal protection of the laws, or of equal privileges and
immunities under the laws; or for the purpose of preventing or hindering the constituted
authorities of any State or Territory from giving or securing to all persons within such State
or Territory the equal protection of the laws; or if two or more persons conspire to prevent
by force, intimidation, or threat, any citizen who is lawfully entitled to vote, from giving his
support or advocacy in a legal manner, toward or in favor of the election of any lawfully
qualified person as an elector for President or Vice President, or as a Member
of Congress of the United States; or to injure any citizen in person or property on account of
such support or advocacy; in any case of conspiracy set forth in this section, if one or more
persons engaged therein do, or cause to be done, any act in furtherance of the object of such
conspiracy, whereby another is injured in his person or property, or deprived of having and
exercising any right or privilege of a citizen of the United States, the party so injured or
deprived may have an action for the recovery of damages occasioned by such injury or
deprivation, against any one or more of the conspirators.
42 U.S. Code § 1985.Conspiracy to interfere with civil rights

(1) Preventing officer from performing duties
If two or more persons in any State or Territory conspire to prevent, by force, intimidation,
or threat, any person from accepting or holding any office, trust, or place of confidence
under the United States, or from discharging any duties thereof; or to induce by like means
any officer of the United States to leave any State, district, or place, where his duties as an
officer are required to be performed, or to injure him in his person or property on account of
his lawful discharge of the duties of his office, or while engaged in the lawful discharge
thereof, or to injure his property so as to molest, interrupt, hinder, or impede him in the
discharge of his official duties;
(2) Obstructing justice; intimidating party, witness, or juror
If two or more persons in any State or Territory conspire to deter, by force, intimidation, or
threat, any party or witness in any court of the United States from attending such court, or
from testifying to any matter pending therein, freely, fully, and truthfully, or to injure such
party or witness in his person or property on account of his having so attended or testified,
or to influence the verdict, presentment, or indictment of any grand or petit juror in any
such court, or to injure such juror in his person or property on account of any verdict,
presentment, or indictment lawfully assented to by him, or of his being or having been such
juror; or if two or more persons conspire for the purpose of impeding, hindering,
obstructing, or defeating, in any manner, the due course of justice in any State or Territory,
with intent to deny to any citizen the equal protection of the laws, or to injure him or his
property for lawfully enforcing, or attempting to enforce, the right of any person, or class of
persons, to the equal protection of the laws;
105

0096

(3)Depriving persons of rights or privileges
If two or more persons in any State or Territory conspire or go in disguise on the highway
or on the premises of another, for the purpose of depriving, either directly or indirectly, any
person or class of persons of the equal protection of the laws, or of equal privileges and
immunities under the laws; or for the purpose of preventing or hindering the constituted
authorities of any State or Territory from giving or securing to all persons within such State
or Territory the equal protection of the laws; or if two or more persons conspire to prevent
by force, intimidation, or threat, any citizen who is lawfully entitled to vote, from giving his
support or advocacy in a legal manner, toward or in favor of the election of any lawfully
qualified person as an elector for President or Vice President, or as a Member
of Congress of the United States; or to injure any citizen in person or property on account of
such support or advocacy; in any case of conspiracy set forth in this section, if one or more
persons engaged therein do, or cause to be done, any act in furtherance of the object of such
conspiracy, whereby another is injured in his person or property, or deprived of having and
exercising any right or privilege of a citizen of the United States, the party so injured or
deprived may have an action for the recovery of damages occasioned by such injury or
deprivation, against any one or more of the conspirators.
42 U.S. Code § 1986.Action for neglect to prevent

Every person who, having knowledge that any of the wrongs conspired to be done, and
mentioned in section 1985 of this title, are about to be committed, and having power to
prevent or aid in preventing the commission of the same, neglects or refuses so tcrdo, if
such wrongful act be committed, shall be liable to the party injured, or his legal “
representatives, for all damages caused by such wrongful act, which such person by
reasonable diligence could have prevented; and such damages may be recovered in an action on the case; and any number of persons guilty of such wrongful neglect or refusal
may be joined as defendants in the action; and if the death of any party be causedby any
such wrongful act and neglect, the legal representatives of the deceased shall have such
action therefor, and may recover not exceeding $5,000 damages therein, for the benefit of
the widow of the deceased, if there be one, and if there be no widow, then for the benefit of
the next of kin of the deceased. But no action under the provisions of this section shall be
sustained which is not commenced within one year after the cause of action has accrued.
Foreign State Immunity Law (FSIA)
28 USC 1602 - Findings and declaration of purpose
The Congress finds that the determination by United States courts of the claims of foreign states to
immunity from the jurisdiction of such courts would serve the interests of justice and would protect the
rights of both foreign states and litigants in United States courts. Under international law, states are not
immune from the jurisdiction of foreign courts insofar as their commercial activities are concerned, and
their commercial property may be levied upon for the satisfaction of judgments rendered against them in
connection with their commercial activities. Claims of foreign states to immunity should henceforth be
decided by courts of the United States and of the States in conformity with the principles set forth in this
chapter.
28 USC 1603 - Definitions

For purposes of this chapter-

106

0097

- .

(a) A “foreign state”, except as used in section 1608 of this title, includes a political
subdivision of a foreign state or an agency or instrumentality of a foreign state as defined in
subsection (b).
(b) An “agency or instrumentality of a foreign state” means any entity—
(1) which is a separate legal person, corporate or otherwise, and
(2) which is an organ of a foreign state or political subdivision thereof, or a majority of
whose shares or other ownership interest is owned by a foreign state or political subdivision
thereof, and
(3) which is neither a citizen of a State of the United States as defined in section 1332 (c)
and (e) of this title, nor created under the laws of any third country.
(c) The “United States” includes all territory and waters, continental or insular, subject to the
jurisdiction of the United States.
(d) A “commercial activity” means either a regular course of commercial conduct or a
particular commercial transaction or act. The commercial character of an activity shall be
determined by reference to the nature of the course of conduct or particular transaction or
act, rather than by reference to its purpose.
(e) A “commercial activity carried on in the United States by a foreign state”
means commercial activity carried on by such state and having substantial contact with
the United States.
28 USC 1605 - General exceptions to the jurisdictional immunity of a foreign state

(a)(2) - commercial activity carried on in the United States or an act performed in the
United States in connection with a commercial activity elsewhere, or an act in
connection with a commercial activity of a foreign state elsewhere that causes a direct
effect in the United States;
(a)(3) - property taken in violation of international law is at issue;
(a)(5) - money damages are sought against a foreign state for personal injury or death, or
damage to or loss of property, occurring in the United States and caused by the
tortious act or omission of that foreign state;
28 USC 1606 - Extent of liability

As to any claim for relief with respect to which a foreign state is not entitled to immunity
under section 1605 or 1607 of this chapter, the foreign state shall be liable in the same
manner and to the same extent as a private individual under like circumstances; but a
foreign state except for an agency or instrumentality thereof shall not be liable for punitive
damages; if, however, in any case wherein death was caused, the law of the place where the
action or omission occurred provides, or has been construed to provide, for damages only
punitive in nature, the foreign state shall be liable for actual or compensatory damages
measured by the pecuniary injuries resulting from such death which were incurred by the
persons for whose benefit the action was brought.

107

0098

US Constitution
US Constitution - First Amendment

Congress shall make no law respecting an establishment of religion,or prohibiting the free
exercise thereof; or abridging the freedom of speech,or of the press; or the right of the
people peaceably to assemble,and to petition the government for a redress of grievances.
US Constitution' - Seventh Amendment

In suits at common law, where the value in controversy shall exceed twenty dollars, the
right of trial by jury shall be preserved, and no fact tried by a jury, shall be otherwise
reexamined in any Court of the United States, than according to the rules of the common
law.
US Constitution - Eighth Amendment

Excessive bail shall not be required,nor excessive fines imposed,nor cruel and unusual
punishments inflicted.
US Constitution - Fourteenth Amendment

Section 1.
All persons bom or naturalized in the United States, and subject to the jurisdiction thereof,
are citizens of the United States and of the state wherein they reside. No state shall make
or enforce any law which shall abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its jurisdiction the equal
protection of the laws.
Section 5.
The Congress shall have power to enforce, by appropriate legislation, the provisions of this * .
article.
:
/r
1

Californian Constitution - Article I - Declaration of Rights - Sec 16.

Trial bv jury is an inviolate right and shall be secured to all.but in a civil cause threefourths of the jury may render a verdict. A jury may be waived in a criminal cause by the
consent of both parties expressed in open court by the defendant and the defendant’s
counsel.In a civil cause a jury may be waived by the consent of the parties expressed as
prescribed by statute.
Cal Civ Procedure 631 (a) - Right To Jury Trial

The right to a trial bv jury as declared bv Section 16 of Article I of the California
Constitution shall be preserved to the parties inviolate. In civil cases,a jury may only be
waived pursuant to subdivision (f).

108

0099

FEDERAL RULES OF CIVIL PROCEDURES
Rule 8. General Rules of Pleading

(a) Claim for Relief. A pleading that, states a claim for relief must contain:
(1) a short and plain statement of the grounds for the court's jurisdiction, unless the court
already has jurisdiction and the claim needs no new jurisdictional support;
(2) a short and plain statement of the claim showing that the pleader is entitled to relief; and
(3) a demand for the relief sought, which may include relief in the alternative or different
types of relief.
(b) Defenses; Admissions and Denials.
(1) In General. In responding to a pleading, a party must:
(A) state in short and plain terms its defenses to each claim asserted against it; and ;..
(B) admit or deny the allegations asserted against it by an opposing party.
(2) Denials—Responding to the Substance. A denial must fairly respond to the substance of
the allegation.
(3) General and Specific Denials. A party that intends in good faith to deny all the
allegations of a pleading—including the jurisdictional grounds—may do so by a general
denial. A party that does not intend to deny all the allegations must either specifically deny
designated allegations or generally deny all except those specifically admitted.
(4) Denying Part of an Allegation. A party that intends in good faith to deny only part of an
allegation must admit the part that is true and deny the rest.
(5) Lacking Knowledge or Information. A party that lacks knowledge or information
sufficient to form a belief about the truth of an allegation must so state, and the statement
has the effect of a denial.
.
(6) Effect of Failing to Deny. An allegation—other than one relating to the amount of
damages—is admitted if a responsive pleading is required and the allegation is not denied.
If a responsive pleading is not required, an allegation is considered denied or avoided.
(c) Affirmative Defenses.
(1) In General. In responding to a pleading, a party must affirmatively state any avoidance
or affirmative defense, including: •
.
,
• accord and satisfaction;
. •
■ .
• arbitration and award;
• assumption of risk;
:
.
• contributory negligence;
,
.
.
• duress;
• .
'
.
v • estoppel;
• failure of consideration;
109

0100

• fraud;
• illegality;
• injury by fellow servant;
• laches;
• license;
• payment;
• release;
• res judicata;
• statute of frauds;
• statute of limitations; and
• Waiver.
(2) Mistaken Designation. If a party mistakenly designates a defense as a counterclaim, or a
counterclaim as a defense, the court must, if justice requires, treat the pleading as though it
were correctly designated, and may impose terms for doing so.
(d) Pleading to Be Concise and Direct; Alternative Statements; Inconsistency.
(1) In General. Each allegation must be simple, concise, and direct. No technical form is
required.
(2) Alternative Statements of a Claim or Defense. A party may set out 2 or more statements
of a claim or defense alternatively or hypothetically, either in a single count or defense or in
separate ones. If a party makes alternative statements, the pleading is sufficient if any one •
'i.
a
of them is sufficient.
(3) Inconsistent Claims or Defenses. A party may state as many separate claims or defenses ■as it has, regardless of consistency.
(el Construing Pleadings. Pleadings must be construed so as to do justice.

.. 1*

Rule 9. Pleading Special Matters

.

&

(a) Capacity or Authority to Sue; Legal Existence.
(1) In General. Except when required to show that the court has jurisdiction, a pleading
need not allege:
■ •
.
(A) a party's capacity to sue or be sued;
(B) a party's authority to sue or be sued in a representative capacity; or
(C) the legal existence of an organized association of persons that is made a party.
(2) Raising Those Issues. To raise any of those issues, a party must do so by a specific
denial, which must state any supporting facts that are peculiarly within the party's
knowledge.
.
•
(b) Fraud or Mistake; Conditions of Mind. In alleging fraud or mistake, a party must state
with particularity the circumstances constituting fraud or mistake. Malice, intent,
knowledge, and other conditions of a person's mind may be alleged generally.
(c) Conditions Precedent. In pleading conditions precedent, it suffices to allege generally
that all conditions precedent have occurred or been performed. But when denying that a
condition precedent has occurred or been performed, a party must do so with particularity.
(d) Official Document or Act. In pleading an official document or official act, it suffices to
allege that the document was legally issued or the act legally done.

110

0101

-

(e) Judgment. In pleading a judgment or decision of a domestic or foreign court, a judicial
or quasi-judicial tribunal, or a board or officer, it suffices to plead the judgment or decision
without showing jurisdiction to render it.
(f) Time and Place. An allegation of time or place is material when testing the sufficiency
of a pleading.
(g) Special Damages. If an item of special damage is claimed, it must be specifically stated.
(h) Admiralty or Maritime Claim.
(1) How Designated. If a claim for relief is within the admiralty or maritime jurisdiction and
also within the court's subject-matter jurisdiction on some other ground, the pleading may
designate the claim as an admiralty or maritime claim for purposes of Rules 14(c). 38(e).
and 82 and the Supplemental Rules for Admiralty or Maritime Claims and Asset Forfeiture
Actions. A claim cognizable only in the admiralty or maritime jurisdiction is an admiralty
or maritime claim for those purposes, whether or not so designated.
(2) Designation for Appeal. A case that includes an admiralty or maritime claim within this
subdivision (h) is an admiralty case within 28 U.S.C. $1292(a)(3).

i

111

0102

;

■•u

112

A

0103

L

APPENDIX E - OPINION FROM OTHER COURTS

:

*

r

113

0104

Opinions on Rights Of Pro Se Litigants

“A judge cannot allow the personal view that the allegations of a pro se complaint are
implausible to temper his duty to appraise such pleadings liberally.” Citing, Cruz
v.Skelton,the Court went onto say that,“a § 1983 complaint should not be dismissed unless
it appears that the plaintiff can prove no set of facts which would entitle him to
relief.rConley v.Gibson. 1957,355 U.S.41,78 S.Ct.99,2 L.Ed.2d 801
The allegations of the complaint,especially a pro se complaint,must be read in a liberal
fashion.Haines v.Kemer, 1972,404 U.S.519,92 S.Ct.594,30 L.Ed.2d 652; Cruz
v.Beto, 1972,405 U.S.319,92 S.Ct.1079,31 L.Ed.2d 263,and they must be accepted as true in
testing their sufficiency,Haines v.Kemer,supra,Cmz v.Beto,supra.543 F.2d 86,88 (5th
Cir. 1976),cert.denied,433 U.S.911,97 S.Ct.2980,53 L.Ed.2d 1096 (1977).See also Taylor
v.Gibson,529 F.2d 709,714 (5th Cir.1976); Goff v.Jones,500 F.2d 395,397 (5th Cir.1974);
Reed v.Jones,483 F.2d 77,78 (5th Cir.1973Vl.rS/aym v Curry.574 F.2d 1256 (5th
Cir. 1978)] [Petition,p. 16,17,34]
A motion to dismiss for failure to state a claim upon which relief may be granted should not
be sustained unless (1) the allegations of the complaint disclose with certainty that the
claimant would not be entitled to relief under any state of provable facts asserted in support
thereof,and (2) the movant establishes that the claimant could not possibly introduce
evidence within the framework of the complaint sufficient to warrant a grant of the relief
sought.In deciding a motion to dismiss,all pleadings are to be constmed most favorably to
the party who filed them,and all doubts regarding such pleadings must be resolved in the
filing party's favor[Bakhtiarneiad v.Cox Enterprises,247 Ga.App.205,207-208(1),541
S.E,2d 33 (2000), cited in Nicholson v.Windham,571 S.E.ld 466,257 Ga.App.429/
Opinions On Crime Against United States
"To conspire to defraud the United States means primarily to cheat the government out of
property or money,but it also means to interfere with or obstmct one of its lawful
governmental functions by deceit,craft or trickery,or at least by means that are
dishonest."[Hammerschmidt v.United States,265 U.S.182 (1924)].[Petition,p.21]“collective
criminal agreement—[a]partnership in crime—presents a greater potential threat to the
public than individual delicts.Concerted action both increases the likelihood that the
criminal object will be successfully attained and decreases the probability that the
individuals involved will depart from their path of criminality.” [Iannelli v.United States,420
U.S.770,778 (1975),quoting Callanan v.United States,364 U.S.587,593-94 (1961)]
• • • “[g]rouP association for criminal purposes often,if not normally,makes possible the
attainment of ends more complex than those which one criminal could accomplish.Nor is
the danger of a conspiratorial group limited to the particular end toward which it has
embarked.”[Id].. ..Finally/‘[combination in crime makes more likely the commission of
crimes unrelated to the original purpose for which the group was formed.’Un sum,“the
danger which a conspiracy generates is not confined to the substantive offense which is the
immediate aim of the enterprise [Id] Congress intended §1346 to reach at least bribes and
kickbacks [(Skilling v.United States,561 U.S.358 (2010)]
Opinions On Void Judgments
Federal Courts have addressed void state court judgments in [Kalb v.Feuerstein(l940) 308
US 433,60 S Ct 343,84 L ed 370; Ex parte Rowland(1882) 104 U.S.604,26 L.Ed.861]; there

114

0105

is no time limit to attack void Judgments. [Eggl v.Fleetguard,Inc., 1998 ND 166,583 N. W.2d
812].
"a void act cannot be ratified." In re Garcia,105 B.R.335 (N.D.I11.1989)
A court may not render a judgment which transcends the limits of its authority,and a
judgment is void if it is beyond the powers granted to the court by the law of its
organization,even where the court has jurisdiction over the parties and the subject
matter.Thus,if a court is authorized by statute to entertain jurisdiction in a particular case
only,and undertakes to exercise the jurisdiction conferred in a case to which the statute has
no application,the judgment rendered is void. The lack of statutory authority to make
particular order or a judgment is akin to lack of subject matter jurisdiction and is subject to
collateral attack. [46 Am.Jur.2d,Judgments A§ 25,pp.388-89].
A void judgment is to be distinguished from an erroneous one,in that the latter is subject
only to direct attack. A void judgment is one which,from its inception,was a complete nullity
and without legal effect.[Lubben v.Selective Service System,453 F.2d 645,649 (1st
Cir. 1972)]
A void judgment is not entitled to the respect accorded a valid adjudication,but may be
entirely disregarded,or declared inoperative by any tribunal in which effect is sought to be
given to it.lt is attended by none of the consequences of a valid adjudication.lt has no legal
or binding force or efficacy for any purpose or at any place....It is not entitled to
enforcement ...All proceedings founded on the void judgment are themselves regarded as
invalid.30A Am Jur Judgments ** 44,45
"A void judgment does not create any binding obligation.Federal decisions addressing void
state court judgments include Kalb v.Feuerstein (1940) 308 US 433.60 S Ct 343,84 L ed
370: Ex parte Rowland (1882) 104 U.S.604.26 L.Ed.861
"A judgment which is void upon its face,and which requires only an inspection of the
judgment roll to demonstrate its wants of vitality is a dead limb upon the judicial tree,which
should be lopped off,if the power to do so exists/* [People v.Greene,71 Cal.l00[16
Pac.197,5 Am.St.Rep.4481.
"If a court grants relief,which under the circumstances it hasn't any authority to grant,its
judgment is to that extent void." (lFreeman on Judgments, 120c.)]An illegal order is forever
void.
"The burden shifts to the court to prove jurisdiction. "[Rosemond v.Lambert,469 F 2d
416] "Court must prove on the record,all jurisdiction facts related to the jurisdiction
asserted."[Latana v.Hopper,102 F.2d 188; Chicago v.New York 37 F Supp. 150]"Once
challenged,jurisdiction cannot be assumed,it must be proved to exist." Stuck v.Medical
Examiners 94 Ca 2d 751.211 P2d 3 89. "Either a judgment is valid or it is void,and the court
must act accordingly once the issue is resolved." In re Marriage of Hampshire,261
Kan.854,862,934 P.2d 58 (1997), "A judgment is void if the court acted in a manner
inconsistent with due process.A void judgment is a nullity and may be vacated at any time."
261 Kan.at 862.There is no time limit for attacking a void judgment under
N.D.R.Civ.P.60(b)(iv).Eggl v.Fleetguard,Inc.,1998 ND 166,583 N.W.2d 812
A judgment may not be rendered in violation of constitutional protections.The validity of a
judgment may be affected by a failure to give the constitutionally required due process
notice and an opportunity to be heard. [Earle v.McVeigh,91 US 503,23 L Ed 398.See also
Restatements.Judgments * 4(b).Prather vLovd,86 Idaho 45,382 P2d 910.1
115

0106

A void judgment is not entitled to the respect accorded a valid adjudication,but may be
entirely disregarded,or declared inoperative by any tribunal in which effect is sought to be
given to it.lt is attended by none of the consequences of a valid adjudication.lt has no legal
or binding force or efficacy for any purpose or at any place....It is not entitled to
enforcement ...All proceedings founded on the void judgment are themselves regarded as
invalid.[30A Am Jur Judgments " 44,45]
An order made in clear absence of the Court,or that exceeds the jurisdiction of the court,is
void, or voidable, and can be attacked in any proceeding in any court where the validity of
the judgment comes into issue.{See Rose v.Himelv (1808) 4 Cranch 241,2 L ed 608;
Pennoyer v.Neff (1877) 95 US 714,24 L ed 565; Thompson v. Whitman (1873) 18 Wall
457,211 ED 897: Windsor v.McVeizh (1876) 93 US 274.23 L ed 914: McDonald v.Mabee
(1917) 243 US 90.37Set 343,61 L ed 608.
"It is well settled that a judgment or order which is void on its face,and which requires only
an inspection of the judgment-roll or record to show its invalidity,may be set aside on
motion,at any time after its entry,by the court which rendered the judgment or made the
order." (In re Dahnke,64 Cal.App.555,560[222 P.381]; Hayashi v.Loranz,42 Cal.2d
848,851 [271 P.2d 18]; Jonson v.Weinstein,249 Cal.App.2d 954,957-958[58 Cal.Rptr.32];
Hendrix v.Hendrix,130 Cal.App.2d 379,383[279 P.2d 58].).
Portion of judgment directing defendant not to import vehicles without first obtaining
approval ...was not appropriately limited in duration and,thus,district court abused its
discretion by not vacating it as being prospectively inequitable." Id at
722.[U.S.v.Holtzman,762 F.2d 720 (9th Cir.1985)]
Opinions On Civil Rights Violation

Every person is entitled to an opportunity to be heard in a court of law upon every question
involving his rights or interests,before he is affected by any judicial decision on the
question.ffi'flr/e v McVeigh,91 US 503,23 L Ed 3981
It is a fundamental doctrine of law that a party to be affected by a personal judgment must
have his day in court,and an opportunity to be heard.IRenaud v.Abbott,116 US 277,29 L
Ed 629.6 S Ct 11941
“Counsel and her clients have a right to present issues that are arguably correct,even if it is
extremely unlikely that they will win ....[A claim]that is simply without merit is not by
definition frivolous and should not incur sanctions.Counsel should not be deterred from
filing such[claims]out of a fear of reprisals.'” (California Teachers Assn.v.State of
California (1999) 20 Cal.4th 327,340,975 P.2d 622,84 Cal.Rptr.2d 425,quoting In re
Marriage of Flaherty (1982) 31 Cal.3d 637,650,183 Cal.Rptr.508,646 P.2d 179.)
it is inappropriate to deprive defendants of their substantive rights merely because those
rights are inconvenient in light of the litigation posture plaintiffs have chosen.(See City of
San Jose v.Superior Court (1974) 12 Cal.3d 447,4621115 Cal.Rptr.797,525 P.2d 701,76
A.L.R.3d 12231cited in Granberry v.Islay Investments(1984)161 C.A.3d382,388 ;avoid
absurd resultl;
“[procedural due process rules are meant to protect persons not from the deprivation,but
from the mistaken or unjustified deprivation of life,liberty,or property.” Carey v.Piphus,435
U.S.247,259 (1978).“[P]rocedural due process rules are shaped by the risk of error inherent
in the truthfinding process as applied to the generality of cases.” [Mathews v.Eldridge,424
U.S.319,344 (1976)]
116

0107

The required elements of due process are those that “minimize substantively unfair or
mistaken deprivations” by enabling persons to contest the basis upon which a state proposes
to deprive them of protected interests. [Fuentes v.Shevin,407 U.S.67,81 (1972)]. The core of
these requirements is notice and a hearing before an impartial tribunal.Due process may
also require an opportunity for confrontation and cross-examination,and for discovery; that
a decision be made based on the record,and that a party be allowed to be represented by
counsel.The limitations inherent in the requirements of due process and equal protection of
the law extend to judicial as well as political branches of government,so that a judgment
may not be rendered in violation of those constitutional limitations and guarantees.[Hanson
v Denckla.357 US 235,2 L Ed 2d 1283,78 S Ct 12281
Judicial power is never exercised for the purpose of giving effect to the will of the Judge;
always for the purpose of giving effect to the will of the Legislature; or,in other words,to
the will of the law.'TOsborn et al.v.The Bank of the United State (1824.U.S.) 9
Wheat.738.866.1
Protection against excessive fines has been a constant shield throughout Anglo-American
history for good reason: Such fines undermine other liberties.They can be used,e.g.,to
retaliate against or chill the sneechTTIMBS v.INDIANA.No.17-1091 fU.S.Feb.20.2019)
A judgment may not be rendered in violation of constitutional protections.The validity of a
judgment may be affected by a failure to give the constitutionally required due process
notice and an opportunity to be heard.[Earle v.McVeigh,91 US 503,23 L Ed 398.See also
Restatements,Judgments ' 4(b).Prather vLoyd,86 Idaho 45,382 P2d 910.]The limitations
inherent in the requirements of due process and equal protection of the law extend to
judicial as well as political branches of government,so that a judgment may not be rendered
in violation of those constitutional limitations and guarantees. [Hanson v Denckla,357 US
235,2 L Ed 2d 1283,78 S Ct 1228].A void judgment is not entitled to the respect accorded a
valid adjudication,but may be entirely disregarded,or declared inoperative by any tribunal in
which effect is sought to be given to it.lt is attended by none of the consequences of a valid
adjudication.lt has no legal or binding force or efficacy for any purpose or at any place....It
is not entitled to enforcement ...All proceedings founded on the void judgment are
themselves regarded as invalid.[3&4 Am Jur Judgments " 44,45],It is a fundamental doctrine
of law that a party to be affected by a personal judgment must have his day in court,and an
opportunity to be heard.\Renaud v.AbbottJ 16 US 277,29 L Ed 629,6 S Ct 77941 .Every
person is entitled to an opportunity to be heard in a court of law upon every question
involving his rights or interests,before he is affected by any judicial decision on the
question.rEarle v McVeigh,91 US 503,23 L Ed 3981.
No Opportunity to Be Heard
A judgment of a court without hearing the party or giving him an opportunity to be heard is
not a judicial determination of his rights. [Sabariego v Maverick,124 US 261,31 L Ed 430,8
S Ct 461],and is not entitled to respect in any other tribunal."A void judgment does not
create any binding obligation.Federal decisions addressing void state court judgments
include[Kalb v.Feuerstein (1940) 308 US 433,60 S Ct 343,84 L ed 370; Ex parte Rowland
(1882) 104 U.S.604,26 L.Ed.861: "A judgment which is void upon its face,and which
requires only an inspection of the judgment roll to demonstrate its wants of vitality is a dead
limb upon the judicial tree,which should be lopped off,if the power to do so exists." People
v.Greene,71 Cal.l00[16 Pac. 197,5 Am.St.Rep.448]."If a court grants relief,which under the

117

0108

circumstances it hasn't any authority to grant,its judgment is to that extent void." (1 Freeman
on Judgments, 120c.) An illegal order is forever void.
An order that exceeds the jurisdiction of the court is void,and can be attacked in any
proceeding in any court where the validity of the judgment comes into issue. [See Rose
v.Himely (1808) 4 Cranch 241,2 L ed 608; Pennoyer v.Neff (1877) 95 US 714,24 L ed 565;
Thompson v.Whitman (1873) 18 Wall 457,21 1 ED 897; Windsor v.McVeigh (1876) 93 US
274,23 L ed 914; McDonald v.Mabee (1917) 243 US 90,37 Set 343,61 L ed 608].'Tf a court
grants relief,which under the circumstances it hasn't any authority to grant,its judgment is to
that extent void." (1 Freeman on Judgments, 120c.) "A void judgment is no judgment at all
and is without legal effect."[Jordon v.Gilligan,500 F.2d 701,710 (6th Cir.l974]"a court
must vacate any judgment entered in excess of its jurisdiction."[Lubben v. Selective Service
System Local Bd.No.27,453 F.2d 645 (1st Cir.1972)].
A void judgment does not create any binding obligation.Federal decisions addressing void
state court judgments include[Kalb v.Feuerstein (1940) 308 US 433,60 S Ct 343,84 L ed
370.Federal judges issued orders permanently barring Stich from filing any papers in
federal courts.After Judges Robert Jones and Edward Jellen corruptly seized and started to
liquidate Stich's assets,Judge Jones issued an unconstitutional order barring Stich from
filing any objection to the seizure and liquidation.
Opinions On Fraud Upon The Court
When any Court violates the clean and unambiguous language of the constitution, a fraud is
perpetuated and no one is bound to obey it [State v Sutton, 63 Minn 147 65 NW
*
262.30ALR 6601
Fraud upon the court embraces only that species of fraud which does or attempts to,defiles’'
•T
the court itself,or is a fraud perpetrated by officers of the court so that the judicial
machinery cannot perform in the usual manner its impartial task of adjudging cases that are
presented for adjudication....As we explained in In re Levanderjhe basis for an independent
action to set aside a judgment for fraud on the court lies in misconduct that “harm[s]the
integrity of the judicial process.” 180 F. 3d at 1119 (internal quotation marks omitted). We
read the term “fraud on the court” narrowly,and apply the following definition: “Fraud upon
the court” . embrace[s]only that species of fraud which does or attempts to,defile the court
itself,or is a fraud perpetrated by officers of the court so that the judicial machinery can not
perform in the usual manner its impartial task of adjudging cases that are presented for
adjudication.Id.(intemal quotation marks)....Fraud on the court requires a “grave
miscarriage of justice,” Besserly,524 U.S.at 47,118 S.Ct.1862, and a fraud that is aimed at
the court. [Appling v.State Farm Mut.Auto.Ins.Co.,340 F.3d 769.781 (9th Cir.2003)l
An appeal from an order based on lack of jurisdiction and fraud upon the Court is a
question of constitutional law,and questions the Court’s lack of ability to perform its
functions in an unbiased manner ... .Cox clearly has been shown to have given many false
or misleading answers in sworn discovery that either appear calculated to evade or stymy
discovery on issues central to her case. The integrity of the civil litigation process depends
on truthful disclosure of facts. A system that depends on an adversary's ability to uncover
falsehoods is doomed to failure,which is why this kind of conduct must be discouraged in
the strongest possible way. Although Cox insists on her constitutional right to have her
118

0109

case heard,she can,by her own conduct,forfeit that right..[Cox v.Burke,706 So.2d
43,47(Fla.5th DCA 1998)]One who asserts that an adverse party has obtained a verdict
through fraud,misrepresentation or other misconduct has the burden of proving the assertion
by clear and convincing evidence.Saenz v.Kenedy,178 F.2d 417,419 (5th Cir.1949);
Gilmore v.Strescon Industries,Inc.,66 F.R.D.146,153 (E.D.Pa. 1975),affd without
opinion,Bucks County Const.Co.v.P.Agnes,Inc.,521 F.2d 1398 (3d Cir.).The conduct
complained of must be such as prevented the losing party from fully and fairly presenting
his case or defense.[Toledo Scales Co.v.Computing Scale Co.,261 U.S.399,421,43
S.Ct.458,464,67 L.Ed.719 (1923); Atchison,Topeka & Santa Fe Ry.Co.v.Barrett,246 F.2d
846,849 (9th Cir.1957); Rubens v.Ellis,202 F.2d 415,417 (5th Cir.1953)]
But,as said
by the Supreme Court,a litigant who has engaged in misconduct is not entitled to "the
benefit of calculation,which can be little better than speculation,as to the extent of the
wrong inflicted upon his opponent".[Minneapolis,St.Paul & S.S.Marie
Rv.Co.v.Moauin.1931,283 U.S.520.521-22.51 S.Ct.501.502.75 L.Ed.l24311Rozier
v.Ford Motor Co..573 F.2d 1332,1338(5th Cir.197811
Fraud upon the court should embrace only that species of fraud which does or attempts
to,defile the court itself,or is a fraud perpetuated by officers of the court so that the judicial
machinery cannot perform in the usual manner its impartial task of adjudging cases that are
presented for adjudication\7 Moore,Federal Practice f 60.33 at 515 (1971)] ...relief based
on fraud upon the court “is reserved for only the most egregious misconduct,” a showing of
“an unconscionable plan or scheme which is designed to improperly influence the court in
its decision” is required.\Wilson vJohns-Manville Sales Corp.,873 F.2d 869,872 (5th
Cir.1989) (quoting Rozier v.Ford Motor Co. ,573 F.2d 1332,1338 (5th Cir.l978))l.. .While
courts have uniformly held that perjury of a single witness is not sufficient to trigger relief
for fraud upon the court,4 in this case,every witness committed peijury while executing a
deliberately planned “scheme” to improperly influence the court. See Browning
v.Navarro,826 F.2d 335,345 (5th Cir.1987)...We decline to interpret our rules so as to
render the defrauded court impotent to rectify this situation. We find Mr.Tirouda's actions
to be an example of “egregious conduct” justifying relief under the savings clause of Rule
60(b). See Wilson,873 F.2d at 872....in addition to perpetrating fraud upon the courts of
Mississippi,Mr.Tirouda attempted to use the courts of Mississippi as an instrument to assist
in his fraud. Justice cannot be promoted and a just determination of the action cannot be
accomplished in allowing Mr.Tirouda to retain a Mississippi birth certificate to which he is
not entitled... .7/1 Moore vJacobs, 752 So.2d 1013 (Miss. 1999),the supreme court addressed
the claim of perjury by a party and concluded that claims of peijury fall under Rule
60(b)(1). However,we distinguish Moore from the case at hand. The supreme court,in
Moore,was confronted with allegations of peijury by a single witness,which were not
proven by clear and convincing evidence. Id.at 101617 61T14-19). In the instant case,we are
presented with the perjury of every witness who testified,and their perjury has been shown
by clear and convincing evidence. In addition to the peijury committed,we are also
confronted with the evidence of a deliberately planned scheme to defraud the
court.\Tirouda v State,No.2004-CP-00379-CQA.Missisippi,2005)]

119

0110

Opinions On Conspiracy

Conspiracy can be proved without such an averment,and,even if averred,need not be
proved,because the gist of the action is the wrong done and not the conspiracy. (Loeb
v.Kimmerle,215 Cal. 143[9 P.2d 199].)
In Peterson v Cruickshank the Court held:
The real question is ...whether there is any substantial evidence to support the finding
that appellant conspired with his two codefendants ...To support this theory of
conspiracy there must be evidence of (1) a concert of action between appellant and the
nonappealing defendants to unlawfully detain respondent without her consent; (2) that
appellant acted in furtherance of the common scheme or design to falsely imprison
respondent; and (3) that appellant had knowledge of the conspiracy and its unlawful
purpose. (Neblett v.Elliott,46 Cal,App,2d 294[1 15 P.2d 872]; Alexander
v.Hammarberg,103 Cal.App.2d 872]230 P.2d 399]; Wells v.LloydIV.6 Cal.2d 70[56
P.2d 517].)[2] Of course,the agreement between conspirators need not be proved by
direct evidence,but may be shown by circumstantial evidence that tends to show a
common intent.(People v.Yeager,194 Cal.452[229P.40]; People v.Jordan,24
Cal.App.2d 39174 P.2d 519]; People v.Montgomery,47 Cal.App.2d 1]117 P.2d 437].) In
fact,in the absence of a confession by one of the conspirators,it is usually very difficult to
secure direct evidence of a conspiracy,so that in the usual case the ultimate fact of a
conspiracy must be determinedfrom those inferences naturally and properly to be
drawn from those matters directly proved.(Beeman v.Richardson,185 Cal.280[196
i’m
P. 774]; Johnstone v.Morris,210 Cal.580[292 P.970]; see also Restatement of
Torts,sections 876(b) and 876(c),cited with approval in Summers v. Tice,33 Cal.2d
80,85[199 P.2d l,5A.L.R.2d 91].)
It is well settled that a conspirator is liable for all the acts done in furtherance of a -‘>
common scheme or plan even though he is not a direct actor. (Leavitt v. Gibson, 3 Cal. 2d
90]43 P.2d 1091]; Mox,Inc.v. Woods,202 Cal.675[262 P.302].)[ll]It is equally well -settled that a party may be liable even if the intentional tort is commenced before he
participates, if he, knowing the facts, then participates therein. (People v.Mechler, 75
Cal.App.181 [242 P.503]; People v.Kizer,22 Cal.App.lO[133 P.516,_521,134 P.346]; '
People v.Henderson,79 Cal.Apv.2d 941179 P.2d 406].) In such a case it is obvious that
the conspirator entering[144 Cal.App.2d 169]the conspiracy after it started did not
"cause" the alleged wrong,because it had already commenced.
A conspirator who participates or cooperates unlawfully with other conspirators at any
time during the conspiracy thereupon makes himself liable as a conspirator. (People
v.Mechler, 75 Cal.App.l81[242 P.503]; People v.Kizer,22 Cal.App.lO[133
P.516,521J134 P.346]; People v.Henderson, 79 Cal. Am.2d 941179 P.2d 406].)
the agreement between conspirators need not be proved by direct evidence,but may be
shown by circumstantial evidence that tends to show a common intent.[People
v.Yeager,194 Cal.452[229 P.40]; People v.Jordan.24 Cal.App.2d 39174 P.2d 519];
People v.Montgomerv.47 Cal.App.2d 1 \ 117 I\2d 437].) In fact,in the absence of a
confession by one of the conspirators,it is usually very difficult to secure direct evidence
of a conspiracy,so that in the usual case the ultimate fact of a conspiracy must be
determined from those inferences naturally and properly to be drawn from those matters
directly proved.(Beeman v.Richardson,!85 Cal.2801196P. 7741; Johnstone v.Morris,210
Cal.580[292 P.9701; see also Restatement of Torts.sections 876(b) and 876(c), cited with
120

0111

approval in Summers v.Tice.33 Cal.2d 80,85f199 P.2d 1,5 A.L.R.2d 911.)[Peterson v
Cruickshank 144 Cal.ApD.2d 1481).
In Slavin v Curry,the Court held:
Read with the required liberality,Slavin's complaint relates,with sufficient
specificity,facts that could entitle him to relief CfJohnson v.Wells,566 F.2d
1016,1017 (5th Cir. 1978). Even though his complaint contains adequate factual
content, Slavin is entitled to a favorable ruling on the pleadings only if his complaint
suffices under other legal standards.Here the trial court ruled that part of Slavin's
complaint was barred by the statute of limitations.The court held that a two-year
limitation period barred any action against the defendants who arrested Slavin in
May 1974. That conclusion depends upon reading the complaint as showing
several,separate conspiracies. When the complaint is read with the required
liberality,however,it asserts a single, continuing conspiracy. That is, it reveals a
conspiracy that began with the intention of denying Slavin the equal protection of the
laws and continued by obstructing justice and denying due process in an attempt to
conceal the complicity in the first action. The complaint recounts a number of
incidents. While they state separate causes of action against individual
defendants, they also charge participation in a single conspiracy. The district court
erred in treating the incidents as alleging only separate causes of action.
An action for conspiracy may be maintained under section 1983.As this court said
in Nesmith v.Alford,318 F.2d 110,126 (5th Cir.l963),cert.denied,375 U.S.975,84
S.Ct.489,11 L.Ed.2d 420 (1964):
Of course,for a claim under § 1983,a conspiracy as such is not an indispensable
element as it is under § 1985.But it may be charged as the legal mechanism through
which to impose liability on each and all of the Defendants without regard to the
person doing the particular act. Conspiracy is asserted in that situation on more or
less traditional principles of agency,partnership,joint venture,and the like.
To maintain a conspiracy action under § 1983 here,however,it is necessary that there
have been an actual denial of due process or of equal protection by someone acting
under color of state law.Hanna v.Home Insurance Company, 281 F.2d 298,303 (5th
Cir. 1960),cert.denied,365 U.S.838,81 S.Ct.751,5 L.Ed.2d 747 (1961).Here,taking the
allegations as true,the conspirators framed Slavin,thereby denying him due
process,and prevented him from obtaining a beer and wine license, thereby denying
him equal protection of the laws.In particular,the court reporters acted under color of
state law in preparing the trial transcript.Slavin's complaint is therefore legally
sufficient to state a cause of action for conspiracy under section 1983.
We reach a different conclusion regarding his claims under section 1985.In his
complaint,Slavin mentions only section 1985(3). Even so,the complaint states facts
sufficient to support a claim of obstruction ofjustice. We therefore treat the complaint
as though it had also pled a cause of action under section 1985(2).Cf.Baldwin
v.Morgan.251 F.2d 780,791 (5th Cir. 1958). The Supreme Court has said that the
language of section 1985(3), "requiring intent to deprive
of equal protection,or equal privileges and immunities,means that there must be some
. 121

0112

racial, or perhaps otherwise class-based, invidiously discriminatory animus behind
the conspirators' action." Griffin v.Breckenridge,403 U.S.88,102,91
S.Ct.1790,1798,29 L.Ed.2d 338 (1971) (emphasis in original). The language of
section 1985(2) is similar to that ofsection 1985(3).The relevant portion of section
1985(2) establishes a cause of action against two or more persons who conspire for
the purpose of impeding,hindering,obstructing,or defeating,in any manner,the due
course ofjustice in any State or Territory,with intent to deny any citizen the equal
protection of the laws,.... Although this circuit has not applied the conclusion
of Griffin to actions brought under section 1985(2), those circuits which have
considered the question have all held that racial or class-based discrimination is
necessary under section 1985(2).Dacey v.Dorsev,568 F.2d 275,277 (2d
Cir.1978); Phillips v.International Association of Bridge,Structural and Ornamental
Iron Workers,Local 118,556F.2d 939,940-41 (9th Cir.1977); Stern v.UnitedStates
Gvpsum,Inc.,547F.2d 1329,1341 (7th Cir.) (assuming
conclusion arguendo),cert.denied,434 U.S.975,98 S.Ct.533,54 L.Ed.2d 467
(1977); Smith v. Yellow Freight System,Inc.,536 F.2d 1320,1322-23 (10th
Cir. 1976); Jones v.United States,536F.2d 269,271 (8th Cir.1976),cert.denied,429
U.S.1039,97 S.Ct. 735,50 L.Ed.2d 750 (1977); Brawer v.Horowitz.535 F.2d 830.83741 (3d Cir.1976); Hahn v.Sargent,523 F.2d 461,469 (1st Cir. 1975),cert.denied,425
U.S.904,96 S.Ct.1495,47 L.Ed.2d 754 (1976). We are persuaded that those cases
reach the correct result.
On May 11,1981,Dave Harrod owed a fiduciary duty to Barbara Liles to represent
and protect her interests in the divorce action against Tommy Liles. 2.Harrod
breached his fiduciary duty to Barbara Liles by entering into a conspiracy with
Tommy Liles to defraud Barbara Liles of her marital assets....3.Because of the
conduct of Tommy Liles and Harrod,Barbara Liles was not properly represented in
the divorce action and did not receive nor have an opportunity to receive proper
consultation as to her rights in the proceeding. 4. As a result of the conspiracy to
defraud Barbara Liles of her marital assets,the property settlement agreement ofMay
11,1981, shall be set aside and the marital property shall be returned to the marital
corpus.[Liles v.Liles,289 Ark.l59,711 S.W.2d447
(1986)4][Petition,p. 17,p. 18] “while we hold that a separate and independent tort
action for actual fraud and accompanying exemplary damages against one's spouse
do not exist in the context of a deprivation of community assets,if the wronged spouse
can prove the heightened culpability of actual fraud,the trial court may consider it in
the property division. Wickeryv. Vickery,1996 WL 255755
(Tex.App.Dec.5,1996)5,affover dissentVickery
v.Vickerv,999S.W.2d342(Tex.l999) .1
Harrod's fraud and professional misconduct were the bases for setting the property
settlement agreement aside. Whether Barbara was getting a good deal, in Harrod's
opinion, under the law as it existed in 1981, is irrelevant to the setting aside of the
agreement in 1985. The damages awarded to Barbara were to compensate her for the
expense she incurred in having the agreement set aside. The reason for setting aside
was the fraud perpetrated by Tommy Liles and Harrod upon her in the procurement
122

0113

of the agreement. The causal relationship between the conduct of Harrod and the
injury to Barbara is obvious. (Liles v Liles)
Contracts that lead to prohibited acts or contracts between parties that were intended
be used as preparation for an unlawful act of depriving me of my property and other
rights violate public policy because even though the contract may be deemed
lawful,the underlying intention makes the contract contrary to public policy[Evert
v.Williams .[198319 L.Q.R.197(Eng.)l. No legal actsincluding contracts, can restrain
or prohibit it[M.P.Furmston,The Analysis oflllesal Contracts,! 6 U. TORONTO
L.J.267.268(1965)1JId.at 3061
Wife must plead and prove extrinsic fraud in order to prevail,is based upon those cases
in which a litigant seeks to set aside a decree of dissolution after it has become final and
to relitigate all issues.See e.g.,McCarty v.McCarty,500 S. W.2d 394,400-01 (Mo. 1957);
Jones v.Jones,254 S. W.2d 260,261 (Mo.App.l953).That relief requires pleading and
proof offraud in the procurement,that is to say,fraud extrinsic to the dissolution
judgment.For such fraud to have existed,it must have related,not to the propriety of the
judgment itself but to the manner in which the judgment was obtained.In other words,the
fraud must have been extrinsic or collateral to the matters which either were or could
have been presented and adjudicated in the original proceeding,and not merely intrinsic
in the sense of having pertained to the merits of the cause upon which the judgment of
the court was rendered. [Jones,254 S. W.2d at 2611. ..wife was awarded damages for
husband's attorney's fraud and misrepresentation in wife's suit to set aside property
settlement agreement. 5 wife was awarded $9 million against husbandfor fraudulently
procuring divorce and marital settlement agreement,and $450,000 against husband's
attorney the record discloses an issue of material fact with respect to Wife's right to rely
upon Husband's representations. We agree. [Karney v. Wohl, 785 S. W.2d 630
(Mo. Ct.App. 1990) 1
It is the function of the court to determine whether a property right has been acquired
during marriage and whether equity warrants its inclusion into the marital estate, fFlynn
v.Flynn,341 Pa.Super.76,491 A.2d 156,159 (1985)]. Ifthe asset is deemed includable in
the marital estate,the allocation of that interest must be consistent with the legislative
intent to effectuate economic justice between the parties.23 Pa.C.S.§ 3102(a)(6).[
Perlbergerv.Perlberger.1998 WL 76310.1998.EPA.1313 (E.D.Pa.Feb.24,1998)17
To support this theory of conspiracy there must be evidence of (1) a concert of action
between appellant and the nonappealing defendants to unlawfully detain respondent
without her consent; (2) that appellant acted in furtherance of the common scheme or
design to falsely imprison respondent; and (3) that appellant had knowledge of the
conspiracy and its unlawful purpose. (Neblett v.Elliott,46 Cal.App.2d 294[115 P.2d 8721;
Alexander v.Hammarberg,103 Cal.App.2d 872[230 P.2d 3991; Wells v.LloydIV,6 Cal.2d
70[56 P.2d 517].)[2lO[course, the agreement between conspirators need not be proved
by direct evidence,but may be shown by circumstantial evidence that tends to show a
common intent. (People v.Yeager,194 Cal.452[229[People v.Jordan,24 Cal.App.2d 39 [74
P.2d 519]; People v.Montgomery,47 Cal.App.2d 1[117 P.2d 437].) In fact,in the absence
of a confession by one of the conspirators,it is usually very difficult to secure direct
evidence of a conspiracy,so that in the usual case the ultimate fact of a conspiracy must
123

01*14

be determinedfrom those inferences naturally and properly to be drawn from those
matters directly proved. (Beeman v.Richardson,! 85 Cal.280fl96 P.774]; Johnstone
v.Morris,210 Cal.580(292 P.970]: see also Restatement of Torts,sections 876(b) and
876(c),cited with approval in Summers v.Tice,33 Cal.2d 80,85[199 P.2d 1,5 A.L.R.2d
911) (PETERSON v.CRUICKSHANK 1144 Cal.ApD.2d 1481
The court held that a two-year limitation period barred any action against the defendants
who arrested Slavin in May 1974.That conclusion depends upon reading the complaint as
showing several,separate conspiracies.When the complaint is read with the required
liberality,however,it asserts a single,continuing conspiracy .That is,it reveals a conspiracy
that began with the intention of denying Slavin the equal protection of the laws and
continued by obstructing justice and denying due process in an attempt to conceal the
complicity in the first action.The complaint recounts a number of incidents.While they state
separate causes of action against individual defendants,they also charge participation in a
single conspiracy.The district court erred in treating the incidents as alleging only separate
causes of action.,,,... The contention that a conspiracy existed which deprived the petitioner
of rights guaranteed by federal.law makes each member of the conspiracy potentially liable
for the effects of that deprivation.Liability arises from membership in the conspiracy and
from traditional notions that a conspirator is vicariously liable for the acts of his co­
conspirators.Liability does not arise solely because of the individual's own conduct. Some
personal conduct may serve as evidence of membership in the conspiracy,but the
individual's actions do not always serve as the exclusive basis for liability.lt is therefore not
sufficient justification to say that a claim against a particular defendant must be dismissed
because that defendant would be immune from liability for his own conduct.Additional
inquiry is required to determine whether the immunity extends also to participation in a
conspiracy.For example,private individuals may not be held liable under section 1983 for
their conduct.See,e.g.,Greco v.Oranze Memorial Hospital Corporation,513 F.2d 873,87778 (5th CirJ.cert.denied,423 U.S.1000,96 S.Ct.433,46L.Ed.2d 376 (1975): Hill
v.McClellan,490 F.2d 859,860 (5th Cir. 1974). They may nevertheless be held liable if they
conspired with a person who acted under color of state law. [Taylor v.Gibson,529 F.2d 709
(5th Cir.1976! at 715.1
Slavin has alleged facts which,if proven,would entitle him to some form of relief.The exact
form of portions of any relief available may also depend upon the present situation of both
Slavin and various of the remaining defendants,since Slavin could conceivably be entitled
to equitable relief even against those defendants who are immune from actions for
damages. [Slavin v Currv.574 F.2d 1256 (5th Cir.l978)l
Opinions About RICO Violations

In HJ Inc.the Court of Appeal emphasized that each of the alleged scheme involved fraud
against victims(just like in the instant case).In this case,the infiltration of legitimate
business shows more than one racketeering activity,indicating the threat of continuity[See
Banks v Wolk,918 F2d,418(3rd Cir, 79969].Here,multiple fraudulent schemes were
conducted thru otherwise legitimate entities,the relatedness requirement should not insulate
defendants who merely vary the methods by which they defraud their victims,918,F2d at

124

0115

425; 18USC 1961 et seq; also see Phenix Fed S&L Assn FA v Shearson Loed Rhodex
lnc(1988.CA8 Iowa) 856F2d 1125,12 FR Serv 3d 692,cert denied(1989)J.
An individual who commits two or more predicate crimes defined in 1961(1) within a 10
year period can be prosecuted for violating RICO as well as for the substantial crimes
themselves1.rUnited States v Turkette,632 F2d 896,904(lst Cir,1980) rev’d 452 US
576(1981)l.Justices in Turkette case shared that criminals should not be able to escape
liability under RICO on the grounds that they were careful to limit themselves to wholly
illegal activities.[Turkette,supra,452, US at 587,590.also see United States v
Provenzano.620.F2d 985,993(3rd Cir); United States v Sutton,605,F2d,260,264,(6th Cir).
Only relationship necessary for predicate acts alleged... is that they be acts of the same
enterprise; it is not necessary for activities to be related to each other\United States v De
Palma (1978.SDNY) 461.FSum 7781.

1 If it were intended that no criminal act on which the statute of limitation had expired at the time of the
RICO indictment could be part of the pattern,the 10 year provision in the subsection would be largely
meaningless and contrary to the purpose of section 1961 (5).Thus it must be meant that defendants could be
prosecuted under RICO if they were chargeable with 2 or more pattern of offenses at the time they
committed the other elements of RICO.
125

0116

Appendix F

0117

hi i U

EXHIBIT 1
Gmail - The Right Move, Inc -International service agreement # 208140

6/8/2015

n
I I

Madhu Sameer <madhu.bambroo@gmail.com>

U I

The Right Move, Inc -International service agreement # 208140
Dylan Cortina <sales7@therightmove4u.com>
To: Madhu Sameer <madhu.bambroo@gmail.com>

Mon, Jun 8, 2015 at 12:39 PM

, arid
W O I? u o

International Moving Service
Agreement
The Right Move ,lnc.

Reference No: S208140

Customer Dylan
Rep:

150 Motor Parkway suite # 401
Phone:

347-368-6520

Fax:

631-439-6801

Email:

sales7@therightmove4u.com

Web:

http://www.therightmove4u.com

Hauppauge, NY 11788

Registration #: FMC# 023229N

Moving From

Moving To

Madhu Sameer

Madhu Sameer

9976 North Recreation Ave

Christchurch , NEW ZEALAND

Fresno, CA 93720

madhu. bat nbroo@ gmai I. c om

Phone: 559-412-2988
Mtps://mail.g(X)gle.com/mail/u/Q/?ui=2&ik=5ebceafl29&view=pt&search=inbox&msg=14dd4af04ef3b8f2&simr=14dd4af04ef3b8f2

0118

1/3

Gmail - The Right Move, ire -International service agreement # 208140

6/8/2015

Job No:

S208140

Representative:

DYLAN

Type of Service:

Insurance:

Full Coverage Insurance For
$10,000 Free

$0.00

Others:

Line Haul Charges F:or 40 FT
CNTR

$6800.00

Others:

Furniture Packing And Loading

$2100.00

Others:

Doc's Fee

Door to Door

Estimated Volume: 40 FT CNTR - FLAT
Move Date:

$0.00

06/19/2015
Total Estimate:

$8600.00

Understanding Your Service

i in* Haul Charges: Based on 40 FT container.

r*

The price Includes arriving at the pickup location, preparing professional Inventory list disassei
loading into a container, trucking the container from the port to your residence and back to the•
b°th ^ on9'n
and destination fuel and mileage, custom clearance at origin, terminal handling at ongm, ocean freight, ba
,
custom clearance at destination, door delivery, setting the items at your new residence, unwrapping the furniture,
reassembly of basic furniture, and removing the packing debris.

if

J-

Packing services ^ Furniture packing and toaditicu
Packing of furniture that are metal and wood - all Included,
Packing of boxes labor costs and material - Charge upon use.
Custom made wooden crate - charge based on size.

Insurance; FREE full coverage insurance SI0.000-00 FREE,
The Insurance is subject to receiving the Insurance tonus 3-4 days prior to the pickup, and it is subject to the
Insurance company terms and conditions. <$500 deductable).
Additional insurance is available upon request, charge of 3% of declared value for full coverage, and 2% of declared
value for total loss, and will require $75 processing fee.

Documentation fee:
The price includes preparing ai) export documents for shipping house hold goods, AES filing and bill of lading.
https://mail.goog

Ie.com/mail/u/0/?ni=2&il<=5e&ceaf329&view=ptssearch=inbox&ms9=14dd4af04ef3b8f2&sirril=14dd4af04ef3b8f2

0119

2/3

Gmail - The Right Move, Inc -International service agreement # 208140

6W2015
(Vehicle requires additional fee).

The price does not Includes;
Long carry storage at origin, local port fees and taxes at destination, Tt-iC (terminal Handling charges) custom
examination and scanning, roll over fees, storage at destination, demurrage, fumigations, Piano Handling, and
vehicle shipping.

Payment Terms:

15% deposit is required upon signing the service agreement by credit card (Visa or MasterCard Only).

The remaining balance is due 7-10 days after receiving the final invoice before shipment will leave the
USA, by personal check, certified check, wire transfer, cashier check.

' By signing this page i agree that this contract is supplemental to SOL and tariff which are publicly available
at Federal Maritime Commission by section 19 of the Shipping Act of 1984, Part 515 of Title 46 of the Code of
the Federal Regulations.

Articles List

Qty

Items

Qty

Items

Qty

Items

C/s7>o I5Customer Name

etjstomer signature

Date

m,A CC Authorization form., pdf
i-J 104K

https://mail.google.com/maii/u/0/?ui=2&lk=5ebceaf329&view=ptteearch=irtox&msg=14dd4af04e13b8f2teimi=14<M4af04ef3b8f2

0120

3/3

^maii - uner 10 sena ine snipmeni on ine plane

o/o/zuio

Madhu Sameer <madhu.bambroo@gmail.com>
k/CsOgig

Offer to send the shipment on the plane
Thu, Aug 6, 2015 at 6:54 AM

Madhu Sameer <madhu.bambroo@gmail.com>
To: Madhu Sameer <madhu.bambroo@gmail.com>
--------- Forwarded message---------From: Michelle Franklin <mfranklin@therightmove4u.com>
Date: Fri, Jun 26, 2015 at 12:41 PM
Subject: RE: MADHU
To: Madhu Sameer <madhu.bambroo@gmail.com>

You keep misunderstanding everything.
Send the insurance papers tomorrow.
The container left that's it!
And I offer to give you to take the boxes on the plane not also to ship by ocean !
I am not a bank!!
• r#r

Michelle

Sent from my Verizon Wireless 4G LTE smartphone

------- Original message-------From: Madhu Sameer <madhu.bambroo@gmail.com>
Date: 06/25/2015 8:14 PM (GMT-05:00)
To: Michelle Franklin <mfranklin@therightmove4u.com>
Subject: Re: MADHU
The box and the rug.
On Thu, Jun 25, 2015 at 5:13 PM, Madhu Sameer <madhu.bambroo@gmail.com> wrote:
j UPS to your warehouse to send it with other items. You did offer topay for the oceanfreight - and you offered
to pay$100 for the box. It would be cheaper for you to send the shipment together...! can just UPS it to you.
Also,please confirm that I can send the insurance list tomorrow. I do not wish to send the shipment without
insurance, especially due to these underlying issues.
M.
On Thu, Jun 25, 2015 at 4:14 PM, Michelle Franklin <mfranklin@therightmove4u.com> wrote:
Hi Madhu,
We have a contract for 40 ft container. We have a 40 ft container full with your items .
I have offered to help you and pay lots of money because I want to help.

1/0

0121

tjmaii -1-wa: tman staling we win taKe care or tne secona pan ot ine snipmeni up ra tne aesiinaiion port tor iree

O/O/ZUID

Madhu Sameer <madhu.bambroo@gmail.com>

Fwd: Email stating We will take care of the second part of the shipment up to
the destination port for free
Madhu Sameer <madhu.bambroo@gmail.com>
To: Madhu Sameer <madhu.bambroo@gmail.com>

Thu, Aug 6, 2015 at 4:01 PM

--------- Forwarded message---------From: Michelle Franklin <mfranklin@therightmove4u.com>
Date: Fri, Jun 26, 2015 at 3:26 AM
Subject: RE: Re:
To: Madhu Sameer <madhu.bambroo@gmail.com>

Not at all
I am saying that we will take care of the shipment up to the destination port for free.
You will have to pay the additional ports fees as they are not part of my control and also arrange the pick up by
yourself once the items are in New Zealand .
Michelle

Sent from my Verizon Wireless 4G LTE smartphone

------- Original message-------From: Madhu Sameer <madhu.bambroo@gmail.com>
Date: 06/25/2015 11:15 AM (GMT-05:00)
To: Michelle Franklin <mfranklin@therightmove4u.com>
Subject: Re: Re:
Are you saying that it will cost me additional 2,400 to get the additional shipment ?
On Thu, Jun 25, 2015 at 8:09 AM, Michelle Franklin <mfranklin@therightmove4u.com> wrote:
I will be very happy cover the ocean cost!!

I will ship it all the way to the port, and you can pay just the port fees, and maybe pick up from the port by
yourself???

If we are to offer it to any other client it is $12 pr CF, Min 200 For full door to door service, not includes the
port fees.

PDF Wares*

9HHhaflo1 Ac i m I = 1 AfD 19hh9HHhaAo1

0122

MA

^man - rwa: tmau siaung vve win lane care ot ine secona pan ot ine sropmeni up to me aesunaiion port Tor tree

O/D/ZUIO

So total of $2400

But, pick up is already done, and I will cover the ocean costs ! that will be me showing you how much I
care!!
......

Michelle

From: Madhu Sameer [mailto:madhu.bambroo@gmail.com]
Sent: Thursday, June 25, 2015 10:57 AM
To: Michelle Franklin
Subject: Re:
3*

Tell me - how much the extra shipment, if palleted, will cost.

%

On Thu, Jun 25, 2015 at 7:55 AM, Madhu Sameer <madhu.bambroo@gmail.com> wrote:
I can't allow anyone to touch my shipment in my absence Michelle. I was advised by the licensing board. For
you to ask me to do this is unfair.

I

Trusting someone in business is not professional. It is unfair of you to ask me to work on trust. Would you
trust me to pay you at delivery ? No. And I dont' ask of it either.
I trusted your word that day and released my shipment, allowed the container to leave my home - and look
what happened.Flad I just insisted on a proper packing list, I would not have suffered these losses (over $3000
in goods given away), and would not have had these problems,

Business is not run on trust - it s run on rules, procedures, policies.
I trusted them to get it right the second time. They are incapable of doing it right.So I cannot trust them
anymore.
M.

M.

On Thu, Jun 25, 2015 at 7:50 AM, Michelle Franklin <mfranklin@therightmove4u.com> wrote:

Rt3,F/^'^T^wrtPr&'dfFaic!6il^^^rV^fsr^'nnWww^pi€fff^ettyr\>fg6Wf
0123

9HHhafia1 Ac t m l= 1 AfM 9hh9HHhaf\a1

OIA

h

MADHU SAMEER
9976 N RECREATION AVE.
FRESNO, CA 837204653

•masses

1575
11-3571210

__________ SO____

;

gfry

(Uqhl

£/2^o »(5t)

{

vJ7lk}

't< /'XXJ^9/,

1

O

BANK OF AMERICA

NJ

-U
rjor.

i: 12 iooo a sac era i i«a 7 i ? ? la m-15 ? 5

;

h*lv

/

*

f

\

*■

EXHIBIT 3

nS5
WlflUfiW WflNTWS * BOO-SW-^SSO • vMiw.mlbiyftpRnt’flg.cQm

HOUSEHOLD GOODS DESCRIPTIVE INVENTORY

CONTRACTOR OR CAOTKEA

OvmCR»CA*0£ Oft SLUM AMOnAMI

,V.J» \

rw

STjOI

DI3CroP77V£ SYMBOLS
iw> nP>ArwS«MK»in ir»o»sf»
HO - MO^ru
MW ■ MOM (I
»♦ • ••«<»* MO****. **«’»

rii. rPMfkwrp
4CI»H»r>MCmVMM

cowomoH
OAKUM

EXCEPTION SVMD0L3
u - wm iv
■ unrHf«ni«
wrv«»»
*h»- »w»nLO

e

BcaaieS

%ccks

3___ _______________

8

IBoo^S

.LL-L^aU^cfc-.

9

jLcw^£,

5

Dcecser'

o

6

|
-f ^ aw/)/
f?CfaiflLrlP

1

HP Afcrg.. fcferS.
Mi sc. p^f&cr
CitfiJLf

ftoolcg^lfr _

3

9

£> a>f?Uslv<^

4

0

■Syfa'iwr
M,<C »9o<S

LOUDMSYMSOU
c raQHT
ILiUtf

3. OOPMZK

«

ta

set
i top

n, .<**•£«
12. toct
tZCUmA

?ft (KMM
rr.
»t Mir
H MMMMt

CONDHION exceptions
(IF A*iT)
AT
omen ATDUTP1V
TON

CUo-r

2

8

2

r.

z sonw

ARTICLES

7

1

r';sss-.
r ro*v»

P
iMItO
«» . IVMKII
t
iQQae
-ipiifc- pr<
M WHW

EXCf PTONS
tlF «m> REM ca
AT OESTINA* NO. REP.
TON

ArwoxC
j>gtc

7

hmb oxdta mo

* front
a. it/r
t uu
r m«j»
NOTE: THE OW3SSJOH OFTHESE SYMBOLS IN&CATES GOOD CONDITION EXCEPT FOR NORMAL WEAR
**.i: wc^vc**

ARTICLES

i

am

CA. <0 77^

MMAUMUr

I.V<'VP, Hi

2

!

fk wt>wt»o

CJUM

/feMan \e~* >

°rres«o

cjumiffi ''•c»»r«
hi
;i rt» wnun

ITCU CR
NO. REP.

M. W PAOIS

oV

SiaJiku <vnrf^x

~—<HTc
xs
oesTvunow
•
r.*'

PStCC NG

C>G

VO /HfW'.w^-S/S^yv

5

cu^; r'____

6

Cltqiy

*31

;v
<*■■

k

(

’■

rorvlle HofdW"

•Is

9

4'

s

o

SW>u»e< poles

~>5t

6

1

/t&WfcS

s

LM

M;<c. ^yws
4 d<S -/t;ySmaiI
7
fkntr Cafe______
8 js/V, ^odcjsr_________

Tjn |

o

i.f'

2

9 is*\ SxxAcS
feokisr

3

It

4

Lfr M11C §<mr5 ____
LCr fUadfog»s

5

ffliST. 'vQf’r'-

Q.Vy?.rip

1

| S^ali^y,^_______

£

2

S>»<<;>/ £H<j~r<*hlp.
Hod/.
LA 2q1y&-S+g\uSI'

7

■^Ke.fv'e^

8

-jUwer^

3

«

9

S* SlOofeJ

5
ITEM
NO.

§4° L(r A^C.

BEMARXS/EXCEPTIONS.

wwe turn etteexto ail msnonutmoAMowumanD«ro
nCLUSFVEATOAOCNOM'LEOGF
THAT T?AS O ^ TRUE AW C«Mmf7E USJ OF TME 80005 7EM02RSDANP OP me Sttnr OF 7ME OOOOS flECdVEO*
CLFfirrC KONW GNECX SMMBfT. COWttrTtMS AWO OfSCflWT
LOSS GW OiOUG? SPACE C3W 7MF MCH7 A99TL

WARNING

oamaoiun. ornini GotluiwoiQiK) jrwii'iimpi

AT
OJ^GIN

nm

09ohh on AunyonoEB aoent

DATE

9X24-IS
TCSt

SQfo

25/

thru

TAPE LOT MO
NOS. FROM

ZaUrUZWUMMraoi. AimKwnrco aoznt fttrovr*)
AT

(S^MIWE)

i.

v*<

7

OEST1NA71079

3oo^
OAR

(tipurowo
owner on Aumonoeo agefft

PDF created with pdfFactory trial version www.pdffactorv.com
DF created with pdfFactory trial version www.pdffactorv.com

0125
PDF created with ndfFar.tnrv Pro trial version www ndffactorv com

OATZ

V

"!
ML8UBN FflWTIKS . HXMX»J5680 . w*r». rnlXxjrrrftnrrfrig.ca'Ti
comt«ac7o» on carrier

'YCj

HOUSEHOLD GOODS DESCHIPTIVE iNVEMTORV
*cnr

/Um/luaS/S\&Yv\

irfarfL,.

^5 ^O

CMWimputtjicim

«uu»e on romsamp mavz

Sc *>»■?■€. Y~

%5-ZG)— .M^gg.T£<a4 igyy St /<•<•*•
OCSTBUD0»l

ewnuttn,^ m

fY

c

nui

---------------------------

C/t

‘iZyt.r’.
KiZ

i
■\v.

IVAUn A MValt IV

c.r CAr^tnr^c^io
..r-

OCftCIDFnyE SYMBOLS
neo • c*ia?ax «*Vtn |» <>**•■>
r.w
*» • ***«»• •**<*<»** f »»«-<*>.?

n*oit) n* (w*n
h ri-v-v.*'iiBMi>

OH

, e»- Bfloum

***• • wiivow, rvm
*<cu - wch*voh Comoro*.

*

1»*. l>M*fQ
H»**»SOVT»WfH

00*7 S7DWCI (WOES J»0

wmwwiu>

ON SYMBOLS

UWJQJM SYMBOLS

**f>- MDIMiinx

»WB

ar. 9tA«w<r
a - »fncto«u
▼
ro*o*

■ixssK
E: ssr—

■ UKI9I

f

UfUCiUO

aail.iawi>,yM.WywwtWBB|pM||w(t|M^........
item ca.
MO. REF.

CONWnON E5ICEPTJCWS
ftfARr*
AT
nai ca
omow AY OfSTMS.
MO. RE*
T»#*

AH7JCLES

Q-HP4 c-f[

XV 1
2

s

/f

3

l I

5

6

feoxC-ix.ve/S
/~5e ?rt-/

7
8

______ i*

9

*.>

/a

O

%2Sj$>e£'.

V A t J «

4

■S’lQli &»y

S /to// 3k(r
t_M&44±
DootZs^ty

4

5
6

7J__ Q^&k

9 j
0 I
1

Flfepince/

! jgcXSt«-fr
I fe»legU>lP

^

4

5

- fe?aUiJeV -P

7

Cj^,se S-gf-

f_____y4»"*»<pfr
3

a

T**m.a /

jyijkis6*4 /
-0~v4g

4

5

W4<> Mie>t*

8
7
8

:—X^bjffegL.-----KS-hr^

9

J-k

0

Cf

»TEM
MO.

P>OoU.Sty|P

9
1

. laUerTIffg-.r
C.c.i^rCl T^r ;<^°Zr
Shelv}*/y
-SXg

3

8

0

. i.

2

A-fck

©

8
7

3

CtCEPROMS
I IF Arm
AT0E5TMA»
TWN

Af cU______
Soa4f_r_____
yks’f iC Cah
lWltr»c»T Zcror^’p.
i lolx
____
■ffi^Sa/K /ecessvt-y^
t^fc»»du«
l\jp£ -~^y

5

~

AT

Oman

a<~

3

2

coxDrnoft

Ouhjco/' /Ar^^

1

» J

itmoa

o^-tdcb,-- Arc^

0

______

ItlW

UK
?i !S

ARTICLES

9

iP ^ b» yvt
t*

£$_±

£

u

rt.

Ik5£«

» VOT

sk-ffur
---------------------Ou-rtJoo f A-Cc U________

7

*&f5 X' *i>Jl <,Ll(P

4

co**v
lZEVTOW
*. non

BEMAflX&'EXCEPTJGNS

we.ct^.^24^

WARNING

UUniJUlilou. OUJHO UK HJinm/M) SairiUWKJB

AT
ORIGW

ra0Hgoi 4

:

°

250
^8iWiAW<52V ^Ahmcft c*> Atmmnoto aocvt torwtn)

oiu

THRU

O*It,

jMWlWWD ___
OWWER ON AVOrORIZEO ACEMT'
ISX.NA7UNE)

AT
DATE-

desdna*

71 ON

|S>e»4AYnng>
owmep on AWT3K>ns?r.o Aocm

PDF created with pdfFactory trial version www.pdffactorv.com
DF created with pdfFactory trial version www.pdffactorv.com

0126
PDF created with ndfFactnrv Pm trial version www ndffactorv com

date

T

MILBUHN PrltNllMG • 8B0-899£890 • W-W.milbumfmming.com

HOUSEHOLD GOODS DESCBiPTaViE ONVBiTOBV

COHTftACioa on cajwbw

X0 /Mail
/%)',&S&mM

/-{sMok'

iW-YfaTiOh

ka'io/

MtAsMtUAMC

COnfiucr cm

A*«M

m.

n&Ornras

n4-

___°”'r r6Sna

start

CA

.

3720

otstwano*

>■

*"»

'W»iy4*A

• i**)» I tivofev riinw
mo.

<A(hu» C-*V
■4

Rll . «JQWm»T9
• C.tM'irrvMi

>
w
S

>m . vans

1 . lOOU:

•c

■»M9

LOCJmOK tTMBWS

no ior»Miriv
r
Mf«tnO

• *t»b

«yr. MCMM
w- naM»

no

VMRUMDtll

EXCEPTION SyWBOLS
nr ....

A>V» 1 •/*« 11, IV
-,|iiin r.-

:a> t*9«WU»«J»lD
-tVj M*C*J 0 If CVforr
.1- CAkmll<k|Ui'Vi|Mftl|i
•:;* 1.114 lf^l«Mlwmi

!

.Ni ^

OCSCfePTWE STMBOUS

dm.

60w.Hnwa

»r«M<«a
STHtTCHiO

*e«»Tw«i»

;

s. co*«n
*.<«w
% <*irr
LKO*
DIM

£

» *MW4

AMV

r. wrrtn*

II fiif*#?

IV SEW

*8 to*
ii.vTMttn
ti tIM
l»CO<R»
*4 ttttl

rr.oeo*

* at*

r* own
i*

NOTE: 7HE OM1SSJDN OF THESE SYMBOLS INDICATES GOOD CONOmOM EXCEPT FOR NORMAL WEAR
fTEMl cr
NO. REF.

ARTICLES

!
;

ftoaUS

t
2

feooUs'

3

J3oplc£

CONDmOA EXCEPTIONS
(FANV)
rr&M CR
AT
AT DESTMA* NO. REF.
OAGttt
now

f

VCT(\S {

7

) Cibl^L
.S
T A If Va f\s ( <faV’io 'l

9

5 iLCr Papers

| /-.j Jp-T ( (htaS

0

~

2

Ur

3

l£

fc-.Us;

■V

K<kys

M'.st ■ /
0 fe/*t M\SL
1
.£■ /tiSC. £o/vy,_____ __________
2 \Ur
C*- ^.fC-AA_____________
3 LG- Mi SC. CoLta*^-_____________
______

4

7

U Stair'S ICrlcLu*-

* %(r /IAc- <^Krap______________
s
ijWs/fawQ CW.via-Sg.'V

9

TaUlp.

0

6 I/-G-

Stfealw________

1

9

a !

5

c

isr Cun*

i

3

.1

iOoa^. .SctA<P-(-wg

(

«L

----_________________

A

Ares ft ^

*9

/|r<a P-9vv-

S

' C-Ucur

a

__i-CktuA . __ _______ __

2

;/ii booit<rA'Ac- Ws,.

7

3

Sai picaUy/Hisc . DorS.

t

~ak[e.

( 9^V'.oj

5

J*f^gfe<e /fe:.

9

v-^o

A

2*

/
REMAnX&EXCEPHONS

ITEM
NO.

‘NTM«Fe£MCe)rE04LlTMe^£M3UmOAW>M«ai£AEOTTO
Met£O»f>W0AO(NOM2OCF
tv
that rtasts * TmtZAttoctmnsmjsr or ms goods r&iDix£DAHD of tme surroF jm goods f*zc&yzcr
tape lot ho. J}Y0A/<
WARNING ________ ^
B&omsiowtscheckSHV’M&rzcowrrrrnrsamdoEscsnat
f---------------------------- -■ ■
X.OSS CH DAWmf Pi SPACE OH 7H£ B3&T7 ABGVl.
NOS. FROM (5{

TAPE
COLOR

QcCgio^
THRU 'gOCA

03MTWCTM. dAWItn on iltmNWSCD A6TMT rtlMVtA)

AT
OR) SIN

J5*0NATUJTE>
OWNER Oft AUTTlOniZED A0£NT

1

.H

______
-EztLXsbli

ifiL

2

C»wfvi»,*r^L6rft&)

1

4

?aj>-er s

km

j C L«ir-______________

0

■A
r

tOu nfc., r\

E
63£^a W .friSUfok / kAtUu
7

?lg Jt-i C

7»0N

\

QuVl/ 5sL> l-k/T

6 |L^~ V^o-w-s

7

DU7MA-

OftKSDf

6

8

• \A

CONDVDOM EXCEPTION
^IFIW)
AT

ARTICLES

AT
IMTC

DESTINA­
TION

DATE

tSa&HATVffQ
OWNER Oft AUTHOROXO AGENT’

OATC

PDF created with pdfFactory trial version www.pdffactorv.com
DF created with pdfFactory trial version www.pdffactorv.com
0127
PDF Treated with ndfFar.tnrv Pm trial version www.ndffar.tnrv.r.om

»*.

^'

!

• • 4 '<»,

*:

V

MajRjFmwwiHT*; .
CONTRACTOR OB CABKER

. www.rrbfcumpnntiogxom

HOUSEHOLD goods DESCRiPBVE INVENTORY

YO M oyind-

| <mnspa>oM(KOf)nAUWA»f£(M
OttOMlAOADmOAOOMIAS

BACtBO

AW?fT

Aa3L s

AO «NQH

o3 o$

^ -sU4ov\ <S^> io^~

CMnmfrs RiwttMci no*

-----------

[■_^__gA26_ALiL«££^^

5?ATT

CA- 43720

wi Slimttonntip
*W)fMWU

DEftCBHomZ 3TMD013
c»t> • Oc\mr<u» in o* o«m*

>*

*■*»
w

-»i.

■Ai'j

r>C'to

’■*' -

''■VMMMtl

W*^

(mwwM

» W«rt •'«>!«',

**cu ww>«&>tcoMiir«y,

2 STMEO^a

EXCEPT*

or arwr
fM.fMOMTA

r . tat*ro
n. ncvmu

CM - CM***

k- mow
“• ***^D
•* WA*

n*.nn*
• 'TO^qni^ai.AOWt
- ...

»Om 7»E OM.5S.DH OF TOESE SyMBOLS
COMOJTTPB (EaC£P7K»»

rrCM CB.
NO. REF.

Afmci.es

1

/*t£ Lt**h

2

L<°-

3

SM

« jSoi

5 jFot

•»>

7

i

VB

j\ie.
prart-A<_

9

8

rr

, le.

3

Ft

ch»ir

»1C

4

CUjr

Q |Sa<

5

eE

6

^—

0
1
2
3

'

5

CC/>.\r
.To.Ue l op

7

lrVt* fi/r <;

e

mD

Au‘3c.

» iftM

• A<SC-

ITEM
WO.

a

—iY^rae. AkU»..« /IririoiC

-IrLfjr

CliAir-

Sooks

9

e

4

EXCEPTIONS
(VATTT)
ATOESVMUA.
hon

A7
ontoitt

CUjr

3

7

2

coMomoM

Acjrtcktijz_______

7

CU,os! r

I C
A <•
cJk«,;r

3

ACMIA
M.nfiR

Choir

9 !S>1

i

UtSA
*WAO

T* hM(M*n|

SiSZYkLw f

o

Choir

0

^

£«“

»r COOK
It, atwir

K ^?jr; M

\/GCCUuiy>

9

raver
Ti.vtntew
uooi

a

D? DT^p-dyL.j^n^o

■i

e

» comup
* ”5**
urr

rum
.-,_____ rrT

6

S

2

s

k S5YY 1ST

ARTICLES

fy<u.t€-

4

t

nn00 CONMnO, EXCEPT ««

6 |&4 Fv^'.m.

’

t

tv • «owte>»i)
9M. vmw

7 SV*

3

90 • MIUI»
»» • MNWO
A
»D»tTi1*p

m- m»tiq

(P'Atfn
TTEM CfL
ATSKSmA- »0.
REF.
non

AT
OBCM

tA&XTWMaTMBOUB

MirnfAOk

Cm

£m
Sm
?)/Vl

<>>7
CM

'txaic.S
booUs
&&oUS

£>&>k.s
6Poles
fcoc^y
&Q&S

Books'
£&2kS_______ _

SVWI

9 5/^

°l£/fl

&&oU S

ftooU-r

flEMAWKStXCfiPTlONS.

S^SSSStSSS'SSSSSSSBm.
WARNING issssgggEEBSSa'
wimrMiiiin umidi ra suiwwjfHi «a*i (owvwr ' o»f
AT
ORIGIN

tSiGMATUREy
OA7E

J^GIMnWE)

tape lot no.

IK2.4 /5

NOS. FROM £} j

COU)bO C4n
TMBU

itmumiuMien M AOmOfRKDAQtNT^mvO}
AT
fMOtATUat)
DESTINA­
owwfn on Aviatomno aqent"
TION

/^Q
tun
DATE

PDF created with pdfFactory trial version www.pdffactorv.com ~
DF created with pdfFactory trial version www.pdffactorv.com
0128

\

PDF created with ndfFac.tnrv Pm trial version www ndffac.tnrv com

*.
•

WILBURN PWmiNG • «HV99^S8SO .
COHTHACIOn OP CAAI»£B

ww.rrrffacrT^inewtj.corw

HOUSEHOLD (GOODS DESCRIPTIVE [INVENTORY

Y C) M.O^S^ k Vn
D*owuuMiniuw^

^ Piecf-oafis.

COimMCTmota. no

KCEPreW SYMBOLS

wo Munnn/’
JO frr fMista
I’VeSMWH *00*1

______
__

oort som oaoth no'

CA 4H>?zo

Ffgf.rv%

DESCJUPTA/K SYMBOLS
■ hlac* twmi iv
'.-'X.O'* TV

C* CAnMT'iPACKfD
•m» rACKTD m (wuh
»t>
I7rv«.nr4 r*TM1 (>

c**wws n^utwiMi

SanjeK___________
*TAn

OtSTrwkYKkn

“-sss;s»,___ -

». rss„

:
K:SSS.„
«~o~»

- S.
1r ST,__
SZZT?*

;sSo» J22" »•«
I* £S Sis..,
£«« :i s*me

WT& -THE OMjggON OF TO6SE SYMBOLS WP)C»TES POOP COMOITiOM gaefPT ^ WOHSUl W£AR' ***
ITEM

cn

AHTIC1.CS

MO. re*

CONORKVt
XT

ORCM

Etcspnans
of A>nr>

irEM CJL
A7DE5TW*. MO. REP.
DM

ft? Pn..»r

1

A1

5

7M

6 ImJ

7\jL

3

bstolcS

L ut.\s

i

ll»l<KS

2 1-Sa)
SM

fecak S

4

5>t

5

m

basics

O K,4f
&gy.ks

*

2 5a? GtoolcS
3 iSai (V^fe-s

7

#•

s

M.V

3

^.‘hfuS

7

L’kW

if
>■

£.
•

----

fosalcS____
fcoolfx

St

a Sm BeaUs
o
L.'*citc
1 (-C(All uo>l c

Iv

s mO Sh&es

3 Mr! I tufa,

3

9 —& i Lf^

aU»

4

0

I Printer

fifl

s

5 js/ti; /VcSc
2 5^i A'‘SC .

6

*■

ti'.nens

«

4

3U>*.f

/t'Sc
ClfrtMw*-

LW

.^0
rtO iValfaa^.

/HWc.
9

/Hit

rrtw

■non

DgC6fc.fl IKL <Shc...Y/»*»n

3

5

(Vamv)
ATDiSnMJh

° (S^l l?HCn.S__________ .___

6;n^,j

4

Exconons

Lin-tnei

^ysiAr<.

3

AT
0/03M

s

s
1

**"■*
corotron

V

SiCr

'jH

(Hum

L.p j^s. „

&«3k5

4

ARTICLES

6 /Hj

2 S/A Bogtt-T
3

M>. OF RtSIt

o 2 o?

Se Ki.or

OmtMonJMMM1f«Mowunr

/^[ 6 A Lt v>

PACE NO.

0

M

t |wf*

tREMARXS^XCEFTlOWS

MO.

mnmnBA tbotak.

WARNING wm+>
&BSIIWDIDII UWfitflM JUjfw8iM«ni£»*j lliwuur
AT

ORJG3N

iSt&UaiffiE)
owmep op*AVTMOfazzo a'oewT
rSU3RA7UD£)

of mt S^^T^coo^^^r

TAPE LOT WO.

PX24lF>

WO& FROM
^ 2.
THRU
*SWH4fia. 24hntn o» wrooccro aenn .nun;

mi

Org,MO
/OO
MTC

AT
DATE

DESTtNA*

TJQN

fPCMATVPQ
CMrncn Ofl AVTMOtfiJTIO AOlKf

OATE

PDF created with pdfFactory trial version www.pdffactorv.com
DF created with pdfFactory trial version www.pdffactorv.com

0129

PDF created with ndfFactnrv Pro trial version www.ndffactorv.com

.* '

J

5pv>

UHBURMPHIMTIXG - 800-999^690 . '*WW».fT»4&w<TJprtnhf«^ COTT

04 on CAStFttEn

HOUSEHOLD GOODS DESCRIPTIVE INVENTORY

/Movi

SySr-fem _

otMifisowo* on iwnoA«oiu«f

P*OffW.

ol 0pM.QFMQB

*CtV7

C"w*»<n»iTOaiw

S CW \Of~

e^-cAJS'----

coyt«fnMCTono«A»to

ocsTouncn

C-^a^cCl-Vt^6a-axA^ 0

j vAAMwonn

“

------------ --

OLaGforrtvz svmboxs
t<-*v mx.* tvwaiL- rv
■*«• '.WFrtitrmtn
*-*»«•«* D'SV.VWMII

IW- DFUSWMtrO dynw*
*** ^•OF£a*Mt*»*l
rr • f'rvai hu>m "nu»s»«.t
***■• . FMOBF^iryMt. nu*(m
MCii
<:orf-rrx>.

nc - Mw?

“■KSKa.

WOT£: TOE OMISSION OF THESE SywgQLS tncocATES

rraw ca.
NO.

^

ft£F

|

_____

CfiMMMW BCSPTWJS
itfJW)
m
ATDC5TMA.
omctw
Txar*

ARTICLES

3

*i>

l-y^te.
P j/tf) Camping.

S

iM

0 t*tD

rot-S

—fabrics
C.
1 cJ
FVq</j ^ __________

X

UuA*S

3

MD
MB

common
AT

E2GSPTIONS
OF AMT)
ATOESDNA>
1>0H

ClvUi'.Yigy Fabric

Livi&*s
liVtflt-S

Uj

________

■G- I (Tai^rnp-f-toy

7 Mr
___

C6**oPJ*t|- C-EgY*

s

dii iAvens cURj*

9

A<0 Li

s

ihP.Uia^i

~

1

N,c^;u>.

2

S/*4i /^Sc._______

3

^XXM-St.^vi K-

6

7 i/I
a

3

Srf

El0j=U5
-ilMBaoK?

"im-US

s
0

SHv c

Susy«wjl»w^ Lft.»]p.s
SfeM'-i.ftw.-k- s^;4cns<».

S

Vjs^fAiuiCS.
2 ]f/»l FaUr^S

_________

Ll*vtn.1__________ _

4

lESliikics

NO.

t-iwtwJ
L; K-ex-f

L.C L.iwc*S_

S

9 Em I fs-gj ii-S- IcJ+cUk.

rrEM

VOCJKROtt miBOU
I noWT
tv SLAT
» an
rtsmua
rc top
it. ooon
tt.VUsfJB
ra.»«ip
rj. tSGC
>»«EMI8>
M

nmov
conmn
xP0«»T
LETT
“»
RVA

4

j cWWny^/'FabriC

a

BoettS

MO
Mfc

LG

5

a iflD[ Fftfr'fe

7

$/n

9

3

3 AID Fr«t-’ie_________
iJ/flill TujlK'TVAif-e /p i <a,c^es 1 !(° ool-e.r'
6

mw

^r-

&|

1

*
z
?
*
3
*
r

OHKSm

0

ki-t-cUo.

LMp —sUflfciaa
a

s

—,Ey*J'

s

ARTICLES

MO. | RET.

Ui-h-u^v

.M

SO . BUM Ip
*r. nwice
s- imtfonn

coop CQMomow except rm normai wear

trim cm

t_ Pfi Di^Lyactc CL'-V<l4*i £loss.oo.f<>_
2

EXCCP790N 5¥NB61$
o»“>»r»
mir*9tAra>»
•mo
p TIIlM
IIOVCVP
•*- HUBWO
UMM

•*
f•
O•
• -

::

............ ...........
______•

_______
Sm\ Pwoalf-g_______________ .

REMARK&EXCEP710NS

TAPE
COLOR

WARNING
Dorniuom uuaia un auiamyniiDw iikStois
AT

ORIGIN

one

IS6NA7UMO

CMC

THRU

MiiWUTOl 4*»wreon ttmxmuro *onvT lonvcni
AT

(3*0MATU»g)

ow^on/Mm«wnm> acemT

NOS. FROM ©(J J

DESTINA­

TION

tSJ&ixnxnT)
Oman on AunKwno aqini

PDF created with pdfFactory trial version www.Ddffactorv.com .
DF created with pdfFactory trial version www.pdffactorv.com
•
0130
PDF nroatfid with ndfFar.tnrv Pro trial varsinn www ndffar.tnrv.r.nm -

MC

date

r

la Me.

DX17S0

220

E2

WLBURN PWN1ING » BXK9W-6MO » wwK.mitbumpwaliffgcqm.

;

&

HOUSEHOLD GOODS DESCRIPTIVE INVENTORYfr

storor carrier

no. o» wu»cs

«Ov

*0

0 7 c£

S/S^vn

ThSwRs OAmot on axnwa mo«w

CMnvrswmnet no
7s

^ Jlw

—^ M.

S4Cfrft

eowniMr awr or. no

sw*

fk-W

CO« HI

C.4, 9 2720

ossrvwino**

,fc2

•> ,v
tv
ivmiptrv
•;'• CAnmrn i<*C«itD
.'i\i i'K>.ii)r»(>iVifM

DESCRIPTIVE SYMBOLS
i«n nvAMMotriMr OMM*
tm mjrrnn»XUc wo.

exception smttOLS
»m - wm*r*r«^
**
rtajw*
<1 . IMMMO
•
<QO!M
ID

mwrn

n»»w.i
VICKAMC** C‘>**XtO'*.

r^l. ontarrurT

ar
%■

tTMwu
*n«cTCH««
»o*w*

JvyyIc^

a

2 fr*! Bepier

T

2.1 1

3 Ml fc^<T
\.'s^ShoU^
s t

6

8

1

<3&ssl‘cihte'

5

f~ r.~ f t

7

{rriil

Aa

£

(r I'' H

/A Cf

At 0
2

9 i

4

3 I

$
6

i&%

pjS-.'O

7

PrV^ufg. &/

a

faffo

4

U^'Ate^A flaHT1
(_>•<,; r Lo^fetc,
r,(xnr?i-e'Sk-wff

3

J-Sfiiiifc1

If’&Vllnr.r/i______

1

?«*'./•»

2

r:

9

7J____f/rLiO
« ! : ?<Ui~

l

GtGEPDOM*
QFWT)
ATDUTWA
DON

AT
Oft) UN

V cfo

4

s

I i^d- 'iff

6

COMOITIOM

^>iC-V^r<^

'

li

9

^sjsfie:

5

<3-rgyH;^e

2

fe'A \g

4 I

t* IMWWWM

3

?5f IQ

■

(4 met
?»
f« MOM

1

9

2

n

14 PMH*4*
ir DOCM
ifc Mir

pogf/g^

e

-j^V-o_____
_____

7

CQfHtU
fWO
UPT
UU
BTAB

ffirSSKwf.—
»«R
ittTDP

9

pq i i n C'U’Z 'it'
pq-i-io

6 I

3

X
4
&
4
r

MOTE: THE OMISS8QN OF 7»ESE SYMBOLS 8HP1CATES GOOD COWOTTON EXCEPT fOft MOBMAl WEAR.
wgrptoms’
COMtnOM
IVMV)
fTEMj ca
ARTICLES
ARTICLES
AT
AT ©ESTIMA­ HO. 1 RE*
OfOm
TOR

CR.
RET.

iHj

jTrr>

• (ow.<ii«j>»iM«r

»TC«
NO.

£

ywmimj

0

WEMARKSXXCEPTIONS

rrxw
NO.

'HtMyf£WO£S4U rMfflZMSlffnDiWMMBEfffOr TO
mausrY£Ano*cx/tvm£t>GZ
THAT THIS 19 A T7tU£ ATK> COMPUTE US T Of t»E OOOOS TfNO&lBB AM OF TJfE SI47X Of THt GOODS ftfCBYttiT
BlfOfiEBfQtSHGCMEG/f$*VPM£HT, COUNT fTEMS MO 0£SCfttB£
toss (MOAMAGt /»SMCS Ott 7?«F fOOfTABOVE.

WARNING
taminDmu)Dinn«ineiiiiDi£Sii iiwroM
AT

ORIGIN

TAPE VOT HO.

^I7go

7AP£
COLOR

THRU
»DS. FROM 2 2 (
iSUnUifiA. iJinnm on Avmomrco aoiht i&mwi)

BATE

Vglf^tQ
7
OATX

AT
(5JQMATUHE>
OWNER OR AWTMOTOTEO ASEN1

DATE

DESTINA­

TION

fS»04»7UPT>
OytHEB Oft AtfTNOMRD AQ1N7*

PDF created with pdfFactory trial version www.pdffactorv.com
DF created with pdfFactory trial version www.pdffactorv.com
PDF created with ndfFactnrv Pm trial version www.ndffactorv.com

oatsT

luuu

/uupaypu /vwuw uujbjaA \v\i\ ujd /vjuvjBjjpu mj/w pyjyyjj d(Jd

3EK)

MLBURN PfUNflNG • HCO-MMEBO .

HOUSEHOLD GOODS DESCRIPTIVE INVENTORY

cowtiuctoh <n umn

M o^&yju4>

i

l

f unr

^

P«W M>M «M «MHia AMP!

^ IS ^Cfe^pwv.

|~rrr?7.?

gl

►

I

acmN«wiou
JJ-

onuan fv

2;:

«r=^ - *■©•«>**
» i#

»imwi* -Mi

*. UMt»

•.

V* WWW!

*m

•♦

n» I imux «iMliH'»

ARTICLES

*«.

*1
onto*

. P6c
w.

!S‘ M dtl 'ga-U^S, ^

At Ot&flMA-

non

no.

✓

8

EL*t?»Sx (li*4rirk.kirc$, P/3&

^3

t «PM

ft*

« M»

* urr

ft iJGft

wore; THt otmon op twem rrMOu mt*CA7ia oooo cowomew excerr ra* normal wcahr mm
Gomxno* Eictmom
(fiUfO
ITEM C*.

rrtM Cft
MO

LOdKMtnBOU

•» . «*<
£
*

ARTICLES

my.

frMtM?
• mm
t*W

n iwai

»iSwW

t* NUf

SKS
r«.Mit

<*«■•©»

M

cxwcmow (uccmo*K»
<r *wn
AT
«r pcitnift.
omM
non

7
8

uu

1

fib 7&
Fc*Im'Oaj y
rwl

rL-G^X
ArP4 7
* •V. pt/

V
7

iUz.sr. eal

fre

8
9

’4°

fee
ftc

'^1

—**»l

^v/l^YVOV,

irrtar

i

^Vatjyvjg-^

<S CO

3

3

tev^AdLoars"

CTAtvvlpfCiC
4iaJU-

3
4

•S r-/L<* Jtl/ fe^tSE* k. Can*. ^i
oS&£&££f*=z

9
6
7

fvA^LjH-v-1e c 5

4^jg(k^. X& /;swm..

-gUomP

»

7*

*Kfl

9

i

2

ve
✓*

3
4
9
8

V7 7
V7 8
t

✓* gf0

ve

i

Z
3

\£1
8

1

8

Z

7

9

8

4

a

s

J>0

IVU*

"5

af

7

4~ ‘Zh^^Cf^s
-fr- t r\rt\s\ ^ o-ie-

RTMARIca«XOePTIOM»

NO.

'Mr*wrcNKi(B4u.rai/na»urra9ANP/«iNiMitc9> re
m«r rM • 4 nur4nd comcic U97 op nc ooom nmoowo 4M ««> n« smv of mt eaoo» MEcumr
CMCOKOMNIfW COUNT RZM84MOCOOMK

WARNING
AT
OfWtN

L

■ ESLflSfcfl

un o* uuue* m erne* cm me son uaa.

umtMibn. CJwia w linwwiu «i«TluwioT'

wwwb

WtLOTNO

>C

m

AT
IB8TWA-

RQN

cC.

cotow VtJ-

i5"( ™"“

eeimUMK. ta*MC* «* auihombb »«*nt

MX

OwMftbli *4J9NO*Ji<> AAtMf'

CMTI

wwmwi
fOnMfnaos aev i»a

aiuj Ajupt^pu /vwvuv\ uujsjy/v |yp; ujd Ajujjyjjpu 44j/v\ pyjyyju JUd

C£K>
“UMWHWIWQ • WCMMWaftd .
covrotAcnm cm cuumcit

HOUSEHOLD GOODS DESCRIPTIVE INVENTORY

moam

AQttT

WmMMtOMHM

Soriffi.uV.r-i

TCTrSVui c^nqejp-jr'

__________

,, jCpgTS-teSrijb Tto.fPnW-T ifrjp. .ffRWi CA a ■?&?, I
fitaoMmuMMif
w*wnt fv
/ entw «v
<n
•*•£» »«cwsomc*ms*
VW

wWill

ircj»
ho.

■

no

At
0«0M

/?v i > */ri

M
h o'\ '( iaj ,/ts a

a

X±.,pax

)phfi

A

tkkulQr_____

i

a*)

y f8c

V

AT

at

1
2
3
4

a

ET

r
a

«xi4

Utwk.rf

namm

articles

a

ML

*£j&~
XlBth-t

>v

UMH
KMONfl

S

Sh i {

2

Mi
UOOQi

£
i£8SL
K.MH

7

CrALfr-vK>4-

/0->
ti-rii

m

* «M

a

AiJlkx____rn.......lifec.
o
Mh.(f. I

ft

2:

t«nM

oom

f

C ,cv( P-e.^

T

tft.urr

r

ck,
ftVS^L fTKM
*o. W.

1

XJ, ^gjc, t&'l'hc JjMt

0

l:4*

owriow
ARTICLES

3

9

Kocxnmmmn*
no-

P.
p.

«
i un
Q**”10*1 0* Twgse arwoota noiama QooocowpmQw bkcw row hohmai wean’ **-

fT~C

4

9- «MW

S. loaulni

■

C*.
9m

2

?

aw

l

"JHM

lawaimwou

nv<

knarfi

I

ft

Xlo

s !

i^c4 tjj£4

T
a

a

a

£

3*ae

4

*>&r+s

u^i-hxjQ.krC4i.\&'^Stu la/................

t

2

j* 01/As f~

a

CAf/Mvf

__________

i

fe£

2
3

«

r*c

5

5S^Z

s

E
0; Is

If rC

PbJG3^£

4

i3

5

mi

REMARKMSXCEPTtONS

NO.

-M«MUOTc*«cni>4u rM>/nw»u«TK>4ft«MiwMM»< FE>
McumnmA*OAC*mm.toc*
tmr run m « rmjm wo cowplot u»r on m« aoooi nmaamo turn or rm*mtr 00 nm 00000 ncmar

WARNING

------------ MMMCMecKflNMiaNi; count muatJMe
ton ON OMUUMS M «MCT OH P* ICKT 4«MK

ounintowujw^uatuiw«BJ»uiMUw»i«i

AT
OfUQlN

I4KMATUMI
____________
OWMEMO* MlTMOWTtO M4WT

(woufmifi
nwnuKwmin . too NW «»nq ■

UAIt
oAn

TAKLOTHO.

[y^L4

moo. mow

Utf?Mi£T&LfiAlMn on
AT
DCSTU4A’

n<x

iWOWAIWWn
aw>Nuio»*uiwo««gga«qciftT

Tape

couni
THRU
(PIMK4I

o«rc
a*nr

Rwrunwo
POflMTUSOS REV <M

0.

Melissa Martinez
From:
Sent:
To:
Subject:

Madhu Samesr <’Tiadhy.bambnac@gmail.ftsm>
Sunday. June 21. 2C15 4:39 PM
Dylan Cortina; Tam' Biton; Michelle Frarw-in
Re:

MiclieH. I thought 1 did not have your email., bat 1 just found out that I do have your email.
J had informed the crew that the large dresser from my bedroom had the least priority. It is a six ft long,
horizontal dresser. There is aiso small bookcase from Kabir's room, and one from my study which was atop the
hookiwks These dm* items are space wrtaiswe, and ran safely be left behind. ITfee stuff outlined below dees
riui Jilin then, two of fee smaller bookcases from fee study (a pair that arc identical and different Horn all other
bnokcasesj may be left behind also. I'm SURF, that fee stuff outlined below will ftt *»fo the space created by
these, but if not, I will let you know of aft other feings that are fewer priority - if you tell rat Hurt fee swix below
still does not fiL
i
t
What I want to be picked up from my feme arc 2 exfoi large toes (bav* musicsystem), fee flat mi TV, a
3hmtvper fall of wires for X-BOX, Playstation wirings that was packed by tlfeinoygrs;Uiio a ham|x:T74-5 rogs m
various nxms, 2 small filing cabinets in fee study wife important docuraents {whieh i bad informed ware
important and eatmoi.be left behmd#3 very small tables feat were in the kitchen area, agnail fo dablc
bookcase (them wfere a set of two, for one reasons, fee packers took one. nod left fee other one sitetg by the
wall), There is also fre^farge golden framed trtiitur (which has been, dismantled) and afiall-tree. IfpOssjble,
there is Ismail bookcase feat wfl&art of fee dumb waiter. The dumb waiter was fetppefe.but fee fop was left
behind. However, the last one is not absolutely necessary ifthere arc space constraints, as fee dumb waiter can
fraction without it as well, but if possible it would be great if this can go.
There is also a garden umbrella that 1 hail asked litem u» dismantle and pad. Wltcn dismantled, it hecotnrs u fla.
2' x I O' package, and doesn't take much space - it fit into my car mink with a bit hanging cmt....!!!! feats how
little space it takes up. 1 think they were getting late, and therefore did not wish to dismantle it. However, the
reason I paid for a 40' container was so feat I may not have to buy all this stuff again at fee other end.
it
<3
There is a garden chaise lounger, and a garden heater.

On bun, Jim 21,2015 at 3:24 PM, Madim Sameer
URGENT ATTENTION REQUIRED

wifee:

........... Forwarded message--------From: Madhu Sameer <madhu.banfenKVifcginail.com>
Date: Sun, Jun 2 i, 2015 at 3:24 PM
Subject: Re:
To: Tumi Bilim <cnstomcfscrvice@xomovingsvstcm.cgm>
1 Hi Tumi,

DF created with pdfFactory trial version www.pdffactory.com

0134

PDF created with ndfFantnrv Prn trial version www ndffar.tnrv r.nm

.

Maiissa Martinez
From:
Sent:
To:

Sublet:

Madhu Saneer <roadbu.bambroog&jma8.oorn>Sunday, June2l, 2015 7:03 PM
Tamt Si:on; Michelle Franklb
Stuff...

I just went to the garage, and saw that the packets bad packed fie top of one ofmy small side tables from E'thaa
Allan, but .had left the leg* behind under the garbage bags and trash. Thosclcgs have to be shipped...
I also found a small box of all ffiy CDs, all packed tip. labelled but left behind in the living room near the
door,... they must have let it at the last mmute....as it was near the door.-under stable they had dismantled but
not taken ..wilhtfacnu,.
...
^
There may be some odd pieces like that lying aroimdL.a$ 1 sift thru fhe trash, I may come across a few' more.
Nothing Is big enough to attract instant attention, and I will let you know' atom the small things,.-

kWCT

^ too, fio
j)0 \^C>\
*

# $£rwv^We. Se*

4

;vt

£v*vwv'MV‘f- X V£WV t*st ia\\\ Soiekf
Ve
u^vv
oV
aW«k nuv*b*r«4
ttvicefcl
Unless
O+VtwrwMie Q ^rovKiA %y HV

$
’<4

&
w

4-u"
-Xo

t

"
OU/Zl-'teft
C'AO^m

1

DF created with pdfFactory trial version www.pdffactorv.com

0135

PDF created with ndfFactorv Pm trial versinn www.nrlffactnrv.cnm

• .- r

WOO'AJOJOBJ^pd'MMM UOjSJSA |BU; AjOpBJjpd l\\m P01B0JO JQd

9£10

_____________ ________________
1

ms»wi»l3 • 900-998-*80a *
ccwtwwnort m comm

HOUSEHOLD <3006$ DESCRIPTIVE tNVEffTGfiY

i

.ttmer

...1
fotP.-^FRY-ftTfe crenCl

mtemmsSm

i

1

TKS5wiio#**i3i
WMMMM*

etowxw «v*«ow

DWtl'OTOtWIU
*»>-»»#«*#»!» iy
«*
r*

sr^ssrx^r"-

**!•»«*.
M<a«K»N

rn « |HilKHi—i,iCiTi.f>i, JlAHiWl

«^<******
.
* oMprr.nMi««u^ppw

•<**» at.

eoHDnwM

A!mct£s

<*o. ms>.

A?

omaw

ft L .S" Cu!^2ig}

3

‘yi^t (f ben

4

..A I- p\\X

?y

*#frfe.

«*»*(*

«*» w«*w,9#wgM»'

asL*

£MMisffs ■Mmmmm

KM

<V e<
\&Sm$

3S£
no*)

t

*m~. mam

imt

m

*>« i

»> affttfrcru*

.... ......
s:
W - m**i

CR.

W: <*5b» iwfeiat
if •

JMsmctw

HO, REE

s

immoumMui

issr

NSL. 12?

2!

M

*a*

■i*ar «tsa».: s«

svfmmm ■msBtwiw
wr

9MM»

*r

WCm

7
«
i

»
t

«

81r

7

/5jI-

8

s

0

lvtir^5r
thifSCf

1

|yiW

untWfe.,.
Tffi (i

?

1

Uaa

..ft

A

*

t~V *1 ^

1 lO( rjfrkxz*4yC£.h-

7

<t.i/.*r< i?(hs f-r
! Iii 'j w />Wnf

*

^TfTCTTt...
<) ,kO£-k&M£
cv%^/y

■i

5

t£
l&

»
.?
»

T
W

;fe

f

2
3

%£l

4

&
*

ml

T

2
3

r®*'

m

j4u -4 fee

4

3
trga*
N».

5
4

fee

5k^i/

SC.

®

2.

&

9

2£.

REI*»,RKS«XCErnO*ia,

stsss8 [ r:r

WARNING
«^8SI6K^W®WJSP®5KSffI^Hrr ©ST* T~ '' T8S«i08wl&pii^«n^
M
ORIGIN

Iw 9* Mmwictio «*.«r
iiaaiwnwii

.oaMKin r«MTWR »

r

"cat*

f

AT ■
CESTINA- ew«» e* aBBSSSSawt
T10M

- ge ■

SAT<

OATI

iiaCHATUAO
F0RM 4U»0»8 REKM

Z£K)
WILBURN PRINTING « 900-9894690 « w>vw.miJburnpdntfng.c<xji

HOUSEHOLD GOODS DESCRIPTIVE INVENTORY

lONTBACTOR OR CARRIER

►AOiNO.

AOMHT

l

naansitaim

CAJWKJTS MEJF€!KMC*M%

*

O*0£U*?GfMO$Q«|RATJMJAfl&MAMr

t-j

PMQM U>ADIMQ *00*18*

CMtSTViATKiH

‘nsr-a-

A

^rrjys
a&fK kjwc® oRow- *&-

VAM-HUMEtEn

--■

faccErtwm»oui

OfiACWPTIVl SYMftOiA
iv*rt? - «LAC*i 4 «*«'&TV

c-coum iv

SS°^5«SSSSP"’

Ctt *
«XOMU!ND*»k£L»
"TAT $»H* SC»*

W> r
MCl» -. Mt^MAA^O^'eopStrnCi!:*
ONW6SWW'
•'•••••- •

O* * CAAMgft P«C*ia>
poo r PAduUfc «y <**kcp*

MKf
flPWKiW
.-mi^.qoPTflKT

S:

cw-oww
*, cokh ijioo u»«uao*v

.. .

condition

ARTICLES

AT
QBtGJN

SI
. JacL-fei

fife

}:f*m

c4fwj^ ( (£j4 5 )x ^T"

&/. UfrO*.
ma.^

7
8

__7
* *

1 ML

9

i

!

tN/AvrV&yc

4°
2
3

”7 Tv7*

fg6

9

g-'ggy*’

»«w*
:
(MAywatiR

w

yX

omoiN

excernowa

*r(S£SL
TKN*

tumult
» -|-f

J..

t Art no. ^

1

2

flK
pfeQ

.X

3

X^

4
5

6
7
\X
■a/

k, <G«a€ -!

9

9'

gf°
1.

7

»

aA^.vJJ

Pi

M5T :$&»
S8SF SSSSU
CQNWTON
AT

ARTICLES

M&L4^-

J-^e.

6

N\JL^bhr--g

TA'LfWjg X'&r%w£u

8

..-7

8

f

■Sr/L^JU

S

—

7

..~F*-*r:________ -

4

t. ;CMA«K8«»'-

6

\xrt>Y ^CZXJft.v-g—
vS ipwy| /&vx.Vctoc»rs
XAtArJbtGMX.

1

Ml Mtl.OtTlf

?:

■f* MMMWv

CR.
NO. REF.

TION

J*

H^4i-felpNf

?6

S: *KSn2«»

O- OOMfWP
t,. U*M*

Aif^aL- item

■yPBft
Ar'S/^
[${ y < 'q\*r&'(A* Woi ekafr^.,Mr</A /3&
T

r sit T^ssfr*
£-

; £*»
HQTZ: rm QmSStOH QF THESE SYMBOLS INDICATES GOOD CONOfTIOM EXCEPT FOB NORMAL WEAR.

tem ca
NO. REF.

*3 ■

LOCATIONSY*C*0t9

>. Mm

7

Tv •

3

9

s

;o
-1

«

-2

7

3

8

4

9

5

3>±

ITEM
NO-

REMARKS/EXCEPTIONS ,

Jl

wsssssssss^aSassaas^ras* 1™^53T
om
WARNING
•-

t<»wsc»OAMAOff«(s«»ceo«»<e<ao«rA80«t

MOS. FROM

ixlunioiai. cMKiEJi mmmmmmm

T-

AT
ORIGIN

«

AT
(ESTIMA­

OR AUtHOmZEC AOEMT

TION

ttx^aamlSa^

COLOR
THRO

tfiunuimil MftMsR OR AVTHOREH» AOANT (PMVKK)

OAT#.

owNsnon AOTMCRaeo aobnt

OATS

(SIONATUAEt

[SIOWATOIIE)
URCtURN PfttMnNO •

TAPE

.CO*B

FORM #1160-8 REV. V9

i '

-* '

MJL0URN PRINTING . 800-999-6690 . www.milbumprW^.com
CONTRACfO« OK CABftmn

HOUSEHOLD GOODS DESCRIPTIVE INVENTORY

PACE NO.

t

l

w><W9*am

■ <Mimm Mnnwx no.
OWltltrt OJWOt 08 BAIlNa

2^

Khfiu feWPaWfr-r

OlfcGM

oesnano*

VWdtVttHA

etaKfttriTO tyaipeui
fl COMA* iv

art* ~ ws&i- a %w«te -ry
c*-c**o*sp/sc«a>

SOD v D«Att£MCL«DBV <>**<** ;
R*-«W3«0n®HALaoC**
wa.- pw<i».!i:—

*»o - 0AC«gpoYOtte«»
CO BAMWKO^VaBSMBLCD
«N .>»WEtfc>*%lplUpyOO

txu-m£MMCM,camvoti

excomowmwxs

ac-ctsr
S*>S*C*»*;

•

W-» MMH«0
c*o^o.w>'> to,
,<5MrD0|Rl»»S.A OgNOrWai* UNKNOWN

O. two '
,;p> rAop . p- pccuwa
-<*<99U9S»
** mmotP
v»
mt - mmtiur .
m-

kn.wnto
IfUtAMW

*c- •pw.rtMiD

LOCAnONtTMAOCS
90-KMUD
cr-«r*M}
»• UWCH«)
r* to«h
W* PA43LY iWWI
*• CfVMftMMP

i

ARM'

fA eg***
PROMT
LETT

A 'LCDS

NOTE: THE OM1S3K3N 6f THESE SYMBOLS INDICATES GOOD CONDITION EXCEPT FOB NORMAL WEAR **
ITEM CR,
NO. REF.

ccmomm

ARTICLES

xipsscn

z

ijagStj.QPU

tggSff.
jkrhwjy ffijgjp
c

fvf, &OX

...^

fflw im

8

tdUlOS
ftriAw#

ST

vnihfjk

3

~

.tfevak/T.gij.LiS.,. giadsL—

4
5

fsJtZS____________

8

> U/r nsjku^ss* k

8

jiiiiVy ri/tiur
*\~6 id u,€a hnnlty'^A,*

9

1

C i/Oy orJ

2

C wff^4~
CM.£t&£L

3

foal

4

8

■

4

<2

$

Ipa:

6

M.

7

6Hl
Wl

9

8

X ?0
1
2
3

111

mZ
?^C
mz

4:
5
6
7

1a

9

m

5
ITEM
NO.

r

1

wo cv^ iHLdl

T

TKJN

c<2*

*«■

$

OfRONK

tatc&vom

3

•n \g ic f?i y-Mj-

9

CONOrnON
AT

ARTICLES

9

Sic

Cex/fi^vf

7

14

8

jcj.

6

ait

6

;^sb

4

5

ITEM CR
NO. REF.

AT
ORIGIN

yh?Jl>'</•*
(C h.oi

3

I

REMARKS/EXCEPTIONS

TWMIW CHECKED^Att TM fTBWI U*n»AND NtSKOWWO t TO
tVCLlWVe ANO ACKHQWWOQe
mm rm&M mmttmemmjem Ltsroemeaexm retmpeaAmm rmsT*re of meaoaoa mctmsr TARE LOT NO
aerotte voma CHScu smitm, cam mm and oescme
NO&FBOM
LOSS M0AMG£tH SPAC£ 0#rmftlGHT A8OVf.

'-fyftlSfe4 c^oh ^ qJ

WARNING
PotnnAQiortVclARwcR m flUT«(^o*Gi»iTtlvlHr[ ~M£
AT
ORIGIN

IjaGHATUIIBl
OWNER OR AUTHORIZED AOBNT

IStGNATUREI
HEBURHWHNTinO -. FWMWt-VKSO • 'wWwBHRuro^tfnE^^:

W

jCI

thru

'e^Lft^6^R«R OR AUTH0RCEO AOENT (ORWIR)
AT
DESTINA­

TION

DAT!

IMOWATUBE)
OWNER OR AUTMOAKEO AGENT

BATS'

(EtONATURBI
FORM #1180-8 REV. 98

a/b/^uio

urnaii - Keaisai 10 pay tot second snipmeru

Madhu Sameer <madhu.bambroo@gmail.com>

Refusal to pay for second shipment
Madhu Sameer <madhu.bambroo@gmail.com> .
To: Madhu Sameer <madhu.bambroo@gmail.com>

Thu, Aug 6, 2015 at 6:34 AM

---------Forwarded message---------From: Michelle Franklin <mfranklin@therightmove4u.com>
Date: Tue, Aug 4, 2015 at 8:28 AM
Subject: RE: Insurance
To: Madhu Sameer <madhu.bambroo@gmail.com>

I will not pay anything , besides providing a service based on your agreement for the first 40 FT container !

Anything else I absolutely refuse !

•
-. 4
V ■

Good luck and Looking forward to hearing from your lawyer.

Michelle

"4

From: Madhu Sameer [mailto:madhu.bambroo@gmail.com]
Sent: Monday, August 3, 2015 4:22 PM
To: Michelle Franklin
Subject: Re: Insurance

Your people filled up the container with things I did not want to carry, and then you refused to take it off.
But to cut the long story short. Let me know if you refuse to provide a contract for second shipment before I pay
for the first shipment?

And you will not pay for the shipment which I carried with me ?
I wanted to know your plans before I call my attorney...so be very careful what you say....

M„.
1/A

0139

ijman - remsai 10 nonor agreement

O/D/ZUIO

From: Madhu Sameer [mailto:madhu.bambroo@gmail.com]
Sent: Monday, August 3, 2015 4:04 PM

To: Michelle Franklin
Subject: Re: Insurance

Mp<ochelle, you ship the second shipment details beofre I make the payment. Otherwise I don't know what you
are shipping and if at all.

It doen't make sense to pay you and then leave myself at your mercy. The termsand conditions of the second
shipmentare already decided. So it should be no issue.

Please send me the contract.

The air shipment was due to your failure to pick up all the scheduled frieght repeatedly. Therefore it is part of the
consignment.

I will paywhen you resolve the issues.
It is best that we find a resilution else i will be forced to file a complaint with the licensing authority along with all
documentation showing how you have been manipulaing me, making me sign documents withoutproviding me a
copy , circumventing procedures and policies, and therefore causing grevious financial and other harm to me.

On Tue, Aug 4, 2015 at 4:42 AM, Michelle Franklin <mfranklin@therightmove4u.com> wrote:
Hey Madhu,

Thank you for your e-mail,

I left the office early on Friday and Didn't get a chance to see your e-mails,

There is no need to send 10 E-mails at a time, you need to give me a chance to reply .

The Insurance is a full coverage Insurance , and we already applied it, so if there will be damages to individual
items you will be fully covered.
i m 1= “1

0140

017

tH§ RightMovt
■The

'

‘P' ALL AUptiNB t;HE WORLD".

150 Motor parkway suite # 401, Hauppauge, NY 11788
Toll free # 1-855-344-5874 fax: 347-368-6536
mfranktin@therightmove4u.com
Invoice # 209160

Shipper information:

Bill To:
Madhu Sameer
9976 North Recreation Ave
Fresno, CA 93720
Service

Amount

Line Haul Charges for 40 FT Container

$6,500.00

Furniture packing and loading

$2,100.00

Documentation fee

$95.00

Full Coverage Insurance for $115,250 ( first $10,000 - Free ) +
Processing fee

$3,232.50

»-■

!

1.

*

$11,927.50
( -$1,290.00)
$10,637.50

Total
Paid so far
Total balance to be paid
Payment is due upon receipt.

0141

1*25

y-

Si

CONROY

‘ rS3Slli

REM OVALS

e ""e''," j?k. c yp(|

&3

,v c. v R -/* H e /• c-

ariwai^gg

lit
ARRIVAL NOTIFICATION

13/08/2015

Madhu Sameer
Christchurch

Our Reference: 2114544

Dear Madhu

I am pleased to confirm that we have received notification from our partners, The Right Move, Inc,
regarding the arrival of your personal and household effects from Oakland as per the details below.

Vessel:

Cap Campbell

Container No:

TTNU424O630 FEU
248.00

Voyage:

414$

No. of Packages:

Bill of Lading:

2114544

Weight:

6,313.00

Date of Arrival:

17/0a'2015

Port of Arrival

Christchurch

kg

We have been instructed that your shipment is for delivery to Door to door.
As you may be aware, it is necessary for your shipment to be cleared by the New Zealand Customs
and Quarantine (MPI) services before it can be delivered to you. Please kindly complete and return
the following documents to enable us to initiate processing.
- NZ Quarantine (MPI) Supplementary Declaration (click to download)
■ NZ Customs & Quarantine (MPI) Declaration - NZCS218 (click to download)
- Delivery Instruction Form (click to download)
Upon processing your shipment with New Zealand Customs and Quarantine (MPi), it may be
assessed that duties/taxes, physical inspections or treatments, such as fumigation or steam
cleaning, be required. If so the charges associated with these are generally excluded from your
removal contract and are payable prior to the delivery of your shipment. Should any of these be
applicable we will advise you accordingly.
Once Customs and Quarantine clearances have been obtained we will contact you to make delivery
arrangements. If you require storage, or are unable to take delivery, I am pleased to advise that we
have secure storage services available at the following charges applicable from 28/08/15.

Storage Charge per Month:

$129.49

Storage Handling:

$563.00

PDF created with pdfFactory trial version www.pdffactorv.com
PDF created with pdfFactory trial version www.pdffactory.com

PDF created with pdfFactory trial version www.pdffactory.com
0142

Shipco Transport | Bill of Lading Terms

5/15/2018

L

Ocean Freight

:si>ipeo Transport*

Search

Air Freight

E-Commerce

Login

• ! English (US)
Compliance

Web Apps

About

Bill of Lading - Terms and conditions

Bill of Lading

Download Report

Print

Terms & Conditions
DEFINITIONS
Carriage:
Carrier:

Means the whole of the operations and services undertaken or performed by or on behalf of the Carrier in respect of the Goods.
Means the Company stated on the front of this Bill of Lading as being the Carrier and on whose behalf this Bill of Lading has been
signed.

-

CHARGES

Means freight and all expenses and money obligations incurred and payable by the Merchant.

COGSA:

Means the Carriage of Goods by Sea Act of the United States of America approved on 16th April 1936.

COGWA:

Means the Hague-Visby Rules.

Combined Transport:

Arises where the carriage called for by this Bill of Lading is not a Port to Port shipment.

Container:

Means any container, trailer, transportable tank, lift van, flat, pallet, or any similar article of transport used to consolidate goods.

Defenses:

Means all rights, immunities, exclusions, exemptions, defenses, limitations, however described (no matter whether arising by law or
by contract), which might abate, bar, defeat or diminish any recovery against the Carrier.

Freight:

Means all of the following relating to or in connection with the Goods: ocean freight and other charges provided by the Carrier's
applicable tariff, including but not limited to ad valorem charges, advance charges and less than full container load service charges,
currency adjustment factor, bunker adjustment factor, surcharges, war risk premiums, arbitrary and accessorial charges; all charges
arising as a result of changing the port of loading or discharge, and expenses arising or incurred under this Bill of Lading; additional
freight or other charges; deadfreight; special freight for the carriage of special containers; return freight if the Goods are returned.

Goods:
Hague Rules:

Means the cargo supplied by the Merchant and includes any Container not supplied by or on behalf of the Carrier.
Means the provisions of the International Convention for Unification of certain Rules relating to Bills of Lading signed at Brussels on
25th August 1924.

Hague-Visby Rules:

Means the Hague Rules as amended by the Protocol signed at Brussels on 23rd February 1968.

Merchant:

"Merchant" includes the shipper, the consignee, the receiver or the Goods, the holder of this Bill of lading, any person owning or

i

entitled to the possession of the Goods or this Bill of Lading, any person having a present or future interest in the Goods or any
person acting on behalf of any of the above mentioned persons.
Package:

(1) the Container when the Goods are shipped in a Container
(2) the skid or pallet when Goods are shipped on a skid or pallet and stuffed in a Container, and the Container is adjudged not to be
the package for the purposes of the Carrier's limitation of liability
(3) the skid or pallet when Goods are shipped on a skid or pallet but not in a Container
(4) that shipping unit which contains the greatest quantity of the Goods and to which some packaging preparation for transportation
has been made which facilitates handling even though it does not conceal or completely enclose the Goods. This clause does not
apply to Goods shipped in bulk, and it supersedes any inconsistent provision which may be printed, stamped or written elsewhere in
this Bill of Lading.

Participating Carrier:

Means the ocean carrier and any other water, land or air carrier involved in the Carriage of the Goods whether it be a Port to Port or
a Combined Transport movement.

Person:
Port to Port Shipment:

"Person” includes any individual, a partnership, a body corporate or other entity.
Means when the port of loading and the port of discharge only are shown on the face hereof and neither the place of acceptance
nor the final destination are stipulated on the face hereof.

Shipping Unit:

"Shipping Unit" includes freight unit and the term "unit” as used in the Hague Rules and Hague Visby Rules.

Stuffed:

"Stuffed" included filled, consolidated, packed, loaded or secured.

Carrier's Tariff
The provisions of the Carrier's applicable tariff, are incorporated herein. A copy of the applicable tariff is available for review in the Carrier's web-site upon
payment of a reasonable charge, if any, set out in the Carrier’s tariff and/or where applicable, upon request, obtainable from the Interstate Commerce
Commission or other regulatory body with whom the tariff has been filed. In the case of inconsistency between this Bill of Lading and the applicable Tariff,
this Bill of Lading shall prevail.

WARRANTY

0143
https://www.shipco.com/compliance/bol-terms-conditions.html

1/6

Shipco Transport | Bill of Lading Terms

5/15/2018

that in agreeing to the terms hereof he is or is the agent of and has the authority of the person owing or entitled to the possession of
The Merchant warrants
the Goods or any person who has a present or future interest in the Goods.

Non-Neqotiabilitv of Bill of Lading
made out "to order" in which event it shall be negotiable and shall constitute title to the Goods and the
This Bill of Lading shall be non-negotiable unless
holder shall been entitled to receive or to transfer the Goods herein described.

Certain Rights and Immunities for the Carrier andOther Persons

the foregoing) used or employed by the Carrier in connection with the performance of any or all of Carrier's obligations under this Bill of Lading in
congelation of the agreement to be so used or employed, shall be express beneficiaries under this Bill of Lading and shall have the benefit of all
defenses to which the Carrier is entitled so that in no circumstances shall any servant, agent or independent contractor of the Carrier be under any
liability in contract, warrant, tort (including negligence) indemnity or contribution, greater than that of the Carrier to anyone other than the Carrier
3. The Merchant shall defend, indemnify and hold harmless the Carrier against any claim or liability (and any expense arising therefrom) arising from t e
Carriaqe of the Goods insofar as such claim or liability exceeds the Carrier's liability under this Bill of Lading.
.
and limits of liability provided for in this Bill of Lading shall apply in any action against the Carrier whether the action be found in
4. The defenses
Contract or in Tort.

CLAUSE PARAMOUNT

Visby Rules shall also govern before the Goods are loaded on and after they are discharged from the vessel and throughout the entire time the
Goods are in the actual custody of the Carrier or Participating Carrier. The Hague-Visby Rules shall also apply to the Carnage of Goods by inland
waterways and reference to carriage by sea in such Rules or legislation shall be deemed to include reference to inland '"airways.
2 To or From United States ports. If the Carriage called for in this Bill of Lading is a shipment to or from the United States, the liability of the Carrier
' be exclusively determined pursuant to COGSA; the Pomerene Act [49 U.S.C. 80101 et. seq.] for both export and import cargo moving to/from the
United States; and Article 7-301 of the Uniform Commercial Code. The provisions cited in the Hague Rules and COGSA shall also govern before the
discharged from the Vessel and throughout the entire time the Goods are in the actual custody of the Carrier
Goods are loaded on and after they are

fllliii===s=f=ssf
foregoing also any law, statute of regulation available to the Owner of the vessel on which the Goods are carried.

Carrier's Responsibility
The Carrier shall not be responsible for any loss to the Goods however caused occurring while the Goods are not in the actual custody of the Carrier.
1 PORT TO PORT SHIPMENT
The responsibility of the Carrier is limited to that part of the Carriage from and during loading onto vessel up to and during discharge from the vessel
and the Carrier shall not be liable for any loss or damage whatsoever in respect of the Goods or for any other matter arising during any other part of
the Carriage even though Charges for the whole Carriage have been charged by the Carrier. The Merchant appoints and/or aut orlz®® ® a^ner a
agent to enter into contracts on behalf of the Merchant with others for transport, storage, handling, or any other services in respect of the Goods prior
to loading and subsequent to discharge of the Goods from the vessel without responsibility for any act or omission whatsoever on the part of the
Carrier or others and the Carrier may as such agent enter into contracts with others on any terms whatsoever including terms less favorable than the
terms in this Bill of Lading.
2. COMBINED TRANSPORT
A. The carrier acts as agent for Merchant with regard to procuring inland and ocean transportation. If, for any reason, it is adjudged that the Carrier
was not acting as the Merchant's agent, then in addition to the defenses and limitation of liability permitted to the Carrier by law and by this Bill
of Lading, the Carrier shall also have the benefit of all defenses available to the participating carrier(s) by law and by the terms of its or their
contracts'of Carriage and tariffs, all of which shall be deemed incorporated in this Bill of Lading, as applicable and with respect to inland
transportation of the Goods, Carrier will be afforded all of the defenses according to the provisions of any International Convention or national
law which is compulsorily applicable in the country, where the inland transportation took place or, if no such law or convention is applicable,
then according to the Participating Carrier's contracts of carriage and/or tariffs, if any.
B. Save as is otherwise provided in this Bill of Lading, the Carrier shall be liable for loss of or damage to the Goods occurring from the time that the
Goods are taken into his charge until the time of delivery to the agent set out below.
i If the place where the loss or damage occurred cannot be proven.
a The Carrier shall be entitled to rely upon all Defenses under COGSA or the Hague-Visby Rules under 6(a) or (b) above had the loss
or damage occurred at sea or where the loss or damage occurred cannot be proved, said loss or damage shall be presumed to
have occurred at sea.
https://www.shipco.com/compliance/bol-term s-conditions.html

0144

2/6

5/15/2018

Shipco Transport | Bill of Lading Terms
b. Where under (i) above, the Carrier is not liable in respect of some of the factors causing the loss or damage, the Carrier shall only
be liable to the extent that those factors for which he is liable have contributed to the loss or damage.
c. Subject to 8(c) below, where the Hague Rules (such as COGSA) or the Hague-Visby Rules (such as COGWA) or any legislation
applying either Rules is not compulsorily applicable, the Carrier's liability shall not exceed US$500 per package or shipping unit or
US$2.00 per kilo of the gross weight of the Goods lost, damaged in respect of which the claim arises or the value of such Goods,
whichever is the less.
d. The value of the goods shall be determined according to the CIF value.
ii. If the place where the loss or damage occurred can be proved:
a. The liability of the Carrier shall be determined by the provisions contained in any international convention or national law of the
country which provisions:
A. cannot be departed from by private contract to the detriment of the Merchant; and
B. would have applied if the Merchant had made a separate and direct contract with the Carrier in respect of the particular
stage of Carriage where the loss or damage occurred and had received as evidence thereof any particular document which
must be issued in order to make such international convention or national law applicable;
b. With respect to the transportation in the United States of America or in Canada to the Port of Loading or from the Port of Discharge
the responsibility of the Carrier shall be to procure transportation by carriers (one or more) and such transportation shall be subject
to the inland carriers contract of carriage and tariffs and any law compulsorily applicable. The Carrier guarantees the fulfillment of
such inland carrier's obligations under their contracts and tariffs;
c. Where neither (i) or (ii) above apply any liability of the Carrier shall be determined by 7(b)(A) above.

GENERAL PROVISIONS

1. Delay, Consequential Loss Save as otherwise provided herein, the Carrier shall in no circumstances be liable for direct, indirect or consequential loss
or damage caused by delay or any other cause whatsoever and howsoever caused. Without prejudice to the foregoing, if the Carrier is found liable for
delay, liability shall be limited to the freight applicable to the relevant stage of the transport.
2. Package or Shipping Unit Limitation where the Hague RulesA (COGSA)A or Hague-Visby RulesA (COGWAJA or any legislation making either Rules
compulsorily applicable to this Bill of Lading, the Carrier shall not unless a declared value has been noted in accordance with (C) below, be or become
liable for any loss or damage to or in connection with the Goods in an amount per package or shipping unit in excess of the package or shipping unit
limitation as laid down by either of the Rules or legislation. Such limitation amount according to COGSA is US$500 and according to COGWA is
666.67 units of account per package or units of account per kilogram of gross weight of the Goods lost or damaged, whichever is the higher. If no
limitation amount is applicable under either of the Rules or legislation the limitation shall be US$500.
3. Ad Valorem: Declared Value of Package or Shipping Unit The Carrier's liability may be increased to a higher value by a declaration in writing of the
value of the Goods by the shipper upon delivery to the Carrier of the Goods for shipment, such higher value being inserted on the front of this Bill of
Lading in the space provided and, if required by the Carrier, extra freight paid. In such case, if the actual value of the Goods shall exceed such
declared value, the value shall nevertheless be deemed to be the declared value and the Carrier's liability, if any, shall not exceed the declared value
and any partial loss or damage shall be adjusted pro rata on the basis of such declared value.
4. Rust, etc. It is agreed that superficial rust, oxidation or any like condition due to moisture is not a condition of damage but is inherent to the nature of
the Goods and the acknowledgement of the receipt of the Goods in apparent good order and condition is not a representation that such conditions of
rust, oxidation or the like did not exist on receipt.
5. Notice of Loss or Damage the Carrier shall be deemed prima facie to have delivered the Goods as described in this Bill of Lading unless notice of loss
of or damage to the Goods indicating the general nature of such loss or damage shall have been given in writing to the Carrier or to his representative
at the place of delivery before or at the time of removal of the Goods into the custody of the person entitled to delivery thereof under this Bill of
Lading or, if the loss or damage is not apparent, within three consecutive days thereafter.
6. Time-bar
A. Unless notice of loss and the general nature of such loss be given in writing to the Carrier at the port of discharge or place of delivery before or
at the time of delivery of the Goods or if the loss is not apparent, within three (3) consecutive days after that delivery, the Goods shall be
presumed to have been delivered as described in this Bill of Lading.
B. Where the loss has occurred in the custody of a Participating Carrier, the Carrier shall be discharged from all liability in respect of loss unless
notice of claim is filed and suit is brought within nine (9) months after delivery of the Goods or the date when the Goods should have been
delivered or the time period prescribed by the Participating Carrier's contract of carriage, tariff or by law covering such Participating Carrier or
overland carriage whichever is less (in the United States, pursuant to the Carmack Amendment, 49 U.S.C. 11-107(a), suit must be brought within
nine months).
C. In any event, the Carrier shall be discharged from all liability in respect of loss unless suit is brought within one (1) year after delivery of the
Goods or the date when the Goods should have been delivered.

Merchant's Responsibility

1. The description and particulars of the Goods set out on the face hereof are furnished by the Merchant and the Merchant warrants to the Carrier that
the description and particulars including, but not limited to, of weight, content, measure, quantity, quality, condition, marks, numbers and value are
correct.
2. The Merchant shall comply with all applicable laws, regulations and requirements of customs, port and other authorities and shall bear and pay all
duties, taxes, fines, imposts expenses and losses incurred or suffered by reason thereof or by reason of any illegal, incorrect or insufficient marking,
numbering or addressing of the Goods.
3. The Merchant undertakes that the Goods are packed in a manner adequate to withstand the ordinary risks of Carriage having regard to their nature
and in compliance with all laws, regulations and requirements which may be applicable.
4. No Goods which are or may become dangerous, inflammable or damaging or which are or may become liable to damage any property or person
whatsoever shall be tendered to the Carrier for Carriage without the Carrier's express consent in writing and without the Container or other covering
in which the Goods are to be transported and the Goods being distinctly marked on the outside so as to indicate the nature and character of any such
articles and so as to comply with all applicable laws, regulations and requirements. If any such articles are delivered to the Carrier without such written
consent and marking or if in the opinion of the Carrier the articles are or are liable to become of a dangerous, inflammable or damaging nature, the
same may at any time be destroyed, disposed of, abandoned, or rendered harmless without compensation to the Merchant and without prejudice to
the Carrier's right to Charges.

0145
https://www.shipco.com/compliance/bol-terms-conditions.html

3/6

5/15/2018

Shipco Transport | Bill of Lading Terms

5. The Merchant shall be liable for the loss, damage, contamination, soiling, detention or demurrage before, during and after the Carriage of property
(including, but not limited to, Containers) of the Carrier or any person or vessel (other than the Merchant) referred to in 5(2) above caused by the
Merchant or any person acting on his behalf or for which the Merchant is otherwise responsible.
6. The Merchant shall defend, indemnify and hold harmless the Carrier against any loss damage, claim, liability or expense whatsoever arising from any
breach of the provisions of this clause 9 or from any cause in connection with the Goods for which the Carrier is not responsible.

CONTAINERS

1. Goods may be stuffed by the Carrier in or on Containers and Goods may be stuffed with other Goods.
2. The terms of this Bill of Lading shall govern the responsibility of the Carrier in connection with or arising out of the supply of a Container to the
Merchant, whether supplied before or after the Goods are received by the Carrier or delivered to the Merchant.
3. If a Container has been stuffed by or on behalf of the Merchant.
A. The Carrier shall not be liable for loss of or damage to the Goods
i. caused by the manner in which the Container has been stuffed
ii. caused by the unsuitability of the Goods for carriage in Containers
ill. caused by the unsuitability or defective condition of the Container provided that where the Container has been supplied by or on behalf
of the Carrier, this paragraph (iii) shall only apply if the unsuitability or defective condition arose
a. without any want of due diligence on the part of the Carrier or
b. would have been apparent upon reasonable inspection by the Merchant at or prior to the time when the Container was stuffed
iv. if the Container is not sealed at the commencement of the Carriage except where the Carrier has agreed to seal the Container.
B. The Merchant shall defend, indemnify and hold harmless the Carrier against any loss, damage, claim, liability or expense whatsoever arising
from one or more of the matters covered by (A) above except for (A)(iii)(a) above.
4. Where the Carrier is instructed to provide a Container, in the absence of a written request to the contrary, the Carrier is not under an obligation to
provide a Container of any particular type or quality.

i Temperature Controlled Cargo

1. The Merchant undertakes not to tender for transportation any Goods which require temperature control without previously giving written notice (and
filling in the box on the front of this Bill of Lading if this Bill of Lading has been prepared by the Merchant or a person acting on his behalf) of their
nature and particular temperature range to be maintained and in the case of a temperature controlled Container stuffed by or on behalf of the
Merchant further undertakes that the Container has been properly pre-cooled, that the Goods have been properly stuffed in the Container and that its
thermostatic controls have been properly set by the Merchant before receipt of the Goods by the Carrier. If the above requirements are not complied
with the Carrier shall not be liable for any loss of or damage to the Goods caused by such non compliance.
2. The Carrier shall not be liable for any loss of or damage to the Goods arising from defects, derangement, breakdown stoppage of the temperature
controlling machinery, plant, insulation or any apparatus of the Container, provided that the Carrier shall before or at the beginning of the Carriage
exercise due diligence to maintain the refrigerated Container in an efficient state.

; Inspection of Goods
I The Carrier or any person authorized by the Carrier shall be entitled, but under no obligation, to open any Container or Package at anytime and to inspect
I the Goods.

Matters Affecting Performance

1. If at any time the Carriage is or is likely to be affected by any hindrance, risk, delay, difficulty or disadvantage of any kind (including the condition of
the Goods) whensoever and howsoever arising (whether or not the Carriage has commenced) the Carrier may:
A. without notice to the Merchant abandon the Carriage of the Goods and where reasonably possible place the Goods or any part of them at the
Merchant's disposal at any place which the Carrier may deem safe and convenient, whereupon the responsibility of the Carrier in respect of
such Goods shall cease;
B. without prejudice to the Carrier's right subsequently to abandon the Carriage under A above, continue the Carriage.
In any event the Carrier shall be entitled to full Charges on Goods received for Carriage and the Merchant shall pay any additional costs
resulting from the above mentioned circumstances.
2. The liability of the Carrier in respect of the Goods shall cease on the delivery or other disposition of the Goods in accordance with the orders or
recommendations given by any government or authority or any person acting or purporting to act as or on behalf of such government or authority.

Methods and Route of Transportation

1. The Carrier may at any time and without notice to the Merchant use
i. any means of transport or storage whatsoever,
ii. load or carry the Goods on any vessel whether named on the front hereof or not,
iii. transfer the Goods from one conveyance to another including transshipping or carrying the same on another vessel than that named on the
front hereof or by any other means of transport whatsoever,
iv. at any place unpack and remove Goods which have been stuffed in or on a Container and forward the same in any manner whatsoever
including but not limited to unstuffing and stuffing of less than container loads into or on other containers at transshipment ports,
v. proceed at any speed and by any route in Carrier's discretion (whether or not the nearest or most direct or customary or advertised route) and
proceed to or stay at any place whatsoever once or more often and in any order,
vi. load or unload the Goods from any conveyance at any place (whether or not the place is a port named on the front hereof as the intended Port
of Loading or intended Port of Discharge),

0146
https://www.shipco.com/compliance/bol-terms-conditions.html

4/6

5/15/2018

Shipco Transport | Bill of Lading Terms

vii. comply with any orders or recommendationsgiven by any government or authority or any person or body acting or purporting to act as or on
behalf of such government or authority or having under the terms of the insurance on the conveyance employed by the Carrier the right to give
orders or directions,
'
'
'
viii, permit the vessel to proceed with or without pilots, to tow or be towed or to be dry-docked,
ix. permit the vessel to carry Goods of all kinds, dangerous or otherwise."
2. If a less than a full container shipment is transshipped at any intermediate port, the Carrier may break the container seal to unstuff the shipment from
the container and restuff that shipment into or on another container. In this respect, the Carrier is acting as the agent of the Merchant.
3. The liberties set out in (1) and (2) above may be invoked by the Carrier for any purposes whatsoever whether or not connected with the Carriage of
the Goods. Anything done in accordance with (1) above or any delay arising therefrom shall be deemed to be within the contractual Carriage and shall
not be a deviation of whatsoever nature or degree.

DECK CARGO (AND LIVESTOCK)

1. Goods of any description whether containerized or not may be stowed on or under deck without notice to the Merchant and such stowage shall not
be a deviation of whatsoever nature or degree. Subject to (2) below, such Goods whether carried on deck or under deck shall participate in General
Average and such Goods shall be deemed to be within the definition of Goods for the purposes of the Hague Rules or any legislation making such
Rules or the Hague Visby Rules compulsorily applicable (such as COGSA) to this Bill of Lading.
2. Goods (not being Goods stuffed in or on Containers other than open flats or pallets) which are stated on the front of this Bill of Lading to be carried on
deck and which are so carried are carried without responsibility on the part of the Carrier for loss or damage of whatsoever nature arising during
carriage by sea or inland waterway whether caused by unseaworthiness or negligence or any other cause whatsoever.

Notification And Delivery Clause

1. Any mention in this Bill of Lading of parties to be notified of the arrival of the Goods is solely for the information of the Carrier, and failure to give such
notification shall not involve the Carrier in any liability or remove the Merchant of any obligations hereunder.
2. The Merchant shall take delivery of the Goods within the time provided for in the Carrier's applicable tariff.
3. If the Merchant fails to take delivery of the Goods or part of them in accordance with this Bill of Lading, the Carrier may without notice remove the
Goods or that part thereof and/or store the Goods or that part thereof ashore, afloat, in the open or under cover. Such storage shall constitute due
delivery hereunder and there upon all liability whatsoever of the Carrier in respect of the Goods or that part thereof shall cease.
4. The Merchant's attention is drawn to the stipulation concerning free storage time and demurrage contained in the Carrier's applicable Tariff, which is
incorporated in this Bill of Lading.
ft
5. Once free time has expired, the Goods will be stored at a warehouse or receiver's terminal at the sole risk and expense of the Merchant and the
Goods. However, if the Carrier believes that the Goods are likely to deteriorate, decay, lose value or incur storage or other charges in excess of their
value, the Carrier may, without notice to the Merchant, publicly or privately sell or dispose of the Goods and apply the proceeds of the disposition in
reduction of the Freight, and any other charges associated with the warehousing and/or sale of the Goods.

Both-to-Blame Collision
The both blame clause published by the Baltic and International Maritime Counsel (BIMCO) is incorporated herein by this reference.
•-CA....

GENERAL AVERAGE

1. The Carrier may declare General Average which shall be adjustable according to the York/Antwerp Rules of 1974 at any place at the option of the
Carrier and the Amended Jason Clause as approved by BIMCO is to be considered as incorporated herein and the Merchant shall provide such
security as may be required by the Carrier in this connection.
2. Notwithstanding (1) above, the Merchant shall defend, indemnify and hold harmless the Carrier in respect of any claim (and any expense arising
therefrom) of a General Average nature which may be made on the Carrier and shall provide such security as may be required by the Carrier in this
connection.
3. The Carrier shall be under no obligation to take any steps whatsoever to collect security for General Average contributions due to the Merchant.

CHARGES

1. Charges shall be deemed fully earned on receipt of the Goods by the Carrier and shall be paid and non-returnable in any event, whether vessel,
inland carrier and/or cargo lost or not lost.
2. The Charges have been calculated on the basis of particulars furnished by or on behalf of the Merchant. The Carrier shall be entitled to production of
the commercial invoice for the Goods or true copy thereof and to inspect, reweigh, remeasure and revalue the Goods and if the particulars are found
by the Carrier to be incorrect the Merchant shall pay the Carrier the correct Charges (credit being given for the Charges charged) and the costs
incurred by the Carrier in establishing the correct particulars.
3. All Charges shall be paid without any set off, counterclaim, deduction or stay of execution.
4. Any person, firm or corporation engaged by any party to perform forwarding services with respect to the Goods shall be considered the exclusive
agent of the Merchant for all purposes and any payment of Freight to such person, firm or corporation shall not be considered payment to the Carrier
in any event. Failure of such person, firm, or corporation to pay any part of the Freight to the Carrier shall be considered a default by the Merchant in
the payment of the Freight.
5. Should the Merchant fail to make timely payment of the applicable Freight, the Merchant shall be liable to Carrier for all costs and expenses including
attorneys' fees associated with the collection of such Freight from the Merchant plus 6% of interest calculated from the date the Freight became due.

LIEN

0147
https://www.shipco.com/compliance/bol-terms-conditions.html

5/6

Shipco Transport | Bill of Lading Terms

5/15/2018

i The Carrier shall have a lien for General Average contribution and for Freight for the Carriage of the Goods and on any documents relating to the Goods as
well as in respect to unpaid Freight from any previous Carriage on behalf of the Merchant who owes that Freight to the Carrier. The Carrier has the right to
sell the Goods at public or private sale without notice to the Merchant to satisfy the lien in whole or in part. If the proceeds of this sale fail to cover the whole
amount due, the Carrier is entitled to recover the deficit from the Merchant.

Variation of the Contract
No servant or agent of the Carrier shall have power to waive or vary any of the terms hereof unless such waiver or variation is in writing and is specifically
authorized or ratified in writing by a director or officer of the Carrier who has the actual authority of the Carrier so to waive or vary.

Partial Invalidity
If any provision in this Bill of Lading is held to be invalid or unenforceable by any court or regulatory or self regulatory agency or body, such invalidity or
unenforceability shall attach only to such provision. The validity of the remaining provisions shall not be affected thereby and this Bill of Lading contract shall
I be carried out as if such invalid or unenforceable provision were not contained herein.

Law and Jurisdiction

a. To Or From United States Ports. The claims arising from or in connection with or relating to this Bill of Lading shall be exclusively governed by the law
of the United States. Any and all action concerning custody or carriage under this Bill of Lading whether based on breach of contract, tort or otherwise
shall be brought before the United States District Court for the Southern District of New York.
b. To And From Non-U.S. Ports. The claims arising from or in connection with or relating to this Bill of Lading shall be exclusively governed by English
law. Any and all actions concerning custody or carriage under this Bill of Lading whether based on breach of contract, tort or otherwise shall be
brought before a London court of competent jurisdiction.

Follow Us
About Us

|

Contact Us

|

Careers

[

Shipco Transpod 8/L Terms & Conditions

News

|

bmall Preferences

|

Sitemap

|

Privacy

Shipco Transport Air Way Bill Conditions of Contract

f
I

i
i

Founding Member of

m

Part of

AfrCargoGrosift

Shipco Transport * 1997-2018. All Rights Reserved.

0148
https://www.shipco.com/compliance/bol-terms-conditions.html

6/6

COPY
TLX: 33057 COSCO CN
FAX: +86(21)65458984
NON-NEGOTIABLE SEA WAYBILL FOR COMBINED TRANSPORT OR PORT TO PORT
1. Shipper

Export References

ECN15090
10179725
1506064190

TAX ID: 13-3468377

ELIZABETH NJ US 07201

Forwarding Agent and References
FMC/CHB No.

Insert Name Address and Phone/Fax

CONROY REMOVALS PTY LTD
7 AIRPARK DRIVE
MANGERE, AUCKLAND,
NEW ZEALAND,
3. Notify Party

COSU8011637360

8011637360

SHIPCO TRANSPORT INC
699 KAPKOWSKI ROAD

2. Consignee

Sea Waybill No.

Booking No.

Insert Name Address and Phone/Fax

Point and Country of Origin

(It is agreed that no responsibiNty^shall att
ttach
notify)

Insert Name Address and Phone/Fax

Also Notify Party-routing & Instructions

SAME AS CONSIGNEE
PHONE:+64-9-275-0010
FAX:+64-9-275-0020

E-MAIL :
IMPORTS0CONROYREMOVALS.CO.NZ
4. Combined Transport*

5. Combined Transport*

Pre-Carriage by

Place of Receipt

HANJIN BOSAL 0003W

OAKLAND,CA

8. Port of Discharge

9. Combined Transport*

ECN15090
Place of Delivery

Type of Movement

No. of Container
or Packages

Marks & Nos.
Container / Seal No.

1X40'GP CONTAINER SLAC:
OF USED HOUSEHOLD GOODS AND
PERSONAL EFFECT.
NO COMMERCIAL VALUE.
NOT FOR RESALE

PIECES

X20150622343238

Gross Weight

Description of Goods (If Dangerous Goods. See Clause 20}

248

AES#

CY-CY

FCL / FCL

LYTTELTON

LYTTELTON

Commodity Code

Service Contract No.

7. Port of Loading

6. Ocean Vessel Voy. No.

N/M

4535.924KGS
10000.0.00LBS

Measurement

56.6340CBM
2000.000CFT
r

HS CODE # 9905 00 00

OCEAN FREIGHT PREPAID
SHIPPER'S LOAD AND COUNT
SEAWAY BILL AUTHORIZED NO ORIGINAL ISSUED.
THESE COMMODITIES, TECHNOLOGIES OR SOFTWARE WERE EXPORTED
FROM THE UNITED STATES IN ACCORDANCE WITH THE EXPORT
ADMINISTRATION REGULATIONS. DIVERSION CONTRARY TO U.S. LAW
IS PROHIBITED.
TTNU4240630

248 PIECES

/

74857782

• Freight & Charges

/40GP/4,535.924KG

Description of Contents for Shipper's Use Only (Not part of This Sea Waybill Contract)

Declared Cargo Value US$
10. Total Number of Containers and/or Packages (in words)
Subject to Clause 7 Limitation
11.

/FCL / FCL

Revenue Tons

SAY

ONE CONTAINER TOTAL

Rate

Amount

Per

Prepaid Collect

Freight & Charges Payable at / by

Received in external apparent good order and condition except as otherwise noted. The total number of the packages or units stuffed in the
container, the description of the goods and the weights shown in this Sea Waybill are furnished by the merchants, and which the carrier has no
reasonable means of checking and is not a part of this Sea Waybill contract. The carrier has issued

0

Sea Waybill. The merchants agree to

be bound by the terms and conditions of this Sea Waybill as if each had personally signed this Sea Waybill.
‘Applicable Only When Document Used as a Combined Transport Sea Waybill.
Demurrage and Detention shall be charged according to the tariff published on the Home page of WWW.COSCON.COM. If any ambiguity or
query, please search by "Demurrage & Detention Tariff Enquiry". Other services and more detailed information, pis visit WWW.COSCON.COM.

9805 Date of Issue 5 JUL 2015

Date Laden on Board

5 JUL 2015

Signed by:

COSCO CONTAINER LINES
AMERICAS, INC.
, AS AGENT

Signed for the Carrier, COSCO CONTAINER LINES CO., LTD.

Place of IssueHOUSTON

0149

BRANCH:

CONROY
REMOVALS
HELPING

YOU

MOVE

Gy\c\

A H E A 0

INVENTORY AND CONDITION
REPORT

chuccby

CUSTOMER’S NAME:

REMOVAL PLAN NUMBER:

ORIGIN;

DESTINATION:

PAGE No.

A OF

PACKAGE ABBREVIATIONS
CN • Carton
BDL-Bundle
PR - Portarobe

BB - Bubble Wrap
MW - Mattress Wrap
PC - Picture Carton

'

TRANSPORT MODE

DP - Dishpack Carton

CC ■ Clothing Carton

BC-Book Carton
BW- Blanket Wrap

CT-Crate
PKG - Package

□ SEA

BR - Broken
G- Gouged
R - Rubbed
CR - Cracked

1 Arm
4 Front
7 Rear
10 Top

CONDITION SYMBOLS
M - Marked
D - Dented
SH-Short
Ml-Mildew
CH - Chipped
T-Torn
CLI - Contents & Conditions Unknown

BE - Bent
F - Faded
MO - Moth Eaten
W - Badly Worn

□ AIR

Qroad

LOCATION SYMBOLS
SC - Scratched
BU - Burned
L■Loose
RU - Rusted

2 Bottom
5 Left
S Right
li Veneer

3 Comer
6 Leg
9 Side
12 Edge

NOTE: THE OMISSION OF THESE SYMBOLS INDICATES GOOD CONDITION EXCEPT FOR NORMAL WEAR
Package
Type

Item
No.

Description or Item or
Contents of Carton or Package

. Storage
Location

Condition at Origin

Quality Checks
Unload. Reload

Unload

Reload

Dest

Condition at Destination

t 1

OCry~A

%2

V

1 3
VA
V 5

QYl?

t 6

QyXx

7

TsViflV
f

CA/

XfttlncVSvA

8

-sInAqO^

>\g

9

________________________________________________________________________________________________________________________________________________________________ ■

•SrCcyVW^T

fbypV

1

V.ctV

2

9>ucy - P^MCA-V
vS
/»

3
4

Ovy^y

5
6

_______

7
8

9

CM

%Acw(\
Si a Acag\5->€_._______

9,°
1

4P

AotV?W
Qt $
( rv\ f\ {_____
yffaVOt>(\ ~ QqN Aoo (
A/W^c <AaAc\

2
3
4

5

4p

6

7
8

r ViUgS_____
MtJfeV ■

9
o

C\l

CAJ
CM
Checker Initials:

Item

No.

Remarks/Exceptions:

IMPORTANT - Before signing, check shipment, count items and describe loss or damage In space on the right above
By signing at origin I/We confirm lthat all Items have beenupllfted and by signing at destination I/We acknowledge receipt In good order of all Hems on this Inventory unless noted. *v .
Also by signing trie document l/W

AUTHORISATION OF CORRECTNESS AT ORIGIN
CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

AT
ORIGIN

AUTHORISATION OF CORRECTNESS AT DESTINATION
DATE

(SIGNATURE)
OWNER OR AUTHORISED AGENT
(SIGNATURE)

DATE

CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

AT
(SIGNATURE)
DESTINATION

OWNER OR AUTHORISED AGENT

0 50

(SIGNATURE)

DATE

DATE

!
I

CONROY

BRANCH:

INVENTORY AND CONDITION
REPORT

REMOVALS
HELPING

YOU

MOVE

AHEAD

CUSTOMER’S NAME:

PAGE No. ' *

REMOVAL PLAN NUMBER:

:

O
DESTINATION:

ORIGIN:

TRANSPORT MODE

PACKAGE ABBREVIATIONS
BB- Bubble Wrap
MW - Mattress Wrap

CN - Carton

DP - Dishpack Carton

BDL- Bundle

BC - Book Carton

PC - Picture Carton

PR - Portarobe

BW-Blanket Wrap

CC - Clothing Carton
CT - Crate
PKG - Package

□ SEA

SC - Scratched
BU - Burned
L- Loose
RU ■ Rusted

D - Dented
M - Marked
Ml - Mildew
SH-Short
T - Torn
CH ■ Chipped
CU - Contents & Conditions Unknown

□ AIR

□ ROAD

LOCATION SYMBOLS

CONDITION SYMBOLS
BE - Bent
F- Faded
MO - Moth Eaten
W - Badly Worn

OF

*

l Arm
4 Front
7 Rear
lo Top

BR - Broken
G - Gouged
R - Rubbed
CR - Cracked

2 Bottom
5 Left
8 Right
it Veneer

3 Corner
6 Leg
9 Side
12 Edge

NOTE: THE OMISSION OF THESE SYMBOLS INDICATES GOOD CONDITION EXCEPT FOR NORMAL WEAR
Description or Item or
Contents of Carton or Package

Package
Type

Item

No.

Storage
Location

Condition at Origin

Unload

Quality Checks
Reload Unload Reload

Dest

Condition at Destination

3 1

GWfrs
-Vo<p
M UfQCVl-__________

2

3

k\

4
5

Timers

6

Ala

VL0v|W>7vfd__________

7

Q-sjA tA cqI^V

8
9

\

o
1
2

-

IS

CO

Acv

3
4

ScrcrlcWrl

sWdv

Ma

looped
RcroVWyli ^

5

6

liMbceWft

7

UtffaH Wx'-----:-------r

8
9

a
2

3
4

________

5

___ ;_______ __ _______ _____

6

(jie^ \df)\P_________________

7
8

A

Gl
C.cvk\QO( dm<
(Gt tVrm( rWxic________
3-CddOCX dikC__ ______ ____
Qi .rV(Vnf -\ck>\c qolC’As,
Q(j&dfY)C Aq\oW.

Qcre>kW((
t
■s

-cr<ra d/vd

ScfflMurt

Otilfer
__ _____
Qtiddoor chair

4

fVy^'i r

9

~Er°

&BQ C

Item

Remarks/Exceptions:

Checker Initials:
No.

IMPORTANT - Before signing, check shipment, count items and describe loss or damage in space on the right above
B|/ signing at origin I/We confirm that all items have beenuplifted and by signing at destination I/Wo acknowledge receipt in good order of all Items on this Inventory unless noted.

AUTHORISATION OF CORRECTNESS AT DESTINATION

AUTHORISATION OF CORRECTNESS AT ORIGIN
CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

AT
ORIGIN

BATE

(SIGNATURE)
OWNER OR AUTHORISED AGENT
(SIGNATURE)

DATE

CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

AT
(SIGNATURE)
DESTINATION

OWNER OR AUTHORISED AGENT

0151

(SIGNATURE)

DATE

DATE

BRANCH:

CONROY

(P

INVENTORY AND CONDITION
REPORT

REMOVALS

HELPING

YOU

MOVE

AHEAD

CUSTOMER’S NAME:

REMOVAL PLAN NUMBER:

ORIGIN:

DESTINATION:

PAGE No.

3
TRANSPORT MODE

PACKAGE ABBREVIATIONS
BB- Bubble Wrap
WIW - Mattress Wrap
PC - Picture Carton

CN - Carton
BDL- Bundle

DP-Dishpack Carton

CC - Clothing Carton

BC - Book Carton

PR - Portarobe

BW - Blanket Wrap

CT - Crate
PKG - Package

□ SEA

M - Marked
D ■ Dented
SH - Short
Ml - Mildew
CH - Chipped
T- Torn
CU - Contents & Conditions Unknown

□ air

□ ROAD

LOCATION SYMBOLS

CONDITION SYMBOLS
BE - Bent
F-Faded
MO - Moth Eaten
W - Badly Worn

OF

SC - Scratched
BU - Burned
L-Loose
RU - Rusted

l Arm
A Front
7 Rear
lo Top

BR - Broken
G•Gouged
R-Rubbed
CR - Cracked

2 Bottom
5 Left
8 Right
u Veneer

3 Corner
6 Leg
9 Side
12 Edge

NOTE; THE OMISSION OF THESE SYMBOLS INDICATES GOOD CONDITION EXCEPT FOR NORMAL WEAR
Package
Type

Item
No.

Description or Item or
Contents of Carton or Package

Storage
Location

Condition at Origin

Unload

Quality Checks
Reload Unload Reload

Dest

Condition at Destination

fVxDrtrVyrX

V 1

3

Or aA tifirr ( C\\0\\ C
prdcSGoC rVVxi r

4

vW^Vt c

2

1

j\ndc\rc\

5

6
7
8

9
^

nt

9

m

L

0

5

OiddnoC cVvd>f
'VnAV^

2

3

C\6\t'ivtqcj

Oc^dcD^.cVyLtr

1

4

(ffiAAocvr <j£c\ <\V sY<w\

pp£p\

£

c 3c
~ \ oh\iL

-Vo t? - a AcWt r"
Sd.cSfAP

6

a

<Cjr(oAc\\acV i—

CV\aV -<rt>vx\ A
C\\di c"

7
8

CM.

9

CM
1

SC
Potftg -cd'A'iACt

C^Ag\Cpi.

~ dWivMT~ cW?u r'

2

3

LA/

9?j0

3

^90
9ftO

oao

caj
£
6
4

5

7

xA

c

8

rWtt

OcA^domr r uvnW.qa

d*)c/tAHimr

a ^V\<rs

9

qo

Utv-Ap A

.sccdkkjd——

C S&e <? 4/An'W^
Checker Initials:

Item
No.

Remarks/Exceptions:

IMPORTANT - Before signing, check shipment, count items and describe loss or damage In space on the right above
assigning at origin l/Ws confirmthat all Items haw beenupllftedjmd by slgnlngat destination I/We acknowledge receipt in good order of all Items on this Inventory unless noted.

AUTHORISATION OF CORRECTNESS AT DESTINATION

AUTHORISATION OF CORRECTNESS AT ORIGIN
CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

AT

ORIGIN

DATE

(SIGNATURE)
OWNER OR AUTHORISED AGENT
(SIGNATURE)

DATE

CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

AT
(SIGNATURE)
DESTINATION

0152

OWNER OR AUTHORISED AGENT
(SIGNATURE)

DATE

DATE

:
*
l

BRANCH:

CONROY

INVENTORY AND CONDITION
REPORT

REMOVALS
HELPING

YOU

MOVE

AH £ A 0

CUSTOMER’S NAME:

REMOVAL PLAN NUMBER:

ORIGIN:

DESTINATION:

PAGE No.

AofI
TRANSPORT MODE

PACKAGE ABBREVIATIONS
BB - Bubble Wrap
MW - Mattress Wrap
PC - Picture Carton

CN ■ Carton
BDL- Bundle

DP - Dishpack Carton
BC - Book Carton

PR - Portarobe

BW-Blanket Wrap

. CC-Clothing Carton
. CT - Crate
PKG - Package

□ SEA

M - Marked
D - Dented
SH-Short
Ml - Mildew
CH - Chipped
T-Torn
Cl) - Contents & Conditions Unknown

□ road

LOCATION SYMBOLS

CONDITION SYMBOLS
BE - Bent
F - Faded
MO - Moth Eaten
W ■ Badly Worn

□ AIR

SC - Scratched
BU ■ Burned
L- Loose
RU - Rusted

BR - Broken
G - Gouged
R - Rubbed
CR - Cracked

l Arm
4 Front
7 Rear
lo Top

2 Bottom
5 Left
8 Right
nVeneer

3 Corner
6 Leg
9 Side
12 Edge

NOTE: THE OMISSION OF THESE SYMBOLS INDICATES GOOD CONDITION EXCEPT FOR NORMAL WEAR
Package
Type

Item
No.

CV

Description or Item or
Contents of Carton or Package

Storage
Location

Condition at Origin

Unload

Quality Checks
Reload Unload Reload

Condition at Destination

Dest

PftQ

OAibadtd
i

2

VC

3

4

p^f-v

nciMaopd

'Jl

cr\

pot rV*S

5

cWv

6
7
8

pcVfVS

9

Sh(,\jr fOjAS.Z

\0 0

SW\\-

1
2

3

......

4

* *«

5

______________

6
7
8

9

Ca4

1
2

3

4
5
6
7

rn\Ap p AaVpNg.

..... ..........

r\Qwcgyc4

___

cV ,.________
Cy5oVai Adf ts - &,
C-A^Qi rvers laddtf./

i

a

9s
C\qhy\

xWV; -

NiC

rl-SC

f5\ 0^ -Vbibf?O^ ^

8

9

VS-°

•« PotcV
AilKlC ^Qf\(\ "

ifoMflcpl; -Ml
Checker Initials:

Item
No.

Remarks/Exceptions:

IMPORTANT - Before signing, check shipment, count Items and describe loss or damage in space on the right above
signing at origin I/We confirm that all Items haw baenupllfted Bnd byslgning at destination I/We acknowledge receipt In good order of all items on this Inventory unless noted.

AUTHORISATION OF CORRECTNESS AT ORIGIN
CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

AT
ORIGIN

AUTHORISATION OF CORRECTNESS AT DESTINATION
DATE

(SIGNATURE)
OWNER OR AUTHORISED AGENT
(SIGNATURE)

DATE

CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

AT
(SIGNATURE)
DESTINATION

OWNER OR AUTHORISED AGENT

0153

(SIGNATURE)

DATE

DATE

a

BRANCH:

CONROY

INVENTORY AND CONDITION
REPORT

REMOVALS

HELPING

YOU

MOVE

AHEAD

CUSTOMER’S NAME:

REMOVAL PLAN NUMBER:

ORIGIN:

DESTINATION:

PAGE No.

£
TRANSPORT MODE

PACKAGE ABBREVIATIONS
BB - Bubble Wrap
MW - Mattress Wrap
PC - Picture Carton

CN - Carton
BDL-Bundle

DP - Dlshpack Carton
BC -Book Carton

PR - Porta robe

BW - Blanket Wrap

CC-Clothing Carton
a - Crate
PKG - Package

□ SEA

BR - Broken
G - Gouged
R- Rubbed
CR - Cracked

i Arm
4 Front
7 Rear
10 Top

□ air

□ road

LOCATION SYMBOLS

CONDITION SYMBOLS
SC - Scratched
BU - Burned
L- Loose
RU - Rusted

M - Marked
D - Dented
SH-Short
Ml - Mildew
CH - Chipped
T - Torn
CU - Contents & Conditions Unknown

BE- Bent
F- Faded
MO - Moth Eaten
' W-Badly Worn

OF

2 Bottom
5 Left
8 Right
uVeneer

3 Corner
6 Leg
9 Side
12 Edge

NOTE: THE OMISSION OF THESE SYMBOLS INDICATES GOOD CONDITION EXCEPT FOR NORMAL WEAR
Package
Type

Item

No.

Storage
Location

Condition at Origin

Unload

Quality Checks
Reload Unload Reload

Dest

Condition at Destination

Dcaq^Mq\ -VovtoVi

XX1

Chf $>QsO

2

3

Description or Item or
Contents of Carton or Package

CM

4
5

ccxocWt .^YowvA

6

da

7

&ec\^dt GoAo.aH

8

CM
CAL

9

\x°

da

W

da

l

vAn\\/\ • r.-rv

2

cU5L
±=5£

-5C

CbvfAs

3

-Am ^ ^ ■cV'Ktw1

5
y»Q\q - ufagQ____ )

4

“'T'^VoW

5

"TbiW, -Aon - cV; ,maci

6

rAdcuOi nodAs

7
8

9

lA°

cbiO'

i
2

3

CM
ejy

cM

4

i?'
“fTggtV

5

6
7
8

GlZ

—

Gtefrr________ __
oke

9

Checker Initials:
Item
No.

Remarks/Exceptions:

r

IMPORTANT - Before signing, check shipment, count items and describe loss or damage in space on the right above
By signing at origin 1/We confirm that all items have been uplifted and by signing at destination I/We acknowledge receipt in good order of all Items on this Inventory unless noted.
Also By signing trie document l/We agree to the terms and conditions of the contract.

AUTHORISATION OF CORRECTNESS AT ORIGIN
CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

AT
ORIGIN

.

AUTHORISATION OF CORRECTNESS AT DESTINATION
DATE

(SIGNATURE)
OWNER OR AUTHORISED AGENT
(SIGNATURE)

DATE

CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

. AT
(SIGNATURE)
DESTINATION

0154

OWNER OR AUTHORISED AGENT
(SIGNATURE)

DATE

DATE

;
?
i

BRANCH:

CONROY

INVENTORY AND CONDITION
REPORT

REMOVALS
HELPING

YOU

MOVE

AHEAP

CUSTOMER'S NAME:

REMOVAL PLAN NUMBER:

ORIGIN:

DESTINATION:

PAGE No.

-Qof

TRANSPORT MODE

PACKAGE ABBREVIATIONS
BB - Bubble Wrap
MW • Mattress Wrap

CN - Carton
BDL-Bundle

DP - DIshpack Carton
BC- Book Carton

CC-Clothing Carton
a-Crate

PC - Picture Carton

PR - Portarobe

BW-Blanket Wrap

PKG - Package

□ SEA

M - Marked
D - Dented
SH - Short
Ml • Mildew
CH - Chipped
T - Torn
CU • Contents & Conditions Unknown

□ road

LOCATION SYMBOLS

CONDITION SYMBOLS
BE - Bent
F-Faded
MO - Moth Eaten
W- Badly Worn

□ AIR

SC - Scratched
BU - Burned
L- Loose
RU - Rusted

BR - Broken
G - Gouged
R- Rubbed
CR - Cracked

l Arm
A Front
7 Rear
10 Top

2 Bottom
5 Left
8 Right
it Veneer

3 Comer
6 Leg
p Side
lz Edge

NOTE: THE OMISSION OFTHESE SYMBOLS INDICATES GOOD CONDITION EXCEPT FOR NORMAL WEAR
Package
Type

Item
No.

Storage
Location

Condition at Origin

Unload

Quality Checks
Reload Unload Reload

3

c7J

Cctoxudr

•BC. - PBQ

5
6

£

AS**

7
8

Cfcn ( -

i

3

7
‘

3a

WO - CorVo
rVve^ qa rV<

2

CM

9

n°
i

Ccudx

ISC

t
(S'-SC

Ed ^90

8

1,

dcmrn\ SC

9

5
6

Condition at Destination

CW>r __________

2

4

Dest

&

\31
4

Description or Item or
Contents of Carton or Package

CoVSl^lt

ijahafert-^CnSa

iDcncV

rV 5"SX\eVxS

2

3
4

rcqrii m oyydQg

oV ^Kc\o^

5

6

SC

^WXvJ ^

7
8

9

1$°
Checker Initials:
Item
No.

Remarks/Exceptions:

IMPORTANT - Before signing, check shipment, count items and describe lass or damage in space on the right above
By signing at origin I/We confirm that all items have beenuplifted and by signing at destination I/We acknowledge receipt In good order of all Items on this Inventory unless noted.

AUTHORISATION OF CORRECTNESS AT PEStlNATION

AUTHORISATION OF CORRECTNESS AT ORIGIN
CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

AT
ORIGIN

DATE

(SIGNATURE)
OWNER OR AUTHORISED AGENT
(SIGNATURE)

DATE

CONTRACTOR. CARRIER OR AUTHORISED
AGENT (DRIVER)

AT
(SIGNATURE)
DESTINATION

OWNER OR AUTHORISED AGENT

0 55

DATE

DATE

(SIGNATURE)
, rr.„ . - .

INVENTORY AND CONDITION
REPORT

BRANCH:

CONROY
REMOVALS
HELPING

YOU

MOVE

AHEAD

PAGE No.

REMOVAL PLAN NUMBER:

CUSTOMER’S NAME:

DESTINATION:

ORIGIN:

BB - Bubble Wrap
MW - Mattress Wrap
PC - Picture Carton

TRANSPORT MODE

f

PACKAGE ABBREVIATIONS
CC-Clothing Carton

DP - Dlshpack Carton
BC - Book Carton

CN - Carton
BDL-Bundle
PR - Portarobe

□ sea

CT ■ Crate
PKG - Package

BW - Blanket Wrap

M - Marked
D - Dented
SH - Short
Ml-Mildew
CH-Chipped
T-Torn
CU - Contents & Conditions Unknown

□ road

10CATION SYMBOLS

CONDITION SYMBOLS
BE-Bent
F - Faded
MO - Moth Eaten
W - Badly Worn

□ AIR

SC - Scratched
BU - Burned
L- Loose
RU - Rusted

l Arm
4 Front
7 Rear
io Top

BR - Broken
G- Gouged
R-Rubbed
CR • Cracked

2 Bottom
5 Left
8 Right
li Veneer

3 Corner
6 Leg
9 Side
12 Edge

NOTE: THE OMISSION OF THESE SYMBOLS INDICATES GOOD CONDITION EXCEPT FOR NORMAL WEAR
Package
Type

Item
No.

All CAi
2

Description or Item or
Contents of Carton or Package

Storage
Location

Condition at Origin

Unload

Quality Checks
Reload Unload Reload

Dest

Condition at Destination

OysQv.LCCxUff—

3

fcpret
gofers-

4
5

6
7

c

8

C

9

CJ

\H°

gflQSfo/\cA\

1
2

€noV\

3

4
5

6

gA

gf

A---------

____________________

k^&vaxi^,

7
8

'201
2

3

_____ /

CM|.gCL^Q

4

a:

i

WkCt

7
8

i\QyVc^Pr\

Cn £0$Q&.

5

6

3q
jSSdpj

GfAitoA-CtK
cfV\___.__
0ntf(AtA orcYx
d<X(&Q\ ov<dx

9

CA7

3*

\££sr:

-aCi^g p

9

CL\° CAi
Item
No.

>o

Checker Initials:

Remarks/Exceptions:

IMPORTANT - Before signing, check shipment, count Items and describe loss or damage In space on the right above

.

-

By signing at origin I/We confirm that all Items have been uplifted and by signing at destination I/Wo acknowledge receipt In good order of all Items on this Inventory unless noted..
Also By signing tno document I/We agree to the terms and conditions of the contract.

,

AUTHORISATION OF CORRECTNESS AT ORIGIN
CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

AT
ORIGIN

(SIGNATURE)

AUTHORISATION OF CORRECTNESS AT DESTINATION
CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

DATE

(SIGNATURE)
OWNER OR AUTHORISED AGENT

DATE

■

AT
(SIGNATURE)
DESTINATION

OWNER OR AUTHORISED AGENT

01 56

(SIGNATURE)

DATE '

DATE •

a*

BRANCH:

CONROY

INVENTORY AND CONDITION
REPORT

REMOVALS

HELPING

YOU

MOVE

AHEAD

CUSTOMER’S NAME:

REMOVAL PLAN NUMBER:

ORIGIN:

DESTINATION:

PAGE No.
... OF

PACKAGE ABBREVIATIONS
BB - Bubble Wrap
MW - Mattress Wrap

CN • Carton
BDL- Bundle
PR - Portarobe

PC - Picture Carton

s.

TRANSPORT MODE

DP-Dlshpack Carton
BC - Book Carton
BW- Blanket Wrap

CC - Clothing Carton
CT - Crate
PKG - Package

□ SEA

CONDITION SYMBOLS
BE - Bent
F - Faded
MO - Moth Eaten
W - Badly Worn

□ AIR

□ ROAD

LOCATION SYMBOLS

D- Dented
M - Marked
Ml - Mildew
SH ■ Short
T - Torn
CH-Chipped
CU ■ Contents & Conditions Unknown

SC - Scratched
BU- Burned .
L- Loose
RU - Rusted

BR - Broken
G- Gouged
R-Rubbed
CR - Cracked

1 Arm
4 Front
7 Rear
lo Top

z Bottom
5 Left
8 Right
li Veneer

3 Corner
6 Leg
. 9 Side
12 Edge

NOTE: THE OMISSION OF THESE SYMBOLS INDICATES GOOD CONDITION EXCEPT FOR NORMAL WEAR
Package
Type

Item
No.

cx
CN

2

3

4
5
6

Description or Item or
Contents of Carton or Package

Storage
Location

Condition at Origin

Unload

Quality Checks
Reload Unload Reload

Dest

Condition at Destination

SC
£

9C

fcfl

Oafrg'V

gfia gc .
■Mtmid.

7
8
9

CM
tea

l

id

2

3

5pgg&fcgr'

4
5

M

6
7
8

9

cw

1
2

3
4

pH

gpsNO
xorM
C\1Ya\< ~ flfaywv

§§§
ffiSr

PRO
V>9Q

o.pec\

dPMjpa

b

QC\cV^
"

U

T

5

CAi
c a)
CA1
9 caJ
iu° Ip A)
6

dai^dt-cci^Wr\

7

8

WO
<?$Q

Item
No.

Remarks/Exceptions:

Checker Initials:

doroift a'(dt£

IMPORTANT - Before signing, check shipment, count items and describe loss or damage In space on the right above
By signing at origin I/We confirm that all Items have been uplifted and by signing at destination 1/We acknowledge receipt In good cider of all Items on this inventory unless noted
Also by signing the document I/We agree to the terms and conditions of the contract.

AUTHORISATION OF CORRECTNESS AT ORIGIN
CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

AT
ORIGIN

AUTHORISATION OF CORRECTNESS AT DESTINATION
DATE

(SIGNATURE)
OWNER OR AUTHORISED AGENT
(SIGNATURE)

DATE

CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

AT
(SIGNATURE)
DESTINATION

OWNER OR AUTHORISED AGENT

0157

(SIGNATURE)

DATE

DATE

BRANCH:

CONROY

INVENTORY AND CONDITION
REPORT

REMOVALS
HELPING

YOU

MOVE

AHEAD

CUSTOMER’S NAME:

REMOVAL PLAN NUMBER:

ORIGIN:

DESTINATION:

a

PAGE No.

TRANSPORT MODE

PACKAGE ABBREVIATIONS
CN - Carton
BDL- Bundle "
PR - Portarobe ■

BB - Bubble Wrap
MW ■ Mattress Wrap
PC - Picture Carton

■ -

DP - Dishpack Carton
BC-Book Carton
BW - Blanket Wrap

CC - Clothing Carton
CT - Crate
•

□ s“

LOCATION SYMBOLS
SC - Scratched
BU - Burned
L-Loose
RU - Rusted

M - Marked
D - Dented
SH-Short '
Ml - Mildew
CH - Chipped
T- Torn
CU ■ Contents & Conditions Unknown

□ ROAD

□ AIR

PKG - Package

CONDITION SYMBOLS
BE - Bent
F - Faded
MO - Moth Eaten
W-Badly Worn

OF■

BR - Broken
G- Gouged
R-Rubbed
CR - Cracked

l Arm
4 Front
7 Rear
10 Top .

.

2 Bottom
5 Left
8 Right
11 Veneer

3 Corner
6 Leg
9 Side
12 Edge

NOTE: THE OMISSION OF THESE SYMBOLS INDICATES GOOD CONDITION EXCEPT FOR NORMAL WEAR
Package
Type

Item
No.

2

m

Description or Item or
Contents of Carton or Package

Unload

Quality Checks
Reload Unload Reload

Dest

Condition at Destination

BarrCerx -kr* urAcury
("ViAa {\6j 4P\\A-tL

3

Storage
Location

Condition at Origin

CM
KfrvSy Q
CM pm
PA pad
CM
9 CM
CM P&3

•

’|onvy

4

5
6

cdecfrtropes rv ^

7

8

1

2

c

4

5
6

a

C

3

a

OA)
G

Ik

8 lr>

PRO

AA

Pm

ns

___________

9

-----------

mi

eKcur--r>rrv:*v
CTvw; r ~ (IaKiwc

1
2
3

Ckciir

OAJ

5

■

Cl

9

21°

PPp__;__ ^

g&a.

PPO

td - cS

3

peo

7;

8

v

<3vvC - Mt\vc\

4

6

r\o<v>gcgc\ -&P
i\

CAL Q<bo
CM
CA/

Checker Initials:
Item
No.

Remarks/Exceptions:

IMPORTANT - Before signing, check shipment, count items and describe loss or damage in space on the right above
8j/ signing at origin I/We confirm that all Items have been uplifted and by slgnlngat destination I/We acknowledge receipt In good order of all Items on this Inventory untess noted.

AUTHORISATION OF CORRECTNESS AT ORIGIN
Contractor, carrier or authorised

AUTHORISATION OF CORRECTNESS AT DESTINATION
DATE

CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

AGENT (DRIVER)

AT
ORIGIN

(SIGNATURE)■
OWNER OR AUTHORISED AGENT
(SIGNATURE),.

DATE

AT
(SIGNATURE)■
DESTINATION

<r 58

OWNER OR AUTHORISED AGENT
(SIGNATURE)..

DATE

DATE

CONROY

c

BRANCH:

INVENTORY AND CONDITION
REPORT

REMOVALS
HELPING

YOU

MOVE

AHEAD

CUSTOMER’S NAME:

PAGE No.

REMOVAL PLAN NUMBER:

'

\Q OF
ORIGIN:

DESTINATION:

•

PACKAGE ABBREVIATIONS
BB - Bubble Wrap

TRANSPORT MODE

MW ■ Mattress Wrap

CN - Carton
BDL- Bundle

DP - Dishpack Carton
BC - Book Carton

CC - Clothing Carton
CT - Crate

PC ■ Picture Carton

PR ■ Portarobe

BW - Blanket Wrap

PKG ■ Package

Dsea

CONDITION SYMBOLS
BE-Bent
F- Faded
MO - Moth Eaten
W ■ Badly Worn

D - Dented
M - Marked
Ml - Mildew
SH-Short
T■ Torn
CH - Chipped
CU - Contents & Conditions Unknown

□ AIR.

□ ROAD

LOCATION SYMBOLS
SC - Scratched
BU - Burned
L- Loose
RU - Rusted

BR-Broken
G- Gouged
R- Rubbed
CR - Cracked

1 Arm
4 Front
7 Rear
to Top

2 Bottom
5 Left
8 Right
u Veneer

3 Corner
6 Leg
9 Side
12 Edge

NOTE: THE OMISSION OF THESE SYMBOLS INDICATES GOOD CONDITION EXCEPT FOR NORMAL WEAR
Package
Type

Item
No.

Description or Item or
Contents of Carton or Package

Storage
Location

Condition at Origin

Quality Checks
Unload

Reload

Unload

Reload

Dest

Condition at Destination

ru P9Q

2

3

4
5
6
7
8

9
o
1

mm

c2
c
c

CJL
CAJ

4

c

C

5

C/J

6

CM
CJJ

7
8

U\

r

A

rn

2

3

‘xhgtsVgA

4*20

v\

V*
4

eM

r

A
A

£

*

A

A

P9Q

/V

ik

/
(

ru

\

-S3
rji

A

9 rk) Peo
23° caJ <Pg>o
l
2

3

CAJ

CAJ pSo

c a) P0O

P&O

4
5

6

CaJ

cja<V\ciqgd

(ja/soyci

7
8

rYr£*C rVspC\<\

9

a
Checker Initials:

Item
No.

Remarks/Exceptions:

IMPORTANT - Before signing, check shipment, count items and describe loss or damage In space on the right above .
By signing at origin tfWe cohfltmtfiat all Items have beenupllfted and by signing at destination I/We acknowledge receipt in good order of all items on this Inventory unless noted.

AUTHORISATION OF CORRECTNESS AT ORIGIN
CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

AT
ORIGIN

(SIGNATURE)
OWNER OR AUTHORISED AGENT
(SIGNATURE)

rm/it

AUTHORISATION OF CORRECTNESS AT DESTINATION
DATE

DATE

CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

AT
(SIGNATURE)
DESTINATION

OWNER OR AUTHORISED AGENT

0 59

(SIGNATURE)

DATE

DATE

(P

BRANCH:

CONROY

INVENTORY AND CONDITION
REPORT

REMOVALS

HELPING

VOU

MOVE

AHEAD

CUSTOMER’S NAME:

REMOVAL PLAN NUMBER:

ORIGIN:

DESTINATION:

PAGE No.

A1 OF
TRANSPORT MODE

PACKAGE ABBREVIATIONS
CN - Carton
BDL- Bundle
PR • Portarobe

BB - Bubble Wrap
MW - Mattress Wrap
PC - Picture Carton

DP -Dishpack Carton

CC - Clothing Carton

BC- Book Carton
BW - Blanket Wrap

CT - Crate
PKG - Package

.

Qsea

M - Marked
D - Dented
SH - Short
Ml-Mildew
CH-Chipped
T - Torn
CU - Contents & Conditions Unknown

BE-Bent
F - Faded
MO - Moth Eaten
W- Badly Worn

□ ROAD

LOCATION SYMBOLS

CONDITION SYMBOLS

:

□ air

SC ■ Scratched
BU - Burned
L■Loose
RU - Rusted

lArm
4 Front
7 Rear
io Top

BR - Broken
G- Gouged
R - Rubbed
CR - Cracked

z Bottom
5 Left
8 Right
u Veneer

3 Comer
6 Leg
9 Side
12 Edge

NOTE: THE OMISSION OF THESE SYMBOLS INDICATES GOOD CONDITION EXCEPT FOR NORMAL WEAR
Package
Type

Item
No.

Description or Item or
Contents of Carton or Package

Condition at Origin

Storage
Location

Unload

Quality Checks
Reload Unload Reload

Dest

Condition at Destination

A
OU
A) PftO

2

3 ^
4

07 PftG
A

7
8

9

□

rKi\7itr -cVVv^

5

6

.

u

jj

-cV

0^ CM. 9P>9
i

2

GO
PSbd
r A)

5

7
8

clJ

K

X

t

K

CM

/

c

ccai:

£> CtA

20s

CV>C>

2

TV

4

5

8

5

~ dtAAAoca
Coio-rCV^-

-

CM 900
Qd .eso
CaI

3

7

W

e> r\c\><r - <-\ t r\ia

1

6

»v

990
<P'BO

CM <r>e,0

9

3

ft

c KJ 330

4

6

/r

Cli

3

vA

A

oz
CM

da^vbQLLci

hes:

±J

CiJ 9*C^o

9

CJd

Ps6

Sf

Checker Initials:
Item
No.

Remarks/Exceptions:

I IMPORTANT - Before signing, check shipment, count Items and describe loss or damage In space on the right above
By signing at origin I/We confirm that all items have been uplifted and by slgnlngat destination f/We acknowledge receipt hr good order of all items or this Inventory unless noted.
Also by signing the document t/We agree to the terms and conditions of (he contract,

AUTHORISATION OF CORRECTNESS AT DESTINATION

AUTHORISATION OF CORRECTNESS AT ORIGIN
CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

.AT
ORIGIN

DATE

(SIGNATURE)
OWNER OR AUTHORISED AGENT
(SIGNATURE)

.

.

DATE

CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

AT
(SIGNATURE)■
DESTINATION

OWNER OR AUTHORISED AGENT

(SIGNATURE). . . .

DATE

■
DATE

CONROY

BRANCH:

INVENTORY AND CONDITION
REPORT

REMOVALS
HELPING

YOU

MOVE

AHEAD

CUSTOMER’S NAME:

REMOVAL PLAN NUMBER:

ORIGIN:

DESTINATION:

PAGE No.

PACKAGE ABBREVIATIONS
CN - Carton

BB - Bubble Wrap
MW - Mattress Wrap

BDL- Bundle
PR - Pottarobe

PC ■ Picture Carton

TRANSPORT MODE

. . ‘ DP- Dish pack Carton
BC - Book Carton

CC-Clothing Carton

. .Qsea

CT - Crate
PKG - Package

BW - Blanket Wrap

CONDITION SYMBOLS
BE-Bent
F - Faded
MO - Moth Eaten
W - Badly Worn

D - Dented
M - Marked
Ml - Mildew
SH - Short
T - Tom
CH- Chipped
CU - Contents & Conditions Unknown

□ air

□ road

LOCATION SYMBOLS
SC-Scratched
BU - Burned
L- Loose
RU - Rusted

BR - Broken
G - Gouged
R - Rubbed
CR - Cracked

1 Arm
4 Front
7 Rear
to Top

2 Bottom
5 Left
8 Right
ii Veneer

3 Corner
6 Leg
9 Side
12 Edge

NOTE: THE OMISSION OF THESE SYMBOLS INDICATES GOOD CONDITION EXCEPT FOR NORMAL WEAR
Package
Type

Item
No.

Description or Item or
Contents of Carton or Package

Storage
Location

Condition at Origin

Unload

Quality Checks
Reload Unload Reload

Dest

Condition at Destination

CAJ

2

3

4

c

5

£

6
7

5

8

&

27
r \AOur rVt.nV\
CVW CAvfYAg

QflftVr d\ rvttv

9

3.4°

60

CM

l

A&Mpcid '~\j

2

3

CAT Pv\Qf
CM

4
5

6
7

cjj
caJ

8 f

9

Ai

CM

.0

1
2

CU

- AfoVuccuppecji
V
-A-

e

■ -isr

eso
em

01*

C>0O

Cd
CM

rJU ££P
CjU
o
CJL/
6
CAT peo
3

4
5

7

8

9

CAJ

£44

cv

s&° C77

9
Checker Initials:

Item
No.

Remarks/Exceptions:

IMPORTANT - Before signing, check shipment, count items and describe loss or damage in space on the right above
By signing at origin i/We confirm that all Items have beicrujplffted and by signing at destination I/We acknowledge receipt in good order of all Items on this inventory unless noted.
Also by signing the document I/We agree to thie terms <

AUTHORISATION OF CORRECTNESS AT ORIGIN
CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

AT
ORIGIN

(SIGNATURE)
OWNER OR AUTHORISED AGENT
(SIGNATURE)

rn

i. -

AUTHORISATION OF CORRECTNESS AT DESTINATION
DATE

DATE

CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

AT
(SIGNATURE)
DESTINATION

OWNER OR AUTHORISED AGENT

0 61

(SIGNATURE)

DATE
•t

DATE

CONROY

«

BRANCH:

INVENTORY AND CONDITION
REPORT

REMOVALS

HELPING

YOU

MOVE

AHEAD

CUSTOMER’S NAME:

REMOVAL PLAN NUMBER:

ORIGIN:

DESTINATION:

PAGE No.

'O. OF

PACKAGE ABBREVIATIONS
CN - Carton
SDL - Bundle
PR - Portarabe

BB- Bubble Wrap
MW - Mattress Wrap
- PC ■ Picture Carton

‘

TRANSPORT MODE

DP -Dishpack Carton
BC - Book Carton
BW ■ Blanket Wrap

CC-Clothing Carton
CT - Crate
PKG ■ Package

□ SEA

CONDITION SYMBOLS
BE - Bent
F- Faded
MO - Moth Eaten
W - Badly Worn

M • Marked
D - Dented
SH - Short
Ml - Mildew
CH - Chipped
T -Tom
CU - Contents & Conditions Unknown ,

□ road

□ AIR
LOCATION SYMBOLS

SC - Scratched
BU - Burned
L-Loose
RU - Rusted

BR - Broken
G - Gouged
R- Rubbed
CR - Cracked

a Arm
4 Front
7 Rear
10 Top

2 Bottom
5 Left
8 Right
li Veneer

3 Corner
6 Leg
9 Side
12 Edge

NOTE: THE OMISSION OF THESE SYMBOLS INDICATES GOOD CONDITION EXCEPT FOR NORMAL WEAR
Package
Type

Item

No.

Description or Item or
Contents of Carton or Package

Storage
Location

Condition at Origin

Quality Checks
Unload

Reload

Unload

Reload

Dest

Condition at Destination

c.n P>&s>
r aJ

2

3

cA)

4

CAJ

ai

5
6

CAJ

7

CJJ

6

CA?

9

«

Y<?Q

//

pep

A

ppo

/l

1

C A/

i

%

C

3

c
c

4
5

CM
CM

6
7

p£o-

\

/

1

ego

n

\

*

\V

\\
J)
Jt
A

PftO
CM PP.O

Cm.

3
4

CJJ

5

'A

\\

4

caJ

2

V

J

1

CJJ. P<*o

1

A.

L

caL

9

A

St

CM eep

8

V'

/

231 cJJ WS
2 C-'

t

VL

A

PPvO

w

pen

CA/ PS>Q_

6
7

8
9

r
rX7 PPQ
CA/ pee
Checker Initials:

Item

No.

Remarks/Exceptions:

IMPORTANT - Before signing-, check shipment, count items and describe loss or damage In space on the right above
8^ signing at origin 1/We confinnthat all Items have beenupllfted and by slgningat destination I/We acknowledge receipt In good order of all items on this Inventory unless noted.

AUTHORISATION OF CORRECTNESS AT ORIGIN
CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

AT
ORIGIN

AUTHORISATION OF CORRECTNESS AT DESTINATION
DATE

(SIGNATURE)
OWNER OR AUTHORISED AGENT
(SIGNATURE)

DATE

CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

AT
(SIGNATURE).
DESTINATION

01 62

OWNER OR AUTHORISED AGENT
(SIGNATURE) ,

DATE

DATE

;

a*

CONROY

BRANCH:

INVENTORY AND CONDITION
REPORT

REMOVALS

HELPING

YOU

MOVE

AHEAD

CUSTOMER’S NAME:

REMOVAL PLAN NUMBER:

ORIGIN:

DESTINATION:

PAGE No.

1%

"

PACKAGE ABBREVIATIONS
BB ■ Bubble Wrap

CN - Carton
BDL- Bundle
PR - Portarobe

MW - Mattress Wrap
PC - Picture Carton

TRANSPORT MODE

DP - Dishpack Carton
BC- Book Carton

CC - Clothing Carton

BW - Blanket Wrap

PKG - Package

CT ■ Crate

□ SEA

CONDITION SYMBOLS
BE-Bent
F - Faded
MO - Moth Eaten
W - Badly Worn

D - Dented
M - Marked
Ml - Mildew
SH-Short
T -Torn
CH • Chipped
CU - Contents & Conditions Unknown

□ a'R

□ ROAD

LOCATION SYMBOLS
SC - Scratched
BU - Burned
L-Loose
RU - Rusted

BR - Broken
G- Gouged
R- Rubbed
CR - Cracked

i Arm
4 Front
7 Rear
10 Top

2 Bottom
5 Left
8 Right
11 Veneer

3 Corner
6 Leg
9 Side
12 Edge

NOTE: THE OMISSION OF THESE SYMBOLS INDICATES GOOD CONDITION EXCEPT FOR NORMAL WEAR
Item
No.

Package

Description or Item or
Contents of Carton or Package

Type

Storage
Location

Condition at Origin

Unload

Quality Checks
Reload Unload Reload

Dest

Condition at Destination

CJJ

2

CAL

3

CAL

4

SO

CM
CA) Poo
7
CM PQQ
5

6

8

9

a

40° ca7
l
CJJ
2
3

9£Q
P3Q

22C

*

CAL VQT)

CM Poo

4

*

5

6
V

7

T

8

9
o
l
2

3
4
5

6
7
8
9
o
Checker Initials:
item

No.

Remarks/Exceptions:

IMPORTANT - Before signing, check shipment, count Items and .describe loss or damage In space on the right above
8y signing at orl^lny We conftnnthat all Items have beenuplIFted ami by sprung at destination I/We acknowledge receipt In good order of all Items on (his inventory unless noted.

AUTHORISATION OF CORRECTNESS AT ORIGIN
CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

AT
ORIGIN

AUTHORISATION OF CORRECTNESS AT DESTINATION
DATE

(SIGNATURE)
OWNER OR AUTHORISED AGENT
(SIGNATURE)

DATE

CONTRACTOR, CARRIER OR AUTHORISED
AGENT (DRIVER)

AT
(SIGNATURE)
DESTINATION

0 63

OWNER OR AUTHORISED AGENT
(SIGNATURE)

DATE

DATE

Gmail - Re survey

0/28/2017

Madhu Sameer <niadliu.bambroa@gmail.com>

i

pwf Gma
Re survey

Wed, Jan 13,2016 at 10:38 AM

Phil Hextall <PHextall@cl-nz.cdm>
To: Madhu Sameer <madhu,bambroo@gmail.com>
Hi Madhu,

How about Thursday at 10.00am. Us at Conroys - do you need to give them some warning?
We also need your personal address so we can open a file. Please advise.
Kind regards
Phil Hextall
Loss Adjuster

Cunningham Lindsey
DDI: +.64 3 341 3813 | fax: •rO'l 3 348 3474 j mob; +04 21 747 005
postal: PO Box 9279. Christchurch 8149
entail: phextall@cl-n2.com | web: www.cunmnghamiindooy.com

m

MEW ZEALAND
'INSURANCE
Wm INDUSTRY AWARDS

mm-- WINNER2012,2013 & 2014
^ Please consider the environment before printing this e-mail

■This email contains confidential information. If you have received this email in error, please

JSSKSHS
the world with 7000 employees in over 60 countries"
r

!
i

I

.

!

I

i
i
i

I
0164

____ /™,^ii/,,rn/'>l.i='>s,iif=RBhr«am9«isvftr=PX1Y7G<iZiW4.on.&vi0W=pt&msf|=15237c4ed4e2fd25&q-Fiona%2Ooonroy%2Ojan,..
—tl M

1/1

Gmail - (no subject)

0/20/2017

ftwff Gmail

Madhu Sameer «m3dhu.bambrdo@gmai!,co»n>

(no subject)
Wed, Dec 23, 2015 at 2:11 PM

Scott Galloway <scott.galloway@hazellon.co.nz>
To: Madhu Sameer <madhu.bambroo@gmail.com>
Dear Madhu

:

I understand that you have instructed Cunningham Lindsey and I do not see any. reason why they cannot
undertake the survey for you.

Ail I am doing is referring the matter to: the Complaints team in London (which I have now done), l am not
Intending to contradict anything thatldm Langford of Talbot has told you.

;
i

Kind regards
Scott Galloway
T

From: Madhu Sameer [mailto:madhu.bambroo@gmail.coml
Sent: Wednesday, 23 December 2015 2:05 p m.
(Quoted text hidden]
(Quoted text hidden}

•t

/r.

?

i;

i

i

!

I

i

!

0165

il/u/0/?ui-2&ik=:6ebO8af329&jsver=PX1Y7GgZjW4.en,Svrew--pt&insg=*]51ce63da303b39e&q-insurance%20suivey&q...

1/1

Gmail t (nasuhjoct)

8/20/2017

Vi Oman

Madlrw Samosr ^TOadhu.barnbroo@gniail.c6m>
.i* .*...5. «J. .S#.*

...

i .*

fr*-u~i‘-

(no subject)
•M-/ .

I M a.

»..%S MM «

wed, Dec 23,2015 at 4:36 PM

Madhu Sameer <madhu.bambroo@gmair.com>
To: Scott Galloway <scott.galloway@hazelton.c.O;hz>
Dear Scott,
I was merely inquiring if they would unertake the survey. Thanks for the clarification.
M.
(Quoted text hiddonj

0166

h«D8://mail.aooal0.coWmaii/u/O/7ui=2&ik=Sebcaaf329&iWe^PX1Y7GgZiW4.en.'&vl8W=pt&msg=i5lGCe9?.eBOfea24giq=ihsUrance%2Osurvey&q3,..

1/1

Gmail - (no subject)

8/28/20.17

iWadhu Sameer <macHhu.bambroo@gmaiLcom>
...

;

(no subject)
(Vfadhu Sameer <madhu bambroo@gmall. com>
To; Phil Hoxtall <PHextall@cl-ru.com>

Tue, Dec 29, 2015 at 10:49 AM

I was told that if I offered to pay for inspection, and assessment, i could: have it done on my own.
;
t

I have paid 6000, the rest was held up due to dispute. What they used that 6000 for - I have no control over it.
So at this time I would be happy yo pay for services as my container and belongings are held up for 6 months...

M.
[Quoted text hidden)

i

:

i

I

i

https://mait.gDo

gla.com/mail/u/0/?ui=2&ik=5ebcear329&jsver=RXtY7GgZj^46ea&view=pt&msg=151ea91533df02cd&q=insurance%20survey&qs...

1/1

Gmail - (no subject)

8/28/2017

IVladhu Sameer «mMhu. feambroo@9maH.com>

(no subject)
Thu, Dec 31, 2015 at 1:17 PM

Phil Hextall <PHextall@cl-nz.com>
To: Madhu Sameer <madhu,bambroo@grnail.com>
Hi Madhu,

I am away until January 12,1 will schedule a survey that week so I will be in contact with you 12 January.
Kind regards and Happy New Year.
{Quoted text bidden]

i

1

i

}

0168

il/.i/n/'?iii=2&ikp5ebd0a1320&isver=PXiY7GgZ)W4.en.&vfew=pt&msg°1&1t563842(iP258e&q=insurance%2Osurvey&qs... 1/1
ftonnlo mm/ma

*■.

-

■■

> tiMMI

a—

■■■111
mmiim

■IS

Bl—1

s

i

■i

'■I

ii

€
r

*rs±

?rC

■•a

-s

- ^ -i

«£-v-

>'tr*
V ■*»“"■'

i&■1

v.~/»*
T*

'*•*
*
*>
*
tJ- k

^ 3

t;t:

hr

.-:*•■

CO —

rTZ-

/- . :* -

is

/
l

fp

!r

*■

»■

X
.K

&

*

V’

\"

M

(

ju.
t
x

■

e£

K;

£
4:i“.;i

3 If ■ p

1: if.V
F !•]
tl :
;
i

**

ss
Ml

p.
V/

.**■■

.

‘

^':

:?3

"i;^|

la

.i \

m

%\

i
M

ik
K-

3Bp

if:

H
ms
MM
V

5*

jm

:. ,,A', '....'ft; . ■;

h-

o

■ x

**

*

7M

:

5

i '■ *

v- ii
;

*.

1

f

1

*■ I

I

^rS

rv
"^£^55i«»

rinv

VJr.
?

r

~T»

2'h

>

I
i ‘

?

f?-\ '

■

y.

I

- J

'
I

,'.'C>

^

>

ii

i

w*i?•*'•

/

’* t

i

4

ir-

« -

iiI*

"~7J. '
Tf

'i
P-*

mu)

0176

ijman - Kt: insuranceuiaim. vvtwv Ker a^unwdWB'i/u; uerimcaie ino: ^ot5-Joou-ui«3Z-o; insurer: underwriting kisks services umuea

in/zuio

ete.il

Madhu Sameer <madhu.bambroo@gmail.com>

(bfCScwgtr

RE: Insurance Claim. WKW Ref: 520/15/36381/C; Certificate No: 3268-38800132-6; Insurer: Underwriting Risks Services Limited
Mon, Dec 7, 2015 at 3:06 PM

Yen Li Chua <yichua@wkwebster.com.sg>
To: Madhu Sameer <madhu.bambroo@gmail.com>

Without Prejudice
Dear Ms Sameer,
Thank you for your email.
We have been in communication with the Underwriters and have received instruction to hold
off on the survey. It appears Certificate 3268-3880-0132-6 was voided due to non-payment
of premium.
We are unable to assis further in this regard.
4-

Best regards
Chua Yen Li (Ms)
Senior Executive Officer

■*%

"v '

"-ft
«J.

nil

For & On Behalf Of W K Webster (International) Pte Ltd
As Agents Only

.*•£££

i

-5*
a.

STCs available on request

■» . m

• r:

W K Webster (International) Pte Ltd

5 Tampines Central 1

f'

>2
1

#03-02 Tampines Plaza

.^

V...S
S.

Singapore 529541
Tel: +65 6222 6022 / Fax:+65 6225 0428
www.wkwebster.com

&

W K Webster & Co Ltd, London
Proud Recipients of the Queen's Award for Enterprise: International Trade 2012

0177
wftm cn= 1R17<yV3QR1 AftM 1 QAcim I = 1A17o^9fi«1 RAM 1Q

umau - uonroy nemovats invoice j uur Kererence-

U/./JA) I /

’Urmil,;.

Madhu Sameer <madhu.bambroo@gmail.com>

Conroy Removals Invoice | Our Reference - 2114544
Monica McKinley <monicam@conroy.co.nz>
To: Madhu Sameer <madhu.bambroo@gmai!.com>
Cc,: ''mfranklin@therightnnove4u.com'' <mfranKiin@therightmove4u.com>

Thu, Aug 13, 2015 at 10:51 AM

HI Madhu,
We have no interest in any legal negotiations. As I said, ail we require is a copy of your visa and the completed
customs and quarantine documents, I can then start clearing your goods through NZ Customs and Quarantine. The
container is arriving on 17th August into the Port of Lyttelton.
Kind regards,

..

iHwwiig Monica McKinley

CONROY I

I CONROY REMOVALS | New Zealand

R EMOVILS

y vi v i‘vi

|t 4-64 6 843 1782

v'^

monscam{&conroy.co.nz website

i
fhltewuson.

fer n«wgAnd»ev6'frb.

From: Madhu Sameer [mailto:madhu.barTibroo@gmaif.com]
Sent: Thursday, 13 August 2015 10:05 a.m.
[Quoted text hidden]
[Quoted text hidden]

cfic-o noui n7^,nc.=rri icJlcoarrh=ns wsrvr/imcns: 14f?2l1r0a3r''Vic>Qa

PDF created with pdfFactory trial version www.pdffactorv.com
PDF created with pdfFactory trial version www.pdff^jc^.com
PDF created with pdfFactory trial version www.pdffactorv.com

1/1

MtZJZVM

vamati - uonroy Kemovais invoice | uur Kererence - zrw'ow

M Gmail

Madhu Sameer <madhu.bambroo@gmail.com>

Conroy Removals Invoice | Our Reference - 2114544
Thu, Aug 13, 2015 at 9:32 AM

Madhu Sameer <madhu.bambroo@gmail.com>
To: Monica McKinley <monicam@conroy.co.nz>
Monica,
The shipment was broken into three parts by The Right Move. This is only the first part.

I am not sure if they have informed you of the dispute, but it is currently being handled by the fmc dispute office in US.
The second part of the shipment has been held hostage. The company is refusing to refund the money that theyhad
agreed to pay for the third shipment that I carried with me as checked baggage.
If you like, I can provide the details, or you can get details from the Right Move.
Please let me know if you are willing to resolve this on the basis of the evidence in the form of contracts and emails.

[Quoted text, hidden]

ctrt^ci notrv7&nc='fri tc<&cei:ar/''h:=:nt ic»r\/Arv\cn— /\A.fO'%riAfc(-\'7£fcfArlRfL

PDF created with pdfFactory trial version www.pdffactorv.com

1/1

uman - uonroy Kemovais invoice\ uur Kererence -

\IZZ/ZW\ I

M Gmail

Madhu Sameer <madhu.bambroo@gmail.com>

Conroy Removals Invoice | Our Reference - 2114544
Thu, Aug 13, 2015 at 9:53 AM

Monica McKinley <monicam@conroy.co.nz>
To: Madhu Sameer <madhu.bambroo@gmail.com>
HI Madhu,

Many thanks for the update. Under our contractual agreement with The Right Move, our job is to clear the container
at the Port, customs and quarantine clear your goods ready for delivery.
We would rather not become involved with any disputes.
When you have time, could you please complete and return the documents I sent earlier this morning. I can then
make a start on the customs and quarantine clearances. We also require a copy of your visa.
Kind regards,

Monica McKinley

(I
HELPING

Follow us do

fiiMiy
REMOVALS
tO'l)

MOVE

CONROY REMOVALS | New Zealand

t.+64 6 843 1782

A H £ A E> ■ monicamffficonroy.co.nz website

:;^riertsaiiA^vieftls.

From: Madhu Sameer [mailto:madhu.bambroo@gmail.com]
Sent: Thursday, 13 August 2015 9:33 a.m.
[Quoted text hidden]
[Quoted text hidden]

cHrvo rv\\/t nvAnc^tri uaJLcoarr-h:=n» iorv/X.mcnz

PDF created with pdfFactory trial version www.pdffactory.com

1/0

umau - contact

b/^O/ATID

/*■:..............................

CSmail

Madhu Sameer <madhu.bambroo@gmail.com>

Contact
Madhu Sameer <madhu.bambroo@gmail.com>
To: Fiona Conroy <fionac@conroy.co.nz>

Thu, Aug 20, 2015 at 1:41 PM

Fiona,
Just to touch base on what we discussed - you asked me to pay for the entire shipment. I have refused. I have offered
to pay for your costs, and the port costs in return for shipment to be delivered to me. I will pay the rest at the time the
delivery of second shipment is made and matters are resolved.
You stated that I would have to incur demurrage charges. I informed you that you are free to have the shipment reoved
from the port and taken to your storage unit in th ebest interest of all parties. That will minimze the costs. I even offered
to pay th eport charges and your fee. However, you informed me that The Right Move had refused to allow you to
remove the shipment from the port, and that you could not remove it from the port without their approval - even if I
offered to pay.
I informed you that the decision taken by the Right Move to refuse to allow you to remove the shipment from the port
was your internal decision. It is obvious that the decision is made with the malicious intent of further harming me and
increasing my costs. As such, since the decision is from them, I will not be responsible for any demurrage or any costs
incurred due to their refusal to have the shipment moved. There is no reason that I can see why it cannot be moved,
except an effort to blackmail me.
You stated that you were just an agent, and had no authority to move the container. I disputed that. If you are an agent,
you have an inherent liability to minimize my costs. If you are deliberately going to increase my costs with the only
intention to harm me, then you are responsible for those costs. If the costs are increased due to deliberate, malicious;
behavior of Right Move, then it is THEY who will owe you money for demurrage, not me. I have never asked you not to
remove the container form the port.
You also stated in an earlier email that you were going to resign as their agent if no resolution was reached. I requested
that you resign as you had stated. You informed me that you cannot resign, and will not resign. Whatever the reasons for
your decision not to resign, they are yours to make. However, I believe by continuing to support an illegal transaction,
blackmail and maliciously increasing my cost makes you responsible as a party to the action.
If you disagree with any of the above, please clarify and we can discuss. Also request you to provide alternate argument
you may have, in case you disagree with the above. I prefer written discussions over telephone conversations.
[Quoted text hidden]

PDF created with pdfFactory trial version www.pdffactory.com

Conroy Removals Ltd - Napier

C«NR#Y

HEAD OFFICE
9 Lipton Place,
PO Box 5079, Greenmeadows,
Napier 4145, New Zealand

REMOVALS
HELPING

YOU

MOVE

Telephone: (06) 843-2376
conroy@removals.co.nz
www.conroy.co.nz

AHEAD

GST No. 13-997-950

STATEMENT
Page: 1
Customer Code: 70048
Payment Terms: 30 Days
Madhu Sameer
89 Grahams Road
Burnside
Christchurch
Attention: Madhu

Period up to: 01/12/16

Date

Invoice

Reference

Description

Amount

Balance

21/09/15
31/12/15
01/03/16

1106685
1119629
1125899
1129156
1132556
1136060
1139728
1142973
1146830
1150731
1153313
1158780
1158926
1158927

2114544X
2114544X
1125899
1129156
1132556
1136060
1139728
1142973
1146830
1150731
1153313
1158780
2114544X
2114544X

Sameer/Madhu
Sameer/Madhu
Sameer/Madhu STG:
Sameer/Madhu STG:
Sameer/Madhu STG:
Sameer/Madhu STG:
Sameer/Madhu STG:
Sameer/Madhu STG:
Sameer/Madhu STG:
Sameer/Madhu STG:
Sameer/Madhu STG:
Sameer/Madhu STG:
Sameer/Madhu
Sameer/Madhu

1,021.16
954.50
2,581.85
561.00
561.00
561.00
. 561.00
561.00
561.00
561.00
561.00
561.00
-15.60
-32.50

1,021.16
954.50
2,581.85
561.00
561.00
561.00
561.00
561.00
561.00
561.00
561.00
561.00
-15.60
-32.50

01/04/16
01/05/16
01/06/16
01/07/16
01/08/16
01/09/16
01/10/16
01/11/16
01/12/16
01/12/16
01/12/16

3 Months +
7,923.51

2 Month
561.00

13/11/15-31/03/16
01/04/16-30/04/16
01/05/16-31/05/16
01/06/16-30/06/16
01/07/16-31/07/16
01/08/16-31/08/16
01/09/16-30/09/16
01/10/16-31/10/16
01/11/16 To 30/11/16
01/12/16-31 /12/16

1 Month . ..
,561.00

Current
512.90 ,

NZD

Balance
9,558.41

Remittance Advice - Please detach and return with payment
Payment by EFT

Payment by cheque:

Bank of New Zealand, Taradale

Cheques should be made payable to: Conroy Removals Ltd - Napier.

BSB: : 02-0766
Account Number: 002111200
Swiftbic: BKNZNZ22

All work is undertaken subject to our terms & conditions. Such terms and conditions can be inspected at any of our offices or supplied upon request.
Post To:

Customer Name: Madhu Sameer

Conroy Removals Ltd - Napier
9 Lipton Place, PO Box 5079

Customer Code: 70048
Amount Out: 9,558.41

Greenmeadows

•.

Napier 4145

0182

Amount Paid:'

!

-

-■

ANDERSON [J
1 March 2016

For: Ben Russell / Katie Kendrick
Lane Neave
Solicitors
PO Box 13149
CHRISTCHURCH
By email - ben.russell@laneneave.co.nz

Without Prejudice

CIV-2015-009-2211 - Sameer.v Conroy Removals Limited
1.

We refer to your letter dated 19 February 2016.

2.

We are instructed that, while Ms Sameer's possessions were shipped in a single 40 foot
container, after the contents had been fumigated they were transferred into two 20 foot
containers since the 40 foot container needed to be returned to the shipping line.

3.

5?

Our client is prepared to accept your client's offer subject to the additional following terms:
(a)

(b)

4.

.

. Upon delivery of the containers in question Miss Sameer's address, Conroy Removals
Limited will unload the containers but, for the avoidance of doubt, there is no obligation
on Conroy Removals Limited to un-box the contents of the containers, unwrap or
reassemble furniture or remove packaging debris;
Within two working days of acceptance of this offer, Miss Sameer will:
(i)

delete the Facebook page entitled 'Conroy Removals Scam' at the url link,
https://www.facebook.com/search/top/?a=conrov%20removals%20scam ; and

(ii)

delete or take-down any other written messages or comments, whether online or
otherwise, that disparage Conroy Removals Limited;

(c)

Miss Sameer agrees that she will not make, at any time, any comment, written or oral
that disparages Conroy Removals Limited or any of its directors, officers, employees or
agents;

(d)

It is agreed that Conroy Removals Limited has no liability whatsoever for any damage
caused to the contents of the containers; and

(e)

The terms of the settlement are confidential between the parties.

Our client also requires that the terms of settlement are recorded in a deed of settlement.
While the costs of preparing the deed are to be borne equally by the parties, we are prepared
to provide you with a draft.

-\
* ’

i-i -

i ^ '*

u.

0183
PDF created with pdfFactory trial version www.pdffactorv.com

$

r

i

k$

'T5

MHMUtYD
5.

We look forward to hearing from you.

Yours faithfully
Anderson Lloyd

Jonathan Nicolle
Solicitor
P: 03 335 1222 .
E: Jonathan. nicolle@andersonllovd.co.nz

JWN-911877-4-68-V1 :jwn

: i 0184
PDF created with pdfFactory trial version www.pdffactorv.com .

Page 2 of 2

31 May 2016
For: Madhu Sameer
Madhu Sameer
89 Grahams Road
Burnside
CHRISTCHURCH

By email - madhu.bambroo@amail.com

Dear Madhu
Sameer v Conroy Removals Limited

1.

As you know, we act for Conroy Removals Limited ("Conroy Removals").

2.

A substantial amount of correspondence has been generated over the course of this dispute.
We have reviewed that correspondence and set out what we consider to be the legal position
between you and our client in this letter. We wish to make it absolutely clear that we do not
act for The Right Move Inc ("The Right Move") or your insurer so will not address your
possible claims against those parties.

Contract with The Right Move
3.

We understand that you engaged The Right Move to ship your household effects to New
Zealand. You entered into a contract under which The Right Move was the consignor and you
were the consignee.

4.

Your contract with The Right Move estimated a total fee of $8,600, and included the following
services:
"The price includes arriving at the pickup location, preparing professional inventory list,
disassemble basis furniture, loading into a container, trucking the container from the
port to your residence and back to the port both at origin and destination, fuel and
mileage, custom clearance at origin, terminal handling at origin, ocean freight, basic
custom clearance at destination, door delivery, settling the items at your new residence,
unwrapping the furniture, reassembly of basic furniture and removing packing debris."

5.

The price did not include:
"Long Carry, storage at origin, local port fees and taxes at destination, THC (terminal
handing charges) custom examination and scanning, roll over fees, storage at
destination, demurrage, fumigations, Piano Handling, and vehicle shipping."

6.

!«#«» tins!

We understand that The Right Move elected to ship your household effects in two
Consignments unbeknownst to you. We consider that any dispute about splitting the
consignment is solely a matter between you and The Right Move and does not concern our
client. For the purposes of this letter and the District Court Proceedings, we consider that the
goods in question are those contained in the Conroy Removals Inventory and Condition
Report attached to this letter and your Disputes Tribunal claim at exhibit 26 ("the Goods").

>:

F-

•'idts£*5

0185
PDF created with pdfFactory trial version www.pdffactorv.com'

I1

I

j r

?,’

?'*£’ ,• I

1 f' '

rt, ft*

Masonn
7.

8.

When your goods were shipped, The Right Move had an arrangement with Conroy Removals
under which it engaged Conroy Removals to act as a carrier from time to time. Under that
arrangement, Conroy Removals sent The Right Move a Destination Rate Schedule setting out
that its fee for destination services would be $3,285. The destination services excluded:
(a)

customs and quarantine inspection fees;

(b)

quarantine treatment fees;

(c)

demurrage and detention; and

(d)

storage and storage handling. .

On 13 August 2015, Conroy Removals sent you an Arrival Notification stating:
(a)

arrival of the goods was expected on 17 August 2015;

(b)

it would be necessary for the goods to clear customs and quarantine services before
delivery could be completed;

(c)

if duties/taxes, physical inspections or treatments such as fumigation or steam cleaning
were required, the charges associated with those services were generally excluded
from your contract with The Right Move and were payable prior to delivery;

(d)

once customs and quarantine clearances had been obtained, Conroy Removals would
contact you to make delivery arrangements and if you required storage or were unable
to take delivery, Conroy Removals had storage services available at the following rates,
current at 28 August 2015:
(i)

storage charge per month:

$129.49; and

(ii)

storage handling:

$563.00.

9.

We have since been instructed that the rate provided for "storage charge per month" was in
fact a weekly rate, exclusive of GST:

10.

Ordinarily, you would have paid The Right Move the contract price. The Right Move would
have then paid Conroy Removals' destination service fee, who would then deliver the Goods
to you, subject to payment of any additional costs such as customs and inspection fees.

11.

However, due to your dispute with The Right Move, we understand the contractual relationship
between you and The Right Move completely broke down. In the meantime, the Goods had
arrived in New Zealand and were in Conroy Removals' possession.

Contract with Conroy Removals
12.

We understand that in good faith and in an effort to expedite the delivery of the Goods, Conroy
Removals negotiated with you directly on or about 13 August 2015 in order to facilitate the
delivery of the Goods. We consider those discussions, formed the basis of a new contract
directly between you and Conroy Removals on the following terms:,
(a)

you would perform all obligations The Right Move owed to Conroy Removals including:
(i) .

the payment.of Conroy Removals' destination service fee; and

(ii)

the payment of the Cosco (New Zealand) Limited ("Cosco”) destination delivery
and port fees of $677;

Page 2 of 6

JWN-911877-4-77-V4:al

7-0186
PDF created with pdfFactory trial version www.pdffactory:com ■ • <

msoniur.i)
(b)

(c)

13.

14.

you would be liable for all additional costs not included in Conroy Removals' destination
service fee, including:
(i)

customs and quarantine inspection;

(ii)

quarantine treatment;

(iii)

demurrage and detention; and

(iv)

storage and storage handling.

once all outstanding amounts had been paid, Conroy Removals would arrange delivery
of the Goods on the terms set out in its Destination Rate Schedule originally send to
The Right Move.

On 20 August 2015, you paid Conroy Removals a total of $4,041.24 consisting of:
(a)

$3,285 for Conroy Removals' destination service fees;

(b)

$677 for Cosco's destination delivery and port fees; and

(c)

$79.24 for a credit card surcharge fee.

Conroy Removals advised you to forward those details to The Right Move in order to have it
credited against the amount you owed directly to that company.

Customs and quarantine
15.

Delivery was originally scheduled for 31 August 2015. On 21 August 2015, Conroy Removals
advised you that the Ministry of Primary Industries ("MPI") had determined it necessary to
inspect the Goods.

16.

The inspection took place on or about 24 August 2015. During that inspection MPI discovered
snails and spiders. On 24 August 2015, Conroy Removals emailed you advising:
(a)

you needed to sign a disclaimer for the fumigation;

(b)

since the Goods were still being held in a container belonging to Cosco, delays in
returning the container after Thursday 27 August 2015 would incur a daily cost of $128
(a demurrage charge) which Conroy Removals would make every effort to avoid;

' (c)

in order to proceed, Conroy Removals required payment of $990.90 being fees
associated with the MPI inspection and fumigation and made up as follows:
(i)

inspection fees of $570; and

(ii)

fumigation fees of $420.90.

17.

You refused to sign the disclaimer or pay the MPI inspection and fumigation fees.
advised that it would not release the Goods for delivery until fumigation took place.

18.

As a consequence, Conroy Removals advised you that: ■
(a)

13;

MPI

You would be liable for $128 per day in demurrage from Cosco; and

JWN-911877-4-77-V4:al

0187
PDF created with pdfFactory trial version www.pdffactorv.com ;

Page 3 of 6

(b)

If delivery did not take place by 31 August 2015, storage charges with Conroy
Removals would apply as follows:
(i)

$560 in store handling fees; and

(ii)

$600 per month for storage.

19.

The impasse was not resolved by the end of August and, as a consequence, Conroy
Removals allocated the 31 August 2015 delivery slot to another customer. Storage costs
began accruing from that date.

20.

The fumigation eventually took place at the end of August 2015 and the Goods were unloaded
from the 40 foot Cosco container into two 20 foot containers owned by Conroy Removals.
That enabled Cosco to retrieve its 40 foot container meaning that demurrage charges would
no longer accrue.

21.

On 31 August 2015, Conroy Removals advised that, on 2 September 2015, MPI would
reassess whether the Goods cleared customs and quarantine. We understand that on or
about 4 September 2015, or at some point afterwards, the Goods cleared customs.

22.

You subsequently paid the inspection and fumigation fees. On 22 September 2015, Conroy
Removals advised you that Cosco had waived its demurrage charges.

Further attempts at delivery
23.

We understand that you and Conroy Removals negotiated a delivery date for 26 September
2015. However, when Conroy Removals advised that it required payment of its storage costs
before delivery would be completed, you refused to make payment. At that point, Conroy
Removals' storage costs totalled $1,021.16.

24.

Since you refused to pay the storage costs delivery did not take place and the delivery slot
was allocated to another customer. By that stage, we understand you had commenced the
Disputes Tribunal Proceedings.

25.

In good faith, Conroy Removals offered to extend the delivery date until 1 October 2015 and
waive further storage fees between 23 September 2015 and 1 October 2015 if you
discontinued your claim against Conroy Removals in the Disputes Tribunal. We understand
that you refused to discontinue your claim or pay outstanding storage fees. Once again
delivery did not take place.

26.

As at 12 November 2015, the outstanding storage fees were $1,975.66.

27.

Conroy Removals again offered to make delivery on 18 November 2015. However, you
refused to accept delivery and advised Conroy- Removals that you wished to hire another
moving company.

28.

On 17 November 2015, Conroy Removals acknowledged your request that delivery would not
take place on 18 November 2015 and urged you to reconsider by 5:00pm that evening. You
did not accept Conroy Removal's offer so your booking was lost.

29.

On 7 December 2015, you advised Conroy Removals that you would not accept delivery of the
Goods until your insurance dispute, which solely concerns The Right Move and not Conroy
Removals, was settled or Conroy Removals organised an "insurance agent to undertake an
assessment". Since Conroy Removals was not involved in your insurance dispute, we do not
consider Conroy Removals was or is responsible for organising an insurance assessor or
agent to inspect the Goods.

30.

Since no insurance agent was organised, delivery did not take place.

Page 4 of 6

JWN-911877-4-77-V4:ai

0188
PDF created with pdfFactory trial version www.pdffactory.com ;'

v

Disputed transaction
31.

We understand that, on or about 14 December 2015, you asked your bank to reverse the
payment of $4,041.24 you made to Conroy Removals on 13 August 2015 on the basis that it
was a disputed transaction.

32.

Our client maintains that you have no grounds to dispute that payment.

Outstanding amount and delivery
33.

As 31 May 2016, our client's outstanding storage and handling fees total $5,679.51 including
GST ("the Outstanding Amount") as set out in the attached invoices and made up as
follows:
(a)

$563 including GST in storage handling fees; and

(b)

$5,116.51 including GST in storage fees.

34.

The Outstanding Amount continues to increase at a monthly storage rate of $561.00 including
GST for as long as the Goods remain at our client's depot.

35.

Upon payment of the Outstanding. Amount, and confirmation that the 31 August 2015
transaction is no longer disputed, our client is willing to arrange delivery at a time and date
convenient for both parties.

Lien
36.

We consider that, at all material times Conroy Removals has acted as a carrier for the
purposes of the Carriage of Goods Act 1979 ("COGA").

37.

Under section 21 of the COGA, we consider that our client has a right to sue you for the
recovery of unpaid storage costs. Pursuant to section 23, we consider that our client is also
entitled to a lien over the. Goods pending payment of the Outstanding Amount.

38.

Pursuant to section 23 of the COGA, our client is entitled to a lien over the Goods currently
stored at Conroy Removals' Christchurch depot. Accordingly, this letter constitutes formal
notice that Conroy Removals claims a lien over the Goods pursuant to section 23 of the .
COGA due to non-payment of the Outstanding Amount.

39.

If payment of the Outstanding Amount plus further storage costs and associated recovery fees
is not made within two months, our client will be entitled to sell the Goods by public auction.
From the proceeds of that auction, our client will be entitled to deduct:

40.

(a)

the Outstanding Amount plus further storage costs and associated recovery fees; and

(b)

all other expenses reasonably incurred in removing, preserving and storing the Goods
pending settlement of our client's lien, and in arranging and conducting the sale of the
goods.

0

The balance of the proceeds from the auction (if any) will be paid to you.

The District Court Proceedings
41.

Now that the proceedings have been transferred to the District Court, our client has instructed
us to appear on its behalf and, as a consequence, has begun to incur legal costs in addition to
the ongoing storage fees.

Page 5 of 6

JWN-911877-4-77-V4:a!

0189
PDF created with pdfFactory trial version www.pdffactorv.com

ANDERSON:42.

We have read the original Disputes Tribunal claim filed against our client on 15 August 2015
and the revised claim dated 2 November 2015. Both claims make numerous allegations
against The Right Move. Our client is a separate legal entity from The Right Move and is not
legally responsible for any losses caused by that company.

43.

We consider the allegations made directly against our client are completely unjustified.
Conroy Removals categorically denies the allegations made against it. We consider that
several of the more serious allegations including criminal misrepresentation, fraud, deceit, or
unconscionable conduct, blackmail and extortion, conspiracy and unjust enrichment are
particularly spurious.

44.

We expect to be instructed to address those allegations at the case management conference
set down on 15 June 2016.
<

45.

The longer it takes to resolve this matter, the more our client will incur in legal fees. Should
you continue to pursue this matter through the Courts, our client will seek an order from the
Court for payment of its costs.

Yours faithfully
Anderson Lloyd

Jonathan Nicolle
Senior Solicitor
P: 03 335 1222
E: ionathan.nicolle@andersonllovd.co.nz

JWN-911877-4-77-V4:a!

* 0190
PDF created with pdfFactory trial version www.pdffactorv.com

Page 6 of 6

16 June 2016
Anderson Lloyd
70 Gloucester Street
Christchurch 8013
Attn: Jonathan Nicolle
Bv email: ionathan.nicoNe@andersonllovd.co.nz
Dear Jonathan,
CIV-2015-009-2211 Sameer v Conroy Removals Limited
I have now had the opportunity to review your letter dated 1 June 2016.1 note that you extended
the deadline for acceptance of the offer until Tuesday 21 June 2016 at 5pm.
I am not willing to accept the offer based on the terms outlined in your letter, but would be
prepared to settle on a without prejudice, save as to costs, basis on the following terms:
(a) Conroy Removals will waive:
(i) all remaining storage costs incurred since August 2015 and any further storage
costs within 3 working days from the date of settlement
(ii) any claim to recover $6,039.18 of its legal fees incurred to date.
(b) At a time and date mutually agreeable to both parties but not more than 2 weeks from
the date of settlement, Conroy Removals will deliver the Goods to my nominated address.
(c) Conroy Removals will provide the following delivery services until the delivery services
are completed:
(i) unwrapping and placement of all furniture;
(ii) unpacking all cartons to flat surface;
(iii) basic re-assembly of all beds and dining tables; and
(iv) removal of all waste packaging.
(d) The delivery services above will be completed with an insurance agent present. I will
organise the insurance agent.
(e) Within two working days of delivery, I will:
(i) delete the Facebook page entitled 'Conroy Removals Scam' at the url link,
https://www.facebook.com/search/toD/?a=conrov%20removals%20scam ; and
(ii) delete or take-down any other written messages or comments, whether online or
otherwise, that disparage Conroy Removals Limited;
(f) I will not make, at any time following acceptance of this offer, any comment, written or
oral that disparages Conroy Removals Limited or any of its directors, officers, employees or
agents.
(g) The terms of the settlement are confidential between the parties.
(h) The District Court proceedings, CIV-2015-009-2211 will be discontinued within 10
working days from the date of delivery by consent on the basis that there is no issue as to
costs and no admissions.

0191
PDF created with pdfFactory trial version www.pdffactorv.com

•.

(i) The settlement does not affect my rights to make a claim for damages to the Goods
should such a claim arise.
(j) Conroy Removals Limited will bear the costs of drafting and execution of a settlement
deed.
Yours sincerely,
Madhu Sameer

L •

>0192
PDF created with pdfFactory trial version www.pdffactorv.com

ANDERSON.t
1 June 2016

Madhu Sameer
89 Grahams Road
Burnside
CHRISTCHURCH
By email - madhU:bambroo@qmail.com

Dear Madhu
CIV-2015-009-2211 - Sameer v Conroy Removals Limited
1.

As you are aware, our client has incurred $5,679-51 including GST in storage costs while your
Goods have remained at Conroy Removals' depot since August 2015 and has also incurred
legal fees totalling $6,039.18 to date. Since these proceedings are wholly unjustified, we
consider that our client has good grounds to claim its entire legal costs from you rather than
just District Court scale costs.

2.

Should these proceedings continue to a hearing, our client will seek to recover a substantially
higher amount for storage costs and its legal fees from you. Before those further costs are
incurred, Conroy Removals considers it would be commercially sensible to attempt to settle
these proceedings.

3.

We have been instructed to make the following settlement offer:
(a)

You pay Conroy Removals $4,000 including GST towards storage costs incurred since
August 2015 within 3 working days from the date of settlement.

(b)

Conroy Removals will waive:
(i)

the remaining storage costs, totalling $1,679.51 and any further storage costs
incurred between the date of settlement and date of delivery; and

(ii)

any claim to recover $6,039.18 of its legal fees incurred to date.

(c)

At a time and date mutually agreeable to both parties but not more than 2 weeks from
the date of payment of the storage costs, Conroy Removals will deliver the Goods to
your nominated address.

(d)

For the avoidance of doubt, Conroy Removals attend to the following delivery services
for a period not exceeding 8 hours:
(i)

unwrapping and placement of furniture;

(ii)

unpacking cartons to flat surface;

(iii)

basic re-assembly of beds and dining tables; and

a**!*!
r;* t

t "i"1

. C3I.

■fi
7 M

0193
PDF created with pdfFactory trial version www.pdffactorv.com /

.

. | i-f. Ipiifii!:

C

'tt,

(iv)
(e)

removal of waste packaging.

Within two working days of delivery, you will:
(i)

delete the Facebook page entitled 'Conroy Removals Scam' at the url link,
httPs://www.facebook.com/search/tOD/?a=conrov%20removals%20scam ; and

(ii)

delete or take-down any other written messages or comments, whether online or
otherwise, that disparage Conroy Removals Limited;

(f)

You agree that you will not make, at any time following acceptance of this offer, any
comment, written or oral that disparages Conroy Removals Limited or any of its
directors, officers, employees or agents.

(g)

The terms of the settlement are confidential between the parties.

(h)

The District Court proceedings, CIV-2015-009-2211 are discontinued within five working
days from the date of settlement with no issue as to costs.

4.

Our client also requires that the terms of settlement are recorded in a deed of settlement.
Should you accept our client's offer, we will record the terms in a deed and send it through to
you for execution. The 'date of settlement' will be the date the deed is executed. Performance
of the settlement deed will discharge our client's lien over the Goods.

5.

This offer remains open for acceptance until 5:00pm, on Wednesday 8 June 2016.

6.

Should you not accept our client's offer and, at trial fail to obtain an outcome better than set
out in this offer, a copy of this letter will be produced in support of an application for payment
by you of indemnity costs for all legal fees incurred by Conroy Removals from the date of this
letter.

7.

We look forward to hearing from you.

Yours faithfully
Anderson Lloyd

A
:

Jonathan Nicolle
Senior Solicitor
P: 03 335 1222
E: ionathan.nicolle@andersonllovd.co.nz

*. ■ t.

JWN-911877-4-137-V2:al

Page 2 of 2

0194
PDF created with pdfFactory trial version www.pdffactorv.com

Odette Si mane Smortei feumpf!! Just happened to met
Unite - Reply Message O t 'f
at Vi VJ
The Right Move 4 0 seam They cftb this--to you too?
Use Reply

f£ satisfy .i! T7-$>

Odette Simone $m otic* YES! Its arr ongoing nightmare!
Lite Reply Message ... * ■ rn.'Z'
The Right Move 411 scam l think v/e should do something.
Frobabh/ find more people and file a dass acficn- suit They are sil
hoMing ALL my belongings; Its been 20 months...
o
CD
U)

1 have to file a lawsuit soon , In US, to get them to release my stuff
and pay my.damages. I intend flog a RICO suit.... See more
Like Reply
S-rn:?- n'fOf
Odette Srmone Smolrcz NYC to Sydney She helped herself to
my bank account and is blaetanaing me that shewont release my
goods until 1 make that fraud legal
Like Reply Message ; 2 r.mx it II Z0
The Right Move 411 scam pm...
• fi Z
i m;
;* k i
Uhe Reply iL
‘i

.Me ■ ra~ v •

—• V-

•q

Odette Simone Smolicz
Chat conversation start

You and Odette Simone Smolicz aren't connected on Facebook
FRI 01:00

stiiJfewaEffgiirf item
ltra?mfllhfnrag
[pmwiirnvgTititef.m
\mm ferjutatinsfl slhsiofe. mfifii Starifirfeiiraffiky. OiffiirilteawrihwTOfflfta(aar»1faa»^ twa
SuMl@^S8Si*SBi

BBSgsaeggfse
Odette Simone Smolicz accepted your request.

FMC are on my case... what is RICO?

0S51>sT//emwil<i;

tBtoKiifeKtteiiia Art
r/wil?i/Racltrataa? MiTwaiiaafl giiril
ite fe gt ffltea fetTifflii, gfira masa fmairerirsa ggsiilte wftift grat Mflit firai—[1 am
netftggiftiTOsffBfetferaigmwiyfliguigiiTga^
Bt&aiaMsasiuw
l (jgn> mfa tBra fferoarfttfim ran <iTOii_jrca eteorfM[fileT.OGETOERlfta f?«ra fcfeiiiMstswriL.

Haha yup. She did. Gave me $15k free
gfeg\ TiytsKia

fe rroftro

w

rigiiwraft« mm nsurancelB.

J
x
I'm working to get my stuff. Then I’m prosecuting for fraud / theft.
lEo3lacRt5f/paymeritBffs'o7nblffe^

asS
im
[iT»l

\\m flT«HifiKW liig? ISKK8IST? (Bra f»S1«W?iTSl

•>
i

to

Haha! Yup!!!!!!!
She put my stuff on the ship without contract or authorisation and demands
payment. I lieu she will apparently share my BOL is I agree to her fraud.

z^faaaftasftraoBmffiTaeftiin_______ __________________________

. 0196
PDF created with pdfFactory trial version www.pdffactory.com ■

]

Yesiinn
Do not sign Customs release form...
The shipment will lie in the port, and she or her agent will be liable, They will tell
you you are liable, but you're not. So she has to either return the shipment to US, 01
she has to release it to you.
Do not agree to use her agent as your delivery person. Just say you will get your
own delivery agent.
Get your agent to make a delivery order from customs. Then the cargo will be in no
man's land. She cannot take it back necause it has passed customs. Nor can she
bring it in because YOU hold the customs delivery order. Then you can blackmail
her back.,.say" I have the delivery order...if you want it, you have to pay me
$50,000 for it."______________________________________________________

Ok because I am at the stage that it's all in storage accumulating excessive
Charges
[She will incur $10,000 per month in demurrage....
ITrho has the delivery order
?
Who did the delivery?

ir'-

■>:

4

•5it"-

No one yet. In AU apparently OSS is engaged
Iwhat is OSS?

A handler here in Sydney
Is it his handler?
Don’t use that handler. They're in cahoots ...its a mafia...
Get your own handler...__________________________

Aaaah ok.
|How much did you pay for freight, if you don't mind sharinisi

Haha.... she quoted $3250 invoices me for $6750. Which I have been disputing
since October
Then she helped herself to my bank accoubt
fThen tried to blackmail me
Its the local agent who has been holding onto my cargo....I should have gotten a
different one...

0197
PDF created with pdfFactory trial version www.pdffactory.com

-ffr

■

r:

i

Oh man
The local agent will not release your cargo until you do as she says. If you get your
own, he will give you right advice...

I have a team of lawyers and such on the case
Who IS she?
I had problem with my import shipment, the samekind of problem...(I have a
business)...but I had my own handler, who did things...in a different way - the
shipper's handler could not do a THING. Tried to bully me. Threatenedme with a
lawsuit. With demurrage charges of over 10,000. I did not yield. After holding onto
my shipment for a month, that guy just caved in.
Released everything uncomditionally...just 2 months ago...
He incurred these losses. I just said "too bad"....
This was for another shipment...! wsh I was as smart at that time....
The Right Move shipment remains locked...because I used her handler...
'here is your shipment? At Customs, or with the handler? ■

With the handler at the moment
oh crap....
Handler will not release....its a regular mafia...
immediately file a complaint with the disputes tribunal or whatever you have there in
Australia...handler WILL NOT release it until you pay him....he will tag on more and
more charges...you'll see. Some of them are just made up charges...
Tell him he has an illegal contract...I will be happy to come as a witness...
see the illegal contract law...tell the handler that if he continues detaining your
cargo, he will be guilty of aiding and abetting in a criminal act...give him my details
and even phone number...if you like...
Bank account ? Did she take anything without your permission? You can always
dispute charges form the bank and they will reimburse you and take it out of her
account.
Chat conversation end
Seen Fri 01:27

1 0198
PDF created with pdfFactory trial version www.pdffactory.com

IN THE DISTRICT COURT
HELD AT CHRISTCHURCH

CIV No: 2015-009-2211

BETWEEN

Madhu Sameer

Plaintiff

AND

Conroy Removals Limited

Defendant

riJv*

'4

■%7.

Plaintiff’s Submission in Response to Opposing Counsel’s Memorandum

0199

CIV-2015-009-2211

Madhu Sameer Submissions In Response to Defendant’s Memorandum
I am the Plaintiff in this case. I have received and read the defendant's Memorandum, submitted on 2/7/2016.
Following is my brief response to it.
I reject the so-called facts and chronology of facts presented by the opposing Counsel Johnathan Nicholls.
Evidence to the contrary has been presented to him repeatedly.
I also wish to make this Court aware that a sincere effort was made by me to settle this matter, but the matter
remains in dispute due to Defendant's unreasonable expectations and demands that are verbally conveyed to
me either by her directly, or by her attorney. Since these demands are now not made in writing, but are
conveyed verbally to me, and they are threatening and extortionist in nature, in March 2016,1 had requested
that the opposing Counsel not make phone calls to me, but rather, convey his demands in writing.
However, a few days ago, Mr Nicholls again called me up and made a few demands and threats again, and
threatened me with attorney costs, and auction of my goods unless I was willing to agree to all his demands.
However, when I asked him to put the same in writing, he refused to do so.
Firstly, the matter is in dispute, and therefore defendants threats to have the goods auctioned by the end of 2
months if I do not pay them 10,000+, must be safely considered to be a blackmail threat, an effort to intimidate
me, and extort more money out of me. There is no contract that the defendant can produce which shows I owe
them 10,000+, whereas I have produced evidentiary documentation that shows I was forced to hand over my
goods to them under false promises, and there was never an agreement which stated I had to pay them the
amount they state I owe them. Hence this is not dispute - it is has been an effort to take control of my goods
by "hoodwinking" me into signing documents that gave them control of my goods. The implicit intent based on
which defendant entered into a contract with me locally, evidence will show, had always been to extort money
unlawfully from me. Once the goods were in their control, the defendant held them unlawfully, making
repeated attempts to extort money from me. When I refused to pay, I was threatened with loss of goods thru
auction, theft, or pilferage. My insurance was cancelled due to defendant's wrongful behavior.
This is very much comparable to kidnapping of a person, and demands for ransom. The perpetrator lures its
victim under false pretense, and details him or her unlawfully, while money is being demanded for victims
release. Under normal circumstances, the victims or his or her family does not owe any money to the
perpetrator. However, the victims family is told that if they tell anyone about the blackmail, the victim will be
murdered. If and when no money is forthcoming, the victim is murdered.
In this instance, the victim happen to be my goods, which were taken from'me under false pretense, kept for a
year, while the perpetrator makes unreasonable demands for money that is not owed under any contract. I
was repeatedly threatened with liquidation of goods, verbally and in writing. Now, a more nuamnced Counsel
for the defendant makes verbal threats about imputing attorney costs and liquidating my goods unless I agree
to his demands and pay up the money being demanded. There is no justification, contract, or any evidentiary
documentation or legal basis that he presents for the money that defendant is demanding. I am deliberately
being forced to incur significant expenses in this attempt by the defendant, to extort money.
As the Court is aware, the matter could have settled in the disputes tribunal had the Defendant agreed to have
it settled. The discussions in the Disputes Tribunal are recorded, and the recording will show that I offered to
drop the criminal charges, and agree to the jurisidiction of the Disputes Tribunal. However, the defendant
made false representations to the Referee of the Disputes Tribunal, stating that she had a contract with the

0200

Right Moves, and the matter could not be handled by the Disputes Tribunal. This was done with an explicit
intention of threatening me with legal costs. Since then, her actions forced me to replace some items that were
contained in the container that is being detained by the defendant. The replacement costs are in excess of
$40,000.
The attorney costs incurred by me in this matter, and attorney costs incurred by Defendant in this matter are
therefore a direct consequence of defendant's own nefarious acts, malicious behavior. However, I offered to
waive the damaging arising as a consequence of her actions, and made the offer attached herewith as EX A.
The offer was valid till CMC. As the Court can see, this is a very very reasonable offer.
Johnathan Nicolls called me a few days ago, and claimed that I make further concessions, which I was
unprepared to make. I was told that the defendant would only deliver, would not assemble my furniture. I was
also told that I should withdraw allegations of criminal nature and sign a deed to not pursue these matters
*before* the delivery is made. I have been billed and charged for complete delivery, which includes assembly
and other actions. There is no reason for defendant to refuse performing those jobs, and yet keep my $5050 as
ransom money. The defendant is liable for damages arising from breakage while in their possession, and during
assembly of furniture etc.. As to the allegations of fraud, conspiracy, blackmail and extortion, I informed the
counsel that if the defendant delivered successfully, and did not leave a reason for me to pursue these charges,
I would withdraw these charges - but given the history of this case, and given the dishonest character of the
defendant as evidenced by her past behavior, I would not withdraw criminal charges before the delivery was
completed. I was told that if I did not pay them, or accept their offer waiving my right to delivery despite the
fact that I had paid them $5050 for delivery, they would sell my goods, would also prevent the matter from
going back to Disputes Tribunal and would seek sanctions against me from the court in the form of attorney
fee. The fact that there is a contract to perform a set of services, the fact that the contract was entered into by
means of fraud, and misrepresentation, the fact that defendant offered to perform a set of service in exchange
for monies, which she now refuses to perform, the fact that defendant is unwilling to refund my monies, and
instead, is openly keeping my goods hostage without any legally justified reason to do so, is openly threatening
to liquidate my assets without any justifiable reason to do so, and the fact that the attempts at extortion and
blackmail for the last 10 months are all documented in and thru emails exchanged between parties - the"5
matter is of unlawful criminal nature. It is NOT a civil matter, it is not simple breach of contract, but willfulfy
committed fraud, with premeditated intent to extort more money than I had contracted for. The intent, from
before the contract was entered into, was to threaten and harass me. The fact that I have repeatedly offered
to waive the criminality and request that the matter be returned to Disputes Tribunal does not make their
behavior less criminal. It simply shows my willingness to put this matter behind me. The defendant STILL
continues to harass, intimidate me, and now wants to seek Court's help to do so. She should not be rewarded
for her behavior.
This uncompromising attitude is exactly the reason why we are in Court. The intention of the defendant and
her counsel is not to resolve the matter. It seems that they do not intend to deliver, and therefore they find
excuses to hold onto my goods. The attorney costs, and threats of liquidation of my goods are used as an effort
to blackmail me into paying more money than I owe them, AND to hold onto my goods until the statute of time
within which I can file a claim against the RIGHT MOVE runs out in US. This represents a pre-meditated action
to take control of my goods with an explicit intent to defraud me and deny me of my rights to seek delivery of
the goods, either in New Zealand, or in US.
If the opposing Counsel agrees that the matter could have been resolved in the disputes tribunal but was not
resolved there due to defendants malicious actions, and misrepresentations, or even due to her "confusion"
about her contractual obligations, then the defendant is either directly or indirectly responsible for the
expenses incurred by me in this matter since then. If now the matter can be returned to disputes tribunal and
can be resolved in the disputes tribunal without defendant having to incur attorney fee and costs, but the

0201

defendant is refusing to stipulate to have it moved back, or is causing the matter to deliberately remain in the
District Court and continues to threaten me with attorney fee, then the attorney costs that the defendant is
threatening me with, in this matter, should not be my awarded in the unlikely case the Court rules in
defendant's favor. Defendant is provided with the option of reducing her costs by transfer to DISPTES
TRIBUNAL, but is willfully refusing to do so.
Two days ago, I again informed the defendant's attorney that I have recently moved to a new, unfurnished
accommodation, and would like my goods to be returned pending Court's decision, as otherwise I would be
forced to purchase home furniture and furnishings. The matter was conveyed to the defendant. The defendant
was unconcerned, and only reiterated her threats about attorney fee, costs and liquidation of my goods thru
auction if I do not pay her the $10,000 extra that she has demanded.
Since the defendant is directly, deliberately contributing to increasing my expenses, and continues to willfully
inflict harm on me, therefore I am withdrawing my good faith offer waiving over $40,000 in expenses incurred
till date as a consequence of defendant's misconduct.
I now request that the matter be either returned to Disputes Tribunal, or, if the defendant or his counsel
objects to moving this matter to Disputes Tribunal, the matter be set for trial in District Court.
Defendant claims to have taken a lien on my goods. I request that the Court order the lien my goods be
removed and the goods delivered pending a decision by the Court. If the Court is unable to do so, I request
that the Court at least order defendant not to auction my goods.
I believe the offer of settlement conference made by the opposing counsel is being used as a weapon to
prevent the matter being sent to Disputes Tribunal, to cause more delays, to further increase my expenses, and
to increase their own legal expenses which they are then threatening to have imputed to me. I see absolutely
no benefit in holding settlement conference in this matter. Such settlement conferences have been held by
several neutral parties earlier, only to be sabotaged by the defendant.
An effort was made by the referee of the DISPUTES TRIBUNAL, an effort was made by an investigator called
John Maio in October, an attorney from Lane Neaves that I had hired in January 2016 to negotiate the matter
and settle (Ben Russel from Lane Neaves). At each settlement meeting, I was threatened, intimidated,
blackmailed (for Court's information, these threats and blackmail efforts are available in the form of emails,
etc). Since the efforts of all these intermediatories have failed and the defendant continues to refuse to deliver
my goods, therefore the only inference that is to be drawn in this matter is that the defendant is buying time by
asking for a settlement conference, has no intention of making the delivery, and is stealthily plannig to auction
my goods, acquire the goods cheaply in the auction. Given such misconduct, and nefarious intentions, I am
unwilling to make any more concessions, and would like to proceed with a claim for damages - preferably in
Disputes Tribunal, or, if the defendant does not agree to a transfer, in the District Court.
Defendant's threats, intimidations and blackmail attempts are extremely distressing for me and cause great
mental anguish to me and my family. I request the Court to prohibit Defendant, defendant's attorneys or
anyone connected with Defendant from contacting me on the phone, or in person. I request that all contact
be thru email, so there is no emotional distress, and no threats, blackmail efforts and intimidation efforts can
be made.
I wish to make the Court aware that the opposing Counsel has been provided with almost all the evidentiary
documentation in this case. However the fact that I am self represented offers the defendant and the opposing
counsel an opportunity to exploit the power differential that my limited knowledge of New Zealand law
creates. Despite my repeated requests that he read the evidence provided to him, before he makes misleading
statements to my previous attorneys, or to the Court or even to me, Mr Nicolls informs me that he does not
have time to read all that documentation. Given the deliberate unwillingness to familiarize himself with the

0202

facts, and a lack of any evidentiary documentation in support of the claims made by his client, the Court must
construe any mischaracterization or misrepresentation of facts as Counsel's deliberate attempt at misleading
the Court by providing false information to the Court. This is important when imposing exemplary sanctions
against the defendant. In addition, I also reserve the right to seek sanctions against attorneys in this matter,
should any misrepresentation of facts be made to the Court, or if the Court is mislead in any way.
I make the above statements under penalty of perjury, under the laws of New Zealand.

€
Madhu Sameer

3/7/2016

>s.

0203

/f'(Disputes TrBnm&lsACt 1888)

order-op disputes tribumal

District Court; Christchurch
APPLICANT
And respondent
for
Counterclaim

Madhu Sameer
374 Memorial AVe
Burnside
Christchurch 8053

RESPONDENT
And Applicant
for
Counterclaim

Conroy Removals Limited
Po Soil S07S
Greenmeadows
Napier 4145

Gase number: CIV-2015-009*001S66

The Tribunal hereby orders:
Madhu Sameer Is to pay $9,045,51 to ConroyRemovatsLfrnited on or before Wednesday 4
January 2317.
Reasons:
1. Ms Sameer engaged the services of The Right Moveinc, (Mreafter Right Move) to transport
her household goods door to door from California to Christchurch. Right Move obtained a
quote from Conroy Removafe Umited {hereafter CRL} to uplift the container from Lyttteton and
provide destination services. When the goods were In trertsh CRL was informed from the
shipperfoat ft should prepaheto reoeive the container. CM. proceed to make thenecessary
arrangements ate contacted Ms Sameer for payment of port charges. ttwae informed that Ms
Sameer and Right Moves were in dispute over manyaspects of toe transportation of the goods,
The dispute Involved e variety of comptaints IncJuding insurance, packing, payment and the
provision ofan Inventory list. Ms Conroy, manager of CRL, said it was mostimusual that a
container has been shipped when toe consignor h^p# only 15 percent ofthe service fee.
As a result of the disagreement between Ms Sameer end Right Move, only one 40ft container
was shined and the otberremained In Califomte,
2. CRL was not aware ©f the disputes and Informed Ms Sameer that Right Move had requested H
collect the container from the port, dear It through customs arid quarantine and defivar It to Ms
Sameer. Ms Conroy caldRight Movesincorredly wrote CRL’s name asthe consignor of the
container on the bill of landing. CRL had not requested toe shipment and ft ought to have been
In the nsmeof Ms Sameer. She said itis theconslgnee who Is liable for the port charges and
container doste. Ms Sameer disputedshe was rasponslble forport charges andexpactedCRL
to uplift the container and delfver it to her, Right Movesdoes not belong to the international
shipping organisations that CRL does and so dots not have an account With CRL. CRL
therefore required Right Mpves to pay the account before It undertook toe destination services,
Ms Conroy saidCRL did not receive any payment from Right Moves becauseft vras ln dispute
With Mb Sameer and Ms Ssmeer refused to pay port charges to release the container. Ms
Conroy said If a container is toft at the port,both toe port and the shlpptog company Impose
penalties ibaiaccrue at e daily rate, in order to avoid penalties told for Ms Sameer to obtain
her goods, an arrangement was entered Into betwee n toe partes whereby Mb Sameer paid
CRL directly and CRL would arrange for Iter goods to be delivered; CRL uplifted toe cofrtainer
and arranged a time for Ms Sameer to be present when it opened!! and devanned ft into its
own containers for delivery. CRL operate an MPI approved transitional fae*iity,and upon
opening foecOrtfalner found It comaihed spidersarte goods^toat itequlrtod an MPI inspection
before ft was emptied. Theeoniainer was Immediately seated pending a MPI inspection. After
S204

Page 1 of6

l
t

I

i
i

sozo

TliiS Js UW-B&WWlltf {« W*«) <Mrte,t "K
r^yrrr’J ts f?i ife 1*00X4
WHIM «&*
iiSHiS ii.ul^StjS uf TUtt CoUfl^l Cllt"*tvtlU(Cli

4t*

:J'
s* ■

»

-*r

:sssfifiSgs-

jolK it. CRL stored thetwo conlarnere at ns Christchurch premises pending aMn rt
the dispute.

Intemattmat shipping taw lhatwae outtlde ofthefl’Jif?iuiBdtto
transferred totha Dietrtd Court Ms Ssmeersgreed *aUThr<« ggg***^,
ireer* and Ms Conroy, though disappointed, was resigned toacceptt* matterwould be
transferred to the District Court
4-

2SSSSSrepairs. She said It contained tiles at evidenar aWroueh she could riot refflember whM that
Sense was The counterclaim was served sn Ms S.meer S waste before the Mtmduldd ^ ,

a'vS^^'temEcfthe'eontreMnetSn Conwy Removals Limited end Me Sameer?
b. Vfes t^eentoactanHtegaioohtrafeP?
.
S MSSStffS^tn^^andhaseh.
taken reasonable steps to mitigate the loss she incurred?
6‘

RemoSi^lied'fSlied te contractu^ obtlgaiionsthen has Ws Sameer fuelled
f. ft not, then what reasonably foreseeable toss can Conroy Removals Umlfed be
compensated for and has ft mitigated that loss?

7-

individual capacities aid netthef we* retying on e representative.
*

•

*

*

*

.

What ware the terms of the contract between Conroy Removal®

„

*

and We Sameer?

8. A contract Isformed wheneveriwo jetties arrive St Wwe«mefAJa|ri«yW^ tobetegatly

9.

SSSSSSSSS-- ■
ris^swissaa^eassKatt^
sSwBsasssf^—saatsKBt
CRL sent an email to Ms Sameer tilted 'atrtval notjtiwBon’ on « ^ 2016°rvd "doited te

cw5m_crvjtxxn_ort«t

wm

Page 2 of6

4

1

the potential that fines may be imposeti, and toe possibility that life Sameer may not receive her
goods,ft offeredio oofeet toe container on MsSameefs behalf and for her to pay CRL dtecity,
The offer was essentially to bypass Its appointment as en agent aid engage directly with Ms
Sameer for the seme serWceCRL had initially been appointed to provide, CRL wished to not
become invoiced with a dispute ft was not a party to end was unable to ascertain toe toll facts of
What occurred, A direct cortratf would allow Ms Sameer to receive her goods and to recover
any toss from Right Move If that was due to her; Ms Sameer requestedthat the contract be
cancelled but was Wormed IIwas not posable to do ttet as the service wasatmost complete
and a oontainermuatbe booked onto a ship in advance and be assigned to a consignee. Ms
Sameer sent an email to CRL on 19 August 2015 and stated that if«te was provided with a
breakdown of CRL's charges she would consider releasing payment to CRL directly provided ft
delivered the shipment to her immediately or as soon as ail formaiitles were over, Ms Sameer
reiterated in that email that The bottom iine is- you are delivering my goods - of which there is
no doubt in your mind. And you are getting paid for delivering those goods*. CRL responded
that same day and provided a breakdown of its costs and stated “in addition, we should also
mention that if the MMstryfor Primary industries declde to conduct a physical Inspection on the
shipment there will also beaddition&l charges payable*. Ms Sameer paid toe total sum
requested by CRLthefoilowing day.
I Q. From the exchange between the partles ltfs dear that they entered Into a contract. CRL
offered to colled theeontainer, comply with formalities and detiverthe goods to Ms Sameer
urgently and Ms Sameer acceded the dferwhen she paid $4,041.24. She agreed to pay an
additional sum fora MFi inspection if required and was aware that she could store her goods
with C RL if she was unable to take delivery.
Was the contract an Illegal contract?

i

;• ,

11 Ms Sameer wuested this Issue be considered and said ft was fundamental to her claim that
toe reason why and how toe cont ract came about wet determined as the considered toe
agreement was based on fltegalgrounds. Me Sameer said CRL conspired With Right Moves to :^r
extort money from ter add blackmail her to pay money on Mm promises of delivering her
;f
goods. She said CRL agreed with Right Moves to hold toe goods uni toe insurance limitation «
period expired m an attempt to ensure Ms Sameer could not claim for toe ferns damaged as a 4
result of Right Move’s camtess pecking. MsSameer said that CRt took photos of her goods to
her preserxse when Hdevanned the shipping ctontolriar Without obtaining herpermteeton and
emaifed the photos to Right Move, th® fact that CRL serrt tte photos to Right Move was
evidence she said, teat CRL Was colluding with Right Move.
12, Me Conroy denied CR1 sent anyphotos to Right Move andsaidtha reason why toe photos
were taken was because Ms Sameer was unsure about tte accuracy df.tte Inventory list Right
Move completed and the condition tost the goods arrived In. She also denied CRL was
holding the goods as ransom and said it made repeated sttemptsto deilveHte goods to Ms
Sameer,
13, An agreement is literal ahd vmd torts direct or indirect object is the eomrritesien of a crime or a
feud, Aftar reviewing all of toeevideftoe I am unable to aitore at the ootetuston toot the
contract was iilegai ssaife creaHon. The contract formed betweervMs Sameerand CRL te a
eootrarft fdrtte provision of sen/lces and toere is netlung Itega! ateuftoai agreement, it is
clear MsSameerwas urtdermucb stressandpressure at the tone the contracted with CRL.
The pressure however was riot created by CRt, but rather because to the dispute between Ms
Sameer and Right Move and toe inevitable ©tress of an international relocation. CRL refereted
to several emails that Ms Sameer was free to engage the services of another mover ft she
desired. I am satisfied Ms Sameef® consent was not obtained by duress sndwas not in any
way unconscionable. Soto parties entered into the agreement basedon commercially
expedient reasons toachteve thebest outcome for them both, Ms Sameer said the move was
her fifth International move and l am persuaded she was fully competent to enter Into the
agreement that she did with CRL.

CiOac^CIV,OCPtroK(er

&

}
-t

DM Conroy Removals United tttffl Its contractual obligations?

s:
MPl

provided thai storage at destination was mI covered toy the 08Tfw\ent’_t2t^ ®md5
Ifter the scheduled 31 August fumigation and MPi clearance, Storage with CRL was $600.00
permonth.
16

iranagor. «sn»« wi» M» Sameer#,*
t>*m pwrly.iykal and tome itero
were damaged. Hie parte* agreed thaiiha oortainere would be delivered on the fottowmg
business day being 31 August
17. Ms Sameefs eon, Mr Kbere, attended the hearing to gi^ aiWetee ortbehgf
ftteher. He
said that fils motherraquested he telephone die landlord and arrange to have tte tenfture
removed so they couW late delivery of their goods. Mr Khere was of the view that it was CRL
acknowledged that the landlord's furniture was hot rainovettgiathis WoimgfemifflsoiHaifi^
horn his mother and that He had no direct comrmmlceUonwith CRL, though I «^»«®red Mr
Kherawes genuine, his evidence contradicts theetteifedytgm^ea^arfieMfd thatlfc
Sameer refused delivery* Ah MrKherete evidence w».pbtalnttftOT^Ws mrther, and as he
was not a party to the email correspondence, 1 am unable to accept fate view as being
Independent and informed evidence teat 1 can place weight on,
16. the email evidence Isthat on 31 August Ms Sameer advised she was not moving to the
address she previously supplied to CRL and was unable to take delivery. CRL advised she
would Incur storage charges if the goods remained wth CRi and requited an aHemative
SrySdSste dW not want CRL to store her goods. Ms
8"
afiemative address and requested a Saturday delivery date.
popular and tend to be booked In advance and therefore the earliest delivery was 10.
September. Ms Sameer was requested to pay $1,021.16fDr«torage andhendlingbefore her
goods were delivered on 1t September. MsSarneerrefusedto payfor ^or^eand CRL
refused to delve? unless Its costs were met
19, Iren satisfied fist ft was aterni of the agreemehtthatMs Sameer wtmld pay

ertoirageand

sKaawaaAraasi^ess*!!,

Wally advised its monthiy storage fee was $12949 in the ®^^csBo^.5m ? A'S^t R
advised its storage fee for Ms Sameefa two contairrere was ^OOXK) per mohJhw itMuid^
dettverthe corhatners to anofherstorage facility of Ms Sameefs thomlm- *^f SaT^eer ^cl noi
question the storage fee and six daysteter cheesed GRL’s
\am therefore
satlstedibaiMs SatireerwasobfigatBd to pay CRL the sum of $1,021.16 for storage,
m CRL claimed that! had the rtghtto take a lien tear the goods as pteided fay BeWnJSeF the
Carriage of Goods Act 1970 end therefore said it had a fight to maintain possession of the
goods pending payment
CISSM^ClV„0COT,O»U«f

Page 4 of 6

9203

i

I

21. On 23 September CRL advised Ms Sameerft coulddeliver her goods on 1 October 2015 and
would reduce foeaccumuteted storage eoststo foe sum of $1,260.41, but Ms Sameer again
refused to pay toe storage charge,
22. Me? the Deputes Tribunal hearing on ItNovember 201S, CRL offered to limit Its storage
Semearaccepied
charge to $1,000 If Ms Saffiirer
accepted delivery on 18 or 24 November, I am satisfied that Ms
Sameerwasatleast Gbligedfopay$1.021,16. Theemaftsprovideddearly show MsSameer
refused that offer and later refusedto accept CRL’s offer todeiiverwiihout paying any storage
costs. Ms Sameer refused daSvery (without toe payment of storage charges) unless CRL paid
her $15,000,00. CRL has made several otera to deliver the goodsand waive ell Storage
Charges.
23, Inftiafty I had reservations about CRL maintaining possession of the goods and charging
monthly storagefees without providing notice that it held a lien over ihe goods. I am satisfied
however, that Ms Sameer owed e sum greater than $1,000,00 end so when she refused to pay
thst Gum. and also refused to accepf dellvery wltboutpayingstorage costs on 12 November
2016, she was intoeadhbffcer doito^af obfigafioftotoCRL Ms Sameer knewthat monthly
storage costs were accumulating but neverthetess has persisted In refuslng to accept delivery,
!n the circumstances am satisfied that Ms Sameer was contractually obliged to accept deSvery
and her Mure to do so constitutes a breach of toe agreamentsha enters Wo with CRL, Ms
Sameer bears the burden oTprovIng foaiCRL has breasted toe contract Ithaswifo her and
she had not discharged that burden.
What reasonably foreseeable loss can Me Sameer be compensated for and has shetaken
ressonabto steps to mitigate the loss she incurred?
24- As Wis Sameer has fafedtopnovetoatGRl breached the contract, sffe is not enffledto an
cider for toe loss she tacurred and toerete I do not need to considervtostherthe loss was
foreseeable or Whether she iifigefod her toss.
&

S

TheCounfardaim

*41
-4

If Conroy Removafs Lfmtted futfliied lte contractual obligatiohs toett has Ms Sameer fulfilled her
obligations?
25. For toe reasons provided above I am satisfied that Ms Sameer was rrantreotoaliy obliged to pay
ire storage itoste teamed and accept delivery. The evidence shows that ft was Ms Sameer
who refused deiivery, evenafterCRL offered to waive its storag e fees.
What reasonably foreseeable ioss can Conroy Removais Limited be compeneated for and has It
mitigated that loss?
26. Ms Sameer was aware of toe monthly Ohtiges sfw vrasaecumulating. On 31 May 2016 CRL
ctaimed a Den over the goods pursuant to Its right under the Carriage of Ooods Act. CRL have
claimed the total of$3(045.61 for unpaid storage fees. l am satisfied that loBS was known to Ms
Sameer andfe the reasonably foreseeable loss ft suffered as a resuttof MsSameer’s persistent
breach ef .her agreement. An order isfoerefore made thst the ctolm is dfsmissed and that Ms
Ssmeerpayfoe counterclaim amount of $9,045.51,
ffi. Ms Conroy came peered In toe hearing with dates CRL cotild deHver the oontainers before
Christmas, MsSameerdeclined to enter intonegoUations with CRL and iett the hearing,
■Referee: Krawczyk DTR
Date: 14 December 2016

torootjeiVjtoDnrjSjsicr

Page 6 of8

Information for Parties

Ssferaasssssasssr"""M
of (he dedston having been mode. If you era outside of time, you must also « out on
Application for Rallying Out of Time.
PLEASE NOTE; A rehearing will not be grarrtedjust because you dfoegrm with the decision.

HS£n

M

prejudiced ihe result of Are proceedings.

STSE,
SS
decision having been made. There b * *200 fllns fe* for en eppeal.Youcan oidyappMl outekfci of 28
SSJKn iS^mpSL There Is a fee im lS> wtm\m mm Oourt preeeedfm «e more
complex than Disputes Tribunal proceedings, and you may wish to seek legal advice.
The District Court may, on determination of the appeal, award such caste to either party as ft teas f».
W thTorder or Agreed Settlement Is no! complied with, you ©an apply to the Cotledions Uni of the
Disfrid Court to have the order enforced.
Apportion fenna ^Womatton
For Civil Enforcement enquiries, please phone 0800 233 222.
FutlnfemretonSdiS delate are available on our website: WsM

Cj05iH_CtVJ3CQT_Of$*»

PageOefO
0210

\m

•i-.cate
In the Disirfct Court of Raw Zealand
Christchurch Regtsiry
CIV-2015-009*001566

In the matter of

an Appeal Against an Order of Disputes Tribunal

Between

Madbu Sameer
Appellant

And

Conroy Removals Limited
Respondent

1

Order of the Court for Costs

s*

Dated: August 2017

•1

Respor»Uerrt'»*6Htttors:
tyfenro t Arms 0@vias«n
Anderson Ltoyd
Level 3, 70 Gtouqester Street. Chnsicfturch 8013
PO 80* 13831, Armagh, Christchurch 8141
DXM4«;WP?0308
P +64 3 37S O037j f +64 3 3780039
8iffl6h.m»imrc^#.mf8fin8.davteen@3l,fE

0211

artderson
Hoyd*

ZIZO

■ v.*t

••

If/ &

•>,:. v

$Ya

tf'ii t» Uti iitfwrfmtwt («r wtnrj iKtf&iJ "AV
*r . * . *. •
Stefs.-^v-4-n iifirf^rmy
•»
/ ■.: tH*, V--^*L^ 444i ^ttrfulcliuicn

Si/T*

i t McDwsiM

CRI-2018-009-003662

IN THE DISTRICT COURT
AT CHRISTCHURCH

IN THE MATTER OF

An application by MADHU SAMEER to
bring a private prosecution

JUDGE S J O’DRISCOLL

Introduction
[1]

This is an attempt to bring private prosecutions by Madhu Sameer
(“Ms Sameer”) against Fiona Ann Conroy, Monica Elizabeth McKinley and
Rodney Glenn White.

[2]

Ms Sameer submitted seven charging documents against Ms Conroy, one
against Ms McKinley and one against Mr White. The defendants are alleged
to have committed the following offences under the Crimes Act 1961: ■
fabricating evidence,1 obtaining by deception,2 perjury,3 false statements or
declarations,4 blackmail,5 contravention of statute,6 namely the Fair Trading
Act 1986 and the New Zealand Bill of Rights Act 1990, offence committed
other than offence intended7 and parties to offences8.

[3]

On some of the charging documents Ms Sameer has also listed Michelle
Franklin, Dylan Cortina and the companies Right Move 4U, Conroy Removals,
Talbot Insurance and XO Movers as parties to those offences.

1 Crimes Act 1961, s 113.
2 Section 240.
3 Section 108.
4 Section 111.
5 Section 237.
6 Section 107.
7 Section 70.
8 Section 66.

0213

2

[4]

The facts that give rise to these charges occurred between the period when she
engaged shippers and insurers to transport her goods from the United States to
New Zealand and the time when Conroy Removals (“CRL”) declined to
release those goods unless she paid storage. The facts are set out, with factual
narrative, in Ms Sameer’s ‘Statement regarding charge’ and runs over some 48
pages.

[5]

Ms Sameer alleges that she never had a contract with CRL for their services
and they have obtained her goods fraudulently and have refused to release
them. The allegations are that CRL and its employees have engaged in
blackmail and extortion tactics and have aided and abetted Right Move 4U and
other United States partners including the insurance company to commit
crimes against her.

[6]

To understand Ms Sameer’s present allegations I will set out a brief
background to her dispute.

Background
[7]

In mid-2015, Ms Sameer moved from the United States to Christchurch and
arranged for her belongings to be transported by a United States-based
company called Right Move 4U (a party to the offences alleged). Right Move
4U used the New Zealand-based landing services of CRL to take possession of
the goods upon arrival, clear them through customs and arrange delivery. A
dispute arose between Ms Sameer and Right Move 4U before her belongings
arrived in New Zealand and later a dispute arose with CRL as to delivery of
the goods.

[8]

.

. •

•

Ms Sameer took her grievances to the Disputes Tribunal. She said that she had
no contractual relationship with CRL and the expenses for which they were
given judgment were incurred as a result of their own actions not hers.

[9]

Ms Sameer appealed to the District Court. The appeal was unsuccessful. As a
result costs were awarded to CRL. Ms Sameer was liable to pay CRL a sum of
$18,846.51 which comprised the sum owing under an order of the Disputes

9 Sameer v Conroy Removals Ltd [2017] NZDC 26138.

0214

3

Tribunal and a sum under an order of the District Court for payments of costs
on an unsuccessful appeal.
[10]

Ms Sameer failed to pay that sum so CRL issued a bankruptcy notice to her
claiming payment. Ms Sameer has not pay any part of the sum claimed and
instead applied to the High Court to set the bankruptcy notice aside.

[11]

In her application to the High Court, Ms Sameer also sought to include an order
to join three parties to the proceeding, an order that the contract between her
and CRL is invalid or cancelled or void, an order directing release of goods,
damages, punitive damages and other relief as the Court thinks appropriate.10

[12]

Associate Judge Matthews only dealt with the application to set aside CRL’s
bankruptcy notice. However, his Honour briefly discussed Ms Sameer s
allegations of fraud which in my view, are relevant to the current application
to bring a private prosecution in the District Court.

[13]

As I read the documents and material filed in support of the private prosecution
there are several reasons for Ms Sameer initiating the private prosecution.

(a)

Ms Sameer believes that the defendants and the companies listed in
the charging documents and the ‘statement regarding charge’ have
violated her rights and have attempted and continue to defraud her
unless she complies with their demands;

(b)

The Disputes Tribunal lacked jurisdiction to deal with criminal
matters and Ms Sameer believes the Tribunal and District Court have
refused to look into her matter and chose to believe the defendants
without supporting evidence;

(c)

Ms Sameer believes that CRL and its employees have made false
declarations in the Disputes Tribunal and subsequently in the District
Court and that is a reason why she was unsuccessful in both
proceedings;

(d)

Ms Sameer is unhappy with the results in the civil jurisdiction and is
now trying to relitigate the matter through a different forum.

The law on private prosecutions
[H]

According to s 15 of the Criminal Procedure Act 2011 (“CPA”) “any person
may commence a proceeding.” The charging document must include a

10 Conroy Removals Limited v Sameer [2018] NZHC 698 at [4].

0215

4

statement by the person commencing the proceeding that he or she has good
cause to suspect that the defendant has committed the offence specified in the
charge.11
[15]

Private prosecutions are governed by a 26 of the CPA. It provides:

26 Private prosecutions
(1)

la)

accept the charging document for filing; or

(b)

refer the matter to a District Court Judge for a direction that
the person proposing to commence the proceeding file formal
statements, and the exhibits referred to in those statements,
that form the evidence that the person proposes to call at trial
or such part of that evidence that the person considers is
sufficient to j ustify a trial.

(2)

The Registrar must refer formal statements and exhibits that are filed
in accordance with subsection (l)(b) to a District Court Judge, who
must determine whether the charging document should be accepted
for filing.

(3)

A Judge may issue a direction that a charging document must not be
accepted for filing if he or she considers that -

(4)

(5)

[16]

If a person who is proposing to commence a private prosecution seeks
to file a charging document, the Registrar may-

(a)

the evidence provided by the proposed private prosecutor in
accordance with subsection (l)(b) is insufficient to justify a
trial; or

(b)

the proposed prosecution is otherwise an abuse of process.

If the Judge determines under subsection (2) that the charging
document should not be accepted for filing, the Registrar must(a)

notify the proposed private prosecutor that the charging
document will not be accepted for filing; and

(b)

retain a copy of the proposed charging document.

Nothing in this section limits the power of a Registrar to refuse to
accept a charging document for want of form.

The provision is new and has no counterpart in the previous statutory

framework. It enables a District Court Judge to reject a charging document that a

11 Criminal Procedure Act 2011, s 16(2)(c).

0216

5

private prosecutor seeks to file if the evidence the prosecutor relies on is insufficient
to justify trial or if the prosecution is otherwise an abuse of process.
[17]

The High Court decisions of Wang v District Court at North Shore12 and

Tv District Court at Auckland13 provide that where a charging document filed by a
private prosecutor is referred to a District Court, the Judge must:

(a)

Order that the proposed prosecutor file formal statements as described
in s 82, unless formal statements have already been filed;

(b)

Determine whether, in view of the formal statements and
circumstances of the case, to hear from the proposed defendant/s prior
to making a decision, with such an opportunity being particularly
necessary where: .

(c)

[18]

i

There is doubt as to the merit of the prosecution; or

ii

There is a possibility the proceedings are vexatious or
otherwise an abuse of process; then

Direct that either:
i

The charging document not be accepted for filing as, on the
basis of the formal statements and exhibits referred to in those
statements, the evidence is insufficient to justify trial or the
proposed prosecution is otherwise an abuse of process; or

ii

The charging document should be accepted for filling as on
the basis of the formal statements and exhibits referred to in
those statement, the evidence is sufficient to justify trial and
the proposed prosecution is not otherwise an abuse of process.

The two High Court cases illustrate that in private prosecution cases it is good

practice to hear from the defendant/s on the allegations, however ultimately it comes
down to the discretion of the Judge in the particular circumstances.

[19]

I have received a huge volume of documents from Ms Sameer in support of

her application that the charging documents be accepted for filing.

12 Wang v District Court at North Shore [2014] NZHC 2756.
13 T v District Court at Auckland [2015] NZHC 972

0217

6

[20]

The issues for determination in this case are whether the evidence is sufficient

to justify a trial and whether the proposed evidence is an abuse of process.
[21]

The authors of Adams on Criminal Law suggest that the grounds for exercising

the discretion under s 26 are also applicable to a decision to dismiss a charge under s
147 and guidance may be taken from case law decided under that section.

Sufficiency of evidence
[22]

In R v Kim the Court discussed the meaning of “insufficient to justify a trial”

in the context of the sufficiency of the evidence:14

The power to discharge on this ground must be exercised in accordance with
the principles stated by this Court in R v Flyger as explained in Parris v
Attorney-General.
It is for the jury to determine whether the evidence is, or is not, sufficient to
establish guilt. It is not for the Judge to predict what the jury will find. The
test is whether the evidence, if accepted by the jury, is sufficient in law to
prove the essential elements of the charge to the required standard. If so, the
Judge should leave the case to the jury and not withdraw it on evidentiaiy
grounds.
[23]

In this case, therefore, when considering whether to accept the charging

documents for filing the issue is: is the evidence, if accepted by the jury, sufficient in
law to prove the essential elements of the charge beyond reasonable doubt?
[24]

On the evidence provided by Ms Sameer I,am of the view that there are

significant credibility issues.
[25]

Ms Sameer claims that defendants have lied to her and to the courts for the

purpose of defrauding her. Further she says that in a charging document for Fiona
Conroy that she or CRL-had not offered to waive storage fees, but a letter attached
(under Exhibit 35 tab, dated 1 June 2016). sets out a settlement offer from CRL. The
offer included an offer to waive storage fees among other things.

RvKim [2010] NZCA 106.

■

,0218

*•'

7

[26]

The documents attached to the charging documents are the same narratives that

Ms Sameer has provided to the Disputes Tribunal, District and High Courts.
[27]

Furthermore, the exhibits Ms Sameer attached are not helpful in ascertaining

the legal arguments she is trying to put across nor are they in my view sufficient in
law to prove the elements of the charges. On the contrary, some of the exhibits go
insofar as to contradict Ms Sameer’s allegations and instead show that she did not
understand the situation.

Abuse of process
[28]

In R v Golding the Court of Appeal noted that the primary concern when

looking at what amounts to a finding of abuse of process, is whether public confidence
in the administration of justice is undermined.15 Situations could include where the
processes of the Courts are being employed for ulterior purposes or so as to cause
improper vexation and oppression, unfairness to a particular defendant may be a
consideration but the primary focus is on the misuse of the process by those who
enforce the law.16

Discussion
[29]

&

Ms Sameer having been unsuccessful in her claim for breach of contract and

in her defences of CRL’s claims for its charges, repeats and expands on the allegations
of dishonest conduct by CRL, its employees and several other persons and companies
based in the United States.
Ms Sameer was told when she first initiated proceedings in the Disputes
[30]
Tribunal that the Tribunal did not have jurisdiction to deal with the allegations of
dishonest conduct nor join an overseais company as a party. The matter was referred
to the District Court who referred it back to the Disputes Tribunal as Ms Sameer
wanted the contractual aspects of her claim to be determined.

15 R v Golding (2000) 109 CRNZ 435 (CA).
16 At [6] and [14],

0219

8

[31]

Ms Sameer now says that the Disputes Tribunal and the District and High

Courts did not want to look into her allegations of perjury and fabrication of evidence
and continues to allege that the decisions in the Tribunal and the subsequent appeal to
the District Court are based on fraudulent documents and actions by the defendants.
[32]

In my view Ms Sameer is unhappy with the decisions from the civil jurisdiction

and is now trying to use a different forum to bring her proceedings forward. The
charging documents she has presented for filling are difficult to follow and understand.
The same applies to her legal arguments. They name several other persons and
companies as parties to the offences she is alleging including some overseas parties to
which the District Court does not have jurisdiction over. Further in relation to one
defendant she is alleging a breach of the Bill of Rights Act 1990. The difficulty with
accepting charges which refer to the contravention of the Bill of Rights Act 1990 is
that the Act only applies to “acts done by the legislative, executive or judicial branches
of the Government of New Zealand or by any person or body in the performance of
any public function, power or duty conferred or imposed on that person or body by or
pursuant to law.” The defendants listed in the charging document do not come within
those conditions.
[33]

Associate Judge Matthews, with reference to Ms Sameer’s criminal allegations

said in his judgment:17

. '

Now Ms Sameer, having been unsuccessful in both her claim for breach of
contract and in her defence of CRL's claim for its charges, repeats and expands
on the allegations of dishonest conduct not only by CRL but by everyone else
involved including numerous unnamed people, but there is an inherent
improbability in the basic allegation that underpins all the claims Ms Sameer
now makes. It is inherently improbable that there has at any point been any
conspiracy between any parties in this matter. The nature of the arrangements
made are, on their face, standard arrangements for insuring and shipping from
one country to another, and handling goods within the destination country on
arrival. CRL had defined responsibilities for which it had been prepaid in part
by Right Move 4 U and for which it sought extra recompense when its duties
expanded beyond those which were envisaged. I assess the prospect of
Ms Sameer establishing any conspiracy, dishonest or otherwise, with any of
the other parties as negligible..! make the same assessment in respect of the
broad swathe of claims in the present application and the claim in California.
Whilst there can be no doubt that Ms Sameer passionately believes in her
position, and genuinely proposes to pursue claims if she is able to do so, I find

17 Conroy Removals Ltd v Sameer [2018] NZHC 698.

0220

9

that the claims made cannot be described as genuine or triable and they do not
have a reasonable probability of success.
[34]

Ms Sameer’s allegations are based on the same facts that were presented in the

Disputes Tribunal proceeding and subsequent appeal and in the High Court proceeding
regarding a striking out of the bankruptcy notice issued by CRL. The allegations in
the District Court are of significant gravity and in my view if there are any prospects
of the charging documents being accepted for filling, given the significant effect of
the charges and the number of defendants, the defendants would need to be heard.
However, taking the same view as Matthews AJ, although Ms Sameer passionately
believes in her position, the claims cannot be described as genuine and triable.

Conclusion
[35]

In my view, taking into account the matters I have referred to above, there is

not sufficient evidence to bring a private prosecution against the defendants and
Ms Sameer’s use of the private prosecution forum is an abuse of process.
[36]

A private prosecution involves allegations of criminal conduct on the part of a

defendant and there is nothing before me to indicate any of the proposed defendants
have acted with any intention to commit a criminal act.
[37]

it

In my view, the matters which give rise to Ms Sameer’s allegations are matters

of contract, which have been adjudicated by the Disputes Tribunal and the District
Court.
[38]

Finally, I have not invited any comments or responses from the proposed

defendants. I did not want to trouble them because I did not think this case reached a
threshold where it was necessary to bring them to court and invite a response to the
allegations made by Ms Sameer.
[39]

I will however direct a copy of my decision be sent to the proposed defendants

so that they are aware of my decision, in case they are not aware of the attempt to have
a private prosecution brought against them.

0221

1

10

[40]

I direct the Registry NOT to accept the charging documents as sought by

Ms Sameer.
'n

S J O’Driscoll
District Court Judge
<<•<■ i %

:*

t

. J

.< * '

/ '* .

i

:
j.

:

t

♦

;•

\

0222

gase: 18-16046, 04/28/2019, ID: 11279762, DktEntry: 48-2, Page 1 of 11

NEW ZEALAND
INSOLVENCY AND
TRUSTEE SERVICE

17 April 2019

Madhu Sameer
5 Old Hospital Road
RD 1
Kaeo 0478

Madhu Sameer (Bankrupt)
Estate Number: 891708
We are writing to confirm that you were declared bankrupt on 16 April 2019 at Christchurch
High Court on the application of Conroy Removals Limited Napier, This letter gives you
information about your responsibilities and tells you what information you need to send us.
We have included with this letter:
•
•
•

Notice to Bankrupt
an envelope addressed to the Official Assignee (unless you received this letter by email)
your Activation Code to get information from our website.

The Official Assignee administers your bankruptcy. It is important that you work with us and
provide the information we need. Please tell the Official Assignee whenever you change your
name, address or employment.
Information to help you during your bankruptcy
Please read the Notice to Bankrupt carefully and keep it to refer to during your bankruptcy. This
notice explains your obligations and duties now that you are bankrupt. It is an offence to do any
of the following:
•
•
. •
•

take part in managing or controlling any business
be employed by a relative or by a company, trust, or incorporated society that a relative
manages or controls without the consent of the Official Assignee
leave New Zealand without the consent of the Official Assignee
raise more than $1,000 credit, unless you tell the person giving you credit that you are an
undischarged bankrupt person.

Inland Revenue will issue you with a new IRD number which you will need to use from now
onwards. For further Inland Revenue information go to http://www.ird.govt.nz/yoursituation-ind/
debt/bankruptcy.html.
What you need to do now
0223

Camp\et<Qt^thhm6f>A<m§m%eM

days

of receiving this notice.
Choose one of these ways to get the Statement of Affairs form:
•
•
•

use our website www.insolvency.govt.nz to complete your form electronicaily-followthe steps
below to access, complete and send your Statement of Affairs
print one from the website and send the compieted form to us in the envelope
phone our Business Service Centre on 0508 467 658, ask for a form to be sent to you and
send the completed form to us in the envelope.

Your bankruptcy will be discharged three (3) years from the date the Official Assignee receives
your completed, acceptable Statement of Affairs. Your bankruptcy will not be discharged, and the
restrictions of bankruptcy will continue if you do not complete and return this form.
This means that the restrictions such as raising credit or not being able to travel overseas or go
into business without the consent of the Official Assignee will continue to apply. Also, any assets
that you accumulate or become entitled to before your discharge (like an inheritance or tax refund)
will become the property of the Official Assignee and will be used to repay your creditors.
Sign the last page of this letter and send it to the Official Assignee
Sign the last page of this letter to show us that you have received this Notice to Bankrupt Person.
Return the signed last page to the Official Assignee at applications@insolvency.govt.nz.
Keep your documents safe
Please keep the following documents safe until We ask to see them:
•
•
•

any business books and records
any share certificates, life insurance or superannuation policies,
any trust deeds you have.

Follow these steps to view information about your bankruptcy and complete an electronic
Statement of Affairs
If you have access to the internet, you can see information about bankruptcy on our website.
Follow the steps below. To complete an electronic Statement of Affairs - login, select 'Apply for
Bankruptcy or'Apply for Personal Bankruptcy'.

1.
2.
3.
4.
5.
6.

select 'Online Services’
select 'Activate your Account'.
follow the instructions to enter your Activation Code to obtain your Login details - the code
is on the document included with this letter.
search for your estate details using either your name or estate number - written at the top
of this letter.
double click on your name
select the 'More Info' tab to give you access to your information- available only to you and
the creditors who have a claim in your bankruptcy.

If we need any more information from you, an Insolvency Officer will contact you. If you need
more information or guidance on how to use our website, please call our Business Service
Centre on 0508 INSOLV (0508 467 658).
0224

Yours tafttflSfiy 18-16046, 04/28/2019, ID: 11279762, DktEntry: 48-2, Page 3 of 11
Official Assignee
0508 467 658
Phone:
www.insolvency.govt.nz
Website:

.i.

•“r-

»

0225

e estate's

expense.
149 Prohibition of bankrupt entering business
1.

*TST bankrUP'mUSt n°'' ”i,h6Ut ** C0^sen, 0f lhe Assi8nee or the 0ourt- either directly
a.
D.

enter" into, carry on, or take part in the management or control of any businessbe employed by a relative of the bankrupt:
C.
be employed by a company, trust, trustee, or incorporated society that is
owned, managed, or
controlled by a relative of the bankrupt.
Nothing in this section restricts section 151 of the Companies Act 1993

2.

299 Court may restrict bankrupt from engaging in business after discharge
1.

2.

The Court when it makes an order of discharge or at any earlier time, may prohibit the bankrupt after
discharge from doing any or all of the following things without the Court's permission:
P
a. entering into, carrying on, or taking part in the
management or control of any business or class
of business:
b. being a director of any company:
C.
directly or indirectly being concerned, or taking part, in the
management of any company:
a. being employed by a relative of the bankrupt:
6' bei"9 ®™p'oyed by a company, trust, trustee, or incorporated society that is
managed or
controlled by a relative of the bankrupt.
Y
The Court maya.
D.

prohibit the bankrupt for a specified period, or without a time limit:
at any time vary or cancel the prohibition.

307 Discharged bankrupt must assist Assignee
A discharged bankrupt must assist the Assignee, as required by the Court or the Assignee in the
real,sat,on and distribution of the bankrupt's property,ha, is vested in the Assignee
422 Offence in relation to documents, etc

B-

or within

*•

'alSi,ieS'

b

a,feCtin8’ °r rda,in° to' B'S pr0pert* «»**. O'deaJings;or
.**^ -Wing fo,

■

B’spropert*

" * Parly ,0 ,he “oealment, destruction, mutilation,

c.

fraudulently parts with, alters, or makes any omission in, or is a party to fraudulently parting with
or deSngl™ ° ™V°mSSi°" 'n' ^^ement affecting, or relating to, B's property, conduct

d.

prevents the production of any document affecting, or relating to, B's property conduct or
ealmgs to any person to whom B has an obligation under,this Act to produce it. ^ •

423 Offence in relation to fictitious losses or expenses
^Tomn?'<B) T"!“ a" °"ence *•atler" application for B's adjudication has been filed or within

0226

2.

The steps referred to in subsection (1) include the execution by the bankrupt of powers of attorney,
conveyances, transfers, deeds, assurances, and instruments.

142 Bankrupt must give Assignee accounting records and other documents

1.

2.

As soon as practicable after adjudication, the bankrupt musta. deliver to the Assignee, at the Assignee's office, relevant documents that are in the bankrupt's
possession or control; and
b. notify the Assignee of relevant documents that are in the possession or control of any other
person.
In subsection (1), relevant documents means all accounting records, papers, deeds, instruments, and
other documents relating to the bankrupt’s estate.

143 Bankrupt must give Assignee information relating to property
The bankrupt must,a.

b.
C.
d.

as soon as practicable after adjudication, give the Assignee a complete and accurate list of
the bankrupt's property and of the bankrupt's creditors and debtors, and update the lists as
necessary; and
give the Assignee any other information relating to the bankrupt's property that the Assig nee
requires; and
attend before the Assignee when required by the Assignee; and
verify any statement by statutory declaration when required by the Assignee.

144 Bankrupt must give Assignee information relating to income and expenditure
When the Assignee requires it, the bankrupt must provide the Assignee with details of his or her income
and expenditure since adjudication.
145 Bankrupt must notify Assignee of change in personal information
The bankrupt must immediately notify the Assignee of any change in the bankrupt'sa.
b.
C.
d.

address; or
employment; or
name; or
income.

146 Bankrupt must give Assignee financial information

1.
2.

3.

The bankrupt must give the Assignee (or any person employed by the Assignee) the information and
details that are necessary to prepare a statement of financial position of the bankrupt's estate.
If required by the Assignee, the bankrupt must, within a reasonable time of adjudication, prepare and
deliver to the Assignee full, true, and detailed accounts and statements of financial position that showa. details of the bankrupt's trading and stocktaking; and
b. details of the bankrupt’s profit and losses during any period in the 3 years before the adjudication.
For the bankrupt to prepare the accounts and statements of financial position referred to in subsection
(2),a. the Assignee must give the bankrupt full access to the bankrupt's books and papers in the
Assignee's possession; and

0227

f

424 0ffe^irr^l»f&^W19. ID: 11279762, DktEntry: 48-2, Page 6 of 11
1.

A bankrupt (B) commits an offence if, within 3 years before an application for B's adjudication has
been filed or at any time after the application is filed,a.
B obtains property on credit and has not paid for the property; and
b.

2.

B obtains the property on creditj.
by a false representation or other fraud; or
ii. by a false statement of financial position or other false statement of B’s affairs; or
iii.
under the false pretence of carrying on business and dealing in the ordinary course of trade.
A bankrupt (B) commits an offence if, within 3 years before an application for B's adjudication has
been filed or at any time after the application is filed, B pawns, mortgages, pledges, or disposes of,
otherwise than in the ordinary course of trade, any property that B has obtained and has not paid for.

425 Offences in relation to obtaining consent of creditors
A bankrupt (B) commits an offence if B makes a false representation for, or is guilty of any other fraud
for, the purpose of obtaining the consent of any 1 or more of B’s creditors to any agreement with
reference to B's affairs or B's bankruptcy.
426 Offence in relation to leaving New Zealand
A bankrupt (B) commits an offence if, after an application for B's adjudication has been filed or within
1-2 months immediately before the application is filed, Ba.

b.
C.

leaves New Zealand (either temporarily or permanently) and takes with him or her any part of any
property to the value of $1,000 or more that ought, by law, to be divided among B’s creditors; or
attempts to leave New Zealand (either temporarily or permanently), taking with him or her any
part of that property; or
prepares to leave New Zealand (either temporarily or permanently), taking with him or her any
part of that property.

427 Defence of absence of intent

1.
2.

3.
4.

A bankrupt (B) does not commit an offence under section 420(1)(a) if B proves that at the material
time he or she had no intent to defraud any of B's creditors.
A bankrupt (B) does not commit an offence under any of the following provisions if B proves that at
the materiartime B had no intent to defraud:
a.
section 420(2) (a) or (b):
b.
section 424(1):
C. section 424(2):
d. section 426.
A bankrupt (B) does not commit an offence under section 421 if B proves that at the material time
B had no intention to deceive.
A bankrupt (B) does not commit an offence under section 422(a), (b), or (d) if B proves that at the
material time B had no intent to conceal the state of his or her affairs or to defeat the law.

428 Penalties for Indictable offences by bankrupt
A bankrupt who commits an offence under any, of sections 419 to 426 is liable on conviction on
indictment to imprisonment for a term not exceeding 3 years or to a fine not exceeding $10,000 or both.
Offences in relation to record of transactions

0228

*, ■

C^e: 18-16040,

4o-z, page t ofii

WARNING
Your attention is especially directed to the following provisions
of the Insolvency Act 2006 and the penalties for infringement:
67 Bankrupt must file statement of affairs with Assignee
After adjudication, the bankrupt must file with the Assignee a statement of the bankrupt's affairs in the
prescribed form, unless the bankrupt has already filed a statement under section 46.
87 Bankrupt may be required to attend and be questioned
1.
2.

3.
4.

The bankrupt must, if required by the Assignee, attend all creditors' meetings by being physically
present or present by an audio or audiovisual link.
The Assignee, the chairperson of a creditors' meeting, a creditor, or a representative of a creditor may
question the bankrupt as to his or her property, conduct, or dealings. The chairperson of the meeting
must allow only questions that relate to the bankrupt's property, conduct, or dealings.
The questioning may be on oath.
The bankrupt must sign a statement of the bankrupt's evidence given under the questioning, if required
to do so by the Assignee or the chairperson of the meeting.

138 General duty of bankrupt

1.
2.

The bankrupt must, to the best of the bankrupt's ability, assist in the realisation of the bankrupt’s
property and the distribution of the proceeds among the creditors.
This duty is in addition to any other duty imposed on the bankrupt by this Act or by any other enactment ^
: Yi.
or law.

139 Bankrupt must disclose property acquired before discharge
The bankrupt must as soon as practicable after acquisition notify the Assignee of any property that isa.
b.

acquired by, or passes to, the bankrupt before discharge; and,
divisible among the creditors.

140 Bankrupt must deliver property to Assignee on demand

1.
2.

On demand by the Assignee, the bankrupt must deliver all or any of the bankrupt's property that is
divisible among the creditors, and that is under the bankrupt's possession or control, to the Assignee
or a person authorised by the Assignee to receive it.
On demand by the Assignee, the bankrupt must deliver to the Assignee, or a person authorised by
the Assignee to receive it, any property that is acquired by, or passes to, the bankrupt before his or
her discharge.
.

141 Bankrupt must take all steps required in relation to property and distribution of proceeds to
creditors
1.

The bankrupt must take all the steps (including the steps specified in subsection (2)) in relation to the
bankrupt's property, and the distribution of the proceeds to the creditors, that area. required by the Assignee; or
b. prescribed by rules or regulations made under this Act; or
C. directed to be done by the Court by an order made in reference to a particular bankruptcy; or

0229

429
1.

2.

UWftSfiadftktEntry:. 48-2, Page 8 of 11
A bankrupt (B) commits an offence if, for any period during the 3 years immediately before B's
adjudication,a.
B might reasonably be expected, because of B's occupation or transactions for the period, to
keep a record of those transactions; and
b.
B failed to keep and preserve a proper record of the transactions.
Despite anything that the Summary Proceedings Act 1957 says, an information for an offence under
this section may be laid against a bankrupt at any time within 2 years after the date of his or her
adjudication,

430 Failure to keep proper records with intent to conceal
A bankrupt (B) commits an offence if, with intent to conceal the true state of his or her affairs, B has
failed to keep and preserve a proper record of B’s transactions.
431 Penalties for offences relating to records

1.
2.

A person who commits an offence under section 429 is liable on summary conviction to imprisonment
for a term not exceeding 12 months or to a fine not exceeding $5,000 or both.
A person who commits an offence under section 430 is liable on conviction on indictment to
imprisonment for a term not exceeding 3 years or to a fine not exceeding $10,000 or both.

432 When bankrupt deemed not to have kept or preserved proper record

1.
2.

For the purposes of sections 429 and 430, a bankrupt (B) is deemed not to have kept a proper record
of his or her transactions if, being engaged in any trade or business, B has not kept the necessary
books and accounts.
In subsection (1), necessary books and accounts means the books and accounts that are necessary
to explain B's transactions and financial position in B's trade or business, and includes3.
a book or books containing entries from day to day in sufficient detail of all cash received and
cash paid; and
b.
if B's trade or business has involved dealing in goods,i.
a record of all goods sold and purchased; and
it.
detailed stock sheets of annual and other stock takings showing the quantity and the
valuation made of each item of stock on hand; and
if B's trade or business has involved B's services, details of those services.
For the purposes of sections 429 and 430, B is deemed not to have preserved a proper record of his

iii.

3.

or her transactions if B has not preserveda. the records listed in subsection (2), if applicable:
b.
a record of all goods purchased in the course of B's business, with the original invoices:
C.

a daily record of all goods sold on-credit."

:

\

\ ‘ "

.

433 Summary offences
1. A bankrupt (B) commits an offence if Ba. fails without reasonable excuse to do any of the things required of B by section 67 or 87 or subpart 2 of
Part 3 or subpart 5 of part 3 or to comply with any of the provisions of section 299 or 307;.or
b. refuses or neglects to answer fully and truthfully all proper questions put to B at any examination held
under this Act; or
c. wilfully misleads the Assignee in any statement made to him or her in the course of the administration
of B’s affairs, whether orally or in writing or in answer to any question put to B; or

0230

d. after
tQfd&lose that
fact immediately to the Assignee; or
e. has within 2 years before B's adjudication, at a time when B was unable to pay B's debts as they became
due, given, with intent to defraud B's creditors, any undue preference to any of B's creditors; or
f. while a bankrupt and without having first obtained the consent of the Assignee,i. leaves, or attempts to leave, New: Zealand, temporarily or permanently; or
ii. makes preparations for leaving New Zealand, temporarily or permanently; or
g. before B obtains a final order or discharge, or before a suspended order of discharge takes effect under
this Act i "
1. alone, or jointly with another person, obtains credit of $1,000 or more; or
ii. incurs liability to any person of $1,000 or more for the purpose of obtaining credit for another person.
2. Despite anything that section 14 of the Summary Proceedings Act 1957 says, an information for any
of the offences in subsection (1) may be laid against a bankrupt at any time within 2 years after the date
of the offence.
435 Penalty for summary offences by bankrupt

.

•

A person who commits an offence under section 433(1) is liable on summary conviction to
imprisonment for a term not exceeding 12 months or a fine not exceeding $5,000 or both.
f

436 Offence by bankrupt in relation to management of companies
1.

2.

A bankrupt commits an offence if he or she
a. acts as a director of a company; or
b. fails without reasonable excuse to comply with section 149.
Despite anything that section 14 of the Summary Proceedings Act 1957 says, an information in respect
of an offence under subsection (1) may be laid at any time within 2 years after the date of the offence.

<*v

437 Penalties for offence in relation to management of companies
A person who commits an offence under section 436 is liable,a.

b.

on conviction on indictment, to imprisonment for a term not exceeding 2 years:
on summary conviction, to imprisonment for a term not exceeding 12 months or to a fine not
exceeding $5,000 or both.

440 False or misleading statements or refusal to answer questions

1.

A person commits an offence if he or shea. makes a statement to any Assignee or person concerned in the administration of this Act,
knowing that the statement is false in a material particular; or
b. wilfully misleads, or attempts to mislead, any Assignee or person concerned in the administration
of this Act; or
C. without reasonable excuse, fails or refuses to answer any question put to him or her by the
Assignee.

2. A person who commits an offence under this section is liable on summary conviction to imprisonment
for a term not exceeding 12 months or to a fine not exceeding $5,000 or both.

0231

..2.

d. after toejnggp^^atoarrgg^Qa^dDfilMa^Ig^rcek^tftte^^gn^t^MeW^iyfose that
fact immediately to the Assignee; or
e. has within 2 years before B's adjudication, at a time when B was unable to pay B’s debts as they became
due, given, with intent to defraud B's creditors, any undue preference to any of B's creditors; or
f. while a bankrupt and without having first obtained the consent of the Assig nee,i. leaves, or attempts to leave, New,Zealand, temporarily or permanently; or
ii. makes preparations for leaving New Zealand, temporarily or permanently; or
g. before B obtains a final order or discharge, or before a suspended order of discharge takes effect under
this Act, i. alone, or jointly with another person, obtains credit of $1,000 or more; or
ii. incurs liability to any person of $1,000 or more for the purpose of obtaining credit .for another person.
2 Despite anything that section 14 of the Summary Proceedings Act 1957 says, an information for any
of the offenC6S m SUbSect'°n

may be iaid a9ainst a bankrupt at any time within 2 years after the date

435 Penalty for summary offences by bankrupt
A person who commits an offence under section
A33^) is liable on summary conviction to
imprisonment for a term not exceeding 12 months or a fine not exceeding $5,000 or both.
436 Offence by bankrupt in relation to management of companies
1.

2.

A bankrupt commits an offence if he or she
3.
acts as a director of a company; or
b.
fails without reasonable excuse to comply with section 149.
Despite anything that section 14 of the S urn
,
J
mary Proceedings Act 1957 says, an information in respect
of an offence under subsection (1) may be laid at any time within 2 years after the date of the offence.

437 Penalties for offence in relation to management of companies
A person who commits an offence under section 436 is liable,3.

b.

on conviction on indictment, to imprisonment for a term not exceeding 2 years'
on
exceeding$5^000
orboth° imPrlS°nm6W " *
"*
12

a ■» «*

440 False or misleading statements or refusal to answer questions

1.

A person commits an offence if he or she3.
b.

C

makes a statement to any Assignee or person concerned in the administration of this Act
knowing that the statement is false in a material particular or
wilfully misleads, or attempts to mislead, any Assignee or person concerned in the administration
or tnis Act; or

Aligner350™1316 6XCUSe’ ^ ^ refUS6S t0 anSWer any question Put to him or her by the

2. A person who commits an offence under this section is liable on __
summary conviction to imprisonment
for a term not exceeding 12 months or to a fine not exceeding $5,000
or both.

0232

Printed i7-APr^^:ij8.16046j 04/28/2019 ID Jil279762.' DktEntry: 48-2, Page 11 of 11
rtSP^NEW ZEALAND
"

Page 1 of 1

HteMJreNCTAMD
TRUSTEE SERVICE

.Insolvency Summary Report

Estate Details
Insolvency Type Creditor Petition
Estate Number
Name SAMEER, Madhu
Administrative Status
Prospect of Dividend Unlikely
Adjudication Date/Time
Court Christchurch High Court
«< *
Court Number
Petition Type Creditors Petition Type
, Petitioning Creditor
Date Petition Filed 15-Jun-2018
Address at Adjudication 5 Old Hospital Road, RD 1, Kaeo, New Zealand
Current Address 5 Old Hospital Road, RD 1, Kaeo

891708
Open
16-Apr-2019
CIV-2017-409-000535
Conroy Removals Limited Napier

Additional Information
None

Current Financial Position

ESagsasaisa^
Total Payments:
Balance of Funds on Hand:

$0.00
$0.00

. .

Summary of Claims
No.
1
1

Claim Type

Notified

Petitioning creditors
costs
Unsecured creditor
with POD

Total Estimated
Claims:

Total:
$372,246.01

No.
1
1
2

'

Received

$0.00

$0.00

Admitted
$
$0.00

$372,246.01

$0.00

$0.00

$

No.

$372,246.01

0

$

No.

$0.00

Asset Type

c
fc-

*

0

$0.00

-

Summary of Assets
No.

Ci-

OA Estimate

0233

Realised to Date

ft-

NEW ZEALAND
INSOLVENCY AND
TRUSTEE SERVICE

13 March 2020

Madhu Sameer
madhu.bambroo@gmail.com

Dear Ms Sameer,
Madhu Sameer (Bankrupt)
891708
As you are aware, you were adjudicated bankrupt in the Christchurch High Court on 16 April
2019, on the petition of Conroy Removals Limited. The Official Assignee was appointed to
administer your bankruptcy under the Insolvency Act 2006 (the Act).
I enclose for your information a copy of the Official Assignee’s letter of 18 June 2019, this
provided information on how the Official Assignee would deal with the bankruptcy
administration.
.
Turners have completed the processing and auctioning of household goods. This has
resulted in $10,816.03 auction proceeds paid to the Official Assignee’s trust account. In
processing household goods Turners identified multiple items which could not be auctioned.
On 3 January 2020 you collected items stored at the time by the Official Assignee.
Remaining items which cannot be auctioned have been removed from Turners and are held
at a storage facility in Hornby, Christchurch.
The Official Assignee has been advised there are 62 items with a cubic measurement of
5.20m3. The Official Assignee will request items remain in storage until 1st May 2020 should
you wish to arrange collection. If.items have not been collected and remain in storage on 1st
May 2020 the Official Assignee will arrange secure destruction.
You are reminded that storage and destruction costs are'costs incurred in the administration
of your bankruptcy.
•
• .
• .
Moving forward
>
As you are aware the Official Assignee must continue to administer the bankruptcy. This will
involve selling assets sufficient to pay the bankruptcy debts and the Official Assignee’s .
administration costs.
v *

Assignee’s remuneration
In administering your bankruptcy the Assignee charges remuneration for carrying out his
duties and exercising his powers. Prescribed hourly rates are fix by the Governor-General.
S

0234

i •

To date the Official Assignee’s time costs in dealing with the bankruptcy administration are
$20,570.05. Costs will continue to be incurred.
At present the Official Assignee is holding $13,399.02 in the trust account, this is made up
of:
•
•
•

$10,816.03
$ 3,326.64
39.74
$
$

auction proceeds received from Turners
Security for costs received from Court of Appeal
interest

783.39 Storage fees

$13 300 0?

Insufficient funds have been realised from the auction of household goods to repay
bankruptcy debts and the Official Assignee’s costs.
At this stage the notified claims in your bankruptcy total $48,551.38 (with interest) and the
administration costs are $21,055.05 leaving a shortfall of -$56,207.41.
If third party funds or financing of $56,207.41 are forwarded to the Official Assignee’s bank
account by 10 April 2020 the Official Assignee will cap the administration costs at the figure
of $21,055.05 (in the absence of any other matters that require attention) and no further call
on assets would be required.
As all debts and costs in your bankruptcy would be paid, you would be entitled to apply to ^
ii.
the High court for an annulment of the bankruptcy.
If this offer is not actioned, the next step is to proceed to realise further assets.

.

Property at 5 Old Hospital Road, RD 1, Kaeo
As you are aware the Official Assignee has a caveat lodged against the title of 5 Old
Hospital Road to protect his interest. For the benefit of doubt, this property has vested in the-'
Official Assignee pursuant to section 101 of the Act without the Assignee having to intervene
or take any other step in relation to the property, and any rights of a bankrupt in the property
are extinguished;
The Official Assignee understands the property has no mortgage and was purchased in
February 2019 for $650,000. There is significant equity in the property. You may wish to
consider financing against this property, which the Official Assignee will allow.
If financing is not an option, to realise equity in the property the Official Assignee would, with
your co-operation:
•
•
•

Instruct three estate agents provide marketing appraisals to the Official Assignee
Once reviewed the Official Assignee would instruct one agent to market for sale
Once sold any surplus proceeds following repayment of bankruptcy debts and
administration costs would be returned to you

Should you not be willing to co-operate in the marketing and sale process the Official
Assignee would request that you vacate the property and/or apply to the High Court for an
order of possession pursuant to section 152 of the Act. This legal action would significantly
increase administration costs.
Property Insurance
•
Adams Trimmer have advised that you requested the insurance cover arranged with them
be cancelled as you’ve arranged cover elsewhere. Please provide the Official Assignee with

0235

details of insurance cover for the property by return email. Failure to provide details will
result in the Official Assignee taking out insurance cover for the property and an additional
cost in the bankruptcy administration.
Should you have asset(s)/source(s) of funds not disclosed to the Official Assignee
(either in or outside of NewZealand) sufficient to repay bankruptcy debt and the
administration costs, it is strongly recommended that you advise the Official
Assignee immediately.
In the absence of any other assets, or 3rd party funds that can be obtained, the Official
Assignee is left with no option but to take action to realise the property at 5 Old
Hospital Road.
Yours sincerely

)

"S
I

II**1

Deborah Coles
for Official Assignee
+64 3 9626222
Direct Dial:
Fax:
+64 3 9626200
deborah.coles@insolvency.govt.nz
Email:
Private Bag 4714, Christchurch, 8140, NZ
Address:

0236

NEW ZEALAND
INSOLVENCY AND
TRUSTEE SERVICE

18 June 2019

Madhu Sameer
madhu.bambroo@gmail.com

Dear Ms Sameer,
Madhu Sameer (Bankrupt)
891708
As you are aware, you were adjudicated bankrupt in the Christchurch High Court on 16 April
2019, on the petition of Conroy Removals Limited. The Official Assignee was appointed to ]S
administer your bankruptcy under the Insolvency Act 2006 (the Act).
-v"
On adjudication all property (whether in or outside New Zealand) belonging to you or vested
in you vested in the Assignee. The powers that you could have exercised in, over, or in
respect of any property (whether in or outside New Zealand) for your benefit vested in the
Assignee (see section 101 of the Act)
‘Property’ means: (see section 2 of the Act)
property of every kind, whether tangible or intangible, real or personal, corporeal or
incorporeal, and includes rights, interests, and claims of every kind in relation to
property however they arise
In addition to the judgement debt, the Court awarded $9,247.00 petitioning creditor court
costs to Conroy Removals Limited. The Official Assignee understands the judgement debt
results from a dispute between yourself and Conroy Removals Limited.
Bankruptcy debts notified to the Official Assignee currently total $49,276.59 being:
•
•
•

$37,246.01 Conroy Removals Limited, bankruptcy petition debt;
$9,247.00 Conroy Removals Limited, petitioning creditor’s court costs; and
$2,783.58 ANZ, credit card

Assignee’s remuneration
In administering your bankruptcy the Assignee charges remuneration for carrying out his
duties and exercising his powers. Prescribed hourly rates are fix by the Governor-General.
To date the Official Assignee’s time costs in dealing with the bankruptcy administration are
$8,247.80. Costs will continue to be incurred.
Rights of action
On your adjudication, your right to take legal action against others (including, without

0237

limitation, Conroy Removals Limited and your former partner (whether in New Zealand or
abroad)) vested in the Official Assignee.
As a result, you cannot bring such actions while you are an undischarged bankrupt.
We have reviewed the documentation surrounding your claim against Conroy Removals
Limited (and others). We see no reason to challenge the findings of the courts. Accordingly,
the Official Assignee is not going to pursue legal action against Conroy Removals Limited or
other parties involved in the transport of goods.
However, if your bankruptcy is annulled, then the right to bring such actions will re-vest in
you. Given that (a) you appear to wish to pursue such actions, and (b) you appear to have
sufficient assets to pay your debts in bankruptcy (together with the Official Assignee’s
administrative costs) you may consider that paying off your debts is an appropriate option.
Annulment - Section 309 of the Insolvency Act 2006
You have advised the Official Assignee you are considering making application to annul the
bankruptcy under section 309(1 )(a) of the Act. The Official Assignee cannot advise you on
whether to seek an annulment on those grounds. The type of annulment referred to in the
previous paragraph (i.e. payment of all debts) is a 309(1 )(b) annulment.
Should you wish to make application to annul, you should seek independent legal advice.
Unless and until your bankruptcy is annulled you are subject to the restrictions of bankruptcy
and the Official Assignee must continue with the administration.
Moving forward
As advised the Official Assignee must continue to administer the bankruptcy. This will
involve selling assets sufficient to pay the bankruptcy debts and our administration costs.
Section 138 of the Insolvency Act 2006 deals with the general duty of a bankrupt to assist,
specifically;
.
■

138 General duty of bankrupt
(1) The bankrupt must, to the best of the bankrupt's ability, assist in the realisation ofthe
bankrupt's property and the distribution of the proceeds among the creditors.
(2) This duty is in addition to any other duty imposed on the bankrupt by this Act or by any
other enactment or law. ■
Administration costs will be incurred in realising assets. Should the process become
extended and involved, this could significantly increase costs and the amount of funds
required to repay the bankruptcy debts and administration costs.
Statement of Affairs
The Insolvency Act 2006 requires that a bankrupt provide the Official Assignee with their
Statement of Affairs within 10 working days. To date the Official Assignee has not received
your completed Statement of Affairs. Unless annulled earlier, you cannot be discharged
from bankruptcy until a minimum of three years after a completed Statement of Affairs is
provided.
Known vested assets available to the Official Assignee
1
.
From information provided to date and searches carried out, the Official Assignee is aware
of the following assets.
■ 1
. '
... 1. Household goods

0238

Conroy Removals Limited have released their lien to the Official Assignee.
The Official Assignee’s next step in your bankruptcy administration will be to instruct
an agent to auction the items for the benefit of bankruptcy creditors. Prior to
auctioning it would be desirable to sort through the items and remove any personal
papers and items and arrange for you to have access to these.
This action will be onerous and incur significant administration costs. Typically the
auction price of items sold is much lower than their original value. Accordingly, it is
unknown what auction proceeds would result and it is possible that they would not be
sufficient to repay bankruptcy debt and administration costs.
2. Property at 5 Old Hospital Road, RD 1, Kaeo
As you are aware the Official Assignee has a caveat lodged against the title to
protect his interest. The Official Assignee understands the property has no mortgage
and was purchased in February 2019 for $650,000. There is significant equity in the
property. You may wish to consider refinancing against this property. If refinancing is
not an option, to realise equity in the property the Official Assignee would, with your
co-operation:
o
o
o

Instruct three estate agents provide marketing appraisals to the Official
Assignee
Once reviewed the Official Assignee would instruct one agent to market for
sale
Once sold any surplus proceeds following repayment of bankruptcy debts and
administration costs would be returned to you

Should you not be willing to co-operate in the marketing and sale process the Official
Assignee would apply to Court for an order of possession. This legal action would ^
significantly increase administration costs.
3. Property at 9976 N Recreation Ave, Fresco, CA 93720 USA
This property also vests in the Official Assignee. You are reminded that your ability to
sell or transfer the property has passed to the Official Assignee and that you may not
deal with the property in any way without our consent.
4. Matrimonial property proceedings in the USA
This right of action vests in the Official Assignee. The Official Assignee understands
the funds used to purchase 5 Old Hospital Road resulted from these proceedings. In
relation to this please provide:
•
•

Details of any solicitor/attorney acting for you in these proceedings
Details of any future funds/assets you believe are due to you

Should you have asset(s)/source(s) of funds not disclosed to the Official Assignee
(either in or outside of New Zealand) sufficient to repay bankruptcy debt and the
administration costs, it is strongly recommended that you advise the Official
Assignee immediately.
In the absence of any other assets, or funds that can be obtained, the Official
Assignee is left with no option but to take the actions outlined at 1) and 2).
The Official Assignee will defer taking action until 5pm 12 July 2019 to allow you time to
consider your financial situation, including refinancing against the property at Kaeo. Once

0239

this deadline has passed the Official Assignee will proceed to take steps to realise assets for
the benefit of bankruptcy creditors.
Yours sincerely

)
Deborah Coles
for Official Assignee
+64 3 9626222
Direct Dial:
+64 3 9626200
Fax:
deborah.coles@insolvency.govt.nz
Email:
Private Bag 4714, Christchurch, 8140, NZ
Address:

0240

Appendix G

0241

SMpco Transport*

x^r

< Cargo Information

Cargo Insurance Calculator
Select Commodity

General

B

Personal
(prof.pac
(gfass/cttery & o
breakab
food/be\

C

Laptops/
/ Notebc

D

Wine & E

E

Hazardo
Items

Select Product
f
i Ocean

B

A

V

Enter Commercial
Invoice Amount

US $

[ 350,000

Enter Total Freight
Amount

US $

8,600

Calculated Cargo
Value, incl.10%

US $

394,460.00

Insurance Premium
($35.00 min)

US $

986.15

Reset

, Ail Otiie

Related Cargo Information Apps

Container
Specification

Freight
Calculator

Emission
Calculator

Shipco Transport

< Cargo Information

Cargo Insurance Calculator
General

Select Commodity

Select Product
Ocean

! B

V

Personal
(prof.pac
(glass/cttery & o
breakab
food/be'

i

Enter Commercial
Invoice Amount

US $

Enter Total Freight
Amount

US $

f
L

Calculated Cargo
Value, incl.10%

US $

Insurance Premium
($35.00 min)

US $

350,000
]

[ 8,600
r,;

394,460.00

Laptops/
/ Notebc

i

986.15

i

Reset

7 ' Wine & E

Hazardo
Items

All Othe

Related Cargo Information Apps

Container
' Specification

Freight
Calculator

Emission
Calculator

Appendix G1

0243

Cc:
Ol5

ORIGINAL

FEDERAL MARITIME COMMISSION
)
)
)
)
)

Muhammad Rana,
Complainant

V.

}

Michelle Franklin,
d.b.a "The Right Move Inc,"
Respondent

}

Docket No, |jfCXi?

A

)

FMC Registration # 023229N

etnv?o

May 2,2019

)
)
)
)

s’*1, n 2019 p

2

fiS

&

d

COMPLAINT FOR FORMAL ADJUblCATtOIM
The complainant hereby files a complaint for formal adjudication, declaratory relief and
damages with the Federal Maritime Commission, alleging violation of 46 U.S. Code § 41102(c)
[formerly §10(d)(l) of the Shipping Act) by the respondent for engaging in an unreasonable '
practice related to the delivery of property, breach of agreement, negligence and engaging in
fraudulent / deceitful business practices.
Complainant's contact information is as follows:
Muhammad J.Rana
House # 15, Street 143
Sector 6-13/4
Islamabad 4400
Pakistan
E-mail: Muhammad.rana(5)rocketmail.com
Tel: (011)-92-313-786-6778
According to complainant's records, based on correspondence between the respondent and
the complainant as recently as May-1,2019, the respondent's contact information is as follows:
Michelle Franklin
The Right Move, Inc
150 Motorway Parkway Suite # 401
Hauppauge, NY 11788
E-mail: mfrankIin@therightmove4u.com

Tel: 1- (347)-368-6520

1

0244

STATEMENT OF FACTS
The complainant is an individual consumer, a U.S citizen, who was temporarily relocating his
residence from Alexandria, Virginia to Islamabad, Pakistan. The respondent is an individual
ocean s hipping / freight forwarder doing business as "The Right Move, Inc."
On February 6, 2019 the complainant and the respondent entered into an agreement through
electronic mail where the complainant retained the services of the respondent. See attached
exhibits 1 and 2. The agreement is simple and straightforward in that the complainant was to
pay a flat rate of $2500.00 plus $95.00 documentation fee. In return, the respondent would
arrange for the pick-up of complainant's household goods of personal effect in a 20-foot
container and ship / deliver it to the Port Qasim, Karachi, Pakistan for pick up by the
complainant. According to the terms of the agreement, the flat rate included shipping or ocean
freight charges from Alexandria, Virginia to Port Qasim, Karachi, Pakistan. The flat rate also
included terminal handling or port of loading charges at origin. See attached exhibits 1 and 2.
As part of the agreement, the respondent requested the complainant to wire transfer the
payment money directly into the respondent's account On February 11, 2019 the complainant
wire transferred $2595.00 into the respondent's account. However, the wire transfer was
rejected by the complainant's bank because the account was not registered to the respondent's
company, "The Right Move, Inc."
On February 13, 2019 there was a three-way telephonic conversation between the
complainant, the respondent and the complainant's bank representative where the respondent
advised the complainant that the bank account is a personal account and requested the
complainant to wire the money under her personal name "Michelle Franklin." After the
telephonic conversation, on February 14, 2019, the complainant wire transferred $2595.00 into
the respondent's personal account under the name Michelle Franklin. See attached exhibit 3.
On February 15, 2019 the respondent acknowledged receipt of the wire in an email. See
attached exhibit 4.
On February 15, 2019, the respondent arranged for a 20-foot container that arrived on a truck
at complainant's residence in Alexandria, Virginia. After the complainant loaded the container,
the truck driver gave the complainant a first bill of lading. See attached exhibit 5.
On or after February 15, 2019, the respondent acquired the services of Troy Container Line, Ltd,
on a line of credit, to ship complainant's container cargo from Baltimore Port, Maryland to Port
Qasim, Karachi, Pakistan; via MAERSK Shipping Line to be delivered to TROY's agent in Pakistan
CP world, Co, Ltd. See attached BL exhibit 6 and 7. The respondent was required to pay TROY
port of loading and ocean freight shipping charges, which the respondent failed to pay. See
attached exhibit 8.
On April 2, 2019, the complainant traveled to Karachi Pakistan from Islamabad, Pakistan to
receive his cargo from Port Qasim, Karachi. On April 2, 2019, the complainant went to MAERSK

2

0245

shipping office in Karachi and found out that TROY's delivery agent in Pakistan, CP World had
placed a hold on the complainant's cargo because ocean freight / shipping charges had not
been not paid by the respondent. The complainant explained to the MAERSK office that ocean
freight was prepaid, but MAERKS representative asked to see an endorsement from CP World.
On April 3, 2019, the respondent after ignoring several of complainant's emails for numerous
days notified the complainant that her company, "The Right Move, Inc" had shutdown. See
attached exhibit 16.
On April 3, 2019, onwards the complainant was repeatedly informed verbally by the TROY's
delivery agent, that the respondent did not pay ocean freight shipping dues for complainant's
cargo, as a result the complainant's cargo cannot be released until full payment was received
from the respondent. When the complainant reached out to the respondent, the respondent
claimed that full payment had been paid via a third party and that the shipper would not have
accepted the freight cargo if the charges were not paid.
From April 5, 2019 until April 10, 2019 the respondent continued to claim via email that she had
paid the shipping dues albeit via a third party, and that the payment should clear soon. During
this time, the complainant continued to explain the respondent's position to the CP world, Co
daily to try and get the cargo released. In response, CP world verbally requested the
complainant to get evidence of payment in the form of receipt or a surrender letter from the $
res pondent; however, when requested by the complainant, the respondent did not provide any
evidence of payment and stated in an email that, "I paid the fees you have to believe me." See
attached exhibit 15.
On April 9, 2019, CP World officially issued a letter explaining that because the respondent hadfenot paid for shipping, complainant's cargo cannot be released. CP World also gave an
’v
alternative option for the complainant to pay the shipping dues out of pocket owed by the
respondent in order to receive the cargo. See attached exhibit 8.

a
*

• On April 10, 2019, the complainant paid CP World charges owed by the respondent in the
amount of 157,000 Pakistani Rupees. See attached exhibit 9. On April 10,2019, after payment
to CP World, when the complainant went to get the delivery order from MAERSK Shipping
company in Karachi, the complainant was informed that the 7-day free time had ended and was
asked to pay an additional $605.00 in container charges (demurrage and detention) beyond the
regular 7-day free time at a standard rate of $55.00 per day. See attached exhibit 10.
The complainant had brought dollars in cash with him for the truck and port charges, but had to
use it to pay CP World, after which the complainant was out of cash. After this, because the
complainant did not have a bank account in Pakistan; he was relying on wire transfers and
remittances from his US bank account during this time, which can take from 2 to 3 business
days. Pius, all banks and ocean freight shipping related offices are closed over the weekend in
Pakistan. Furthermore, MAERSK Shipping Company and shipping agents in Pakistan do not
accept credit cards.

3

0246

On April 15, 2019, the complainant paid MAERSK shipping office in Karachi 85,000 rupees
container charges through a shipping agent. See attached exhibit 11 and IS. After the payment
was made Complainant's cargo was released for customs inspection at Port Qasim. On April 16,
2019 through April 19, 2019, the complainant's cargo underwent the procedural customs
inspection, requirements and paperwork. On April 20, 2019, after receiving clearance from
Pakistan's Customs Department, the cargo was not allowed to leave Port Qasim because the
'No Objection Certificate (NOC)' that was previously issued by TROY's agent'CP World expired.
The Port Qasim Authority required the renewal of the No Objection Certificate from CP World.
On Monday, April 22, 2019, when the CP World offices opened after the weekend, the NOC was
renewed. During this time additional 6 days of container charges {demurrage and detention)
for MAERSK container had accumulated. On April 22, 2019, the complainant paid an additional
47, 536 rupees to MAERSK for container charges through a shipping agent. See attached exhibit
12 and 13. On April 23, 2019, complainant's cargo finally left Port Qasim, Karachi.
BREACH OF AGREEMENT, NEGLIGENCE AND FRAUD
The facts of this case make it quite clear that by not delivering complainant's cargo at Port
Qasim for a flat rate of $2500, plus $95 booking fee the respondent breached the agreement
between the respondent and the complainant. Additionally, there is fraud, deceit and
negligence involved by the respondent.
In an email dated April 9, 2019, the respondent told the complainant:
The booking was done under another company license, because I knew we may get to the point we have
to close. See attached exhibit 18.

Clearly the respondent knew or reasonably suspected that her company may close soon, but
failed to disclose this material information to the complainant when they entered into an
agreement. This information was material because had the complainant known that the
respondent’s company may "have to close," he would not have entered into an agreement with
the respondent, nor would have sought respondent's services. This establishes fraud, deceit
and negligence. Furthermore, the booking was done under another company's license, which
was not relayed to the complainant until April 9, 2019, even though in all the correspondence
and in the agreement with the complainant, the respondent used her company's credentials.
This further establishes fraud, deceit and negligence.
Moreover, respondent claims in an email that she made the required payment to TROY
Shipping Lines, Ltd through a third party. When the complainant requested evidence or proof
in the form of a receipt, the respondent refused to offer any. In the same email the respondent claims:

4
0247

I paid it to the third party I used to book your shipment from the same bank account, because once again,
I didn't want your shipment to get stuck if in case the Right Move inc license is being revoked while in the
process of shipping your goods. See attached exhibit 18.

The respondent's claim that she used a third party to pay for the shipping of complainant's
cargo is unreasonable and is highly unlikely. Making a payment of about $1000 to $1100 to
TROY Shipping Lines, Ltd would have required the respondent to send a simple wire transfer or
write a simple check to TROY or use a credit card after receiving $2595.00 from the
complainant. The respondent's claim here is highly unlikely, unreasonable and is clear proof of
deceit because there was absolutely no need to get a third party involved in paying TROY whom
the respondent had directly contracted on a line of credit.
Had the respondent paid TROY without using a third party, the money would have reached
TROY faster and TROY would not have placed a hold on the complainant's cargo in Karachi,
Pakistan. Even, assuming arguendo, that there was no fraud or deceit involved, it is dear that
the respondent was negligent in making the appropriate payment to TROY resulting is loss and
damages to the complainant.
In an email dated April 3, 2019, the respondent informed the complainant that her company,
The Right Move, inc had "shut down." See attached exhibit 16. However, on April 5, 2019, ^
respondent claimed that her company, "The Right Move is closing." In the same email she later
states, "because the company is closed I am unable to pay it again." See attached exhibit 17. it
is to be noted that there is a difference between "dosing" and "dosed," this is an inconsistency
in respondent's statement that indicates deceit.
On April 5, 2019, the respondent stated in an email:
i talked to the company and they are sending the payment today, but it may take a few days. See
attached exhibit 15.

On April 9, 2019 the respondent stated in emails:
I have been asking them to pay it for the last 4 days, they should be able to pay it today or tomorrow.
See attached exhibit 19.
The company I paid the money to, needs to know if to refund me, so I can refund you.
See attached exhibit 20.
I strongly suggest you pay directly and l will refund you, probably no late than Friday.
See attached exhibit 21.

On April 10, 2019 in another email the respondent stated:
l am confirming that the money was sent back to me, and I should be able to pay by Friday.
See attached exhibit 22.

5

0248

TS

On April 17, 2019 the respondent stated:
I will send you a refund shortly. See attached exhibit 23.
On April 19, 2019 the respondent stated:
The payment will be concluded in a day or 2, of couse I will try to pay as much as 1 rsonsible for.
See attached exhibit 24.
Despite these email statements where the respondent is telling the complainant that she will
pay him, the respondent has not reimbursed the complainant for any monetary damages /
losses incurred as a result of respondent's breach of agreement. These emails further establish
fraud and deceit.
The foregoing activities by the respondent constitute an unreasonable practice related to the
delivery of property in violation of 46 U.S.C §41102(c) [formerly §10(d)(l) of the Shipping Act],
DAMAGES
Respondent's failure to keep her contractual obligation along with fraud, deceit and negligence
set in motion a series of events and circumstances that caused damages / losses to the
complainant.
The complainant had to additionally pay, TROY's agent CP World, out of pocket $1,107.97
(157,000 Rupees} owed by the respondent to get the cargo released. See attached exhibit 9.
The complainant had to pay an additional $55.00 per day container demurrage / detention
charge for 17 days (April 7th through April 23rd), a total of $935.00 (132,536.00 rupees}; See
https://www.maersk.com/en/local-information/pakistan/import; beyond the 7-day free time,
because of the delay caused by the respondent's breach of agreement, fraud and negligence.
See attached exhibits 11, 12 & 13.
Furthermore, the complainant had intended to stay in Karachi for only 3 nights. However, due
respondent's breach, fraud and negligence, the complainant had to stay at a hotel in Karachi for
additional 18 nights, and pay a total of 388,500 Rupees in hotel lodging at a rate of 18,500
rupees per night. For the additional 18 nights lodging the total comes out to 333,000 rupees or
$2,350.03. See attached exhibit 14.
In addition, the complainant had to pay taxi charges at the least in the amount of about $7.76
(1100 Rupees) per day or $116,40 for 15 days to get to and from MAERSK Office, CP World
Office, Western Union and hotel etc.

6

0249

In April 2019, the price of dollar in the open market against the rupee fluctuated between 141
to 142 rupees per dollar. Therefore, the exchange rate used in this calculation is 141.70 rupees
per dollar, which was also the rate used by MAERSK shipping company.
Respondent's shipping dues paid bv the complainant
Container charges caused by respondent's delay
Complainant's taxi charges_________________
Complainant's lodging for 18 nights in Karachi
Total Compensatory Damages / Losses:

$1,107.97

$935.00
$116.40
$2.350.00
$4,509.40

The complainant also suffered non-pecuniary damages as a direct result of the respondent's
breach, fraud and negligence. The fact that the complainant is a U.S citizen who has lived in the
U.S for most of his life, spending 21 days in Karachi, Pakistan trying to get his cargo released in a
situation such as this, was extremely anguishing and emotionally distressing for the
complainant, A reasonable amount of non-pecuniary damages suffered by the complainant
should amount to $25,000.00.
Moreover, punitive damages are applicable in this case because the respondent showed utter
disregard for her business contractual obligations engaging in deceit, fraud and negligence. A
cursory search of the internet appears to indicate that the respondent has a pattern or practice
of engaging in fraud and deceit with consumers and customers. See attached exhibit 25. PC
reasonable amount of punitive damages in this case should amount to $50,000.00.
RESPONDENT'S PERSONAL LIABILITY
The respondent does business as "The Right Move, Inc" and claims that her business has shut
down. The respondent should be held personally liable in as much as is recoverable from
respondent's personal assets, beyond the respondent's company insurance bond. The
complainant contends that the respondent is personally liable for the following reasons:

1) The respondent accepted payment of $2595.00 in her personal account under her
name, not under her business name or her company account.
2} For much of the correspondence and transactions the respondent acted in a personal
capacity.
3) The respondent engaged in fraud, deceit and negligence resulting in damages / losses to
the complainant.
4) The respondent appears to have a pattern and practice of engaging in fraudulent and
deceitful business practices, A cursory google search of the respondent revealed
numerous allegations of fraud and deceit by individual consumers. See attached exhibit

25.

7

0250

RELIEF SOUGHT
The complainant requests the Commission to issue a summary judgement if possible or hold a
hearing if required. The complainant prays that the Commission rules against the respondent
as follows:
A. Enter a judgement that the acts and practices of the respondent were in violation of 46
U.S. Code § 41102(c).
B. Revoke and cancel respondent's FMC license.
C. Award the complainant $4,509.40 in compensatory damages.
D. Award the complainant $272.00 filing fee used to file this complaint.
E. Award the complainant international mail and courier charges used in filing this
complaint from Pakistan.
F. Award the complainant $2595.00 in restitution.
G. Award the complainant $25,000.00 in non-pecuniary damages resulting from anguish
and deep emotional distress.
H. Award the complainant $50,000.00 in punitive damages.
i. issue further order(s) as the Commission determines to be proper.

Respectfully submitted by the complainant,

My z.z&y
Muhammad J.Rana

Date

8

0251

Muhammad J.Rana

Complainant's signature
House # 15, Street 143
Sector G-13/4
Islamabad 4400
Pakistan
The complainant is the person who signed the foregoing claim, that he has read
the foregoing and that the facts set forth without CjuallficafiOh are true and that
the facts stated therein upon information received from others, affiant believes to
be true.

1

Subscribed and sworn to before me, avhotatypublic
this: 2nd day of May, 2019
(Notary Public)
My Commission expires December 20, 2019

9

0252

I hereby certify that, on f^AY

. a copy of the foregoing attached Complaint for

Adjudication was sent to the following by the method indicated below:

Secretary Federal Maritime Commission
500 N. Capital Street, NW
Washington, DC 20573

VIA DHL Internationa! Courier Service

Michelle Franklin
D.B.AThe Right Move, Inc.
150 Motor Parkway Suite # 401
Hauppauge, NY 11788

VIA Airmail and Electronic Mail:
mfranklin@therightmove4u.com

my
Muhammad J.Rana (Claimant)

Date

0253

s, 2 on

i?
V

____-**—•*}:>
"'jSa^

is

L"6<“

IFMgrt-r

Vi «. .> I ■ S "l O

International Moving Service
Agreement

ij

ii

Customer
Rep:

;i ;The Right Move Inc
; 150 Motor Parkway suite “ 401
I

i
■

. knc

& '^y d Q'ZlJs W
'x-^
Xtzr
o u L t J>

iPhone:

Hauppaugo, NY 11788

« M l..

Reference No: S220847J

■

Michelle
855*344-5874

:
;! **.

Fax:

e31-43SW5&01

Email:

mffrinkling?'th*jriqhtirir.)v^4u.<:ofn

Web:

ViHp-.'fV.-.v.v lhRri0litri10Ve4ii.com

! Registration #: FMCII Q23229N

”

:)

Moving To

Moving From

t

I :

!

iMuhammacI Rana

Muhammad Rana

:

110 Roberts Lane

Karachi Pori Only, PAKISTAN

Apt. “ ■ 301

!

ij Alexandria, VA 22314
| Phone: 402 477 7583
' -muhamniad.ranaWro.cJkt-tma.il.com

;
S220847

I I Job No:
Type of Service:

:!
••

Estimated Volume:
: Move Day:

i Move Date:

Insurance:

Total Loss Coverage Insurance
For $5,000 - Free.

Others:

Lcl Service Charges For 200
Cubic Foot

Others:

Documentation Fee

Door to Port
20 FT - Flat.
Thursday
02/14/2019

so.oo' 1
: 1
S25Q0.0U

i

$05.00,

52595.00 r
• I

iTotal Estimate:

■

Understanding Your Service

i

• :S

1 ino Until Charm's: Unsctl on 21) FT Continuer.
: :i ii.-

Itulu.K--. ihuI-iiil’ i he viuC.iiiitT Irom the pur; to -.Mar home at urip;ii ami I mo, U> iIic pun tm-i .in I
,Lmiamv at ani'm lor (lie hi'ii:-vluikl>. icitmnai

aiu

t*t111:(s. ocean Itciphl

,!
i I’K-ase he adwM.-<l that lire conlaiiu r is rv\i-r\ id ho i limn > nf hiadinu. a u> additional hour

ill lie Nl Hi,DO.

i !;

0254

•

.r

■

■

• -.

....

rry .■9+.^..j- T -■• r *• .'•.<■ •

I •■Insurance: 1*

V

“lotiil U?SN*Mu>.nr;MK'v Uf) ti> S5,t}U0,i)O.

I

i i;

|II;c
S Mih|vv; le !c(.ci\ mjl ll'-s Jllsui.litsV limns >•■! tkp.s ,-VhH l<> tU plshup. ;tiul it is >uh|cvl le tl-.-.j ilium.iikv s'l'inp.un t^-riii. amf s'einliiiiitis. (SuO!) tik\ltici:Lk->
.

*U., ill v* »!•:*. s' i’*•

.1 •..;

i.lt'iv l.p> rl l..’kpl.‘*.t. ska;".-.' el ' .1 <<[ lLsl.l.'.i.j Sufis' tel it.it kokklj.v. aits!

-

i: -kv I iiis'il v.li'.-s’ tut Uil.il less. .ittki ‘.m!1 ivsjuiiv 'sTs pFUkVssuii; let*

?

■ I )tinitm,iH:t(i(iti IVe:
■' I'-.’ puss’ if.Jvuit.-s pis-panni; .ii-' s-ipen ilivmmrnl' tut sbippnn; house noLi ;/li.uU am!, Ai S li'.iiy and l»iil
!] 'l.idmi-

1 he prig-

i't

! :

nut hu-1 titles:

:■ '* “.uliiis: St-ivicc. Ik-1 is .-is set's :a,

clcaram:.- o’. iL-.lui.itiff.. . sh.r.nv .il oi iiru;. I s-nniii.d Ha;»illin>> diaives

!

| .it '.Lstin.itidii. Kis.il putt Is\-s .nisi laves .it ds-stin.iliiu-. stistoin s-\.;irn;u!ioii .md ss.init.iip. roll user k\s. >t«(tints* .it
. .!s'-tiii'.tiiiui. ik-mmi.i;,.'l-. iHunuiitiuHt.. titi.l \s-1tis'L- skipping

>ii iPtiwiU'Ul
Teniis:
■-------------------------------15% di-pi >sit is ts*i]iiui'il upon siL-ninp the scis ice .tiikviik iti l'\ cialii s-.ud i Visa <» M.i-tL it. .i(J

OnK)
*

I hs u.-ni.i!ini)jt I'uliittk.k.' is sine .'Ittkliiys iilist isst-ivnip titL" iiii.il limutc hk.-h.irs- shipiiis'iii kill
Iv.ivc ilk- l N-\. I'-, pLi--un.il clis’sk. sctlilis’il clivck. wiu- initistci. c.i-diici chct,k.

i
•5

IU
litis
1 ;im i 1‘ ihat this kiutri ;n ( is suppli nn-iit.il In ItOi. .mil Unit nliiih an- |,„|,ln:|i .naH.iMi-.al
I itirr.il M;niimu' l oiiimivsi.^i In V| L' linn I'l n| His Slitjipiiia \< I •■! Pisa. t*.n i <115 ,H | iili- .|(l „j the t nile
I In
I i iUt Ki-jul.il muN

ii
:!

3

; Customer Name

Customer Signature

%

I.

0255

From: muhammad.rana <muhammad.rana@rocketmail.com>
Sent: Wednesday, February 6, 2019 12:46 PM
To: Michelle Franklin <mfrankiin@theriqhtmove4u,com>
Subject: RE: The Right Move relocation estimate # 220847
Hi Michelle,
I accept the terms and conditions, full payment in the amount of $2595.00 will be paid
before February 14. 2019.
Thank you
Muhammad Rana

Sent from my Sprint Samsung Galaxy S8.

Original message
From: Michelle Franklin <rnfranklin@theriqhtmove4u.com>
Date: 2/6/19 11:30 AM <GMT-05:00)
To: "muhammad.rana" <muhammad.rana@rocketmail.com>
Subject: RE: The Right Move relocation estimate # 220847

Dear Muhammad,

Hope your morning goes well,

Please reply to my e-mail that you accept the terms and conditions , and also please
' • .TV

advise payment status, I need to book the ocean and trucker for Feb 14

0256

«■“>

Thank you and best regards,

Michelle Franklin - Relocation consultant
The Right Move, Inc
150 Motor Parkway suite 401
Hauppauge, NY 11788
Direct # 347-368-6520
Fax# 631-439-6801
FMC Licensed #023229N

Error! Filename not specified.

Error! Filename not specified.

THIS TRANSMISSION IS INTENDED ONLY FOR THE USE OF THE ADDRESSEE
AND MAY CONTAIN INFORMATION THAT IS PRIVILEGED CONFIDENTIAL, AND
EXEMPT FROM DISCLOSURE UNDER APPLICABLE LAW. IF YOU ARE NOT THE
INTENDED RECIPIENT, OR THE EMPLOYEE OR AGENT RESPONSIBLE FOR
DELIVERING THE MESSAGE TO THE INTENDED RECIPIENT, YOU ARE HEREBY
NOTIFIED THAT ANY DISSEMINATION, DISTRIBUTION, OR COPYING OF THIS
COMMUNICATION IS STRICTLY PROHIBITED. IF YOU HAVE RECEIVED THIS
COMMUNICATION IN ERROR, PLEASE NOTIFY US IMMEDIATELY BY REPLY EMAIL OR BY CALLING 347-368-6520. THANK YOU.

ftHietr-j.
Onto

2 er*

0257

Your Wire Transfer is being processed
You recently submitted the following wire transfer:
Transfer details
To account

XXXXXX4017

From account

XXXXXX9173

Amount

$2,595.00

Send on

02/14/2019

Description

Shipping to Pakistan

Confirmation
number

OW00000385627500

Visit Wire Transfers for details regarding this transfer.
If you did not submit this transfer, or if you have questions, please call Wells Fargo Online
Customer Service at 1-800-956-4442. We are available 24. hours a day, 7 days a week.
6ed3c3e3-8a06-49b9-9d84-ebl2e6647024

Ey. tti&J-’l 3

0258

'1

On Friday, February 15, 2019, 4:14 AM, Michelle Franklin
<mfranklin@theriqhtmove4u.com> wrote:
Thanks, well received !

Also, received the wire

Finally !

Thank you and best regards,

Michelle Franklin - Relocation consultant
The Right Move, Inc
150 Motor Parkway suite 401
Hauppauge, NY 11788
Direct # 347-368-6520
Fax# 631-439-6801
FMC Licensed #023229N

0AA4)

{SIU Of Lading
j ut«p?Dv£XFos'T
r
i Mutimmnd Rana
| ! 10 Roberts Laao
A lexutulriu , VA 223 i 4
Tell : 402-477-7583

bOCUM JCNT NO.ASSluBQOkrng^
967990270__________________ ___

*|5

HXPORT REFRENCES
220S47
POftVfAKDIKG AGirMT

COSSittSSfc

Tha Right Wove. Inc
150 Motor Park'AOy suite 401

Muhmm;ul Ran*
Q[.sim Pan

Hauppaiige. MY 11768

VciViAlit

Direct # 347-363-6520_________
A>o;xt Aim courtnY or ohig m
* HO Roberts Lane
j Alexandria, VA 22314 ■

Seme «s ubm'c

| Pick up from :
j Nteersk
; Baltimore Seagrit Terminal

PlfcK OR AIRPORT

1

WFOl’lU [■AHT*

>CRTOF"£OAfllf«0"

, I-ikTOWI CAIWHiR

VOH fKA«S3M«»**fcHr TO

AM-iF A *C*T C<= ofSCHAitGlT '

Karachi IQasim
no. or**

varxs"amd nwoeas

PARMCVUSa? tVljT@iiP
M&ASUOEUtS

02SCR1 (’TIOMOF PACKAC£9 AJKD OfcOfia

OROS&VtgKiHT

TRA piccer of used household
goods ami persottul effects .

3000 Lb

PACKACtt

1

!

: Return to :
■\ Maersk
j Baltimore Seagrit Terminal

t

m CODE: 99«5.ttO-f«lUO

i

*

!
1

Ocean Prepaid
Fxpross Release.

;

t
i

i

1
!\

t hitl

; \z.io

Seal# 5i4?S
0260

0

...

_

r*DT cCHtAIMlt H«l
ji vrtti
r*JlA*C^3l
r;)j.wai«<'»3^ oUO

_

BILL OF LADING
BOOKING NO.

3HIFPER/EXP0RTER (COMPLETE NAME AND ADDRESS)

1239458

967990270

2107

Muhmmad Rana
110 Roberts Lane
Alexandria , VA 22314
Tell: 402-477-7583

SILL OF LADING NO.

EXPORT REFERENCES

376794

220847

FORWARDING AGENT. F.M.C. NO.

CONSIGNEE (NOT NEGOTIABLE UNLESS CONSIGNED TO ORDER

The Right Move, Inc
150 Motor Parkway suite 401
Hauppauge, NY 11788, Direct # 347-368-6520

Muhmmad Rana
Qasim Port
Pakistan

POINT AND COUNTRY OF ORIGIN OF GOODS

Alexandria, VA

FOR DELIVERY PLEASE APPLY TO

NOTIFY PARTY (COMPLETE NAME AND ADDRESS

same as

CP World Co., Ltd (Karachi)
85-C. 11TH COMMERCIAL STREET
PHASE II EXTN, Karachi, Pakistan
HP 92 300 2901592
009202135315921

Above

PRE-CARRIAGE BY

PLACE OF RECEIPT BY PRE-CARRIER

"LxfIVri CARRIER (VESSEDVOWFLAG)

PORT OF LOADING

[A]

(713086 NC)

GJERTRUD MAERSK V. 909W

LOADING PIER TERMINAL

BALTIMORE
PLACE OF DELIVERY BY ON CARRIER

PORT Or DISCHARGE

NUMBER OF ORIGINALS

THREE (3)

PORT QASIM, PAKISTAN

PARTICULARS FURNISHED BY SHIPPER
M KK S f\ NOS-'CONTAINER NOS

CONTAINER U
MSKU277849-7
SEAL II
51-155

NO. OF PKGS

GROSS WEIGHT

DESCRIPTION OF PACKAGES AND GOODS

3000 LB
1360.78 KG

20‘ CONTAINER STC:
72 PIECES OF USED HOUSEHOLD GOODS
AND PERSONAL EFFECTS

1

MEASURE!'! r

HS CODE: 9905.00.0000

"SHIPPER'S LOAD, STOW AND COUNT”
CSC/DTHC/DDC COLLECT FOR ACCOUNT
OF CONSIGNEE IF NOT SHOWN PREPAID
ON THIS HBL

OCEAN FREIGHT
Total:
PREPAID

NOEEI SECT 30.37(a) HS: 9905.00
Totals: 1360.78 Kg

1
“NON-NEGOTIABLE”

Tctrnmodilics, technology. Of software were exported from the United Slates in accordance wilh lha Export Administration Rugulntions. Diversion conlra<y to U.S- law prohibits
SHIPPERS DECLARED VALUE S
........ ADR IFGT TO FXTRA FREIGHT AS PER TARIFF AND CLAUSE CMHS.Wp1 OF THIS B/L______________ _________________ —-------------------- ------------------- —---------------- ----COLLECT
PREPAIO
RATE
BASIS
FREIGHT AND CHARGES

RECEIVED by the Carrier the Goods as specified above in apparent good order and condition
ontuss otherwise stated, to be transported to such place as agroud. authorized or permitted heroin
-iii'J subject lo all the terms and conditions nppoaring on Iho Irani and reverse ol this Bill o! Lading
tu which Merchant agrees by accepting this Git! of Lading, and local privileges and customers
nutwithslanrting. The particulars given above as stated by the shipper and me weight, measure,
quantity, condition, contents and value of the Goods are unknown to the Carrier. In WITNESS
whereof three (3) original Bills ol Lading have been signed i( otherwise r.ot stated above, the same
feeing surrendered duly endorsed in exchange (or the Goods or delivery order.
G.<;iii;il on Lchatf of the Carrier.

0261

TOTAL

TOTAL

dateo

QYL

BALTIMORE

ntt

2/27/2019

*u...
The

■#

Right iWiove
—*ALL AROUND TH £ WORLD

BILL OF LADI

FOR PORT-TO-PORT OR COMBINED TRANSPORT

FMC-OTI No. 023229N
EXPORTER/SHIPPER

BOOKING NUMBER

SILL OF LADING NUMBER

Muhtnmad Jahangir Rana
110 Roberts Lane
Alexandria , VA 22314
Tell: 402-477-7583

967990270

1239458

CONSIGNED TO

FORWARDING AGENT

The Right Move, Inc
150 Motor Parkway suite 401
Hauppauge, NY 11788
Direct #347-368-6520

Muhmmad Jahangir Rana
House 22 , Begum Sarfraz iqbal road,
G-6/4 Islamabad,
Pakistan
Tell: +92-313-7866778

DESTINATION AGENT

NOTIFY PARTYIINTERMcOIATE CONSIGNEE

CP World Co., Ltd
(Karachi)

Same as above
• PRE-CARRIAGE BY

■ PLACE OF RECEIPT BY PRE-CARRIER

VESSEL

PORT OF LOADING/EXPORT

GJERTRUD MAERSK V. 909W

BALTIMORE

FOREIGN PORT OF UNLOADING

■ PLACE OF DELIVERY BY ON-CARRIER

LOADING PIER/TERMINAL

CONTAINERIZED

CO-LOADED WITH

PORT QAStM, PAKISTAN
YES

PARTICULARS FURNISHED BY SHIPPER

CARRIER’S RECEIPT
MARKS AND NUMBERS

CNTR #:
MSKU277849-7
Sealtt:
51455

DESCRIPTION OF PACKAGES AND GOODS

NO.OFPKGS

1

Said to contain 48 items of used household
goods and used personal effect.
NOEEI CODE: 30.07 (A )
IIS CODE: 9905.00.0000
AES : Les than $2,500.0

Ocean Freight prepaid,
Express release

DECLARED VALUE {FOR AO VALOREM PURPOSE ONLY).
(REFER TO CLAUSE 26 ON REVERSE HEREOF) IN USS

- APPLICABLE ONLY WHEN OOCUMENT USED AS COMBINED TRANSPORT BILL OF LADING
In accepting this bill of lading, any local customs
or privileges to the contrary nolwithstanding, (he
chipper, consignee and owner o! the goods and
the holder of (his bill of lading, agree to be bound
by oil the stipulations, exceptions and Conditions
stated heroin whelhorwritton, printed, stamped
or incorporated on tho front orrovorso side Hereof,
as fully as if they were all signed by such shipper,
consignee, owner or Holder.

NO

FREIGHT AND CHARGES
DESCRIPTION OF CHARGES

0262

GROSS WEIGHT

3000 LB
1360.78 KG

ME
ME

In witness whereof three (3) bills of lading, dll
ol the tenor and dote have been signod. one of
winch being accomplished, the others to stand void.

BY: THE RIGHT MOVE
INC., As Carrier
DATE 2/27/2019

TOTAL PREPAID

TOTAL COLLECT

0263

Combined Transport Bill of Lading
•% ID
ptnulnl fur >a ilit A/rute. thill fu»r likely li< c* m^tly urilb uf.luH. llihKliflil*. regulj Li dRft iff
I< ot Ihr Viral klw*.a;X*f giV«sl try ity Idul <n jVKfxffUd
ru’ip/li’.io ci .hr iMiiayC iff Kjiiiknijj ef (he C

l. niifinli|.<«*) «’M<I< u>nl .ft ilw (Mr g| Ladm* (A) ManCinm-<nr<ir iSremB|wn> uared en (be frwil iff
•.:>r l«il l-I •ni.iij, * huft i-trl'vrrn* ihr ** tui i i*tr uf l'"K *
lh« *M»rl- her u« ixi uni Al“"*r 4KuwtlJiKCAlIf f*lf1lll I* It-IKj, pi ■veil rkS/VK, ltdllA'*Me< OfWT»tU4j| eMPl'lfflllffprflCr, lh MltK.
(/.Tan Cwn

Mirk wjMer ill tif, |Mi1i«ifirlm( (ii

—i|in»| ri.im|HH< lit ihc (iiiill, Ahxlhci *rtii!f JCiJifierof Nik e.

urthincJ Timo|Ktr fflfJiK U4ii*#e

'I.ibml ( « ilkf' »1I«|1< MIWI4 t'“t»T Ihnn

(I!'

«1 ;.-><:(• *-<l> under khi*|l.!| «r idling turn fJj«e

Cu.-n Mm/uaii" p'»ft*of delivery In Mocha

^peinnuuil in puWiC duO-vaiy. df I'/ luf e.hiuniil<e or fxrvii huiop aiKln (he tn.ftll nf dud nirdiawtr
•ii. If l*> ter amp of amkii hi ci'fi’^irirv.'i
\emrl. (lie lij."* lit jiiT wrti .uiffr, ills Khun. i fpjl.Hii"i. o. ruy
4J|> tilth untar. iVreniiu. i«|>sliuiag m ay jtm.iiai, eiivlAiag ii

nr iy

y, )j)<t<rlplliia and Parllvuftr* «( Coiiid^ Any rtfsieace um Ihe Pave uf 1hii Hill ul'l.»>l"tj

eian.^i* e. utiwr, and ntir/in of (l>e fimaJt amf Hit

Thr M«i t hrst wjifJJtt i« itut

Cjri i«r Uwt tbo Jeut.|Hu-n» **1

OnunCuriKr. Iha Orc-m Ci"nff Jull Kai lihmy lufukk sflil uny shsCiioii inunytyni vl'vonuntrt
11. (Orvua Ctnli'f*1 Orfftahwe) fAl The Mm-tunl lUkT et f'iW InlmAvitalily tor anil dull mdcrnni'-Jr IV

1TM.I11. lhai (hi'li xmL h«x( Kvii lin<XJ v* tiMCthe V<vaI ul tit «n Iht ivv'uHy ul t|ieOic-in(tanjcr. snJ inthc
ocm of iombieol rrwff«N»i •! *« cnfmiiiiit Miner ii »n InUuil C»«*«
k. .v ....................

on hiMftf n.l iu i or ollvr iM^i of lfll*di|

tXosh Oiiitr spniil in)' luvi oftv rli finer titl'if Oinm <««rier'« eiMlameri anrl sUirr etaiipiitcul >1 |ht
pr« tinted ct wiii«v K%le «n ihe (vtrcitivh iff riK'J.tl uf (he Miithi"*. Cut >]fvm 4, or teouapn cuikis

’W' UrtwH" m*i«» thit inekJoudi

vff *‘6 in tlir «i»lu.!* uf » fsnui^ii.inj

trpiyvtlhj'oroii beSutf efihe Merthirtclll The thtinCgrui* dnh “V Ml event be iiible tn. ,i>\1 ihr Miffvhnnl
U->< of iff
thnll iiiUTTunf) sr4 hvU ihv Uviaa Cxnitr hrfnu.ii (iimi «*y ikvth iTvr nijgi.v-* '-s

’^i.Si'clniU,’*" tmluder •l«»nkr;tv lu«K>Aff<tinffi. luMfivrk. leriarnal
tr «ii>Kr Initial (orin
’^rl «iv >ly
ofnisigvi a ./<1nmit«iuo. Iiuitrii ijirniv Kivsert. <a1 Kty p etisn. firnx rvijMinUu" ui gitvr U'
mm uKulwnri lit the urrmpt1 iTl»« tjinffls |k> "k'nii rd Sule>" sr *U k ‘

hr Luiirf

me Mm-htui. bl •crui«. «r unameu taneridi^ivl l»y m oabrAilf of(Ik Mn du m.
nil by iW UrtMi >y lultikl Carrier is in u dtiiffimT
12, (Csffffflffir J'aelid by > leri'hjn'J If Ihg i
IKlm'. oy ui on hghil .if iIm MaiihiiA. (A)lSilillill vt IffiLsi •« priori favit (vr-igiiiff of iW ■■tm-'l't •MAiy »f Ihc
uuiHlkT »m the Taix vfllii' IliU nf [.aitr^ Tlh' ivil'h'ioft »iil faAiiklsri uf rhy i\sMgul> tie hiikraAHi :■» the

r.itll ■hi»v ellso wfffivt 1.' ilv pi m iMiiiii i-f ch* 'Hapis Rwlgi*. nriwfy (K- l*iii-iiut»ffuC tiffnrnhunv fur lit!
I'i./i.'i-i.u! .■) < ,'iMni Kuiit lU'liamj hi flits uf tmlm*. ifiWl » Tbu (ills. August IS. HU at pirembnl
V«lT lluli-i), a*
uIki« gi<ff.iiit. ilir ISi4.avi itikil al flunvlff. I e*»isiy It. IVC«r». Ku»«n a*
s-ai!vil ui itw ii>iis<y v) .lil|iiiMnr

UflicA n>- ruvlt viuelmtni i* n f‘»>r m ihv-»iiinny uf rhipn
ioii!j*ihuily JirTnalft. Ihv Hsywi hnlgv ». lauunl •« Cw siainuy ul .li:>Mi*l-ffi >Jm« jj./iIIj Whiff
■l.-iiiiuinin. c< -• <4hir<oi<s
,u. Ol^ll gmitlllk.'ll ,1 III 's.S HI Ihc ICfflAll) l-f lffip>1MI Iff Iff lffv YHJIlUy
i-aiCy srrliuh'i. Iln1 In mvi.l *!«: Hafm-hidctat iaiOuI by lh<C*in*(iil».ui di»H a:v!' (fly Ifihitlti;l
. G-i"l> ithkuiyis m l'nffu|krlisir'liu Lniiu-lSiJigr >• Cffeig itisjdr, iln-n isiimryi'<jfie*fc
tin- |4inisisiio <il iik LTi-lul Staler laitupt vl G‘H•-U 4-y !Si-a Avi, IUJ*. d* l:.S.C
i.

iliiM iw iHiiipiffcl

t o, ,.r e-.i) tw iniiff'slul only

mi

thr eim.HI> or.xn the (

hr k in rrmtipal ptira uf Wmpi<4 #n d Qitti he

imi

k*.I

d* Mirthanl dufl irkbnmly anl (k'lil Uetso C'MMcr haimkM tiom. any rro.ll.ui;lu<” «
rl Ii)
l-iupeit) fuiikjjnijiiis Gi-vOt) (U tlid Mirv'iwni dvdl in-ffor.'1 Ihr MUilnn.'i ii |vrn <1 It filulKN

<n rviiiiunlvtlic f<wdi. Ifll Minlnni

Ault ilui loi ehorn

In-.,nit iTH'i^ft oik'll

-*• iff t*ffin a") -M'bi ui i n ivAfiilH’il U. ilh ihc (iiiklh -Ilk1. ii'uny o**h k•"in iJiiiii.il
K l Wirhnm
ii* t airiftf Sjiiino all *'<p>«s<kii*i-> •*! ali'i i *.>'«><
V' -.rli-.lt>* Ik nri-lu- I.i

Ihe Gvv da li> thf (Ji'ein (

iiiiii.iitKr yufkalliy >soii tvhvitf <>t*lire hinrtiinl. Mil (In- tVeisi C'imci kill liuC oa«h> l tinl< is cmiljkiitr iv.iy

TlV.i.m*, iIkIIhi II
Iffirl vl III 4lld k* I nihil ^*-1 ivl.ml ullh fil'i^TS ilk.I k'hll^eh l.lhli-l iff
ItcC.-ll’ lie kill la |I|4 .a Ihe «vy*f( IK I-h-Ll:il Lp. fniklJISd. •« akV,»k>'h'( »l uiy Il.iye .-I I

n> iMdinhiy ^ovilt vr il> viniiiMirf. ri-tp,%kVk(y. kidi-ir* Mi tp-viil iirhn|*iilkil(> lur Ilk- imokai u1 l»' '• Cinki*

Full in.gSii yhill Li* fftiid on uiuiaeu.1 or

iJvl'i

Wffd

unar-jenunKuiu mffedoo ■<( hirnlilk% H.ll pi La»ln:( .md|)l ffiiki* fKi^lil* k> titrsiml Im Ikim p>s The
hllkl'iv’ iff a ffiv<>l iiMCami'i lUfT'livd by C< it) Ik-llil’ ■■( l*«
tkiuB C-'ir<is thslt mm bi reipunubk ler IN: (uikl-vo*
Miii'li,ml. (P) The diva" (ihi«i ftJvJ

im liimaji' hi Gl Aide in n vi4.jj( -i'-d iff
ffiTimle «•' iln- nh.j»fAivn vf lifauna nikiiAii.
r

h liiMr liv un* k«t al

sa)

liii ivirWklar lempersevM nnyp rtueemd by tbr Maklvmi* i* in-Kii«l in Ihiv n<1> vf l.aiE»>c nv cigivn

nuimtstuffc bl ui(h lempcralsr* rnudr lie cimlsirer

id^into) feniiorritjiff >. ht IaU >1set md flu-ir hhl.'i Off
115) IKIterafgO rgctittdby'lteO(«A«<ff InUrMl Lariipr

v I *n*» *|iU>^n Iftid1* u:|iiii| (XuJi'CJiiv
l

pip

h^oii,1 ihe (npihbidi'r ihetignic-s)Jh-r H.II*rf l***hii£ si*

itop ii .il ti.oun t irriLi kuiHun tr) -l«f giber i*n-n*( fft p.m«f»ffr.iliv«i. -nivlfvr by l.i«d* osier

stiiun i.ifti* b. IN v.<s" t.*i*iri u"d«* iha Aitnk

ill

a

iv K iPvlikdrd offhin the

tlsll Urdi-c

mi

iioa

igeh uldi^Hivii umI Uotoh

mi

cvl".Ai'u.

•ff|l.imii*rtiv. isiiMsirikg, kvitikoic iLum f,nf. |iukk>mC>. ol iLiI'”c*I1iiI4 n.IPkiv V-'n* Mfn-ll 'In' Ui'i i«k <»'*'(• •
oppliortiwi by the > (<<ihl*|! piivr N) ell*' I...... ..

vf mill Gkkfti*

Vl< '■ Sfi|ih*sl.ini raisl

. rksOirg nu| lUt»iliosHiiffi vf Ihr Ol>v-l<- as kkull u« hg-A thvlv .ire «lin|;ervii4 and (he

iueuriilkl)

ijipv'i in-| tlH'ftvMid
iii.fliod o iiff.krmp ibt.n iiiMKnouk '■T p1kt oil). Ih hill AiMriJikl 1-Mrv**s< ul l
(f)) The M*'i*hmS *h]2l tnnlk'iCJbe iK*i ibv ninire- a^l ilipogr uf «ieh CrMidk i> diitniillv ftirkl ,>ink>ek'i.-li)
Nruked

IS*

um

uuI*»iIl

*if rf>*'

i'aKiiJv ui

*v"|.i>nef 4L-"k'in*ns (W <*umJr

i ..I’

fl I Wtvelliiii alMlI

kci.I.ii-u" '
«h>*uiried lu hour Ueti nugitol tie 'N Uuutn or liil.-iea.Ksi

Oman Cmriis (l)k ihhviieTii ih, flomll
up> him sr itysUiui ul so i>ls*u

iKitltttil iviiTTPrutva. in'll if*.- hlcriAisri >ML hr licl'le tot snj ,M|uiRh>t)'

il.niiKd ii* eummrmc vaiOk the Ousitmi gn Mh 'fi*»l'4 Het'e. iff >4 "i* cimki the

•ll rho
(**lb ti
. )kl llv.loe.ll Pvi
Cl »HK 4Di<crsnpc' vail Iff: ikemAl id be iviiffNic*) <>hr> hit C.iAU*» lisrf Wvo
II.I.IIaAiOl h .ini Ih*- *\ *n»‘11 l.nt Ir v 1 k-oiiAvdfioiA ine *ev*if>d(-.h *r iMiKdlvi imvihe >4**(r*.p,Tnuoevi ppr

i-.nli i iek:<.

uhii

steel ur in ihrf h*d,| ,il f.l tN Oi*Ml< *n

llw ireiipl ul Ihc <nvu«

ribi Ikip'v s> ’hi* t’.;i ill I aal-"|f •*

mwI

he xiffiibirKdB.i.ikflkii (*f (hi- fniftj*. i'v ri<piM<ibilin' vf

: * ill l-y
l- irx ir.i.in L

r»ie.-P Ciiriu'i '«

et*:ipit«a Iff Wnl «Ji*< OffvJl aiid rhr Vvvkl imk 'uiig rite |».-i viffiuiii Aml-*r
l.iiMre uf in I

bhsrarinbjiiv iriMff la ihe evainc ureiffiiSncd i<>iii«|iivi and i* iigml hi

petfsnn cl) ubkiptliunt un<lif ibitfirll nflsnJinn, ile.id fiff-lilil anitbepki.l1b) IheMeithsAi if
ihikll bn .inblff 1sr «nJ vSiff iMl.'innily it*’ Uif»n Carrier a^iinn (t> .ii‘. «iiHA rillin'.. In.* is

1

huvviKftvr vaowil. rffetuk-Hy iV M,-ixl»oii'4 lulii.g ru .r-iiiply ■*» ,rt» lam

pi|ld>e as’liuii'-l

Ilf *

iksilKklluffl 4k ilh ihi' CfuuftlV IT £).lu*c lo (VI v .-L l*-.-*:|i»i Itukl! uP

SH id scrv rnpony IN fii*.*li. Tlk Mnvhais Xiij Iv Inldi' fg- i*niin fre.;lil slid ilunyk

lehlKii r4|ff>'-i(i(hi C* oi^v<lih«n by jny pikblic Aj'lmiiiy ((<l II inr Oivan tinugi ■* of ihv
iu*.iv"-d or u’hvi'ftiH, rggu

("ksl-iiV ■IMVligti'HliUjl iniik'iiia tm'iu).iiy. iiTft1i(ill|^ iff
liuj^ ha. ibe Oiffro* l.iii’iiff

ji

S..e<«*<,-v'-'ui>, -n*J

id vliieiiviiff) 11*1*. by iM v> 'fur*

Mri\h,i!i,iisr* wif r.nh mvik at iW rule und eipi'iui s* the Mireh.i-. i iHi TS. »:"|'1\*
*'fi|<< Gu*lJ» J"d hvISci ul it"* ItI'I ( -1*101) ktkrll hi jiilmljl ■mk* *v*\rkll* h.ll'l I
Ihe (xiinvu vlatl hriybi .uh) ihi>^-;t ar>,| tiff dn f*<r'yff>lkffl>.v.ul ihi utUly-l-iili, U1 -ffA Ml rlvi-l
t.Ui'f
uvs»r*I

Ueiin Cjii'iry i-tt l. ni*-**. outnvvi

rji ml-jv<r>4nehlu»* ur ilinir^r l-i y'.ivi* •« oniihy (g ibcVium (. .if *r ul the ivrl u* ill**'
.ipiftll k'l

,ia |h-Kmc w ki ihe tube urdcl.vsffs v> (hv Gujiii u>. i* llw lu*. si Ji«u;i *»

r wiiier), the truuda .KiiJ be tleenir*! lu K"v I-iti* iklivvn-d .■* lirsubiftl in this Hill
(Xes» iai<i«r >lull be i1i*ih.ii|[vJ frvm all h.ibihly in rerreel uf Uv Gia*I*. •|ul'id>"'y o'
uvihin uns yu.i
.vry. rmvili'Jiivr)-. dc!»y. Iu*a. ur ilmw/r If" i4< (nil Is’ bck'i In .m
teen delieeiad Sm *hatl rnji tv iv'i'olrr

Uves« timw spiA»l any tu**

ilidiifp or likbihiy. inkhiAfl|i id u vl'lrriyni. andseiy inner Vftpon^i (Vm’ly ur i'Khrcv'1* ai.>,np ■**■ uf u*>l«*lv

ihr Vie 4% Vf IhC (Lllff VrhyA the Ouoij* *hiffj1.l litve

*u Latrmt;s of Hatnivvoli (Ti flit Gee-iik CiffroT

"biviifjil* mili.n ihr limu *ecu lied unkii penu vlull lim- Ner .sn«*i *-v| jniiiulniiup iff

•ig the rijtn iuttaml g|VA •< u>i<1« the p<*4«d nu

n.pfkirl irlmrcidf it irnypruhiffsltklihsl GiVTlr reL-eiioil incumpl** Mk-oklh iiitr*irl><ni. (Id on.l It I stvkff (-sit

(hMlVAifitfl Vtffhik **i«hiirtv.

kvan oe laUml < or.ir ill The Uii'in l Airier
1vVi*Aic dkRydiV'g)* (Vifll •( Riff iLui|<roui when rraelieil h> ihotti

A Sdhjvii (u ffsbi>>n (ll> K'h.o lur ihc fftiij«*u ul i1m>mis.p^
Ih. (I.inntkliud «f I4sl>iti1»1 (AV

lur ihe ..fill le ini<*crl <be lunlenlt u.'sny pirtip.-ur cwniniw k' s.«y NnW .imI rd-nf oilKvi

tXlikll (. Sllll'l't lllhffll) fee lati nf iv ilirtiiye lo IN (rvudk. the \l*ivh>"i -yev* Hwi iliff value

pins '-mit 't>

(hr Sleirlmni v -n1 ii'vuv (*n|, f liiv h e

VIcivKiiiI J Ml kl 14Cli<4 tM Cl pililt i'1'ihc SlsrrlJiin
If- (t>ivo*k'r lloitri sail vii Drill ( A| fiift*‘i ■■■ {i*rwi'igift. Vkiio tuilen. <■ *ku4(i> msy he tin I nil Us..ff ikiik
nr un «hvt. »"d vilKn <ni-h r>**iil» mi ini'*ei1 in dtel Mw (Kean ('bin- *Ndl i-u b*

ki^iiii-iI ii*

sod .M'urkitvff ficiftiiian. .1 ,*4*1. Iho o.ua.1 b.ti

hklffe 'V* nn) o-*4 *-f |W*.fn is niy kntK.-’mir-lial
i-j<k*u*l dsim^l
-rtnji 1the p.m of ■*-*. oiwk!) i> esriug:* > • olnel* (he :ipy(ikalff

Ik.iu

trviisli* ionv

Pl'i'iiir ftlv-l Mil N '•*ill* lift l.*»* .s stkinay* -ft an kimai

rk*txet Mi tf** bi>"4)i Hm» b*' IsioieJ ■.* tn* |H»«4l uh*n i*i

■ikn l, ib p.iv ani oihciin vf *«n ihu i tr.ioo^v* (•■■ il.i- l«uft- uf iffii Hi' I uf I sillily. «*y nikUiiik iikilK .isii-siy

Iriijje ftdhff niidiee (II flu

,4*l*s|v **l rhi (i**-k|.. snd rgi l's:fn'j. V,’[|*-| (tiuan iff JnUmL ihalt hr 11*flll4*'(ffft Ibr uliy tun iff

lfffvdiskii|."y SbiIqii dvkb *w.»i^i *K|iJ ngl II , r-i—J'-** S d* SJ.HSk 4lt| liukli U.iurkl oifi-MIl fvriiidk*.

nujiiuidi nUiwililg pc’ tuilny* nr uri.l in lire jpfiliisl-'« in hut «•( lor 1’ifsi llialei wliiihuM
rvappKutilc 'vj= m«"i
ff*kviiJ'"S t-.S. JMK) pi/ pa*bsg< tv uu-ViiiTuri Tn-i^PI nnil. rinfu

-H-<J i.iifi l.'laiul Cariiir

>L ':iyg i.ilind vhilc Uk tiift.’Oure Rk( IR ll<lL'1uC-

Aff) llirni llff Isail/lkiv dk'N;'l (1* rnr£ Ilk.*Jt lAkluC.AlJ
dlftll nf kN (bpalv uhiP l-V

I. .*. iff slsnl.i^V* c,'*k.lir.| bviA Jr a), ffluald Off maJu h^kinit II* isniii hai'in

dkffl hiuv. *a«Ca «liak. p«4*rn|[ia

... I S|>M|-. lll.JI l'i

Ih-a-.l l/./M iK 1*01* oheri IN GsXSiftS'llletl rl the Oil l*v>nir*il al IN |*»l Ol "U*!"k£ in rhu (iin utauk il«*v ii-n
isri-*/i*j| ,n nii piui si JiiJw^e.i-r iJSKk.'ivi'>")| *n)'(T e»ie«air« iub*e«KHt reiimSof umhiyv b> **« iv
• ii Aills't i III ksi* s« I'BA'i.i'iil

h*rhe e*le*n Piftiimp- A* Its S|n4iusbift Hpyiie Itvl
il't/ir ilxniu

oi:!i iin-iyI

lu lu** ,« tiamibe tuiMti iLk-'rbi 11k hsNli»i 'ler.tyr ur effrwtc vf tl< f‘ou>l< by

t ii i*. * vifA-uiUk.nt.-r roihe 1‘iirm ts nhu-h «ivtk Mrbciffu/aoer Odull Curve been l.tble lo the Mcrehnn
A'a'ie

shrill an,1 vrp-ir '.ris'i'i’rkffi “h.* Ihe hl(ith>n> m<oin'ii ul null IuShU'-i;. nvrsyv iff i/riueu.

or Miy mliei i'uiL.\*liio-<gkii'ft. nr stiiffi-d in ;i *iffruin*r oiwn-i'i*

nr.iuai I'l'GikC* hik'iui limn ihi* aip\4ipl 4u» tvim lUvlr

4i7*ip PHBl yral.lllullhrCkUivIlftinll-oftirity IM i iR-cs.lUy I-Siliikk]<l" (b.«h "u;, at Olk ln Cl'Oti * IK,< mrs

ip

«r 'reiiVn. lu ssiti i.imafr ti«ib*ni kl'Lt *skr,r.yk >)*■■' -Iff be eii"i>ite' id a ih vi.tiom, (1)1 Is ‘c’iati

ul Giftislvoiii m eikiUinirvaiaj i.irrioJ

oa Jivk.

[),(*■ j) Ihu Cl*uirt fjitiir JC.I lAMlid ofk II* la* ft Pi I V» tki‘-l vi C.oJ-iy p.-ii **(.'3 1-in;1*
it-IUirid.

■IsiA WirlkSHl IhrllKY niTi*e til MyrctllM kMl Wthidll l.ibiliTl hi III* t.'n'JA Can ur (dr
■elk/Li'l

ih* *'ii,ij Ii* honing bn: niff laitligr (I ) ll'sii iu(pciff in Ini* i< iLuiu)ii *sd*bd Jnnr^

i^kv,

iJavtil dull hr devilvil >• (m'voed mule' d.-il (iff sL imi.4uv« uhlildiAi iiviiv<.il avia.ijjr Jfl I-lidUi

>• ri-ipuniibtivthkirn C
r..*,nr iL-o-tve im *Ktn v.i*snip ill It i II it i<«(/sMi*iik>l l>y<he MsKlkinr il
iftiyVnabiC'li'. vjbllftl tilth* p rivkimotot Ihjl (Ii!;
(■: l-A i>1 in iLjiU
l*n|,
ol iaiihls*rnM H-ilh IK Giaa.1’. <11* Il •*

im'.i.i

rkfltl

nkf jftsilitilr toben i'v V(mi'1 » fuuJ» tu lihnl' •:»

If till: llUXit

’tig liumpoA. ille Ihrffi I'jiiht *M bv rffiiliiJ iu It*vs *11' h (.u«mJ*

rvndufttl Iiwksivliua, lArvon u*vrkj*rd. dnkllirvrd. dr vlhbivr-d lv<(*iad uf.'l 1h« Osi'l* (.sr|i*-|k OiMtllikK

,',-C'Uiye *1 ilsliily' klisll

W-<tl. lr«.*hi:rr ,l

m

tjllP inni) u> i1i*ru«tvl 4>f b> I'tg Mglgsiiftl ulioiTtipjn llv Ukuin t,iii-i* * iikHkMi s«-l .‘1igi
■lull likiAi sffsV
Iipi*l't*n’i1 iviiifffffi^iiiun tuff a nt 4>1*4 iirffiiipol b’ rlffDivm C«n«it

iftillicul iTiilffi'y-'ig viHh 5v1iwl<l AS, (IV) vr(Oabu*d. ur IM Good*nrs liiur*! luK iumioiumI iff |nuliib>-ivl b)

lAui.‘t.irrior beheld hsblv <n rt-ff**M uf «lih aiI'ua>. ihg fA'ssii C sntir *liall by rolnlsi Is (hg fill bunel; I ur ail
■Ic^c. .rjAii. sii.1 <nii»snin(*<iV«a,nAl .p ihiittill urisnlui;.

nlni ivnen.-y vibii il

unikeiirivl. if ini), iu i-uiium.n IK pln.r irt iu? -.nri. ffli Gu-oK-n-ei,'

iU Ollu ul t'l»|jn mid Tlmi’ far (sill

■4,*.iinii'iu*4ii ix.‘4>rffRk%n.*iii'ieil ini-j<ini-.1vn «n*h hk*Cpju.1*by ■"* nppdHsei*- iiiwrvi

Willi siin.il l n-ftipS snj ssilft siliuA, vr ftlrlsl' IcNhiS((h-ffrfivnk khill nut bs iui.»nlrr<i)v dfiutno hlWdthe

•> I hivikvmffbiM.il <.M IPkUlsr silh»»IM vf LmsPhH mu'l fu c I'unsu-furl Tr-ik»|fffftilidn ollhetjouik Ihe
be idpvstK (iff luta of ur lUmays Id 4he (*udd> viiuKil hefi'iT Kff*l"--s ur J dtff
lAl'S.t (, t-tflf kSutl

in

cauinerton with

iDklflK GsiMk II* offn'ie W .ppailorv htr siffy rismiffk luff

il'i AiC’.a.ni C.'i'iiff i ikfffiuA .md vntK<;l Mils a lu Miiihftnl oniphrr »Ai|i is ihip* Afay tr 'uliffi'hiedliff
v V«**d iviSkd m Ihi* Hilt aflA*hny. n-hklhir ea mjI Ihs vb*»l'iis kk>r i* vonedm viK'ismt by 0\m A C HIllll
.i/u*u* vi ih|k"ii «ri inMii ud iu drill c ur iA|un, bi(iire «r nfit <ti« Vgtnl iun*id by It •* ItUl ult l^A'r.f

ul' I JI.'J. w, ui Oi'isiu Car-or'i 'jjimvi,

uilu-i cfo'iei IgftffiJ fffi the (<oAl4 knit ill ill) l-'ici. rimixpei au<l igi\« *i|ii*n:ktl S) il<v <

Hif Orvoptmiov '•|“-1 K" l« listen r.ir

U, ilHnycrgui (j»a*li. t viiifaV»n*1> I A) The Lhrsa turner iiiklirtjkri 1» 4«<y (iot*,* m

....

40 Tlig I'll Aiiai til (I ft, > fti I. I .IRiSIff

it'C (kkicemk pmpcity and Klthc IlMrnMVatic cunlruU eeae<ly

fiiigiil ’lig ,V||1 1-1 iI.mIiu yr *V khoff 4j *iffhp*ftC(< k'lil VlHsr iu>*)-<tftsiis4 |ti*lrgaiKii| 1 «de li-sl lt’0* V' («*■

IN' t i'iift'1 »mi*.I -ft Ih-* Oil- V* I.*: •*. k* it luoMv Ihg lilftftti » ili'lslud iff i» .-l(i->> lu ilsuuitlis

Gsod*

iboiluryv iff pkiei- Ilf diSiXory toetv riikylil anil :«dl villi! vhiryi'ft ftl-iil'. Im l-e mlVi

ii in ii f*f(iygOtii1 oonr>ni«r Im(Vc<1 by iff VP OCtlhlf uf tlx Werrlum. n ivihc obhyAMan ufllK hlerehm *u *1

(.arriei ilueftiko £iiiri.«r*riici4nsiiilow»c* u< lbpi«(r,inLilK'r,'CTii>'ffu iu*'(k rhr ti>»as"iiiff

tf.gl ih*\*iii'l-iiift is»ft.i«ilk.|lin«i.iri)if*4* itud'Pp' I*. Guu.li -1 oNil*1 m i»juh, »udA<«iii-lnuiii*tgii’r

iiumfii 'if

m f.rl-hRii in lath mlfcsir hn> u«M. kkH'-is ilinikW i1.vtlin(i

lAikj bvK\iii Ilk 0.vv> Cniinr a"J ihg Mviviuoi, 421 ki.-h v>i\^i

i* k\i'iiaiik* lull Iaui a»vvJ (u ui

iifki iViAuf? iv d< Ciwdft aiiimi^ wi bfi* rewilhnf Ifum rhe tUnhiiii» frOure

VI Ih!

uj

derl.iiaaoi. 7be Ueejn Ciricr klislt W (tai'lul i-i ill uci^hi aol ithn ihi {oilne hiieiiihliT. -

Ii- i.ur> soy k\o .*i

h^maI

Tig * vft11( -Aril Im»c ’ibr'iy . OOCf oiih i« wi

■* iHi*i(i|:l Ik-vcki lih' in ;»v:vn)

Ktether (he fm^h* Iff >ii»ivl er mr.ivniii-.* iu I'v piviffiii

IV.4 tkhlnUke hr uiM) 't<e (ms.1- tit

*
Ihe Ufiuji Careet

■"ipftKlO Ui A, W'fftJI lthijiiiii'Aii. by ihe Vlio;I and or any vltNi mr>fl’kerirkn>p*.Tl b> |S"-L osier, ui tit and by

fuel eu vie. i'(. CAilurlc cr di^ni'Mik any
ys 111 It;*pr yn.l* *>-11 K'lttiV *a««
l|h
|IV-iki |iiupmd!» Wif-lilk- klinck suj Ii*«.’fih»d4 IS1JU kill

I'ffUffl In '4«

410 r-i.:i Arvy-ht (ik uii'pmi iifiWArrpu iv pIa« iff delivery vhril >v lioiljl'a'inl s4 i>iWffplek*l) IHm

(ijinuek.

^sn sicrviwdjj
svcrviwdjj dil-pr-wt
dil-frk't- lu iikimSaiii
nkimSaiii Ihe
ihr ipi'i-.
»pvi*i1 KilJ iff ti-niiii*er -r> an
beiiffe m 4i (tie Ibefinma; trfjlie trjiifK*n
fflliui'i'l fr.iir. IIcHffirlGkMdr Uw bein («Uii1 tnie :■ iyfi:ptv.iMd uuntairar ui dv Oicm u> ImI.imJ l Jrrrvr.

soy o<Ji(. ndiu 10 rm.1 lulling m aay put ur pinit vhftOhfi kln-hih'd O' n<-l It!
Ihv tiwikU git IhOSII Silli either Lfffvie «* %fit fitnveihuf

|>l*i(.lla» liijiiitiii-il nsl in-1-rti.ricO ibiinsy'et,.ah kibhil-sul

Ihucivieei

U tny ie.l iff'dir iioifsiiiur oGaoUu by aj-lumi ur ikhor a«l1vs»ite« A-r
inter ihull ruff hr LiMr f«* uily fewliiiig |i»k

‘ <17

S;rLi*fin .iitur’k benrlil. IaidI eriPij ,nluiliiftiu.ff>Jii nv <K«an C'srriii. hi f<! ssltnl sft1w«e pru'-'iikn’. due* iu
u.hS
Ml pih ink it. sup Un.Vr ai ii

u

iybl. lyimMA! J.ot iff r«Sui til Ihu t nr *

iipffW ihui nf i!4 ciiiAoKt. Ihe 0-

ip'. |ffim, v> gditr »Vth.i|:|hMahi«<Jl*r Vi iiulur ivnrsuiu prowdivl llb<1 Ills ik'*i;n i;inur dsll

eoi t ir i:v< ftidcn j'k!

imik.ip! aneruspi.v r-inis-ii-

ihjl! he Ikonr hj ihc Moihii*

IHVlil

• ■ i f»«t olulkOftVl'l . taiwhjr or no< «iih ruc it ihc <brcct. a-iecniviiL dr cu-auiruiy rows <(f) The Vyt<ci
vwili \iie hhvriy lo tall intl’er tiny ot gr-y yvei i-r uhee m or mi Ul >l>e 0ffK<* e<> vyniicd sr ruilapvtrj' ruuV.

im

liiffi (itrftkv n| rnrnfr-vt-Idliuiii.i ot*rinti-iirtni

tv |iiN« Sir a.v( hiu.'xl l.r pay U' lire (kewi Ciiner (I) i;if MiMv of ltii||hr Klkcen ihr

knu from laleni ikl.Mv. (uiiUla>n. «

ium^Ic

i“<|V<;o iff the Merchant i^ffri ihrfvnisirtn

aMl ihui ninth VoijUl hawKintlm- hail'lie ivueil iii’l'1* bni-fly-ira p!a<<Z>(A(ffn«ei vxium

eeni.

ibr O.eon C imm abtsluir Cnrrelrurt. be wminf ai «

ii,<frrlalHainJCIi«rriiiol l.At fil'IUkt Cu) Iff ijUilijlnl ull Ihc hJ..i> nf no |-«|1 K'llljl - iff <1'i t
McaI-jU, oh ■ Jiarl Ik iVMnol l-i Imr pur.llllvixl Ii. Ihe U.ffSA k illKI L*K JvOII A y
WCIil.l. -Ihvki.vtii viljir ji rurrmhi'l hy him al rht Iilllff |.|' |iVl*J|S of IVlVuh I* lh.‘(*.lilll H
(Ml tl« tX'lUrn Ciiiiir f>« Pk pu'S'-'si uj»» siuoiiiif itu ii.cxii yvi(inu:.ii< nuy at sue '‘"o

If.)
n,i T*i
i<ir dfe>n «'*■!

av vjiiiNg *ik bit nuft^->iiv. i*irv bulreuiffiJi'gMJkJ•SUnonirii'1-sr'k hul-ix>nlr4*v*ij d'ull hue **Vbench* v' sU
a Kill m' I.ciIiai! Iw( llis iKhkfil uf Ihe (Ji emt'nimv
>1 »Mih |»iAi«un4 »«*« uiprviily fur Ilk-

h. (Ituiite (v Tfjnipvill (Al Thr tlvskb

■nulls -.irri, -ji •• ffiK‘vl m Ibi

iMv ihs GhipIi uill tffk'-m: ikliffioiMiil. ■ livsji-.l i-i mr'tiii'o, Itff O' ran t—ii i ki (vi-.lkvo i
hM. Jliaiiikffk if irbiiffi-i ilii.vogf oil (ix-vli

itiAlante r indhi.nsfVLi uiuiM*u.ii4ic<moui ikimlptlie Meshsrt.
Iniaml (,srii<r thall hs'c Ihc Sty-lii lunm n iliC
*
iiFl‘u*ii\1 thifc&i'm
al vkth iniwa-M firee a* the: (Aim sr Ini (M>11 jirav mjy dtrvn *isv«»i.in «m| »ii [ip

nMy« IP
m Ihc
IK <i>meAi<
<i>m<Ai< uf
iff ih<
m< ci'-oiiiiei
sny kn» u| or dsnUyc

luhlc

h- -...lO.-.ffia.' ,111 ini Iiiiiff Ihi ffhiir l» |Wll I-I I Mi IlSiftl'Miy. ikcsyi iff ClrliCI ol Hie Ci.ooll ll’il All) iil-l ill
Vilki'iiinvus ia« Ao-iiaI*1 ffiiitb ' lit.** SntM-oiii.ris,ulOiiaoCimvr.<«v*rl
Bnt ul i!>i-«lor soy vu*ul
np,VA|ffiklv rlu' imfvffei «'t ufloigff»V '>>'|giM

lit) IV rhr

fri<ivn> Oklll lx

loll. iACl >hr
rnvrmc nf iherbvan * «;fivr * ufali^iinoi uiUki chi> Uill ul Iffdii

irliiJaaiiNl. hoimL tiiiiiljkd. oivSiUikd ■« any cShry

»ve .in C's/ngi

HinVrii a*

port

nvntrjry. in uffihry. hi IN. Oivsn Cauff 4iguu< ihv

1.1. iS|>teial Ca/rlvRt »f <rvin»|nir)

kiy lioiiliy

U.iUenj (A> the lA'C^i ( airier itoU Wvt«lieu ci tin' tjuu-U. viL.ih ituil Hkvcve iliiivvry
(ilk'llldlll* I'l'ffllCffd lir.yl.1, dMuu(*. llcfflo^C. (ill* WlMUVS. Ov>'IIKK «m! »i»r O'Nv
«n.mii.*v letff. uni -xflKr lev* (><■ imviVi-iiii^ Ihr remit i hiupint'le
fhs Wn,1uiM iiinVi Ihll f}>:

fir,

J. i,SiiUt’Ai»lr«iili*t' l.*i-ih|iil-ir)i and luunkniiler ■■?Sutkoiuraiiirii lA) Ihe Ui'iunf nniiff4l|ill4v<*«Mlp.l

ii<k!k’*s»-v" l>?

ft Jl ui oi>v<<y uf the Utvnai iflitf

umlv»inniirol i|icAfe>vS.M.

tk-Mn f ariirr dull

Ihll ef l.cillitlg fttwlf Iffffistr *u l||ff|l or i1r,*nr IheilkVsil
.il .■•■( ii.ifgi.gy idunhiki. nrnaiffim fiom. ui lnt.-iainvi u| tuMitv suui.hi/aI l-y itw arpInAlffe !*»*».

i. i-i A>ol«ri-*

ir; al ‘Ky l»nti*. v*trt lh-si|rh hefioo li\udips et> or akin tuH+nriii' iwr-ii.hv V\n.-I.

ill l*U) Si ill uiac-llluo Ilkl Mll'JIVl tv 1*4 I It**,

||ll* \lc*1 K.1HI gjlcf Afiu.1 Iv

i^a in *1

lye shj liffvi uf or ilxenpe lu >hr kji>"lv i

II. O'CrrC The Uce*n t anicr thtll ntt, be to

In-Ill kh. Mrtihiill, (Tl| If ihe (woharv Iirvtjnnv'l iffrncy 1

■keiTffil ki be hiJ anil roniptri*

ik4 M*.it;iiT>in|<"a ru it* Iso ul oi£h (ihinls)
*. (UaltsiUn h< l.iiliitil) Sliivltt) Viihuiy

tlvVUfirrflrt* IrUCitf rtstc prior lit lluff ii nhnh ihe OSi\l'»re rcviiitil !"i I'rOreiaCn

liiumr lit aminiTo ilrr and tile vinfi jm.1 tffi iA.iuitd, llio (Xui t’aciii .sill W crsul.il !«• m

cMiiini-r ii ilrhrcriol (liil iliMifiri py ihe (leean •< tnlan:l CuiKr “'I'h cvei*

imIki

Iff
WbieqiKd rnmtr n>iiv>i‘Jivi4nd>ffB IW nUkuiCC ty«h*<Ke«i Cartier ufitLI ul IJibny. twttpl.
t\

f.< hssc-iAf SAi) van liyc ■ II inimUiftf kithIhl* liffiSK uf Itffi Pitt “f l I'llrf. on-|uikn( Ailii'lg It ItilhiiclcAl
ftllfll Iff I rsjirrl.l'ls
i-f iSe Mmchnn!'* hrukbofaiiy ul ihoc leaiiarilist, ihe Xliivhsnl and ikk itw Q\«jii Cu

ip lUijliM*
ykiiy gi
d (nr
the ifjEifOMi
lijcifvni iHiillilyl
mirriiiyl or
hi mimi
in rhi> (till nl l.adiny. k

l'i- pniviii.vi ill lh-« (t.M I'I C.ltlir£
tn ill

W.U J|S^ ntchin line hVp'i HiM«ry of «he Oi mji Csmtft im vr. «i Ui hr A l>t ajhf tivh ami
h1«<\hiu, ami neillwr LV Oi'cm Ccrrief rvl il> Vi ttvl ifwll N luKitK-d L> tt. UK -tfird Of (ffri*»«|

eliionp ami kuNny ufilff- s.ffWmcn s>< vj fg an.I (ffnpiff. jpJ|t|ilui Ihe viMmitteri and LtfU iiaflciiU a>c ir.a*l*le

Wen soniffeii
nufliil cy
(iy uIW
If ««f tiff (Kffin (^nicr, jo| Ilir i»«l.tinil
oner chill l-r
k lUeukvl
i(eei1k>l i->
1*r haw
ha w tuen

,t. |t.yo Mill .lurtiilirivon) Whanevi* the Curn^f vf (rnrot* hj hvt Ait iv)* a fHiSAl iff ihr Lniint Sriieo'ff
l.»t»

i>C' roiias^hrr TrsA <)MUiCiuA. tf«n»OlipA1i*l Ol'effkw iff *<»*-r* vVo.iryu

it) (Veil i*i,imr y iVHlian fff gn«li*ty nr vxniife n} rhi- Umli. Ckff.in ten-it nt»i- fm iff ••“«.- N
L-ii.iK.-Miffvivinipii'rat»*y •» hr in ri.te aiK'1.1.1 11 mi .uts ul rhafoouli i
1lll-<i'»*lk n'.llliall

Yhv

fuiioJi'l ui ihi* fliil i'I (Al-Ayl pitvrii
K'S- ICKlSA -hill li-ue |f g4 i<|kiVii«
;p>.,iV.oaif lln- linvi a him ihr (i.Hnl4 Uc in Ih. vvffoly of i*w Oiff'-i'iCauim irtil j ny mJkr “Jiit i«rri>r jmI «'

A.iii ji.' .N-e*ii k |h|v r.m'ftil |4 hi K (i'»*Tm»1 by Vndbt S»l*e

ItsrmAhd hMherr oitoiJcJ /vrCol tlirehni^v it |VJii uNrliieiy at the Ovuiu LV'ii'r* it

ri'<fff<niil'iiiiy im ihe a»viifKy i*f»he acojrvo.-n of

In: 'tib-..i*

I*| 111i.| H4i. i.|ioi*|,\| I|i,%nns*1n ’t. S> C*(>G!iA~). chi- Iviilii nf

Jt any»

Ii Sn(ffj.vnem auJ tluellKitl ifltol oiailiuc nii'liln’' U«wj| if tiirm hy tnr masrof li tnri'v!. t

iVIldliiiffiiff luCipiljf* tdl fhg MiJilLirM c'n ijnci(l1 iCvrl ihv' lliiu-J ys >it ili< vuriiv ii.l the ijiiiiiiuiai >nd(he

ij»',.m aaii tAisibliurriarvani iheOvvan t'ami* avitju*

Ii ni'hloy.

iijiiauasl hy rhrOi-euiit amei.

faEswIvt PiAVl'l si Or pivti of d»ktJr^evs (Sate uf iff! I'try. ir ifihryK nissn«il. oiiy,

So (VllSMISIt iff llffUl'. vf
•Urni)!i' o' ptit^trly. tg'tfftl liy <hr CH'rtn C*n*r'»luiSuffor iv ill iiwdtKi uhile in Iih.-1

I. (CIju>v I'aramoupiJ ( VI lii«)l«r tr ibivliirr i'f L*Jiirr' eifficukhr'iape efbiMjr by «ah!r. ifuv Uni Of Lading

iivjiaI u

C^triu tlkil irulVv Whig llff iiyhs»Vvlaiivi;i'. «kU». iff ik|ie<o»riffitrvm tff.fi Cut

vlkiJ hiigi a yiff.tiiiii-r yi the mni' ul reig<|'l hr l*<
10. (Uvr gf Cgfftslnv'] U h<n thr Cmtjc ary nal all iiuly yuv

ikiiivuadl lur Kmii|hm lirlri^V si pmidv 4 T* 'Icikp V" RlMUl’ Iff »!«* <• »vff«lt iraliffS^I v»> Ihl«ul l^lir's

iii'l, <lw Ociun <iu

Carrie* nuyvndor »nr tiun m«a.KN wM«ju*t»r Jncburye Ihe Gi*>J> w *•» Mil

Ihe Ucaii Cjriki %iua osi Iki rotpuiliHe for the gfivuvcy »f as) thtli

(Uihi’lffor.

\tmurflii* Miki<l<f

(A) WlmhiT •n'liitili 1vA*t(Lr:i4

lit<ny''.Ihiul nilitvk' vOny 'hefimnk whi-lly or ptilly by Ihr named or v? •'!»•« V'oud, er»'l

■s at Ctirn'ifJiH by lAc MvkK><s.

•Vmi l* lA.ldA-t iN- v«%l MiTMlun Ihc five ul lint P»tl «rl l4a]i«A a'«l an) »h‘|>, tnll. li^ttii.

U«V {“"v1 iffbnyulhw

(hi» Rill vf lAiliof, EMieivnm^ i>WifiCJi'i«i<s niuiity fUily.

<iic»ii« if O'jin^HiiLliy surer, laitj it ao. “heltvcr i» i*h

r ni.aut.il taniiHHl thii it tK^CiliUJ iff uliulc or in plxt Iiff Ih-il tvlhrl-

uf t>» M^rhui!. imlwtr ikt

.mi mii-jinrf*(in\luiJii>a .in uptr»kip evi<tiv*ir> tVr rj«k.f>l^(crni.tnil<T.

( si

Muka, nsmlvri.

yvihcuaiii fiuaubvl ky h<i<* Sie tmrcti. »ci IIM Mmtur.i vhiili wilaniiiry the l>i«» Outer jgjuiit an Iiul
dvivt<r. tVitifci. liab'ilily, yxnhlt'it
fip.t
*» ntutlmf, Ihrm iruo.-ur*<>- of any A> iiiftvi iff

^ifluCJ v* fjntiifieil 1'V

<»vkL..any cu’tnr.iurinffeeflionlliUhf ei»th*iyin>M**’hMiiU»ii|(.Ai'*l ihgie.!:t«j*(irig.h.i>' ipd/do

dc'a’rpMul, i|-aaffeiiy,v|uality, ^iu^e. wri|ihL, muaiic. mhiir. kimV vahie, di^l 4iiy uihtr paniiuLu»i>f If* GniJt,

rrlCi cure ami i« n»t botuhl Ihnthy.

vf ihn Kill uf Luilim (V) Xiik>Ivm riffon Ue uij*i JckiTibeJ wi klic Cite iff'hit flit* iff l-iili4j and, ff Ibe
iv fiatiol urn

p*y Kii.iiepiivii. 10 v-iiioij/H iirkvuite, either tn MtrcJjrd iu <«r>:i*.«■[>v*di'*l tliiftiiige »i

If, ((»■'■£snit f'liniordlnu)

Hil<u1«>nifv>Ualvffhi»lh(<Mynelusl earnyr ►iltVHbos ilivtiiiun.

IhsOiaill I'SfHsT plw» mil! 10 lINXf l.kUtvl
|l>> I'l.i-u.-l'.in IrjiikfxfUlani* lOrtiU cai'kJge of the f.bOili umlr ihu IMI uf l.fh"| «'ihw llun c«iiKik%1
v (1.) 'Men haul* include* ihe «liii>,*n.

:«

iff n rk* i4»>< **

ussy utlhe iy*rcvj.
hun/i fe«w W IheVwwf* Arn*jf (befc.uilHtf’ftrif 'lit loW* ebl: he laivhil it
U*ea iifiriicr
Caiiiert <i|iida. vad me Oteoit Cniin'i raxporviibilii]

nmlilulodoA i»ai fliN i>r I Alin; In be k'»*nnii\l. nH nd’ pt I**m

II the dehi il tnhx ul the Go.sit i>«v p**bl-1lik' k ii miit i-vrt-4ft|ft ffH.ii ilixtituil vain*

Avirrth;'.u4< be ilet'Aikil in be h*; lAffbrftkl vkhic. mv I (In-1Oei.in Cam* >« -.Mi'-h). it sne. *1tl
diclkHil iRlcr

Apt

icm'ipI

(u*>

m

Ufti*liahl ,,m; i> "B <"li\'r l,'.p*,1ft <*e (liTli-l tarm-i *1*h liS-< (he Wnfdl ,jl IK prrn.cnvic iid (he Pp|>h*al-le

rqU 'ff( .ip.bk 1|» p*y :|oy »r|nlp^Txi*rrir»

luruun idlin' Ifsciiv >Mlv< HAsho-l'iik I'b

entiff

Cut'bA Ri<ilwirh<ani|ing; SwJUA I

I.I lliuuon .imi II* U?rn< tH

hi laic

wl

iifMnl by ur

■ ir, (l.l*r Ai ...mil and Pladti) tv.ih rgyvtt k*. (lie (<a*ffs«|s «"J etrrivjgc vr livt- mii«»k «r»t pi-.ni*

r-*k< tA

i.tii in

.xtakJ xv-iu 'lie <S

Xlboe ft* iiffgo lutbeeA (ihAuJ imus uiptihh-i 1
l?Jl
behalf of llw Mefkfffr*. j| |4 eX-xekklk j^iio) i-io <lie
Hill ul I .Him-

VI h»tr* ui ir*rr*|n>t dwai in rlif t**e ul

IVPls.s-.'r* Iff *n

thi* If1:11*1 lil

nil ihv bin i/I *ll*ll dull

iLmurye 4lisll Ire t*iiii-*k\< pro

tr uirruju Vuii yvnl* nilwrcnr in er oiioCrc iv the \is>rk**y <•( to/njyv ul *ui h Gntob. >hnn Ik Kern be the

diiIsfid td'kie tut biu-* iiwiriiliy pnivonli'd nr «• PuiihriVy 4i<d*i(T

■tt f.ff rkHpisrpiiis vf iTh ftfr'.iriior1 of il-e i-tr.-iiimiur l..ih.|.'*

AlffAhia |*f the |Un%4|)C<

ff.vi- ilgkl. ti.ios-r.T |F*|I i- (hr*)i*MA IhRSI >4 its i aMhsri/eiJ rrrJrr any spnlusble I.i"*. rahisvr reuMl.'Uiin' hi

kiYwr dirnaipg b) ]urd* ■•■iiu.ent ill rr inaoMd lu uh,Ii tan.cyr *)*i!* be burps by the Mfiktutn. .uni ■■■ s.- ei>^t

A> Uv

.viiff ise uieh Kirftlhry *,..v:i^e er ciii./fr emlti ■>■ vo» rr*pvirvt’hiy. the (kpia (aiiief *li*tl oply be hativ

tt%\(la KacfHvaA tsrriar ilb.lt lisle >h< fci-ntfJ i-f itw pruiiuun* ufiJie appiidittv veruon ut ihr ll.i^bi- An.«T

il. LdiBi-ril A*«ntr; Neu duiun Clawu) IA• liowr*.

i-ryc dull ■*. n.v.*Ti\l, 'biicilsMl ,

(Vhtml-ng 1‘ b KXjSA. n*/ni'Man.lin” Sei'rsn I.'OJIcJ ihertvl)vp(l Ihu term* u( Cm IlilJ ut l.vilin;

iu piHT s> 'hr OtsV-1 IvrrifX Opii.si :.r>] misilifty >u (he Y(*LAiP<a*>p lli.it'* lv*4 J.ld .

p.i.ir* vi ru>4ii' n uk.rr ullKi-ft.*c PiV-'kabrc. inch n.*|WA.'"l.b ’''*11 hr tft.Vi*uM |a) if b> rvuj (a »r

(?, (Vpluublr (JvSffllj The Ui'cn.1 (<ii« *lu(1 Itut la* lit hlr (u hiiy fxiyrc f.s any iiAft uf vr ibnik^i- u is bk

p»oviilAl fsi by Ukwo Rulei. K4diJi>i^ Hi 'hr lw m>ii amyei ut I'v

isdi i uiiftyc nf (.lull hr It »*J. ilale0.1 IV Mr)' '*'* <(A'nL llti’f
l ....l*. Slllil Mil lift! \u*41 Hk1 1l*l like llllfldklil'
tli* t "Hiiyr V Gw-Uby Ps*l. ilMixl •< fvKi|-*l>. Whl
h* i o', b* ■»,' M*-it*iiisual Cunii'iihk«i X«r*e

vsihiifi, dwiiAiemt, *u*k4 uf hii, vuriun Ivnltcnn. is »ti) vshgr viCiiahte fvisli. m-.lia.hrij jisoli l.peiuj

k|i)ii*-itk*1 hk I'Ve (Kean t Jilin

lurtikvihir *«!o* only fur lire *1 (return, ignV** tire live rftihvu

dern’ Mtlieisrt lu iu’ v 11k e*>, piakil unP ibs'.us vl i.xcfiw/.h. ,uv) my uiliage arid i;i,j'm-

(•a )-■ .■*i.ri.kft stf.h hiAi'.io). iiersyf oa tAfj.kg|e

;« 'Mr

If utft'lt IkjniSin^ vuraje ot eatioijr swinrroJ ui ur belnven

il b* aii.b-k ihv LinviralkAk'(* the Unifieitiuo wfCs'ikhi Kuli-i Kifninjn* InlernMiurajlCairiapi- hy

* -. "j Kii ” mas. : 2 (i*i*iVr. (t.'t, n* aAi*ni*-J by As* Hikin' PlU'UftOt killjd

Sl |.'C44lUi. Mi)) |kt JfisO

I, vMg'niuoi (d- I4 it .* eu.rblc*lir*1 bi ihe hrsiihiffi ilui sir lalin .1 t-rrirr ii ri»|«nk«ili4( tur Iimi ot or Aiflir^e
:« ,rf . * lUHUv-.tion v-'li

m

lv'4 ul tiff Guvilr.sr kClphxkble Ifl NiJiiiIlNI.IPiiIII! fsfi'VU-'J Airlift ) !.\l

r.ftii--i|l|i'ftl.iP|' *lu>.1^1'ftff

Jut* rsff hiikiilktv 'flu ilie GhvI’ <4iH arrive ti 'Ih' |*>l vl Jt*%Iv..it*- vr -,th.eu uf
ihe ".'u..<* C
l |KHO*.|k... I allft U* .
,nr* |lv|ii\kU| Mr."Kt V *11*4. -I'hi Ihe Dil'k" t-inifi lLl| I
W
ihsul is iml.iesl lust vl uinM^uthff i’ i.Hlk.O IMu(lp*l ,I|1 IV

(1) (I |A,r H » U* IfflliMf -I

l*Uil.-e.K.ft'. l-.Hi.ru-UI.**’, Ih| sv'grma .cJ.inl.pj r.iial .laiovinr* Iff* 'N ■•*( ui Mix lt*ll ut l.ii^Au H
v|.nm.a*relinPie.sPilOK Ikuivi air^r• K*fx>"*it*.|iiv lit itrliuftl**h.il *ii s.1

iu- -hu |fttr|t

SI

ijuftis „i..*h .ri ■),(
-.s!uip.i-pi a* >hr Oivn-ft bnrrioi li-u.iuil-"r for Hit (x.iive
I
ail.*, jc, rx-iu-iklKirked xllli |P( tf<sijiH1 At uifihtVp<n|j l*< lK <HX*1k I tin gnCSkor
mi

ib Mill miff IX uf

kIwIhkvci

,ni* Ar'itlr INIA(':) In fflld due

ikrlSe s« thr Voirl’|]i< Oi'rsP Ta'iii:r.'7"*(,'*('t*”

fcivii I'wla-iiJi.-i shy iffviieiift, <e Im iriftlne.i gff n iiLet) iu ■ rnJfr

j.i*

ii

man* oh/ uiivifr, mipiislieibrr.

. •'»•. f-il. »i affr-MU ilie is>*ir a iff rj*c Dertm C Kngr in |hg Xlnifi)** ’■< 4V"*o'n.kc ■■ xi-uhsa-r the trpinpiKt oi iu
I'lK iff 1i> Oi luer IV- Gikhlk kl' I ft; i>I.ki pI Jil'ixi) b) >hu i>m1< ..ml hi
•!'•*' .t'ffs kill fnxvll M la* |Mlt *.rjm(',|f
<ili(iAiiff r-.L/'.liii ll/ M'S lli'iu]4il'sr-'i*r. llw Ui kiinl'krr*ir<. I at any Im* ahiP b* sPl-lUiHli vh|vti'«
i'-a;p>-km1

value ef IN Ctiwil* line belli *li*."ui! lit

v (ftieiu^r cu.vi'ili-j Miblh* r»*‘ ’’mki be 4.-ii.m«i b» thr

iff vlh*i«’*x d»invie vf lU'GvoJvvt*h »:■) si dx 0*e:m C.i>.«ei .'ar> d>v"i k.|*ix)Me :rl the

•*a j«| **|x;n>v ->''<l’i’ l-1*:*lisnl ji>vn (?> Pitiffr Ihv G-pa.1i ns MolrJ (" !)■< Ve*a<<. a, rli.gTs, ua v*Kr n^j"*

'bi'CklMdv

III Ihe Vleill-.iri «hni: ’* h.ibs tin (ttntnffj lull ul
si’ll' .^1. ftff

|.H'i, ,\ ,h.iM I-. e.ilf l*.l l.-.l.ifthi-iivftk (jindiin s"» pn’ iff them .ilI ,m* |u4l is |da*v

h luLhrd

i\.m.nrnr by ihe Mvnak.w before <hff« .ire rei<*»(-kby Ihe 0<-id« w’ IPiftial (, a/.-s-r *a lenerv afltli'isffiOxrrffiff lu”
IM- Iff
isrNft Nyh, >-’A'h<T -tO ’he iu -nn nf ihr piTl of d-xSliaM S"d fOur m( Jeh i (' j

1.1,1*' l *. *a *4 . .4-v*d *!ln I vnSilliir 1,1/l ft'OT 1.k) r.nal ftldiiery
I'.x-11. s-icr Muriffher ilul' be 6<e fiiun
Mi 11

saJ

kll pCkliffituAse of rti.4 (amra*r s.iJ me

((.liJui^ff in pVk'c of dyi •egtyr

IN Miri'luxl lki.il oidcmmly fthg- ft kgua.i Csri'P S^iuiff all I.hs, sl|/ni)K la

U4|KPftKk igulO.fff frgilt oiKehiasy IK l'K(>>1^' kU’ftH *.4 t!|(' nitrhk

(F)k

I'OM * rnftj| bv

)• *U

ouiLa ir puffihv.t, skiyv v

■ne licpr.d ixixfai ami ni'i k-'e'ni>">\l (jvu-K put x»Ki vix a.iik-ins.il (p. mn- K~

S'«ff<14ciL lv< 1-A. |4fflV4e

npifiiyj d*ti,(1/ i(i rhr *r»iwu4 Mufv'uiilv vl A.prda vl l'i*. liftIts* ■*'■ in

(ai^xaliimlvsiry sp^lfMIl Vlfflsff*t. I”a» »1
n Jnr iff'*” i-'.i.r Cix.|ff.rietl hi ilig (Venn LVoo *o<0*"i*4l>< yetyf.ifJix -m K

,i( ik- fxvt *'( ftllftcliffipt *4 pt.tl'f or iK'Wery *hi—n of Ik Tixv <rf l!m t*-l' uM.-iu-ng (|ri The Oivin ksir-t* *
„S.|P( xfjJI iXwlluD Itu fi'lilt ll.lrr kurt ililn el til lit the MiftiCuK, IftbildC-'llnr U Silly* l-rViari-w
PC’khi un'.tli'ftl lu r\,ei'i llw Cxx*!* i<n Xfi-ukirt's htnalf si thi ptexe Ji'»/n/ti*l b* Ik UeiUA

by u. .... k nil «.( >he XfiTilurd 41

(Cl 1" xiiur ik

d hy l!n O.vi.n Ciir.’i*

Hk LHlim C.iimft ftlL.II mil* Im rv’fftfti*rh4e f." iS*(|« v'r u' *‘x‘ U'-al

MKIis «" "V.irii

dill* iv” itikin ik> ii ixi'hi‘1 sh- n .<> .

,.s"er> ii*u'fiir s< 4u(H levji.khiMy repre-wmi i*.» oP.a iLomiei- >.
iffrvtv-e(ol by

in nihage

:

il(;i>kJU
i-ili* i'll.ii SkVkle.n
kl"ll,1k) (I
.
MeTal I’TSftlvili. I.mhiIks. Cutrv.'l (At TN i,in. ',i|ft*ii*tt jphi.1 m.'sJ*. (C»rrla
X*' I, -ff -Ifflkl | SUlSfti'*
su.ii i'i lie * * 111:. if l *4.liaft|j Ajft4ft>id Allan. Ill oiu. IxlelkOeu Ii'
i rfn l-A** »| I.-Ii't-I/ 1-lHffxr, r
Ifvr I'hai viftiHr fu*i iv fia'iavre (J’
*kLftS r«ivi«ui)
\.*-Mx

Ik iilwlr a hen (Uvi'iont

lihxiall,

il.ai*-'-r--1idH, i

Cfti'i'i. ilifflffttl- l«rshsff.*«f

ni|f. Ii I * X M(1 .Turk IS- rixaff-ilxs *.|l-*10iit,- bilk 1*1

[■T|h>ax |i|H.Ilftffi\ 4* Iftl IN

M»i«e('»ji Mtt> srrev 1" Die "VIU* 1C V- * v-eit.

-s ' I

(ll) IhnerifUiK’ .if the eiayJiin>v of loniin *11^1* ,lu-*
xi*«ifp» oa ti* uu* ftUnakie. rv*u'li/<^ lNrrri-*n. (W-i-Ci-mo xlw'1 n.A he tv*ro"ohle (a. an*
)ll.|CritB) OiKbnr^c uf grain/vegueil by ihe l’iiim Cssrur <n N'l nvi* '.x ->i r*n\ u-. lxi<e*
vi ilftftioe,

ftp -44 la<li*ev'e’S^.ffX Jill U|,li Ji*lli|TJf< dvtl,l«.S4-.le

m

ftuh.*:ii.t i!i'i*k

Theleallvf (.ml gikiil ftliatl l-c J> liK-fi4* aftil eipvtWi kkf |I'S lt**x'li:il*l

iHe>< iivitemt in arciydnixt u-nlt hundv Axuti, 1i4ft.Ni’ c-rct. m '’i'v* of ■is.’n* >k' i*« et rj) At ik Oicu.ft
ihs Mritlsinl i recdeff in nr't-pj lu (Re (Ai»nn lirrncr Al frsff ) <Lijr» pn*a lo llic

iiNAiri

of VcimI si Ihe K” '’f d-iiheige tvinrslno-k iiisy k i*oi(K*4L(x1 and Rx-i istnx-ntt

spi)

of ff.iA-(joyiriji t-hipur Nr i-sner* sx |up iifilicir ilimvi .*i;,iipm An-1.

A’l'HVf 7 hu fisepiopp piu*«vi-/-i< xhj'l stair-ii'y-'y -I'ne IN iw-i**, .-^/s:i-*x’-f ni-i**' m il
or ulg U(ft* ffltp (lull, kl |H iillsim I*. Ilie u-!!i,1iii|i *1- ‘11X01 i(i(k-i'* ,hC si ChA ..* Ii*!|i

JI- l|pi<TniU4>sf Tr«ff'l»u*iatii/ri) lAkThift Hi»

tflii'iJii-«C iIjec of arm

vl

MeivW"' If-sri IC*«;.IHI,I\ ll
ol'lac Vextfti.
Vr*<e’ *n IN <Mi*gihun or >q l>c aihmije
a^a.n.i al. Ulxx iff (istihki kih.ch m.jhl Ibe uuvuri«l I’jiei-ry kU .rCiiiei i w .-a oner u- "ik- -isr

ni.ftik* iff cu-r&amti, ikxvuej 12 ■ Thr Ocean Lenta do." pul br mtiirL.1 id uppsth Ux rv<ile<«ini> .iniiiVcH'er

Lsrrii'w ftJiurelioa end

ropk’n’ib.U) fvrcnrrsi^u uf (*>r(i*vil»

fhn u-sige .huiuijr- .0 an* iiirum kig.ffi'J*f eu *nk>«n (Ai s(ftiVC itff 1>*r.<n < hrin-r nnihea

in:

• -Ik *f r»l'4*v Ig >.|! , *-|. Ul

JklerflMAi p-'d’ff |it]ab>r hy ibCftflhcr .v rnuissN/iny >Hpis hyi ..orxri r.i im- klerih.irt

circuiuffi/nex
■ikffi/nfx <wi
itjll ihe iKihiA
IHihiA i
t ini<i
amei ne
he (c*i<*A*anie
re*|i*Aftahle K-r
fi-r eei.
del-1((} in »i‘i*if<l*Ak'e ftiiih <flh**r (tioi l<o ,lihy
■“MTJx l-(L'h'\jn «r*li»PI*1twil Ihf/hsAiim OrrCkX’di. ruvikyn IRjltKtkincft IfttlOkUlPj bl Ihr HLHlftffV"»ll
•i n'l l/vk sia.1 reyiuti'iisu hi fisrr ,n l/ip p.m nf
ihia Fi ll Ikf Ljslilpr
Kkl Stv- all S<1 IP>|kuiC> nuilplr
»’1! ♦>

liy Eire O*

•MriH hi*L K* IIk [xrrl iff ffiMS-inj vi (Hire vf rctr-p' nn-t Iterr ififtel»ry( (Imi.. A.-iy selivn*

< .irrxi. LmV.i (jt .a.(I U-|niJ far ii hilly ■ in*! ■■■ IN S.llai »
Jh, (Ikft’h lu IU'j.hv L vJlUat" l (IthyV

ih<*'i;-i|ii »r thr A)kli*" (‘j/rie'»ixirxi"!'Ixl-iy

nniniyffin/

Clone ixriCkftff. Iv>v «r vt>iviit cl'j k'ini*m »i'*i’ 'uIiki-

v( iK w>hiu >hi,-< ii-*J sny ski k».-|)k(*i. »>r ilrfinll u* *he Mnocr. -vu N• r ivi u>

XVI (ll IN (Vffklft Id the I'ullud, ufeuU."'fti iK 30* uflll pot-ill' -txHfteil) SM'I xiffkl.lsH- ll Ml
C-irifti fh!.x

■Ir .1. li-x.y <»

d-tif.i*g> i" U- .est'/. tk [4.n« .

, 0*11^1:1 ik.il* lu Pi £l .^i-iiix*

Ihe Merehknl stiff II jiffn’l* j<hl v*er»he iim'riOvRv oirh ihr Die.." C-h.'/;. m cwg.-i! -ive...;

IV. llXiitrre by Msrlul i At Th< Uvvs il'ainer aAiU iks b* sah'e 'or liilare or eila'i-c«lil-*iry »i-i*,***)■<**e

pOn *i>iuivdM, ilw tliiuP I'anvi »1 tN Oil* sail expx'iie ofiht MirilmnL srklir ''Jl A the

Irftklsil ,r. It.,* \ e*’lJ -1 ftftlft* (v- iff olhvl IlkisA* —l Hiffft

:■* mi* C’i

t*r(*l.l* uii'veCb) ilivOiv*" C-.*r|^

rnx«iiii)Hisa:. nure'-«hi*g.

-I- l|g l-i i,-l*l >:-i P--.1

r"vi\iie.l

by H** Meni

u f un.ili lire Ct.iffin Cniini ■*" i <v*tiuiift.Vle b* -i.’Iik *iffiii'», ( ,v crln-

xuftpc* »"dv|HT »c ih-sje« .N‘n"*«l •" -eftpuft’ v> >N Ou4«(4 Ms

vuanMW"

iff prupxry. .Wl)) ht*«vh.."i ahi'k .PiI.mIh ly <K-Ovvja C.irriuf .laiffnl

ll’
*..... ,x(rxi«iw* nfflt lo ui»*«< Ihe Minhwil lulklx- CJ'nt) u< (In Gii>*1n ;n<iL Ltk'» lux fk-lu*v I’mIh
Xlerv'xi"*
>e (*!i-i- ilvii ,ii jni plaie vi<«elid h) Ike tkeaaff 1'jnnr si Ik n*k imJ evfXHx. ill

• iilii-.ii ji

iimu4|iktki!

iLu'isgc Hr .a

IM. (1Je1ilr|x| (Al The Ukis'l Liirii/ »kl1k Ikm- the I .n'l ki ih-'il xr the f.nlib sl shy ti-l-i* .*1 the l lik'i >s«1r,

lit ll lU( fi.Ki.'a .»r -ll 4 PuxU S*xi«>ft/VtftisliijXtnia, Juki br (Wil'd li-’llhlinslrl'v L-JAi(ian IN-Pu kibl

Kir k-e

sin

p-sit

..I ir.ic-|-Mlii1lu'r'k-k<-l HVII|-I iu ix"l ul IiviIai, dull Iv iftiiiklnl IP kiliu.1 itn- iiinirsi llM x»l»ir/i uiiUul

s.s|

k uOiiih-sI'NiA uf I'v eu>*y« >r*aih<n^ 111uni Site |j|**e <4h:’«
in

iH1m>"

-• p'*i* *■' *ih' *'

an) Ailiis nliLr.dhil u-ouriNv a* >>w Cvs.iR Can«er miy rcey.iri1 ileh' lx

ur f-iK'Lsce us -ftitc** kpJ fipnex Rdf lor 'H.s too rpihei JiiCh. itl.i II rbe Me-YiM-i friU'n
h.4 uU.|j.l<:vM (llftllff Ihu p( lerhnj (kSr-jkUl (2) 1h(- 0l4'<A <- Mfigr (lull iNff be (cfkftffKiWc lur .ini' Iv1’ ul iff

uni *.dr vf IN

k-.i

ft*f uC'K**' algi.iye Mcir-tiein

Avrii tff sp.i-eftiem vr Kpii tu-il eselr ,/*■ d,|*

( Driwr betere Jelneiy ui the fiiwilft. (til In lire < i*i t of a*, -Icrff.. Jsp,.-. UI'I4.'>. V« l..fts*l*

Kid uf Ud-mi tnJ kilJitnsi.il frc.;h

Al ic Osrn dm*y .irxl I'kinbry elm n,Xli or /nek*.Ik u.vr the liOiXli. pa,4a|je. ur

X. ll.ilstliv*) I AI lit in. Iilu.ilv" Xl.OuUivI -ahkthiff Iff Aul (XasUAj u’ aPI<*U“’l''* tvfuiv iftlitt/H(N\nKM l/f iff

-- ‘uineftT. la.-nii. I.i»k, iV’nr.

ip-J

elnfiffr,') K'teeivii l/> (I.*- Vearuk (.'**••<<

Merckiiil ./> ivrthnc kedsr»ro*eipi by (hrO.e.in ur tnl.nul C urrier iiiiti must U: puikolfttvsiU' and dus.ibli un (Is-

ill.’ I-.nr v1i1i*kh.>ys ul Ur lsoo.lv al Ihe port ofUnehM^c
■i-.'-.s

I'unrney, nc^u lulffr <tiUPsPv.nlft. ivivski.eb.

ihv Altffetu/n tafvrr r*\e^4 of thy (iCCftK by IK (Heap ur liilhki k ulna, (he *i"k •* iio'iiuJ vs r-V*

Ih.^iirasy |.t(ri |A ) 1 he drekyin wl J VII^I f!

Gsftftl.. H-kh «i'k|"j«ii!i|lff> *i»ill be >o r-v ch^. l*r>

»uo';.l lulu k*i-.. l.-.hie Iv rh< Mkii&ml ilK hKl euu! t .(rtei’siidi ifiiriiei'iHtirsel vuiittlic Me/*tiirkl

l. .ii •

irlh cn-CHi'ift raetslt. iluntv iff clirraisklv rr*C'r)

Is-iiRj Ala* N iaiu.*l fir Irii.-i nL-I T nr

iviffik <4* llw*) n bemeeff "M Merihask neb an leffih El ill Id Lri'I'Xjy ,10*1 siMigE

Ihc Ip.*ps) I'n'rief »te vitjvf *® 'N rc'cvpfi' hi>,. <rgi|!srnv.c, m,rV> lie h>:: *if urhily ere a
Ui Aip iff Inland l rimer upnn rojjcd. IfU C'laimt Ihj llw Ui»0-.i«l tps'px- an hils-xl (. ai

nly i) i;,tp hs ard al ilie *,<Je

tlcl*4X4Ctibry (t<<(ei^nt.Bmcr in ateurdonee unh the wTiltiTkeeifu-ff. In cueh a «h>c if the a'ol ofthe t-mffnNrk

thi!' be pirn nm) \nii evr’i’ienved s* ptiAffldl lAllitMlidil L"((.*’(**s^Vl'iishift- h:FI ilfljd-pg

up] •■h1"lff
<1 wl lal’swftxT u* vet iff'il of Mih«frN*'. 74eMc*ehanr *'w11
•lak/ut lifts L l*A"l Lillliir fsSthW.llk Uikt-H dCOftliff) fill kill efftfS 6cii^rt rhargra Slid (ipmsi kiiennul Ks a.n

i> iptMiffl Ihc infri.l iiiipKlini;- all ihrOerspL-n.ir.'Cr-hhjsrMs.s mnJcr ll<*> Iti'l iff I uJnig ff.ff'i k iIcvS'v-Chi
h,ift e Ive.i loKlrkiayiL Ihe Ue aih Ciirier khnll sm bu iw*pH»ib>c As wiv h-ii *a Jinwtpe remiiii-f fusn tusli

iJ.KJit[*J| l'arrlftS’4 lilkirj Tiki* M >!i k*f Iffdoll£ ■» ftiiKreei k- ihe tJ*xmi I ur<**« * :i,’f'li,*.i,ui
iff-/ nftx-ii i(v-rs
^^eth^l'|*llb4s(M■f^llll, i-bla/.Mib'e Km* 'k IK*'"

...r.Hivfta.in (xi.v4-Pf >i>mt-ruil (A). iPxUiJir*deli] '» g\|Kn*x Hit:"*• I'eSi', and Ik •>*•**" t’sriivr *hs|3 hue

ftlel-’eo snJ'k MeixKini* *lul) bv l-4k l,( imilnTiTusteidMi’tim-Hl uf i-x heijw a"Ja«ijr sd-Jsi.uvkl ,(u»“<»

jy, (Siii>fflull|r g(

a.-<;"ikr.'Kin*

h<

acivekAi] er Ter* aid Ihe l«iff’. n r
•
•44)'

Cvjt be Kutl J.i

nm u-*Jt:’prii>e pi ik X1;'ilup4 -uilkiLl

3 liv:i iff* <n fiigfVx'ili

■l

h.IIlo

(leJtOHf iNd'>u*l(li3vehriBpo*Le-lkrttti|(*sii.ii4vr fcy ilie OfteanCamr will bnpa»kllw *iftTl»sii» «nJ

i

1 T Ii* xiltr-ftlo.iift .*<(*.r,| re m uibjUii (A) ewe rhill Htfthtff.. ktihsll igff be lieruivil (v, :lii|ie*^HSff by 'k

ftV.’ri

ivnrgmt )iii] rlu pagjA

N (N»''kxl ni Ou-iVvi ihv Gus<l’ >n thr im-u—ir Ac 1W

>•('<!

Thr tame of tin* I’ll uf (.aJing Jii >eviiabu -inJ if pm

lAiahiLur iipicrfftari'sbk. Im »>J.<Vi* iffmf.tisa'eil.ry, of noy irlu* luar.-i
7). (}<-<ii4]aya Clsiue) A-l cftiXiMiuft’, iA*ni|P’ii-<* llilx

ilixlill 1*1 Is lllaiiA^rix.. rtiffVMii-HCigCx eivd >uilU1lulil>n«. Oft filKr ihtllllViRiir

OeeMi {■iiriei'a *)i4cr*«i'iiff -iiid kuhmi to inns sn-iiigurrkiit K(ivi*-* 1N SlkKh-hit mJ i(w fr.x.m Cmini ihe

kvnu imiift erniikJui piuiidsJ b)- >ni p.ll *»' I

of *d<»l.|i Ii*
oi slinjir lo any yed ur i-a<a!, fcbiit-XnJ*. fM'i’bffis'ft. ur r*k1iii1x>n on
i'.i.|.-.ff MS.irj-TMx •nii-i-irjr vr <«l‘>r -*niMm r, gii!4l'«Mi <-r riitr-<*-i-xft. iKksxv ii*4.P4’< re idkr hib.s |r-»ible»

Crtft\J* ni»/ b* Oi'ji L-ci) Vr Mi'kH.st io llw ftMiii-MNi, >n «*h.eh xp«s i>iIw eu>rtM"i'. ix JiSweriJ uifh »t.i.4 ip';>ei
l'x
j.i ftb* 4lies'* t.iir>*r\ i4jii^,i1u|nft i|iff|*( <'l>x Hul L’I I kli'-g *Kl" Iff' ,l,\-i**l 1** **■*< l/vt'o dlSx/uie**;

('kffiftl *hsJ1 .1 Iftftk .ipjH) in jnI iis t!i* um1'" i>f

eXi *’v9*u ot ■ipl* ehelr(iiSk i*l

iMflijI ,d J.m.f/I Eli'd vNlhll C* Rid iniVill-r.^ *(11|lluff-le« 11(1114 Oi'liHI Cjffisi is 111 SuX4in'i|ffHw*.
,,..(.,n;*-^ i il /.at al'.oi

IVnluiisI o. xonilil

| >, ,1,*^ d--i,Il —/,/■' .ff .....................
■•* 1.1.1.*.lift -p -/li.-l (Mp4..*I,'x

hi

s-.avoil1 *■■ iMs.liftlv*

laKa Iff (i.iMi.* liffa

III ilw Giiffl*. »ift,I* nii.ft in lji.,;i,,ft |gC W(.idfti. sluiTink o'sftgr

nn ipjftivn u.

igv |S)1 Tliu l’.*M L Jlfiel Ml Jj.litH>A Id s*1 Ull'er '.iK'iln-*.

’^\!Tn IV*' *h»JI

I 0* K4nin*ih|aaliM|iWvsjm diou/r

thr vnr4*<ft1* til dkg yXiiA.' <f i < iin.iawtt

tlftiliery xJli:: 'at franiul only ’‘hcnU^J^^ Iimi vf r***i|4 I.t IA* l'i* «J. fa> ■ Uia-ft tff*‘.r E.ffJ if
The MiriAMI disiiiiig It* .ivOil 1rmrfti*l4 *-l the r-.ft "A *ar
ei;-igx«ift «lJlft*| ,n tiff Lt( ft i,s (tn Bill (4 I ju.ny
eftJSl',1*: mti'i gifts K..II g IP s lA-Oj IU llw LNnin Coli-ftf <t IN l-*ff fxMt ul i.il< »msd IP Ik- uptffin .11 l.ld dff

:tpd xiftieftif Iff*- V |'H*'I smd

it,i:; iii< hi otic

|iliiiugihl.(*. I nii»|ilu-j.* im

<* ll) pp|di,.ij*e !:ti*rl cn li> *
iTiviivaifti eiikft'm u • i.J i.-K 4 .h'.*i >.ffl ■;

iixj (is At k'Aft i'i *d s-'i iftHft.vx iwr’is ir,lig *.

iftiiiiiaeiios ul ill* L.irrixr IirKliish/v
jiiftftievx .If Ckigli r hg.-i

o-iKmI

i.nr'ji.i.', *i,*xiii>.i-* i*/m..i»1 mx*

‘

A

f.

rltk
Jfif
'
mi.s
v m

1st Floor, S5-C, ! llli Commercial Street,
Phase-11, Extn. DHA,
Karachi-Pakistan.
Tel: 92-21-35315929/32 Fax: 92-21-35315925

tx<-

\
o.:

/

Doled: 09-04- 2019

TO WHOW IT MAY CONCERN
*

SUB:

d

Vessels GJERTRUD MAERSK-V- 909w E.T.A, 30-03-2019
CNEE NAME MUHMMAD RANA MB/L # MAEU967990270 HB/L 1239458

Dear Sir,
We herein' inform Ihal we are the Active agent of M/S Troy Container Lines in Pakistan.
We have been instructed by Troy Container Lines to Hold said Shipment till our Further
Instruction due to reason that Forwarding Agent. THE RIGHT MOVE INC (Michelle
Franklin) of this Consignment has not paid Port of Loading and Shipping Dues.
Meantime they also instructed if Consignee willing to pay POL and Shipping Dues than
we are free to Release the Delivery of Goods at here in Karachi.
I I lope this clarifies our£tjsilion & fully explains whv your Cargo is not being released at

portqasim.

X J

CoflflMttW1 's
Pft&p ( fit /

0265

2# I 'il

PaUi\Uxt\ liUcrtmtintut!
/VW”/N infH'titdi'rs I tWJijrt/jrt/i

Suite# 85C 11Th Commercial Street Phase II Ext. DHA. Khayaban-e-lttehad Karachi. E-mail:
asif javeed@pk cpworld.com Tel: 35315929-32 (EXT 320,321,322) Cell # 0092 300 2901592
Tet: 0092 35315929-32, Fax: 0092 21 35315925, Email:

RECEIPT

Date

35151

Receipt «

Recievod w ill) thanks from
the ■■

b\

April JO, 2010

Mtilitimint)(I Rana

Rupees Out! Hundred Fifty Seven Tltnusittitl Only

tt t)l '

P.O. No _

P.O.

on li necsi s h 10/04/2019

Drawn Bank

■VcatiiM B?l. No(s).

Received Chetpie Against HU i/:l23945.5 (RS 157,1100./=)

Remarks

smi»piN<; charges

RS

157,000.00

for:

C I' World Co.

received as pur poi. agent request

a

0266

P.O. Date

10/04/2019

DM44

.19/04/10 10.: 4:
-6MS2 MLKHIMA1:

CHARGE CALCULATION BREAKDOWN
i

w

:

•

Ch. Type': DET Tariff Loc. : P'KKSJT'W;-"'. Dir. : IMI
. Loc. :PKKHITM
Vsl/Voy/Lirie: 83l/190'6/M3
. D:;
: 967990270
er: PK00098947 CP WORLD CO LTD
;.
•i

j;

:

'!■

nd Total(DET): USD

605.00

■

t-

-

i No..: 967990270 VSL/VOY/ROUIE:. 831 SAFMARINE "NY/isS/19 06/M3
lipment Id....: MSKU2778497(20DRY )
(FT) PKKg.ITM 12869,004
jetitne Period.: 19/03/31-19/04/06
zention- Period: 19/04/07-19/04/17
55.00 x 11 days PKKHITM 12869,006
. : USD
^eivable..
b Total..
L Total....

l

605.00
■ 605.00

: ■

i

t

4

.

i

44

; .1 -

'' f CO01/ 9ft .CT.' L’ Di'T

' T'

t

K

cu

Container Deposit Receipt
Receipt Date: 1S.Apr.2019
: 15.Apr.2019
tssued

Receipt Number : 3420009102

Payer Code :

Payer :
ashraf enterprises

1

Payment ft/lethoJ
CHEQUE

Cheque Number/ Bank Reference
15397259

Document

Reference Number

3420009102

967990270

Amount
85,000.00

Cur
PKR

Amount

Cur

85,000.00

PKR

TOTAL:

85.COQ.DC

PKR '

;e

tJctea:

1 ;l . 75 (A-R) 'JBL- i 5-0-1-2019, Oli-tTO 25 ASilftAF ENTERP

Signature:

Issued By: 2IOC011

//

/h Ac

/ ef }

0268

P.ifjo i of ;

\

Container Deposit Receipt
Receipt Number : 3420009611

Receipt Date : 22.Apr.2019
: 22.Apr.2019
I ssued

Payer :

Payer Code :

ASHRAF ENTERPRISES

Payment Method
CHEQUE

Cheque Number/ Bank Reference

Document

Reference Number

3420009611

96790270

00079597

47,536.00

Cur
PKR

Amount

Cur

47,536.00

PKR

47,536.00

PKR

Amount

TOTAL:

Signature t
Issued 3y< AZ001

Moces: A.R ROE 141.8 BAFL 22 04 2013 DS 8787 ASHRAF ENTER

•is

fv'i

CwfiMJMf’i

frHi&r ix

*

\\\

0269

^

- \?\
flfsl

>A.*%

*«»

d1919cec-8df2-4f5e-a2a3-26de1a3e95e8.JPG

4/30/2019

%

\

A
<.s c '/V

!**

flft&sia
'

v
<A*(*

^

cii^uhw

<■ ft.mtWBW

..... rii,T.....
l'*r"'..........
v^-Jr***
* w£ >

. •*?> >

’TV.

a

•> r>

T

«

l' ' &> ,

*»'

•./;
\ -

<#'

^ jCwfWV***

SH.V

:

1

;

""V

-

i

..

..-

n '

Ml.

Clearing Forwarding i& Custom Agent
j

\

'

Dat

:;-.ri.\

Biililffliilliiiiil
fc

->j.
■;':

mmmmmm
mwmmiimrn
mmrnm..
•:

•:

;-;y
Vi
|i'

:!•'

'S:

.v ;i

i?#

iV

■’rj.

'•IvVf-

r

•41
i

1:

jVlaersk Lme,Pakistan (Pvt) Ltd.
cehria Complex M.T Khan
Moatvl Tamfzuddin Khan 1toad
Lafazar, Karachi Pakistan

:£

To Whom It May Concern
M/5. Ashraf Enterprises is an agent of Mr. Muhammad Jahangir Rana. In ibis capacity
made payment) to MAERSK for container charges and. deposit on behalf of Mr. .Muhammao Jahang
Rani,'Shipment detaflsare us under:

Bl

n

1239458

IGM

«

kPPI 125

You're truly, . . :
M/s. Ashraf Enterprises

ASHRAF ENTERPRISES

CtL'afjflg Fonvarduig fi.Slv»si>UHj:Age.«r
End;
DP Invoices Copies
BO Copies
' BL Copy
•t Passport Copy.

i

C.H.A.L, No. 1 381
29, Sind fJtackof,
M.A. Jinn.rh Bnaif. K<rrichi

Q27Q '•■•••
fioohl # 29, Sindh Market, Near Marry Weather Tower, Main M.Alinnah Road, Karachi-* Pakistan.

Pearl-Continental
HOTELS £ (((SORTS

Club Road, Civil Lines
Karachi, Sindh
Pakistan
Tel: 111-505-505
INVOICE
Guest Name: Muhammad Rana
Confirmation: 628917
Folio No.
Room No.
Arrival

7864123

201
02-04-2019
23-04-2019

Departure
Page No.

1 of 1

Date

Description

Charges

23-04-2019

1 King Bed Guest Room X 21 Nights

18.500 Rupees Per Night X 21

23-04-2019

Total:

388,500 Rupees

Credits

388,500 Rupees
Cash Received

Taxes and service charges are included in the total.

Guest Signature:

Balance:

^/^0ate: 23-04-2019

T fattfsbu /v

ffiGt- 1^1

0271

0.00

On Friday, April 5, 2019, 9:36 PM, Michelle Franklin <mfrank1in@theriqhtmove4u.com>
wrote:
Dear Muhammad,

I paid the fees , you have to believe me,

1 talked to the company and they are sending the payment today, but it may take few
days,

I think it wil be released by Tuesday or Wednesday the latest,

If you don't want to wait, pay the fees, and I will wire the money to you

I will need your bank detials to do so !

Thank you and best regards,

Michelle Franklin - Relocation consultant
The Right Move, Inc
150 Motor Parkway suite 401
Hauppauge, NY 11788
Direct # 347-368-6520
Fax# 631-439-6801
FMC Licensed #023229N

.’•V-

On Wednesday. April 3, 2019. 7:20 AM, Michelle Franklin <nifranklinfaUherighlmove4u.com> wrote;
Hi Muhammad,
Sony , I didn’t mean to be silent, 1 didn’t have proper access to the e-mail,
I regret to inform you that our company was target to shipping fraud, and as result; we are forced to shut down as it
put a huge financial burden on us .
Please see the old Bill of lading,
1 am waiting for them to revise it, but it always takes few days, and because the shipment arrived, they may not be
able to do so .
You may have to change it from your end,
Please send me your agent details, I would need to make sure he can help you !
1 can issue a house bill of lading, if that helps with the proper info ,
Just let me know what your agent wants to do ?

Thank you and best regards,

Michelle Franklin - Relocation consultant
The Right Move, Inc
150 Motor Parkway suite 401
Hauppauge, NY 11788
Direct # 347-368-6520
Fax# 631-439-6801
FMC Licensed #023229N

On Friday, April 5, 2019, 8:19 PM, Michelle Franklin <mfranklin@theriqhtmove4u.com>
wrote:
Dear Muhammad
The Right Move is closing, but we are far from engaged in Shipping fraud,
It’s actually the opposite, maybe that’s what they meant, but regardless,
We have paid the shipping costs to a third party to pay the SSL for this shipment,
l am checking into it, to see how we can help you release the shipment,
Because the company is closed, l am unable to pay it again, and if it comes down to the
fact that you may have to pay it directly ,
We are fully licensed and insured, and you can file a claim against the company bond I
If you need to pay , I will send you the details of how to file a claim and retrieve your
money!
But for now, give me an hour or 2 to see why this was not paid, even though we have
sent the payment....

Thank you and best regards,

Michelle Franklin - Relocation consultant
The Right Move, Inc
150 Motor Parkway suite 401
Hauppauge, NY 11788
Direct # 347-368-6520
Fax# 631-439-6801
FMC Licensed #023229N

On Tuesday. April 9. 2019, 7:09 PM, Michelle Franklin <mfranklin@theriahtmove4u.com> wrote:
Of course I am in touch with them , l have been following up on your shipment the whole time, just didn't
know Troy didn't get paid.
The booking was done under another company license, because I knew we may get to the point we have
to close,
We conducted business with a company who shipped donation goods to Lebanon, and it went well, 2
months later they shipped Donation to Africa, but this time , they didn't have the proper paper work, and
turns out the receiver on the other side had every intention to sell these items.
The person who booked it disappeared and left us with 6 containers in the port or destination .
Needless to say that as you know , port charges accumulate every day, and we were trying to find a
solution , eventually we ended up abandoning the shipments, and needed to pay high penalties, which
forced us to close .
Since I didn't want your shipment to be effected in this process, I opened a bank account that was a
business account, but had my name on it in order to be not associated it with the The Right Move, Inc
financial burden,
Once I received your payment, I paid it to the third party I used to book your shipment from the same
bank account, because once again, I didn't want your shipment to get stuck if in case the Right Move Inc
license is being revoked while in the process of shipping your goods.
Needless to say that at the time I took your shipment, It was all in good faith that the company will
continue to operate and move forward, and this will not effect you .
The third company l booked it with , paid for the trucker costs, and waited until the last minute to pay the
ocean, we all do that. but it is after the fact your shipment arrived because according to the booking , the
shipment should have been there in few days so they thought they had few more days.
I get that you upset and frustrated, I too, worked very hard for past 10 years, and one bad customer
crushed it all down !
This is life, you learn from it and move on ...
I will help you finish this , but I still think you should pay directly and let me refund you ! it will be faster,
easier and cheaper.

Thank you and best regards.

Michelle Franklin - Relocation consultant
The Right Move, Inc
150 Motor Parkway suite 401
Hauppauge, NY 11788
Direct # 347-368-6520
Fax# 631-439-6801
FMC Licensed #023229N

On Tuesday, April 9, 2019, 6:30 PM, Michelle Franklin <mfranklin@theriqhtmove4u.com>
wrote:
I have been asking them to pay it for the iast 4 days, they should be able to pay it today
or tomorrow.
I will send you the proof once it was paid,

Thank you and best regards,

Michelle Franklin - Relocation consultant
The Right Move, Inc
150 Motor Parkway suite 401
Hauppauge, NY 11788
Direct # 347-368-6520
Fax# 631-439-6801
FMC Licensed #023229N

Av

On Tuesday, April 9, 2019, 6:08 PM, Michelle Franklin < mfra nk li n@ the rig ht m o ve4u. com > wrote:

Good Morning,
Please let me know if you have paid the ocean directly ?
The company I paid the money to, needs to know if to refund me, so I can refund you , or should thy pay
the ocean directly ?

Thank you and best regards,

Michelle Franklin - Relocation consultant
The Right Move, Inc
150 Motor Parkway suite 401
Hauppauge, NY 11788
Direct # 347-368-6520
Fax# 631-439-6801
FMC Licensed #023229N

On Tuesday, April 9, 2019. 6:12 PM, Michelle Franklin <mfranklin@theriqhtmove4u.com> wrote:
They promised to pay it today or tomorrow, but since you are paying $50 a day , 1 strongly suggest you
pay directly and I will refund you , probably no late than Friday .

Thank you and best regards,

Michelle Franklin - Relocation consultant
The Right Move, Inc
150 Motor Parkway suite 401
Hauppauge, NY 11788
Direct # 347-368-6520
Fax# 631-439-6801
FMC Licensed #023229N

0278

On Wednesday, April 10, 2019, 8:53 PM, Michelle Franklin <mfranklin@theriahtnnove4u.coin> wrote:
Dear Muhammad,
Perfect, I am also confirming that the money was sent back to me, and I should be able to pay by Friday!
I will check how many free days we have , will get back to you shortly!

Thank you and best regards,

Michelle Franklin - Relocation consultant
The Right Move, Inc
150 Motor Parkway suite 401
Hauppauge, NY 11788

Direct # 347-368-6520
Fax# 631-439-6801
FMC Licensed #023229N

On Wednesday, April 17, 2019,.11:19 PM; Michelle Franklin <mfrankiin@theriqhtrnove4u.corn> wrote:
Hi Muhammad,
Thank you!
I will send you a refund shortly
I will also check that Tory agent only charged what he needed, but that's between them and our
company.
Also, did you at least get the container ?

Thank you and best regards,

Michelle Franklin - Relocation consultant
The Right Move, Inc
150 Motor Parkway suite 401
Hauppauge, NY 11788
Direct # 347-368-6520
Fax# 631-439-6801
FMC Licensed #023229N

0280

On Friday, April 19, 2019, 9:01 PM, Michelle Franklin <mfranklin@theriQhtmove4u.com> wrote:
Hi Muhammad,
The payment will be concluded in a day or 2, of couse I will try to pay you as much as I am rsonsible for!
Just wanted to double check all the costs you had paid, and with the holidayin the middle it may take until
Tuesday!
I promise we will finish this very very soon !

Thank you and best regards,

Michelle Franklin - Relocation consultant
The Right Move, Inc
150 Motor Parkway suite 401
Hauppauge, NY 11788
Direct # 347-368-6520
Fax# 631-439-6801
FMC Licensed #023229N .

hl!ps://wwvv.google.com/maps/place/The+Right+Move+lnc/@40.807298,’73.2615909,17z/data=!4m7!3m6!1s0x89e831ccae57ca21:0xcf98ea7e05682e97!8m2!3d40.807298!4d-73.2594022!9m1!1b1

Ben Grace
*

: 2 years ago

We used these guys in Feb 2017 and what we paid for in services and what we got the other end in
delivery is nothing short of terrible. Do not use them. I would go to the point of saying that they are
disrespectful of others property. This ...
More
1 Share

Subrina Chow
a year ago
The Right Move, Inc wanted me to sign a settlement for $728. For that money, f would rather write a
review to caution any potential customers from using this company for international reiocation, particularly
if they are looking for...
More
Like Share
-k ■

■

Madhu Sameer
2 reviews
*

3 years ago

This company is the biggest scam. From deceit, to lies, to insurance fraud - you name it. Quoted a total of
$8,600 for relocation, of which $2,100 was for packaging, but shoved my belongings into the container
without packaging them -...

https://ivww.yelp.coin/biz/the-right-move-hauppauge

o

Madhu S.

o

Fresno, CA
7 Iriurids

O

8 reviews

11/7/2017
l have set up a whole webpage for these guys. They STOLE my goods - yes - converted - goods worth
$350,000. They are a nightmare. MICHELLE FRANKLIN in a con artist who will seduce you with the
lowest quote. At the other end, you then have to pay the local agent because even though she says door
to door delivery, she never pays them. Pius a lot of theft. And if you complain, she'll cancel your
insurance. Blackmail, extortion galore.

I have filed a Racketeering lawsuit in the Eastern District Court of California against them.
If you value your goods - stay away.
facebook.com/thcrightn-iov...

o

Pranab S.

o

Tampa Bay, FI.

f •»

11 Irieruls

/ I

2 reviews

o

Share review

o

Embed review

o

Compliment

o

Soul message

o

Follow Pranab S.
«/1/2017

My experience with them was not so good. We agreed to pay by Amex card but just one week before the
move they declined to accept the amex and later i had no option as my booking amount would have been
forbidden.! am hoping that they deliver my stuff safely and provide me the receipts as promised . i am
really worried now.
3 people voted for this review

https://www.faccbook.com/thenghtmove4u/
The Right Move 4 U scam
August 25, 2015 ■
This webpage has been set up in the best interest of the public.
I have been scammed by "The Right Moves 4 U" moving company. Whatever you do, do not retain this
company to transport your goods.
Complaints have been lodged with New Zealand Dispute Tribunal, Federal Maritime Commission,
Californian Police, Christchurch Police, Better Business Bureau, and the cases of false advertisement,
deceit, conspiracy to steal, theft, and insurance fraud are pending against:
the RIGHT MOVE 4U,
their packers XO Packers from San Francisco area in CA,
and CONROY REMOVALS from Christchurch.
The men and women in the photographs are the employees of CONROY REMOVALS - the agents of The
RIGHT MOVE 4 U.

tfr&zT 9J?

The all Now button on this website doesn't work somehow, so please shoot me a pm if you would like to
talk, or email. Thanks.
11
9 Comments

The Right Move 4 U scam
November 2, 2017 ■

26 SEPTEMBER 05:07
Behind thescenes
Nikil Mathur
Hello
I'm having major problems with this company
26 SEPTEMBER 07:21
The Right Move 4 U scam
Hi, Sorry to hear. Report to FMC. They have been reported twice in this year. What did they do to you?
19 OCTOBER 03:25
Nikil Mathur
It’s just one fiasco after another. Coupled with all the lies they tell
Has anyway managed to get compensation out of them?
The Right Move 4 U scam
1 will!!!!
The matter is in the Court. Where are you moving? From where?
She is a big liar.
But you must report to FMC....
Did you get your shipment?
Nikil Mathur
l moved from NYC to London
My stuff was collected from NY almost 3 months ago
just lie after lie
The Right Move 4 U scam
Have you collected your shipment?
Nikil Mathur
Today was the final straw- my stuff was supposed to be delivered
But miraculously the truck with all my stuff broke down
And now they've pushed back another week
The Right Move 4 U scam
It was not?
Why?
Nikil Mathur
I don't believe it was ever going to arrive and they lied just to get me off their back
The Right Move 4 U scam
Was it packed properly ?
Nikil Mathur
They packed it

■

<&.

The Right Move 4 U scam
Is your insurance still valid?
Nikil Mathur
Why wouldn’t it be? It's still in their possession

■

The Right Move 4 U scam
Check. It is what they do. They don’t pack it welL.they shove it in the container unpacked. If it gets
damaged, they cancel teh insurance... I have 3 other people they did the same thing ta....so check your
insurance..
How much was your contract for? Have you paid them in full?
And for insurance, contact the insurance agent directly as ask if you are still covered...and explain to
them what is happening...
The Right Move 4 U scam
1 will not post your name till you get your stuff...once you get it, you must post all your comments on my
website.
23 OCTOBER 21:38
Nikil Mathur
Sorry for the delay. I'm not getting notified of new messages for some reason
She initially quoted me $1700 for NY-London for 225 cubic feet. When my stuff was collected it came in
at less than that
When it got to the dock, the cubic feet doubled as apparently they load pallets differently
Then she said it would take 4 weeks to arrive. 11 weeks later and still not arrived
Til do whatever I can to bring this corrupt company down
The Right Move 4 U scam
Sorry to hear that...
It shouldn't take that long from US to England.,.,
has it arrived in UK?
Nikil Mathur
It has. But only after i turned detective on her. She said my stuff had arrived in UK early sept. But i found
the ships tracking number in one of the receipts and it showed the ship was still in NY
The Right Move 4 U scam
I have a lawsuit against her...in CA...2 days ago another Californian who lost 25K, wanted to join...,a class
action is great,..
Nikil Mathur
1 sent it to her and she went quiet for 5 Days
Apparently my stuff arrives tomorrow. As soon as it arrives, I’ll put anything you wanton your FB page
The Right Move 4 U scam
There’s one in Sydney who lost 19K to her a few months ago...
yes, of course...jtist put your experience there...
but only after your stuff arrives...
She just TOOK my 40,000, and another 300K worth of stuff is held hostage.-.matter is in High Court
now...
40,000 worth of stuff, 1 mean...
Plus they took $7000 for shipping....
I sent her a demand letter yesterday for $3S0K in FRCP 68 claim...plus delivery asap.J have a lawsuit on
racketeering filed in US.
24 OCTOBER 01:50
The Right Move 4 U scam
1 saw the comment thatyou had posted. Are you sure you don’t want to wait till you get your shipment?

n c'

Niki! Mathur
So my stuff arrived. 4 things damaged, 2 things missing (including a Sonos Soundbar) and the removal
people said they weren't paid to reassemble furniture despite me paying for it. Have sent her 2 emails
today and no response
How do I bring this company down?
25 OCTOBER 08:35
The Right Move 4 U scam
Did you have insurance? Check - she may have cancelled it...
Report her to FMC, and to Fair Trade Authority....if many people report the may cancel her license...
Nikil Mathur
Yes she has insurance and has asked me to claim directly through them
I'll report her also
I've left her bad reviews on yelp and google also
25 OCTOBER 15:05
The Right Move 4 U scam
Ok...great„hopefully others will look up before they jump into it...

0286

Appendix G2

0287

Appendix G2

0287

Appendix G3

• t."

0288

FEDERAL MARITIME COMMISSION, WASHINGTON DC
Office of Administrative Law Judges

Muhammad Rana,
Complainant
V.
Michelle Franklin,
D.B.A "The Right Move Inc,"
Respondent

)
)
)

Docket No. 19-03

)
)
)
)
)

Served: February 26, 2020

)

BEFORE: Honorable Erin M.WIRTH, Administrative Law Judge.

COMPLAINANT'S BRIEF
I.

Introduction
The Complainant hereby files his final brief along with his Proposed Finding of Facts and

Appendix that are being submitted in separate documents attached / enclosed to this brief. The
Complainant is also submitting a Motion to Amend the Complaint in a separate document where the
Complainant is requesting to withdraw the allegation that the Respondent violated 46 USC §
41102(c). The Complaint continues to allege that the Respondent violated 46 U.S.C. § 41102(a).
II.

Violation of Section 46 USC 41102(a)

46 U.S.C. § 41102(a), [formerly section 10(a)(1) of the Shipping Act] provides that "no person may
knowingly and willfully, directly or indirectly, by means of false billing, false classification, false weighing,
false report of weight, false measurement, or by any other unjust or unfair device or means obtain or
attempt to obtain ocean transportation for property at less than the rates or charges that would
otherwise be applicable."

The Complainant contends that the evidence of record as reflected in the

Proposed Facts and Appendix submitted herewith establishes that Respondent knowingly and willfully
by means of an unfair device obtained ocean transportation of property at less than the rates or charges
that would otherwise by applicable.
(a) Knowingly and Willfully
Knowingly and willfully has been defined by the U.S. Supreme Court as meaning "purposely or
obstinately" and is designed to describe the attitude of a person "who, having free will or choice, either
intentionally disregards the statute or is plainly indifferent to its requirements." United States v. Illinois

0289

Central Railroad Co., 303 U.S. 239/242-243 (1938), citing St. Louis & S.F.R. Co. v. United States, 169 F.
69, 71 (8th Cir. 1909). Moreover, "a 'pattern of indifference' to the requirements of regulatory law, a
'persistent failure to inform' oneself, 'intentional disregard,' 'wanton disregard,' and, of course,
purposeful and obstinate behavior or something akin to 'gross negligence' have all been held to
constitute 'knowing and willful' behavior in violation of regulatory statutes." Ever Freight Int'l Ltd., et al.,
- Possible Violations of Sections 10(a)(1) of the Shipping Act of 1984, 28 S.R.R. 329, 333 (AL) 1998). The
Commission, in its analysis of the definition of "knowingly and willfully" within the context of the 1984
Act and its predecessors has rejected the concept that the phrase entails "actual or constructive
knowledge that the requirements of the statute were being disregarded. Such a construction would
make ignorance of the law a valid defense and substitute -some subjective standard whereby actual
knowledge of statutory language by a shipper would have to be established before a violation under this
section could be found. Congress did not intend to impose such a novel evidentiary requirement."
Pacific Far East Lines - Alleged Rebates to Foremost Dairies, Inc., et al., 11 F.M.C. 357, 363-364 (1968).
"[T]he term 'knowingly' imports merely perception of the facts necessary to bring the questioned
activity within the prohibition of the statute. The term does not require as part of its meaning that there
necessarily be knowledge or awareness that such activity is in fact prohibited." Union Petroleum Corp. v.
United States, 376 F.2d 569, 573 (10th Cir.1967).
The Commission has determined that the "term 'willfully' means that respondent purposely or
obstinately intended to perform the unlawful act not necessarily that it did so with the intent of
maliciously breaking the law." Shipman Int'l (Taiwan) Ltd.- Possible Violations of Sections 10(a)(1) of the
Shipping Act of 1984, 28 S.R.R. 100, 109 (AU 1998). Moreover, an NVOCC or an OTI is obligated to
"educate itself through normal business resources, and repeated failure to do so may indicate that it is
acting 'willfully and knowingly' within the meaning of the statute." Stallion Cargo, Inc. - Possible
Violations of Sections 10(a)(1) of the Shipping Act of 1984, 29 S.R.R. 665,683-84 (FMC 2001).
The Respondent has in different pleadings and filings, over the course of this litigation,
mentioned that she has been operating as an OTI since 2011. Surely, the Respondent suspected or
reasonably should have known that accepting money from a client and then forwarding the client's
cargo without paying for ocean freight is a violation of the law. Moreover, on April 5, 2019, the
Complainant cautioned the Respondent that TROY's agent CP World is alleging that by not paying ocean
and shipping, the Respondent is engaging in "shipping fraud." See Complainant's exhibits 18 & 22. In
response to an email the Respondent inquired, "Troy said I am engaged in a shipping fraud?" Here the
Respondent is acknowledging that her failure to pay ocean freight entails an inference of. unlawful
conduct such as fraud.- Despite this the Respondent obstinately and recklessly continued to fail to pay
ocean freight even after an inference of fraud was made against her. See Complainant's exhibit 21.
As used in the plain reading of the statute, the term "knowingly" requires only that the person
acted with knowledge of the misconduct. See United States v. Lange, 528 F.2d 1280, 1287-89 (5th Cir.
1976). As in other situations, to commit an act "knowingly" is to do so with knowledge or awareness of
the facts or situation, and not because of mistake, accident or some other innocent reason. See Fifth
Circuit Pattern Jury Instructions, § 1.35 (1990). Knowledge of the actual statute governing the

0290

misconduct is not required. The action need not be made with an intent to violate the law. Reckless
disregard of whether a conduct is unlawful, or a conscious effort to avoid learning that the action is a
violation of the law, can be construed as acting "knowingly." United States v. Evans, 559 F.2d 244, 246
(5th Cir. 1977), cert, denied, 434 U.S. 1015 (1978).

Proof that the defendant acted with reckless

disregard or reckless indifference may therefore satisfy the "knowingly" requirement. See United States
v. Schaffer, 600 F.2d 1120, 1122 (5th Cir. 1979).
The term "willfully" means no more than that the forbidden act was done deliberately and with
knowledge, and does not require proof of evil intent. McClanahan v. United States, 230 F.2d 919, 924
(5th Cir. 1955), cert, denied, 352 U.S. 824 (1956); McBride v. United States, 225 F.2d 249, 255 (5th Cir.
1955), cert, denied, 350 U.S. 934 (1956). An act is done "willfully" if done voluntarily and intentionally
and with the specific intent to do something the law forbids. There is no requirement of showing evil
intent in order to prove that the act was done "willfully." See United States v. Gregg, 612 F.2d 43, 50-51
(2d Cir. 1979); American Surety Company v. Sullivan, 7 F.2d 605, 606 (2d Cir. 1925)(Hand, J.); United
States v. Peltz, 433 F.2d 48, 54-55 (2d Cir. 1970),cert, denied, 401 U.S. 955 (1971) (involving 15 U.S.C. §
32(a). See also 1 E. Devitt, C. Blackmar, M. Wolff & K. O'Malley, Federal Jury Practice and Instructions, §
17.05 (1992).
The Respondent has been a defendant in a civil litigation involving matters that broadly cover
the scope of the numerous Shipping Act violations. Madhu Sameer v. The Right Move, Michelle FrankUn,
et al., No. 18-16046 (9th Cir. 2019). As such the Respondent must have known or reasonably should
have known her obligations under law with regards to paying for ocean freight after accepting money
from the Complainant.
-

■*»

•

Furthermore, the Respondent has refused to provide the Complainant with communication
records between the Respondent and TROY Container Line, Ltd.
Complainant's discovery.

See Respondent's response to

The Respondent was able to convince and induce TROY to transport

Complainant's cargo without prepayment. This communication where the Respondent convinces and
induces TROY to ship without prepayment would have revealed that the Respondent acted knowingly,
willfully and deliberately. This fact is supported by Respondent's failure to respond to Complainant's
discovery: Request for the Production of Documents 1 and 2.
To justify why Respondent failed to pay ocean freight charges, the Respondent falsely claimed
that she paid a third party to pay TROY for ocean and shipping. The Respondent made up this fictitious
story to try and convince the Complainant to pay ocean and shipping dues in Karachi, so she could keep
the ocean and shipping charges for herself. It is highly unlikely and would have been unreasonable for
the Respondent to pay a third party when all she had to do was pay TROY directly. This demonstrates
that the Respondent knowingly and willfully acted in bad faith and deceit showing utter disregard for
the law.

See Complainant's exhibits 23 and 24. This fact is also supported by Respondent's failure to

respond to Complainant's discovery: Request for the Production of Documents 6 through 9 and
interrogatories 2 through 11.

0291

In this case, the Respondent knew the gravity of the situation involving non-payment of ocean
freight by the Respondent, but simply chose to disregard the law and her actions readily meet the
requisites for acting knowingly and willfully as those terms are understood by the courts and the
Commission.
(b) Uniust or Unfair Means
The element of unjust and unfair means has been clarified by 46 CFR § 545.2 which states in
pertinent part that "an essential element of the offense is use of an unjust or unfair device or means. In
the absence of evidence of bad faith or deceit, the Federal Maritime Commission will not infer an unjust
or unfair device or means from the failure of a shipper to pay ocean freight. An unjust or unfair device or
means could be inferred where a shipper, in bad faith, induced the carrier to relinquish its possessory
lien on the cargo and to transport the cargo without prepayment by the shipper of the applicable freight
charges."

...

There is an abundance of evidence in the record that establishes fraud and deceit by the
Respondent. In February 2019, the Respondent knew or reasonably suspected that her company may
close soon, but failed to disclose this material information to the complainant when they entered into
an agreement. In an email to the Complainant dated April 9, 2019, the Respondent stated that "the
booking was done under another company license, because I knew we may get to the point we have to
close." See Complainant's exhibit 27.

This is evidence of bad faith, fraud and deceit.

This was a

deliberate act of omission by the Respondent who knowingly and recklessly misled the Complainant just
to obtain Complainant's business. This information was material because had the complainant known
that the respondent's company may "have to close," he would not have entered into an agreement with
the respondent, nor would have sought respondent's services. Furthermore, the booking was done
under another company's license, which was not relayed to the complainant prior to the agreement,
even though in all the correspondence, the respondent used her company's credentials.
The Respondent was required to pay TROY port of loading and ocean freight shipping charges,
and by failing to pay TROY; the Respondent in bad faith, breached the shipping agreement between the
Complainant and the Respondent. All Respondent had to do was pay $1040.00 to TROY via credit card,
money order, cashier's check, money transfer or a regular check. The Respondent had already received
$2595.00, so she had the money to pay TROY, but failed to-do so in bad faith.

The Respondent

knowingly, willingly, acting in bad faith and for monetary gain did not pay TROY Container Line, Ltd, the
ocean freight charges despite being paid $2595.00 by the Complainant. See Complainant's exhibits 1 and
8. This fact is also supported by Respondent's failure to respond to Complainant's discovery: Request for
the Production of Documents 1 through 9 and interrogatories 2 through 11.
The Respondent in bad faith, using unfair means and unfair device encouraged TROY Container
Line, Ltd, to collect ocean freight payment from the Complainant on the ground in Karachi, Pakistan, so
she would not have to pay TROY in order to profit from this arrangement. This fact is supported by

, / 0292

Respondent's failure to respond to Complainant's discovery: Request for the Production of Documents 1
and 2. See also Complainant's exhibit 8.
Despite not paying Ocean Freight dues, from April 5, 2019 until April 10, 2019, the Respondent
in bad faith continued to deceitfully claim via email that she had paid the shipping dues albeit via a third
party and that the payment should clear soon. However, when requested by the Complainant, the
Respondent in bad faith did not provide any evidence of payment and stated in an email that, "I paid the
fees you have to believe me." See Complainant's exhibits 23 and 24. This fact is also supported by
Respondent's failure to respond to Complainant's discovery: Request for the Production of Documents 6
through 9 and interrogatories 2 through 11.
The Respondent acting in bad faith falsely claimed that she paid a third party to pay TROY for
ocean and shipping. The Respondent made up this fictitious story to try and convince the Complainant
to pay ocean and shipping dues in Karachi, so she could keep the ocean and shipping charges for herself.
It is highly unlikely and would have been unreasonable for the Respondent to pay a third party when all
she had to do was pay TROY directly. This demonstrates that the Respondent knowingly and willfully
acted in bad faith and deceit.

See Complainant's exhibits 23 and 24.. This fact is also supported by

Respondent's failure to respond to Complainant's discovery: Request for the Production of Documents 6
through 9 and interrogatories 2 through 11.

■a

<&■

The Complainant made non-credible, inconsistent and deceitful claims about ocean payment.
In emails to the Complainant, the Respondent claimed that she paid the ocean to a

,;'v^

"third party" who in turn was going to pay TROY; and that for some unknown reason the
"third party" never paid TROY, but issued a refund to the Respondent.

See

Complainant's exhibits 23, 24, 28 and 33.
ii.

In her official Response to the Complaint, the Respondent told the Honorable Jydge that
"the payment that was submitted was applied towards an old shipment that-was still
pending." It is to be noted that in her official response to the complaint, the Respondent
made no mention of a "third party" that was used to pay TROY. See Respondent's

iii.

response to the complaint dated 8/13/19.
Finally in her response to Complainant's discovery, the Respondent admitted that "the
Ocean was not paid. That is agreeable." See Respondent's response to Complainant's „
discovery.

The Respondent's contradictory statements here are clear evidence of deceit and bad faith. This fact is
also supported by Respondent's failure to respond to Complainant's discovery: Request for the
Production of Documents 1 through 9 and interrogatories 2 through 11.
During this time the Respondent in bad faith repeatedly made false and misleading statements
about making payment to the Complainant.
i. On April 5, 2019, the Respondent stated in an email that "I talked to the
company and they are sending the payment today, but it may take a few days.
See Complainant's exhibit 24.

0293

- -

x-»■

ii. On April 9, 2019 the respondent stated in emails:.
■ a.

"The company I paid the money to, needs to know if to refund
me, so I can refund you." See Complainant's exhibit 28.

b.

"I strongly suggest you pay directly and I will refund you,
probably no late than Friday." See Complainant's exhibit 30.

c.

"I have been asking them to pay it for the last 4 days, they
should be able to pay it today or tomorrow." See Complainant's
exhibit 32.

iii.

On April 10, 2019 in another email the respondent stated, "I am confirming that
the money was sent back to me, and I should be able to pay by Friday." See
Complainant's exhibit 33.

iv.

On April 17, 2019 the respondent stated, "I will send you a refund shortly." See
Complainant's exhibit 34.

v.

On April 19, 2019 the respondent stated that "the payment will be concluded in
a day or 2, of couse I will try to pay as much as I am rsonsible for."

See

Complainant's exhibit 35.
vi.

On May 30, 2019, the Respondent stated, "a wire of $1025 was initiated
yesterday. You should have the payment tomorrow in the bank account you
have provided. The amount is the ocean cost that we failed to pay in time."
This was clearly a false statement made knowingly, willfully and in bad faith
because a wire transfer was never initiated by the Respondent. See
Complainant's exhibit 36.

The Respondent profited financially by not paying ocean and shipping charges to TROY
Container Line. Ltd. The Complainant paid the Respondent $2595.00, from that amount the Respondent
was to pay TROY Container Line, Ltd. $1040.00.

Because the Respondent did not pay TROY, the

Respondent was able to profit financially in the amount of $1040.00. This fact is undisputed that the
Respondent did not pay TROY for ocean and shipping nor did the Respondent pay Complainant. This
fact is also supported by Respondent's failure to respond to Complainant's discovery: Request for the
Production of Documents 1 through 9 and interrogatories 2 through 11.
On August 13, 2019, the Respondent - in bad faith - made false statements to the Honorable
Judge. In the Respondent's, 8/13/2019, response to the Complaint, the Respondent claimed that "Mr.
Rana was one of the last few customers we had to finish before we chose to close the company and
surrender our FMC license." This was a false statement because the respondent did not voluntary
surrender her license. According to the Commission website, the respondent's license was revoked
because of failure to maintain a valid bond. 'On the website page, in a long list of OTI's who voluntarily
surrendered their license, the Respondent's license is listed as being revoked. Clearly the Respondent
must have known about the revocation, but chose to willfully, knowingly and in bad faith lie about it to
the Honorable Judge. See https://www.fmc.gov/oti/revocations-july-12-2019/. See also Complainant's
exhibit 37.

*

0294

On 8/13/2019, the Respondent also told the Honorable Judge that "finally Mr. Rana provided
me a family member bank details to wire .the money."

This is clearly a false statement made

deliberately by the Respondent to mislead the Honorable Judge. Complainant never provided a family
member's bank details to the Respondent. The Complainant provided the Respondent with his bank
details at least twice. See Complainant's exhibits 25 and 26. Furthermore, in an email dated May 30,
2019, the Respondent told the Complainant that "you should have the payment tomorrow in the bank
account you have provided."

Clearly, here the Respondent is acknowledging that she had the

Complainant's bank details. See Complainant's exhibit 36.
On 8/13/2019, the Respondent also told the Honorable Judge that "Shipment arrived on April 3,
On April 5th customer agreed to pay the ocean at destination, but only paid it on April 10 resulting in
additional delays."
1) Here first the Complainant would like to point out that the Respondent on March 13,
2019 told the Complainant in an email that the "shipment is due in Karachi by April 3."
See Complainant's exhibit 38.

However, the shipment actually arrived in Karachi on

March 31, 2019. See Complainant's exhibit 39.
2) Second the Complainant never agreed to pay ocean on April 5, 2019 as falsely alleged by
the Respondent. The Complainant only agreed to pay the ocean in Karachi on April 9,
2019, after being offered to do so by TROY's agent C.P World. See Complainant's exhibit
8. The Complainant did so under duress in order for C.P World to release Complainant's
belongings of sentimental value and important documents released, that were in the
cargo being withheld by C.P World. See Complainant's exhibit 40.
On 8/13/2019, the Respondent also told the Honorable Judge that "Mr. Rana kept asking me to
pay his port fees, which are excluded and would have applied regardless." The Complainant, vyould like
to point out that this is another false statement made by the Respondent in bad faith, because never
has the Complainant ever asked the respondent to pay port fees. The Complainant paid the port fees
out of pocket and is not asking for the port fees in this Complaint either. Also the Complainant never
asked for demurrage before this complaint and never did the Respondent offer to pay some of the
demurrage prior to settlement discussion in November 2019. See Complainant's exhibit 40.
Complainant's Proposed Facts 6, 8, 9, 12, 13, 14, 25, 26, & 27, all establish bad faith, deceit or
fraud by the Respondent. This coupled with the fact that the Respondent was in default during the early
stages of this Complaint and has failed to honor Complainant's discovery all point to Respondent
employing unjust and unfair means in order to get out of paying for Complainant's ocean freight.
Even assuming arguendo there was no fraud of deceit present, the element of 'unfair and unjust
means' is satisfied by the fact that TROY transported Complainant's cargo without prepayment from the
Respondent. For this to happen, the Respondent must have convinced and induced TROY to transport
cargo without prepayment.

Consistent with 46 CRF § 545.2 the act of inducing TROY to transport

Complainant's cargo without prepayment establishes unfair and unjust means. This fact is supported by

0295

Respondent's failure to respond to Complainant's discovery: Request for the Production of Documents 1
and 2.
(c) Obtain Transportation for Property at Less than the Properly Applicable Rates
The Respondent has already admitted to this element and acknowledged that "ocean was not
paid, that is agreeable." See Respondent's response to Complainant's discovery.
The evidence in the record is sufficient to establish that the Respondent knowingly and willfully
obtained transportation for Complainant's property at less than the properly applicable rates, by unjust
or unfair device or means. Considering the totality of the circumstances, including Respondent's failure
to honor Complainant's discovery, the Complainant has established by a preponderance of the evidence
that the Respondent violated 46 USC 41102(a) when it continued to failed to pay for Complainant's
ocean freight.
III.

Complainant's Damages and Monetary Losses
Respondent's failure to pay the ocean freight set in motion a series of events and circumstances

that caused financial damages / losses to the complainant. See Complainant's exhibit 41 page 3.
The complainant had to additionally pay, TROY's agent CP World, out of pocket $1,107.97
(157,000 Rupees) owed by the respondent to get the cargo released. See Complainant's exhibit 8 and 9.
The complainant had to pay an additional $55.00 per day container demurrage / detention
charge for 17 days (April 7th through April 23rd), a total of $935.00 (132,536.00 rupees); this was
beyond the 7-day free time, because of the delay caused by the respondent's failure to pay ocean
freight. See https://www.maersk.com/en/local-information/pakistan/import. See also Complainant's
exhibits 10,11,12,13 and 41 page 3.
The complainant had intended to stay in Karachi for only 3 nights for the customs clearance
process. However, due respondent's failure to pay the shipping, the complainant had to stay at a hotel
in Karachi for additional 18 nights, and pay a total of 388,500 Rupees in hotel lodging at a rate of 18,500
rupees per night. For the additional 18 nights lodging the total comes out to 333,000 rupees or
$2,350.03. See Complainant's exhibit 14 and 41 page 3.
The complainant had to.pay taxi charges at the least in the amount of about $7.76 (1100
Rupees) per day or $116.40 for 15 days to get to and from MAERSK Office, CP World Office, Western
Union, Port Qasim and hotel etc.
The complainant had intended to stay in Karachi for only 3 days. However, due respondent's
failure to pay shipping, the complainant had to stay at a hotel in Karachi for additional 18 days resulting
in meals and incidental expenses (M&IE) incurred by the complainant. According to the U.S State
Department the M&IE rate set for Karachi is $82 per day. The total M&IE comes out to 18 X $82 =

'

0296

$1,476.00. See

. .

•

https://aoprals.state.gov/web920/per diem action.asp?MenuHide=l&CountrvCode=1166
In April 2019, the price of dollar in the open market against the rupee fluctuated between 141
to 142 rupees per dollar. Therefore, the exchange rate used in this calculation is 141.70 rupees per
dollar, which was also the rate used by MAERSK shipping company. See Complainant's exhibit 41, page
3.

$1,107.97
Respondent's shipping dues paid by the complainant
$935.00
Container charges caused by respondent's delay
$116.40
Complainant's taxi charges
$2,350.00
Complainant's lodging for 18 nights in Karachi
$1,476.00
Complainant's M&IE for 18 days in Karachi
Total Compensatory Damages/ Losses: $5,985.40
The Commission has the legal authority to grant the complainant the relief sought pursuant to
Commission rules; based on authorities granted to the Commission under 46 U.S.C. § 41102(a)

v
The Complainant did not know about the eligibility filing a claim against the Respondents surety
bond until recently. In April 2019, the Complainant after thorough research of commission's website
decided that the best option left for the Complainant is to file a Formal Complaint. Hence, the T:

*

Complainant has not filed a claim against Respondent's surety bond, nor does the Complainant know
how to file a claim against a surety bond.

IV.

Respondent's Personal Liability: Piercing the Corporate Veil
V

The circumstances present here reflect the classic conditions when it comes to the applica|ion of
Piercing the Corporate Veil doctrine. In this case Michelle Franklin was the sole owner of the The Right
Move, Inc, she operated this company under her personal supervision and control and participated in all
their activities. There is no evidence that The RightMove, Inc has a separate bank account. Based on
the record the Respondent used her personal bank account, and commingled funds in company and
personal accounts. Michelle Franklin's use of The Right Move, Inc, plainly shows that it was simply an
extension of herself. See Complainant's exhibit 3; these facts are also supported by Respondent's failure
to respond to Complainant's discovery: Request for the Production of Documents 10 through 15.
Imposition of personal liability on the person Michelle Franklin is applicable based on case law. See
Williamson v. Recovery Ltd. P 'ship, 542F.3d 43, 53 (2nd Cir. 2008); Ariel Mar. Group. Inc.,24 S.R.R. 517,
530 (1987).
The federal standard for when it is proper to pierce the corporate veil is notably imprecise
and fact intensive. Bd. of Locomotive Engineers v. Springfield Terminal Ry. Co., 210 F.3d 18, 26 (1st Cir.
2000); Note, Piercing the Corporate Law Veil: The Alter Ego Doctrine Under Federal Common Law, 95
Harv. L. Rev. 853 (1982). Among the factors the Commission has considered in piercing the corporate
veil are: "the nature of the corporate ownership and control, the failure to maintain adequate corporate

0297

•;

records and minutes and the failure to follow corporate formalities, including the approval of stock
issues by an independent board of directors." Rose International, 29 S.R.R. at 166; Ariel Mar. Group, Inc.,
24 S.R.R. 517,530 (FMC 1987).
The respondent does business as "The Right Move, Inc" and based on the record, it is hard to
distinguish between the company and the Respondent. The Respondent Michelle Franklin during the
course of her transactions with the complainant acted at the owner, director, representative, sole
spokesperson to the point that a distinction could not be drawn between the Right Move Inc and the
Michelle Franklin. The Respondent in this case is "Michelle Franklin doing business as The Right Move
Inc." Clearly based on the record there is no distinction here because of the complete control Michelle
Franklin had over every single transaction, to the point no corporate formalities existed.
The most powerful evidence here that pierces the corporate veil beyond any doubt is the fact that
the Respondent used her personal bank account to receive payment in the form of a wire transfer. On
February 13, 2019, the respondent told the Complainant to wire transfer payment to her personal bank
account which was under her name "Michelle Franklin." On February 14, 2019, the money was
transferred to respondent Michelle Franklin's personal account. See Complainant's exhibit 3.
The record establishes that the Respondent Michelle Franklin is or was the sole owner of The Right
Move, Inc. See Respondent's response to Complainant's discovery, document request 12. The record
also establishes that from February 2019 to date, the person Michelle Franklin has been and still is the
sole spokesperson, representative, owner, advocate and employee of The Right move, Inc.
The Right Move Inc has failed to observe corporate formalities in terms of documentation. This fact
is supported by Respondent's failure to respond to Complainant's discovery: Request for the Production
of Documents 10 through 15.
The assets and finances of the person Respondent Michelle Franklin and The Right Move Inc, inter­
mingled on a normal and routine basis. The assets and the finances of the Right Move Inc and the
person Michelle Franklin are or were one and the same. See Complainant's exhibit 3. This fact is
supported by Respondent's failure to respond to Complainant's discovery: Request for the Production of
Documents 10 through 15.
The Right Move Inc is not a separate entity from Michelle Franklin, and that The Right Move Inc, is
or was taxed through Michelle Franklin's personal tax returns. This fact is supported by Respondent's
failure to respond to Complainant's discovery: Request for the Production of Documents 13 through 15.
The person Michelle Franklin treated the funds and assets of the Right Move Inc as her own. See
Complainant's exhibit 3. This fact is supported by Respondent's failure to respond to Complainant's
discovery: Request for the Production of Documents 13 through 15.

The Right Move Inc, was being

used by Michelle Franklin as a facade for her personal financial dealings and not as a separate corporate
entity. See Complainant's exhibit 3. This fact is supported by Respondent's failure to respond to
Complainant's discovery: Request for the Production of Documents 10 through 15.

0298

This coupled with the fact that the Respondent engaged in fraud, deceit, omission and concealment
establishes that the Respondent is personally liable for damages and monetary losses incurred by the
Complainant. Therefore, the respondent should be held personally liable in as much as is recoverable
from respondent's personal assets, beyond the respondent's surety bond.

V.

RELIEF SOUGHT

The complainant requests the Commission to issue a summary judgement if possible or hold a
hearing if required. The complainant prays that the Commission rules against the Respondent as
follows:
a.
b.
c.
d.
e.

Enter a judgement that the acts and practices of the respondent were in
violation of 46 U.S. Code § 41102(a).
Award the complainant $5,985.40 in compensatory damages / losses.
Award the complainant $73.00 international mail and courier charges used
in filing this complaint from Pakistan.
Award the complainant $2595.00 in restitution.
Issue further order(s) as the Commission determines to be proper.

Respectfully submitted by,

.-

\
fc/lutMffri'mad J.Rana (Complainant)
I hereby certify that, on February 26, 2020, a copy of the foregoing attached Motion was sent to the
following by the method indicated below:

FMC Administrative Judge
Erin M. Wirth

VIA UPS: Federal Maritime Commission
800 North Capitol Street, N.W
Washington, D.C 20572
Electronic Mail: judges@fmc.gov

Michelle Franklin
D.B.A The Right Move, Inc.

VIA Electronic Mail:
mfranklin@therightmove4u.com

Mutu>ffmnad J.Rana (Complainant)

0299

Federal Maritime Commission Washington DC
Office of Administrative Law Judges
Mohammad Rana,
Complainant
V.
Michelle Franklin
The Right Move, Inc
Respondent

}
}
}
}
}
}
}

Docket No, 19-03

Date : March 22, 2020

BEFORE: Honorable Erin M. Wirth, Administrative law Judge,

Respondent's Proposed Findings of facts.

The respondent finding of facts is separated to 3 parts:
1. Facts by respondent.
2. Answering the finding of facts of the complainant,
3. Madhu Sameecase.

The below are the fact that the respondent find relevant to the case.

02/04/20191 have provided Mr. Rana a quote for door to port service with self-loading Total
$2,595.00
02/05/2019 Mr. Rana accepted the terms and conditions or agreement, for door to port only
service.
02/06/20191 have provided Mr. Rana self-loading instructions, including how to properly write
an Inventory list so it can be declared on the SOL.
02/07/20191 have provided Mr. Rana his Ocean vessel details and schedule.
02/14/2019 Mr. Rana paid his shipping costs.
02/15/2019 Mr. Rana Loaded the container.

0300

03/12 /2019-1 requested a proper inventory list, as it was not received yet. Advised the
customer that the shipment is due to arrive on April 3rd, and In order for me to share the BOL
with him, I need the proper Inventory list and consignee info.
03/25/2019 - Mr. Rana still didn't provide proper details for the BOL, so I sent a reminder.
03/27/2019 - we concluded the Inventory list as Mr. Rana kept adding items to it.
03/28/2019 - Mr. Rana advised that he hired an agent to assist with the custom clearance and
the process in Pakistan, and Asked to change the Bill of lading again to reflect that, -an agent
should have been involved much earlier in the process as Custom clearance in Pakistan is no
joke.
03/31/2019 - Mr. Rana started his verbal abuse and threating because he failed to understand
that changing a BOL, especially last minute is out of my hands, and take the SSL few days to
process. (Please see respondent exhibit 5.}
04/04/2019 Mr. Rana requested additional changes to the Bill of lading, and I have submitted
the changes and sent him a house BOL as well to expedite the process. (please see respondent
Exhibit 6.)
04/05/2019 -1 was informed that the freight was on hold, and It seems as the payment that
was submitted was applied towards an old shipment that was still pending.
04/05-09/2019 -I had advised the customer, that he should pay directly at destination , and he
has two options, wait few days to be compensated by the company, or file a claim against the
company bond (I have provided him with the claim form, the FMC details etc to make sure he
understand his options). I wanted him to know we take full responsibility.
04/10/2019 Mr. Rana confirmed he paid the ocean directly.
04/15/2019 - Follow up E-mail form myself to Mr. Rana to make sure all is going well for him.
Exhibit 7.
05/01/2019 - another Follow up E-mail form myself to Mr. Rana to make sure all is going
well for him. Exhibits.
05/02/2020 - Learning by E-mail, that Mr. Rana submitted a claim with the FMC.

0301

i

The respondent answers to the complainant finding of facts:

The respondent also chooses to partially reply and ignore most of the
complainant "findings" as they are not only ridicules, but they are completely
irrelevant to the case or its outcome, and most important are based on the
complainant assumptions , rather than actual facts , or knowledge !

7. "The respondent somehow convinced and induce Troy to transport cargo without
prepaymentComplainant has no knowledge what so ever of how the shipping process works,
and assume the respondent needed to do something out of the ordinary to get the container to
depart, which is obviously nonsense.
10. " The respondent in bad faith, deliberately mislead and misinformed the complaint about
the arrival date " the respondent provided the complainant with the name of the carrier, and
vessel prior to loading (see Exhibit 9) had the complainant or his agent were familiar with
basic shipping knowledge they would have known they can track the shipment online, In fact,
they should have tracked the shipment online from the beginning considering this was a door
to port service only.
28. "The respondent Profited Financially by not paying ocean " the respondent knew all along
her personal responsibility towards that payment, and offered the complaint to claim it against
her bond prior to him duplicate paying it. (Complainant Exhibit 23}

29. a . " The respondent in Bed faith - made false statements about her intentions to close the
company " unless the complainant is a mind reader not sure how he will know or not know
about my own personal and business intentions ? such statement is absolutely irresponsible
and ridiculous! The alleged response was done on August 13,2019, the respondent provided
proof of her intentions (respondent Exhibits 1 & 2.) which are dated earlier.

31. -37 -The complainant try to build a case against the respondent for violating the FMC laws,
The FMC is the body who grant the respondent her license upon proper consideration and
fulfilment of all that is needed, including prof of cooperation, bond and tariff. Had the
respondent was trying to avoid paying the ocean costs, because her Company is closed and she
is protected by her corporation's laws, she could understand such accusations and maybe
willing to cooperate, But since the respondent again and again expresses her personal liability
through her bond, it's irrelevant as the respondent will end up paying it from her personal
account! So, not only these assumptions arg jjgyxue ! they are irrelevant.

44, "The complainant had intended to stay in Karachi for Only 3 days " - in no country in the
world you can finish custom clearance in 3 days, not even the super easy ones. How the
complainant knew it will take only 3 days? while he doesn't even know what a Bill of lading is
(Exhibit 4 bottom part) or that he could track the shipment online all along ?

Madhu Sameer; (Exhibits 10 -16)
There is so much to say about this case, but in short, Ms. Sameer asked to ship a 40 FT
container, and signed an agreement for it in June 2015. Her pick up took 19 hours instead of
the normal 8-10 hours, which in the process she cooked lunch /dinner for her kids, went
shopping for a printer leaving her 2 minor kids at home with strangers (the movers) and even
went to sleep for 5 hours. This resulted in the movers not receiving proper instructions of
loading priority and the last few hours of the move, Ms. Sameer asking the movers to unload
and load again and again different items that she wanted to take with her, in an attempt to
make it all fit.
This Ended up with the movers leaving after 19 hours (at 4 AM after none stop work) and us
sending another crew the next day to take the "left Overs" and try and switch with what is
already in a super full container. The customer had 5 days window prior to us shipping the
container and we asked her to come to our warehouse to be present at time of exchanged., but
she never made it. that resulted in us having to return the full container to the port for
shipping to avoid detention fees, and the fact that she now has a second shipment in our
warehouse which she doesn't want to pay for, needless to say she wanted us to ship it for free,
I offered to return it to her house for free, or ship to the port only for free As the costs to me
were the same and I wanted to help !

-t
.1
*

To date I still don't understand her logic, and what exactly happened! Other than the fact Ms.
Sameer had no money to pay, and never had any intentions of paying for her shipment.
All I know she refused to pay her contract amount, we asked for the agreed amount only there
was nothing different! Regardless to how much we tried to explain to her with the FMC
assistance, nothing, she refused to listen to anyone !
I kept offering her that I will pay for a lawyer consolation for her for free, cause she kept saying
she has no money.
Time has passed, the container arrived, and the customer had no understanding of what about
to happen in terms of storage and demurrage, regardless to how much we tried to warn her.
Since the shipment was consigned to an agent, Ms, Sameer decided to pay the agent directly in
order for them to help her in New Zealand. The agent chose to accept her paying, despite my

0303

request to not get involved, and released the shipment even though it was on hold by the
steamship line .
At that point, I was letting it all go, 1 figured if she found a way, I will not stand in her way!
1 lost money, a lot of money as I needed to pay the Movers, ocean and trucker, but the time
spent was costing even more and I was just ready to put it all behind !

But the universe had different plans for Ms. Sameer,
Upon collecting her shipment and placing the shipment in their warehouse, the agent occurred
port charges, which the customer didn't have money to pay. I only found out all these later on,
when on Dec 23, 2017 the agent from New Zealand advised us of Ms, Sameer intentions to sue
everyone in the process, SSL, Movers, The Right Move, Insurance company etc.
Since we were never properly summoned, we didn't get a chance to be involved, and the case
was terminated in May 22, 2018.
Ever since Ms. Sameer who's entire " life" is still in storage in New Zealand somewhere, and can
never have access to it unless she fully pay it, is trying all she can, including an insurance fraud.
Needless to say, this person is so hurt and has nothing to lose a this point, so she will go and try
to hurt everyone along the way, whether its right or not, its irrelevant.
I find it disturbing that the complainant base some of his accusations on "facts" he found
online!

Middle (Michal) Franklin

0304

Appendix G4

•f *

■$

■4
,$■

4
=V.’.

0305

FEDERAL MARITIME COMMISSION
Office of Administrative Law Judges
Muhammad Rana, Complainant
DOCKET NO. 19-03

v.
Michelle Franklin, D.B.A. “The Right Move” Inc.,
Respondent.
Served: May 12, 2020
BEFORE: Erin M. WIRTH, Chief Administrative Law Judge.
Initial Decision
I.

INTRODUCTION
A.

Overview and Summary of Decision

Complainant Muhammad Rana filed a complaint in this proceeding alleging violations of
the Shipping Act of 1984 (“Shipping Act”) for failure to pay shipping fees for a shipment of
household goods from the United States to Pakistan. Respondent Michelle Franklin,- doing
business as The Right Move, Inc. (“The Right Move”), admits that she failed to pay the ocean
shipping charges, blaming problems with prior shipments, but disputes that the failure was
willful, that she violated the Shipping Act, and the request for damages. Both parties in this
proceeding acted pro se, representing themselves.
Respondent refused to fully participate in discovery, participating enough to avoid a
dismissal or default but not enough to provide meaningful information to Complainant. Because
Respondent only selectively responded to discovery requests, Complainant was permitted to rely
on her lack of response as factual support for his case. This unique procedural posture
distinguishes it from other cases.
As discussed more fully below, the evidence supports a finding that Respondent violated
section 41102(a)’(formerly 10(a)(1)) of the Shipping Act by utilizing unjust or unfair means to
obtain ocean transportation at less than the rates that otherwise would be applicable.
Complainant withdrew an additional claim of a violation of section 41102(c) based in part on
online complaints regarding Respondent, stating that the “new and revised rules surrounding the
i

This initial decision will become the decision of the Commission in the absence of review by
the Commission. Any party may file'exceptions to this decision within twenty-two days of the
date of service. 46 C.F.R. § 502.227.'

v

0306

elements of 41102(c) make it overly burdensome to overcome, especially for a pro se
Complainant with no legal background.” Motion to Amend at 1.
B.

Procedural Background

On May 13, 2019, the Commission’s Office of the Secretary served a notice of filing of
complaint and assignment which required Respondent to respond to the complaint. A timely
response was not received from Respondent.
On June 10, 2019, Complainant filed a motion seeking an entry of default and summary
decision on default. On July 25, 2019, an order to show cause was issued. Respondent filed
limited responses by email and Complainant filed multiple motions. On October 30, 2019, an
order denying motions for default and summary decision, to strike, and to compel; discharging the
show cause order; and a scheduling order (“Order Denying Default and Summary Decision”) was
issued.
On January 6, 2020, an order was issued granting Complainant’s second motion to compel
and requiring Respondent to answer discovery by January 15, 2020. On January 15, 2020,
Respondent filed a response to discovery providing limited information and declining to provide
further details for information she deemed “irrelevant.” On January 23, 2020, Complainant filed a
motion seeking a finding of facts as a discovery sanction and moving for default decision and
rW
Respondent filed a response to the motion.
On February 6, 2020, an order was issued denying Complainant’s motion for finding of - >
facts and default decision but permitting Respondent’s failure to provide documents and answer ■.>
interrogatories to support an inference that those responses would have been adverse to her
interests. On February 12, 2020, an order was issued denying a motion for clarification.
ur
On February 26, 2020, Complainant filed his brief, proposed findings of fact (“CPFF”),
appendix (“C. App.”), and a motion to amend the complaint. On March 6, 2020, Complainant
«
filed a supplement to the motion to amend the complaint.
On March 17, 2020, Respondent filed her opposition brief and appendix with four
exhibits. On March 23, 2020, Respondent filed proposed findings of facts (“RPFF”) and an
expanded appendix with sixteen exhibits (“R. App.”).
On April 9, 2020, Complainant filed his reply brief. On April 9, 2020, Respondent sent
an email responding to the reply brief. Although typically not permitted, as Respondent is
unrepresented, the email will be treated as a sur-reply and will be admitted into the record. The
Office of the Secretary is hereby requested to include this email in the record as a sur-reply.
C.

Motion to Amend

The Complainant initially alleged a violation of 46 U.S.C. § 41102(c). On September 10,
2019, Complainant also alleged a violation of 46 U.S.C. § 41102(a). Respondent raised no
objections to the new allegation. The October 30, 2019, order granted the request to amend the
complaint to add the section 41102(a) claim. Order Denying Default and Summary Decision at 3.
2

0307

On February 26, 2020, Complainant filed a motion to amend the complaint, which states:
Complainant hereby requests the Honorable Judge to withdraw Complainant’s
allegation that the Respondent violated 46 USC 41102(c) from the Complaint.
The new and revised rules surrounding the elements of 41102(c) make it overly
burdensome to overcome, especially for a pro se Complainant with no legal
background.
Furthermore, Respondent’s failure to honor Complainant’s discovery
coupled with the fact that time for discovery is over, the Complainant has decided
not to pursue the allegation that the Respondent violated 46 USC 41102(c).
However, the Complainant will continue to pursue the claim and allegation in this
complaint that the Respondent violated 46 USC41102(a).
Motion to Amend at 1. Respondent did not object to the motion to amend.
Complainant initially argued that online complaints should be sufficient to establish that
Respondent’s conduct was a pattern or practice. Respondent’s refusal to fully participate in
discovery made establishing this claim more challenging for Complainant, particularly as one of
the few discovery questions she answered was a denial that prior section 41102(c) claims had
been filed against The Right Move. In addition, Complainant is aware that the Commission’s
standard for evaluating section 41102(c) complaints recently changed and that the question of
what evidence would be sufficient is developing. Complainant’s decision to withdraw his section
41102(c) complaint is reasonable and will be granted.
In the supplemental motion to amend the complaint, the Complainant requests a change
to the Respondent’s name in the Complaint.
The Respondent to date has not used her legal name in the Complaint
proceedings. The Respondent’s legal name is “Michal Franklin,” whereas
“Michelle Franklin” is a closely spelled alias. Therefore, the Complainant hereby
requests that the Respondent’s name be revised in the Complaint to reflect
“Michal Franklin A.K.A Michelle Franklin D.B.A The Right Move, Inc.”
Supplemental Motion to Amend at 1. Respondent did not object to the motion to amend.
According to the New York State Department of State, Division of Corporations, Entity
Information, The Right Move, Inc’s chief executive officer.is “Michal Franklin” and the filing
date is listed as Jan. 06, 2011, consistent with her FMC license, obtained in 2011.
https://appext20.dos.ny.gov/corp_public/CORPSEARCH.ENTITY_SEARCH_ENTRY.
Michelle Franklin also uses the first name Micah in some of the documents in the file.
Respondent’s Answer to Complainant’s Discovery Request (titled Motion to Compel) at 2. It
appears that the different spellings all refer to the same individual and Respondent did not
contest that she uses a different spelling ofher name. Accordingly, this decision applies to
Respondent, who also spells her first name as Michal and Micah.
3

0308

' Complainant’s motion to amend the complaint and supplemental motion to amend the
complaint are hereby GRANTED.
D.

Evidence

Under the Administrative Procedure Act (“APA”), an administrative law judge may not
issue an order “except on consideration of the whole record or those parts thereof cited by a party
and supported by and in accordance with the reliable, probative, and substantial evidence.”
5 U.S.C. § 556(d); see also Steadman v. SEC, 450 U.S. 91, 102 (1981). This initial decision is
based on the pleadings, exhibits, briefs, proposed findings of fact and replies thereto, and
appendices filed by the parties.
This initial decision addresses only material issues of fact and law. Proposed findings of
fact not included in this decision were rejected, either because they were not supported by the
evidence or because they were not dispositive or material to the determination of the allegations
of the complaint or the defenses thereto. Administrative adjudicators are “not required to make
subordinate findings on every collateral contention advanced, but only upon those issues of fact,
law, or discretion which are ‘material.’” Minneapolis & St. Louis R.R. Co. v. United States, 361
U.S. 173, 193-194 (1959). To the extent individual findings of fact may be deemed conclusions
of law, they shall also be considered conclusions of law. Similarly, to the extent individual .
conclusions of law may be deemed findings of fact, they shall also be considered findings of fact.
s;
The parties were advised that “OALJ issues decisions based only on the record in the
proceeding. See 5 U.S.C. § 556(e). If there is information available in a different office at the
Commission that a party wants considered, it is the party’s obligation to provide that information.”
Order Denying Complainant’s Motion for Finding of Facts and Default Decision at 3.
In addition, as previously explained to the parties:
Settlement discussions are not admissible under Federal Rule of Evidence 408.
This is, in part, because often in a settlement neither side obtains or pays what
they believe is the correct amount. Settlements are compromises and external
factors such as the likelihood of recovery, risk of an adverse ruling, and costs of
continued litigation impact settlement offers. These are not the factors that a judge
considers in ruling on the merits of the claim. Therefore, settlement offers are not
accurate measures of the value of a case and are generally not admissible. To the
extent that settlement offers or actions have been mentioned in filings, those
comments are stricken and not considered.
Order Denying Complainant’s Motion for Finding of Facts and Default Decision at 2-3.
E.

Arguments of the Parties

“Complainant contends that the evidence of record ... establishes that Respondent
knowingly and willfully by means of an unfair device obtained ocean transportation of property
at less than the rates or charges that would otherwise [be] applicable.” Complainant Brief at 1.
4

0309

Respondent admits that she failed to pay the ocean transportation costs and states that she
“took full responsibility” but claims that it was the Complainant’s “lack of knowledge that
created unnecessary issues time after time.” Respondent Brief at 3-4.
Specific findings of fact are set out in part two, analysis and conclusions of law in part
three, and the order in part four.
'
II.

FINDINGS OF FACT

1.

Complainant, Muhammad Rana, is an individual shipper who was temporarily relocating
his residence from Alexandria, Virginia, to Islamabad, Pakistan. CPFF 1.

2.

Respondent Michelle Franklin is the sole owner of The Right Move, Inc. Respondent’s
Response to Complainant’s Motion of January 23, 2020 (titled Motion for Finding of
facts alleged by the complainant and default decision- Response) at 3 (“As a sole owner
of a closed failed company , I also bare the debt of it.”)2

3.

During this shipment, The Right Move had no other employees. Respondent’s Answer to
Complainant’s Discovery Request (titled Motion to Compel) at 1.

4.

The Right Move was licensed by the Commission as an NVOCC (License No. 023229N)
in 2011. Respondent’s Answer to Complainant’s Discovery Request (titled Motion to
Compel) at 1; C. App. Ex. 37.

5.

Respondent’s NVOCC license was revoked by the Commission on July 4, 2019, for
failure to maintain a valid bond. C. App. Ex. 37.

6.

On February 4, 2019, Respondent provided Complainant a quote for door to port service
with self-loading for a total price of $2,595.00. CPFF 2; RPFF 1.

7.

On February 6, 2019, Complainant sent Respondent an email accepting the terms and
conditions and promising full payment by February 14, 2019. C. App. Ex. 2.

8.

Respondent provided Complainant a document titled “The Right Move Inc. ALL
AROUND THE WORLD International Moving Service Agreement,” (“Shipping
Agreement”) which Complainant signed and dated February 6, 2019. C. App. Ex. 1.

9.

The Shipping Agreement listed the service to be provided as a door to port movement by
20 ft container from Complainant’s residence in Alexandria, VA, on February 14, 2019,
to the port in Karachi, Pakistan, for $2,500, with free total loss insurance coverage of
$5,000 plus $95 documentation fee, totaling $2,595.00. C. App. Ex. 1.

Irregular spacing, punctuation, and spelling are maintained in quotes where possible throughout
the decision.
5

0310

10.

According to the Shipping-Agreement, the flat rate included shipping or ocean freight
charges from Alexandria, Virginia, to Port Qasim, Karachi, Pakistan. The flat rate also
included terminal handling or port of loading charges at origin. C. App. Ex. 1.

11.

The Shipping Agreement listed the transportation provider as: Right Move Inc., 150
Motor Parkway Suite # 401, Hauppauge, NY 11788; Registration: FMC # 023229N; and
Customer Rep: Michelle. C. App. Ex. 1.

12.

On February 7, 2019, Respondent sent Complainant an email stating that “your container
is booked,” identifying the carrier (Maersk), vessel name, voyage number, and indicating
that “We are all set for Feb 14 at 11 AM.” R. App. Ex. 9.

13.

On February 14, 2019, Complainant wire transferred $2595.00 into Respondent’s account
under the name Michelle Franklin. C. App. Ex. 3.

14.

On February 15, 2019, Respondent acknowledged receipt of the wire in an email. C. App.
Ex. 4.

15.

On February 15, 2019, Complainant loaded the container. RPFF 6.

16.

The Right Move Bill of Lading, dated February 27, 2019, listed Complainant as the
exporter/shipper and consignee; Right Move as the forwarding agent; CP World Co. Ltd.-s
(Karachi) as the destination agent; port of loading as Baltimore; port of unloading as Port
Qasim, Pakistan; and the container number as MSKU277849-7 “Said to contain 48 items
of used household goods and used personal effect. Ocean Freight prepaid, Express
release” and was signed by “THE RIGHT MOVE, INC., As Carrier.” C. App. Ex. 7.

17.

.iJ.
The Troy Container Line (“Troy”) bill of lading dated February 27, 2019, listed
Complainant as the shipper/exporter, consignee, and notify party; Right Move as the
forwarding agent; CP World Co. Ltd (Karachi) as the destination agent; port of loading as
Baltimore; port of discharge as Port Qasim, Pakistan; the description of packages and
goods as 20 ft container with 72 pieces of used household goods and personal effects and
the container number as MSKU277849-7. C. App. Ex. 6.

18.

Maersk was the vessel operating common carrier that transported Complainant’s
container from Baltimore to Qasim Port in Karachi, Pakistan. C. App. Ex. 7, 18-20.

19.

In an email dated March 13, 2019, the Respondent informed the Complainant that the
“shipment is due in Karachi by April 3.” C. App. Ex. 38.

20.

On March 25, 2019, Respondent sent Complainant an email requesting an inventory list,
final address, and local phone number for the bill of lading and stating that “All these
details must be on the bill of lading, or it will cause problems for you when the shipment
arrives” and indicating that “changing the docs will cost a fee, I am not charging
anything, it is the steamship line.” R. App. Ex. 4.

6

0311

21.

On March 25, 2019, Complainant responded by asking Respondent to “explain what you
meant by ‘changing the bill of lading at this time will cost a fee.’” R. App. Ex. 4.

22.

On March 30, 2019, Complainant sent an email to Respondent asking “Is the bill of
ladding ready?” and then sent another email asking how much free time he would have.
C. App. Ex. 16; R. App. Ex. 5.
,
'.

23.

The shipment arrived in Karachi, Pakistan, on March 31, 2019. C. App. Ex. 39.

24.

Complainant did not receive a copy of the bill of lading until after the shipment arrived.
C. App. Ex. 5, 16, 17.

25.

On March 31, 2019, Complainant emailed Respondent saying he needed the Bill of
Lading “ASAP.” C. App. Ex. 15; R. App. Ex. 5.

26.

On April 1, 2019, Complainant again emailed Respondent stating “I need the bill of
ladding today. I am leaving for Karachi tomorrow morning, the cargo is arriving day after
tomorrow. Please send the bill of ladding.” C. App. Ex. 15; R. App. Ex. 5.

27.

Later on April 1, 2019, Complainant emailed Respondent again, stating: “It appears you
are ignoring my requests. If I don’t receive my bill of lading timely, I will in a civil court
seek damages and costs incurred by me as a consequence of your company’s failure to
issue a timely bill of lading .... To avoid litigation please send me my bill of lading.”
R. App. Ex. 5.

28.

On April 2, 2019, Respondent sent an email to Complainant stating:
Sorry, I didn’t mean to be silent, I didn’t have proper access to the e-mail, I
regret to inform you that our company was target to shipping fraud, and as
result, we are forced to shut down as it put a huge financial burden on us .
Please see the old Bill of lading, I am waiting for them to revise it, but it
always takes few days, and because the shipment arrived, they may not be
able to do so . You may have to change it from your end, Please send me
your agent details, I would need to make sure he can help you ! I can issue a
house bill of lading , if that helps with the proper info , Just let me know
what your agent wants to do ?
- , .
C. App. Ex. 17.3

29.

On April 2, 2019, Complainant emailed Respondent saying “Sorry to hear about your
company troubles. I hope things work out for the best. My agent wants to know if I have
any ‘free time’? How many days can they keep my cargo without charge?” Respondent’s
email response filed October 1,2019, Ex. 3.
,
.■
.

Paragraph structure in quotes is not maintained throughout this decision.
7

: 0312

30.

On April 2, 2019, Complainant traveled to Karachi, Pakistan, from Islamabad, Pakistan,
to receive his cargo from Port Qasim, Karachi. The same day, he went to Maersk’s
shipping office in Karachi to check the status of the shipment and found out that the
shipment had arrived at port. He also found out that Troy’s delivery agent in Pakistan,
CP World, had placed a hold on the cargo because ocean freight/shipping charges had not
been paid by Respondent. He explained to the Maersk office that ocean freight was
prepaid, but Maersk’s representative asked to see an endorsement from CP World.
C. App. Ex. 41 (Affidavit).

31.

From April 3, 2019, onwards Complainant was repeatedly informed verbally by Troy’s
delivery agent that Respondent did not pay ocean freight shipping dues for his cargo and
as a result, the cargo could not be released until full payment was received from
Respondent. At first, Complainant did not believe the CP World representative and
thought that the representative was extorting money from Complainant because he was a
United States citizen. C. App. Ex. 41 (Affidavit).

32.

On April 4, 2019, Respondent emailed Complainant and stated “Changes to the bill of
lading will take a few days, ask your agent if a house bill of lading will help ? I can send
that right away at no cost.” R. App. Ex. 6.

33.

On April 5, 2019, Complainant sent Respondent a series of emails. The first one stated:
TROY Container Line has placed a hold on my cargo stating that you have
not paid them for the shipping and cargo service. They are also saying that
you have engaged in “shipping fraud.” Until you pay them, MAERSK will
not [release] my cargo. Can you please send me a receipt or proof of
payment by you to TROY or the third party so I can have MAERSK lift the
hold on my cargo? After tomorrow they will start charging me $55 per day
for storage. Please assist.
C. App. Ex. 18.

34.

Also on April 5, 2019, Complainant sent an email to Respondent stating that “Maersk is
asking for payment of delivery and shipping. I already paid you for that, can you please
check with them” and an email stating “Please contact MAERSK and let them know that
shipping and delivery expenses have been prepaid” and providing his agent’s email
address. C. App. Ex. 19.

35.

On April 5, 2019, Respondent emailed Complainant stating “Troy said I am engaged in a
shipping fraud ? Can you please send me that ? Also, as I have advised there was another
company involved, I am checking to see why they didn’t pay.” C. App. Ex. 21.

36.

On April 5, 2019, Complainant then sent an email stating:
Yes, TROY’s agent CP World who put a hold [] on the cargo on the
direction / behalf of TROY stated that you have engaged in “shipping
fraud.” Tomorrow morning he will issue a letter in writing that I can
8

0313

forward to you. Also one of the BL you gave,me is from TROY. Can you
please check or get a receipt or proof of payment to TROY and send it to me
so I can receive my cargo?
C. App. Ex. 22.
37.

On April 5, 2019, Respondent sent an email stating: •

. . ,

The Right Move is closing, but we are far from engaged in Shipping fraud.
It’s actually the opposite, maybe that’s what they meant, but regardless, We
have paid the shipping costs to a third party to pay the SSL for this
shipment, I am checking into it, to see how we can help you release the
shipment, Because the company is closed, I am unable to pay it again, and if
it comes down to the fact that you may have to pay it directly, We are fully
licensed and insured, and you can file a claim against the company bond ! If
you need to pay , I will send you the details of how to file a claim and
retrieve your money ! But for now, give me an hour or 2 to see why this was
not paid, even though we have sent the payment.
C. App. Ex. 23.
38.

On April 5, 2019, Complainant sent Respondent an email stating “If you sent the
payment, can you please send me proof that you sent the payment, so I can get my cargo
released.” C. App. Ex. 23.

39.

On April 5, 2019, Respondent sent an email to Complainant stating:
I paid the fees you have to believe me, I talked to the company and they are
sending the payment today, but it may take a few days, I think it [will] be
released by Tuesday or Wednesday the latest, If you don’t want to wait,
pay the fees, and I will wire the money to you I will need your bank details
to do so !
C. App. Ex. 24.

40.

On April 5, 2019, Complainant sent Respondent an email stating:
Despite everyone telling me that I have been defrauded, I believe you, I
always try to see good in people.
Michelle, I do not want to wait, because after tomorrow I will be charged
$55 per day for storage. I just want what I paid for, which is my right. Please
wire the money to my account today / ASAP otherwise I will be compelled
to lodge a complaint with the Federal Trade Commission and FBI’s online /
email fraud division. TROY will issue a letter to me tomorrow implicating
you in shipping fraud. In addition when I am back stateside in a couple of
9

v - 0314

months Twill file a claim in a civil court where 1 will claim damages,
expenses, travel / lodge expenses and mental anguish etc.
To avoid all of this please wire the total amount that was due for shipping to
my account today, so I can pay it here.
C. App. Ex. 25. The email included Complainant’s bank and account number.
41.

On April 8, 2019, Respondent sent Complainant an email stating:
I had every intention of helping you , I really did ! But it seems that you get
the wrong advice [from] the wrong people , and I am afraid that this leaves
me no choice but to refuse to communicate with you directly ! From now
on we either talk through the FMC , or your lawyer ! I will not respond to
any of your e-mails if you keep coming up with your redicules accusations!
Please e-mail the Federal Maritime commission and they will assist both of
us !
R. App. Ex. 3 (also includes the personal email address of an FMC employee in the
Commission’s Office of Consumer Affairs and Dispute Resolution Service).

42.

On April 8, 2019, Complainant sent Respondent an email stating:
I am the victim here. I did not deserve this, what you did to me is very
wrong. I am stuck in a city where I don’t know people, I am paying for
lodging, my cargo is not being released because you did not pay TROY their
dues from the money that I paid you. I kept my end of bargain, but you
failed to keep yours. I have all emails and proof of what we agreed upon and
what I paid you. You did not deliver the service you agreed to provide.
I am not the one saying you engaged in shipping fraud, it is TROY and CP
World who are claiming this and giving me evidence. And yes I am the
victim here.
I am not threatening, I am asking you to provide me with evidence that you
paid TROY, so I can contest their claim here and receive my cargo.
Alternatively you can wire me money to my account, so I dont have to go to
court, FMC or FTC. So yes lets resolve this in a civil manner and in good
faith. So please either call TROY or CP World and tell them to release my
cargo, or give me proof of payment to TROY, so I can contest their claim
here without paying. Or just simply wire the money to my bank account.
C. App. Ex. 26 (including Complainant’s bank account information).

43.

On April 9, 2019, Respondent sent Complainant an email stating:

10

0315

Of course I am in touch with them , I have been following up on your .
shipment the whole time, just didn’t know Troy didn’t get paid. The
booking was done under another company license, because I knew we may
get to the point we have to close, We conducted business with a company
who shipped donation goods .... The person who booked it disappeared
and left us with six containers in the port or destination. Needless to say that
as you know , port charges accumulate every day , and we were trying to
find a solution, eventually we ended up abandoning the shipments, and
needed to pay high penalties, which forced us to close.
Since I didn’t want your shipment to be effected in this process, I opened a
bank account that was a business account, but had my name on it in order to
be not associated it with the The Right Move, Inc financial burden,
Once I received your payment, I paid it to the third party I used to book your
shipment from the same bank account, because once again, I didn’t want
your shipment to get stuck if in case the Right Move Inc license is being
revoked while in the process of shipping your goods.
Needless to say that at the time I took your shipment, It was all in good faith
that the company will continue to operate and move forward, and this will
not effect you.
The third company I booked it with , paid for the trucker costs, and waited
until the last minute to pay the ocean, we all do that, but it is after the fact
your shipment arrived because according to the booking , the shipment
should have been there in few days so they thought they had few more days.
I get that you [are] upset and frustrated, I too, worked very hard for past 10
years, and one bad customer crashed it all down ! This is life, you learn from
it and move on ... I will help you finish this , but I still think you should pay
directly and let me refund you ! it will be faster, easier and cheaper.
C. App. Ex. 27.
44.

On April 9, 2019, Respondent sent Complainant an email stating “Please let me know if
you have paid the ocean directly ? The company I paid the money to, needs to know if to
refund me, so I can refund you , or should they pay the ocean directly ?” C. App. Ex. 28.

45.

On April 9, 2019, Complainant sent Respondent an email stating “I have not paid them
yet. How soon can that company pay TROY? Please ask and let me know.” C. App.
Ex. 29.

46.

'

'

■

On April 9, 2019, Respondent sent Complainant an email stating “They promised to pay
it today or tomorrow, but since you are paying $50 a day, I strongly suggest you pay
directly and I will refund you , probably no [later] than Friday.” C. App. Ex. 30.
11

0316

47.

On April 9, 2019, Complainant sent Respondent an email stating “Please tell them to pay
today ASAP, it is evening here so it should clear by tomorrow. Please send me proof of
payment (email or receipt etc) so I can show CP World.” C. App. Ex. 31.

48.

On April 9, 2019, Respondent sent Complainant an email stating “I have been asking
them to pay it for the last 4 days, they should be able to pay it today or tomorrow. I will
. send you the proof once it was paid.” C. App. Ex. 32.

49.

In a letter to Complainant bearing a CP World Co. letterhead dated April 9, 2019, CP •
World stated:
We hereby inform, that we are the active agent of M/S Troy Container Lines
in Pakistan. We have been instructed by Troy Container Lines to Hold said
Shipment till our Further Instruction due to reason that Forwarding Agent,
THE RIGHT MOVE INC (Michelle Franklin) of this Consignment has not
paid Port of Loading and Shipping Dues. Meantime they also instructed if
Consignee willing to pay POL and Shipping Dues than we are free to
Release the Delivery of Goods at here in Karachi. I hope this clarifies our
position & fully explains why your cargo is not being released at PORT
QASIM.
Yours faithfully
For: CP World CO.

a;

AS Handling Agents
C. App. Ex.8.
50.

On April 9, 2019, Complainant, for the first time, agreed to pay ocean and shipping that
was owed by the Respondent, only after Troy’s agent CP World officially and in writing
gave him the option to pay in order to release his cargo. C. App. Ex. 40 (Affidavit).

51.

On April 9, 2019, Complainant sent Respondent an email stating “Okay Michelle, I will
pay directly tomorrow and you can send me the refund by Friday. CP world will charge
me 156,750 rupees in unpaid dues, this comes out to 1,112.00 US dollars. This excludes
port costs and other delivery costs. I will send you the receipt. You can mail a cashier’s
check in my name to my brother’s address in Connecticut.” Respondent’s email response
filed October 1, 2019, Ex. 6.

52.

On April 9, 2019, Respondent sent Complainant an email stating “The Invoice and
payment amount I made was $1025[.] That’s what they needs to pay to Troy[.] On Friday
you said you will pay it directly, to avoid these additional costs. I will keep following up
with them and make sure they pay , but it may take another day , and in the meantime
you are paying additional fees. I paid these fees a day after you submitted your payment
to me, just so you know !” Respondent’s email response filed October 1, 2019, Ex. 5.
12

0317

53.

On April 9, 2019, Complainant paid CP World “with mental reservation and under duress
just to get my important documents (birth certificate, citizenship documents, bank
documents, tax returns, ownership documents, college degrees, employment documents,
awards, etc.) and personal belongings of sentimental value (photos, letters, etc.)
released.” C. App. Ex. 40 (Affidavit).

54.

On April 10, 2019, the Complainant paid CP World 157,000 Pakistani Rupees for
shipping charges. C. App. Ex. 9; C. App. Ex. 41 (Affidavit).

55.

On April 10, 2019, after payment to CP World, Complainant received a charge
calculation breakdown showing that the 7-day free time had ended and requiring an
additional $605.00 in container detention charges beyond the regular 7-day free time at a
standard rate of $55.00 per day. C. App. Ex. 10.

56.

On April 10, 2019, Respondent sent Complainant and email stating, “Perfect, I am also
confirming that the money was sent back to me, and I should be able to pay by Friday ! I
[will] check how many free days we have , will get back to you shortly !” C. App. Ex. 33.

57.

Complainant had brought dollars in cash with him for the customs duty, truck rental, and
port charges, but had to use it to pay CP World, after which the Complainant was out of
cash and didn’t have money for the container demurrage charges. After this, because the
Complainant did not have a bank account in Pakistan; he depended on wire transfers and
remittances from his US bank account, which can take from 2 to 3 business days. Plus, all
banks and ocean freight shipping related offices were closed over the weekend in
Pakistan. Furthermore, Maersk Shipping Company and shipping agents in Pakistan do
not accept credit cards. C. App. Ex. 41 (Affidavit).

58.

On April 15, 2019, after the weekend and after receiving additional cash, the
Complainant paid Maersk’s shipping office in Karachi 85,000 rupees for the container
demurrage charges through a shipping agent. C. App. Ex. 41 (Affidavit).

59.

After the payment was made Complainant’s cargo was released for customs inspection at
Port Qasim. Complaint at 3; C. App. Ex. 41 (Affidavit).

60.

On April 15, 2019, Respondent sent Complainant an email stating “Hope you are well,
Did you release the container ? Also can you please send me the agent invoice ?” R. App.
Ex. 7.
-

61.

On April 16, 2019, through April 19, 2019, the Complainant’s cargo underwent the
routine procedural customs inspection, requirements, and paperwork. C. App. Ex. 41
(Affidavit). ' .

62.

■

On April 17, 2019, the Respondent stated, “I will send you a refund shortly I will also
check that [Troy’s] agent only charges what he needed, but that’s between them and our
company. Also, did you at least get the container ?” C. App. Ex. 34.

13

0318

63.

On April 19, 2019, the Respondent stated that “The payment will be concluded in a day
or 2, of course I will try to pay you as much as 1 am responsible for ! Just wanted to
double check all the costs you had paid, and with the holiday in the middle it may take
until Tuesday ! I promise we will finish this very very soon !” C. App. Ex. 35.

64.

On April 20, 2019, after receiving clearance from Pakistan’s Customs Department, the
cargo was not allowed to leave Port Qasim because the ‘No Objection Certificate (NOC)’
that was previously issued by Troy’s agent CP World had expired. The Port Qasim
Authority required the renewal of the No Objection Certificate from CP World.
Complaint at 4; C. App. Ex. 41 (Affidavit).

65.

On Monday, April 22, 2019, when the CP World offices opened after the weekend, the
NOC was renewed. During this time, an additional 6 days of container charges
(demurrage and detention) for the Maersk container had accumulated. Complaint at 4;
C. App. Ex. 41 (Affidavit).

66.

On April 22, 2019, Complainant paid an additional 47,536 rupees to Maersk for container
demurrage charges through a shipping agent. C. App. Ex. 12, 13, 41 (Affidavit).

67.

On April 23, 2019, Complainant’s cargo left Port Qasim, Karachi, for Islamabad. C. App.
Ex. 41 (Affidavit).

68.

On April 23, 2019, Complainant had to pay 385,000 rupees (PKR) for lodging at~a local
hotel for 21 nights in Karachi. This was for the duration of time the Respondent had to
spend in Karachi while his cargo was held at Port Qasim, Karachi. C. App. Ex. 14, 41
(Affidavit).

69.

On May 1, 2019, Respondent sent an email to Complainant stating “Still fighting the
Steamship line to get you more free days, as they usually don’t grant it after the container
arrives. Did you release the shipment ? I was waiting to see what is the total amount and
to see if I can help you a little with the additional costs you had occurred.” R. App. Ex. 8.

70.

On May 30, 2019, after this proceeding was filed but before Respondent filed a response
with the Commission, Respondent sent an email to Complainant stating:
A wire for $1025 was initiated yesterday. You should have the payment by
tomorrow in the bank account you have provided. The amount is the ocean
cost that we failed to pay in time. You can take all the legal actions you
want. The company is closed ! It was closing down and money was tight and
therefore the delay ! I had intentions of paying you back all alone , but you
were too busy making this something it was not! I do apologize for the
inconvenience and wish you all the best!
C. App. Ex. 36.

14

0319

71.

Respondent admitted that “the Ocean freight was not paid. That is agreeable” in her
response to Complainant’s discovery. Respondent’s Response to Complainant’s
Discovery.

72.

Respondent acknowledged that her company’s financial problems stemmed from
problems with prior shipments. C. App. Ex. 27 (describing an abandoned shipment);
RPFF at 2 (“I was informed that the freight was on hold, and It seems as the payment that
was submitted was applied towards an old shipment that was still pending.”);
Respondent’s email response (to order to show cause) at 3.

73.

In Respondent’s response to the Complaint, the Respondent claimed that “Mr. Rana was
one of the last few customers we had to finish before we chose to close the company and
surrender our FMC license.” Answer at 3. ,
.

74.

On June 10, 2019, and July 9, 2019, Respondent emailed the FMC stating that her
business was in the process of closing. R. App. Ex. 1, 2. Respondent did not include the
emails from the FMC about her license in the record.

75.

According to the Commission website, in a list of OTI’s with licenses revoked or
surrendered, the Respondent’s license is listed as revoked on July 4, 2019, while this case
was pending, because of failure to maintain a valid bond. C. App. Ex. 37;
https: //www. fmc. gov/oti/revocations-july-12-2019.

76.

Respondent stated that the “Complainant is entitle[d] to ocean costs refund + Demurrage
of 5 days caused by the delay of releasing the ocean, nothing else if rel ated what so ever
to his additional expenses nor should affect the outcome of this case.” Respondent’s
Response to Complainant’s Motion of January 23, 2020 (titled Motion for Finding of
facts alleged by the complainant and default decision- Response) at 4.

77.

Complainant paid the port fees out of pocket and is not asking for the port fees in this
complaint. There is no evidence that the Complainant asked for demurrage before this
complaint and the Respondent did not offer to pay some of the demurrage prior to
settlement discussion in November 2019. C. App. Ex. 40 (Affidavit).

78.

From February 2019 to date, Michelle Franklin has been and still is the sole
spokesperson, representative, owner, advocate, and employee of The Right Move.
Respondent’s failure to respond to Complainant’s discovery: Request for the Production
of Documents 10 through 15.

79.

The Right Move has failed to observe corporate formalities in terms of documentation.
Respondent’s failure to respond to Complainant’s discovery: Request for the Production
of Documents 10 through 15.

80.

The Right Move is not a separate entity from Michelle Franklin, and The Right Move is
or was taxed through Michelle Franklin’s personal tax returns. Respondent’s failure to
respond to Complainant’s discovery: Request for the Production of Documents 13
through 15.
15

0320

81.

Michelle Franklin treated the funds and assets of the Right Move as her own. C. App.
Ex. 3 (shipping charges for Complainant’s container were paid into Michelle Franklin’s
personal account); Respondent’s failure to respond to Complainant’s discovery: Request
for the Production of Documents 13 through 15.

82.

The Right Move was being used by Michelle Franklin as a facade for her personal
financial dealings and not as a separate corporate entity. C. App. Ex. 3. Respondent’s
failure to respond to Complainant’s discovery: Request for the Production of Documents
10 through 15.

83.

Complainant paid an additional $55.00 per day container demurrage / detention charge
for 17 days (April 7th through April 23rd), a total of $935.00 (132,536.00 rupees); this
was beyond the 7-day free time, because of the delay caused by Respondent’s failure to
pay ocean freight. C. App. Ex. 10, 11, 12, 13, 41 (Affidavit);
https: //www.maersk. com/en/local-information/pakistan/import.

84.

Complainant had intended to stay in Karachi for only 3 nights for the customs clearance
process. However, due to Respondent’s failure to pay the shipping fees, Complainant had
to stay at a hotel in Karachi for an additional 18 nights and pay a total of 388,500 rupees
in hotel lodging at a rate of 18,500 rupees per night. For the additional 18 nights lodging
the total comes out to 333,000 rupees or $2,350.03. C. App. Ex. 14, 41 (Affidavit).

85.

Complainant paid taxi charges in the amount of about $7.76 (1100 rupees) per day or
$116.40 for 15 days to get to and from the Maersk Office, CP World Office, Western
Union, Port Qasim, hotel, etc. C. App. Ex. 41 (Affidavit).

86.

Complainant stayed at a hotel in Karachi for an additional 18 days resulting in meals and
incidental expenses (M&IE) incurred by Complainant. C. App. Ex. 41 (Affidavit).
According to the U.S State Department the foreign per diem M&IE rate set for Karachi in
April 2019 was $82 per day. The total M&IE comes out to 18 x $82 = $1,476.00,
https://aoprals.state.gov/Web920/per_diem_action.asp?MenuHide=T&CountryC6de=l 166
&PostCode=&PublicationDate=20190401.

87.

In April 2019, the price of the dollar in the open market against the rupee fluctuated
between 141 to 142 rupees per dollar. Therefore, the exchange rate used in this
calculation is 141.70 rupees per dollar, which was also the rate used by Maersk shipping
company. C. App. Ex. 41 (Affidavit).

.c

16

0321

III.

ANALYSIS AND CONCLUSIONS OF LAW
A.

Burden of Proof

To prevail in a proceeding brought to enforce the Shipping Act, a complainant has the
burden of proving by a preponderance of the evidence that the respondents violated the Act.
5 U.S.C. § 556(d) (“Except as otherwise provided by statute, the proponent of a rule or order has
the burden of proof.”); 46 C.F.R. § 502.203; Exclusive Tug Franchises, 29 S.R.R. 718, 718-719
(ALJ 2001). “[A]s of 1946 the ordinary meaning of burden of proof was burden of persuasion,
and we understand the APA’s unadorned reference to ‘burden of proof to refer to the burden of
persuasion.” Director, Office of Workers ’ Comp. Programs v. Greenwich Collieries, 512 U.S.
267, 276 (1994). The party with the burden of persuasion must prove its case by a preponderance
of the evidence. Steadman v. SEC, 450 U.S. 91, 102 (1981). “[W]hen the evidence is evenly
balanced, the [party with the burden of persuasion] must lose.” Greenwich Collieries, 512 U.S. at
281. It is appropriate to draw inferences from certain facts when direct evidence is not available,
and circumstantial evidence alone may even be sufficient; however, such findings may not be
drawn from mere speculation. Waterman S.S. Corp. v. General Foundries Inc., 26 S.R.R. 1173,
1180 (ALJ 1993), adopted in relevant part, 26 S.R.R. 1424 (FMC 1994).
B.

Discovery Sanctions

The order denying Complainant’s motion for finding of facts and default decision states:
Respondent refuses to answer questions that she believes are not relevant thereby
denying Complainant discovery that is relevant and necessary to pursue his claim.
Of Complainant’s 17 document requests, it does not appear that Respondent
provided any documents. She did respond to two of the requests, indicating that
no documents exist for document request 12 (“No partnership agreements
available”) and document request 16 (“None exist” regarding whether there are
any complaints, lawsuits, litigation or civil actions against Respondents where a
violation of section 41102(c) was alleged.”). For the interrogatories, Complainant
responded to only three of the thirteen questions, including interrogatories 1 (who
answered), 12 (amount of bond), and 13 (a partial answer to why the OTI bond
was revoked).
Order Denying Complainant’s Motion for Finding of Facts and Default Decision at 1. In addition,
the order found that “[i]t is therefore appropriate to find that Respondent’s failure to provide
documents and answer interrogatories leads to an inference that those responses would have been
adverse to her interests. It is noted, in addition, that Respondent repeatedly admits her failure to
pay the ocean freight although she denies that there are any other Shipping Act violations.” Order
Denying Complainant’s Motion for Finding of Facts and Default Decision at 2.
The discovery requests submitted by Complainant to Respondent on September 18, 2019,
included requests for information about this shipment such as communication with any third
party involved, specifically any third party used to make a payment to Troy; proof of payment
for the shipping, delivery, and transportation of this cargo; the amount of the OTI surety bond at
17

. 0322

the time of the shipment and the reason the bond was revoked; business documents including
article of incorporation, business license, recent tax returns, stock certificates, operating
agreements; and all documents related to complaint, lawsuits, litigation, and civil actions against
the Respondent personally or The Right Move business where a violation of 46 U.S. Code
§ 41102(c) was alleged. Motion for Finding of Facts Alleged by the Complainant and Default
Decision, Ex. 2. This discovery request was reasonable and relevant to the issues in this
proceeding. Respondent’s refusal to provide the information despite repeated requests and an
order from the undersigned prevented the discovery of relevant evidence and justified an
inference that the responses would have been adverse to Respondent’s interests.
Complainant’s complaint was notarized and under oath. All of Complainant’s pleadings
have been signed and certified. Additionally/Complainant submitted a sworn notarized
statement with his proposed findings of facts and brief. Complainant requested that Respondent
answer the interrogatories under oath and under penalty of perjury; however, none of the
Respondent’s responses were under oath or under penalty of perjury. The Respondent has not
signed her pleadings under oath or under penalty of perjury. This fails to comply with the
Commission’s requirement that pleadings, documents, or other papers filed with the Commission
be signed and verified under oath and undermines the credibility of Respondent’s statements and
assertions. 46 C.F.R. §§ 502.6, 502.62(b).
C.

Discussion
1.

Legal Standards

The Shipping Act provides that a “person may file with the Federal Maritime
Commission a sworn complaint alleging a violation of this part.... If the complaint is filed
within 3 years after the claim accrues, the complainant may seek reparations for an actual injury
to the complainant caused by the violation.” 46 UiS.C. § 41301(a).
Complainant alleges that Respondent violated section 41102(a) of the Shipping Act,
which states:
Obtaining Transportation at Less Than Applicable Rates.—A person may not
knowingly and willfully, directly or indirectly, by means of false billing, false
classification, false weighing, false report of weight, false measurement, or any
other unjust or unfair device or means, obtain or attempt to obtain ocean
transportation for property at less than the rates or charges that would otherwise
apply.
46 U.S.C. § 41102(a) (formerly section 10(a)(1)).
Section 41102(a) is also similar to section 16 of the Shipping Act, 1916, the predecessor
to the 1984 Act. Section 16 stated:
That it shall be unlawful for any shipper, consignor, consignee, forwarder, broker,
or other person, or any officer, agent, or employee thereof, knowingly and
willfully, directly or indirectly, by means of false billing, false classification, false
18

0323

weighing, false report of weight, or by any other unjust or unfair device or means
to obtain or attempt to obtain transportation by water for property at less than the
rates or charges which would otherwise be applicable.
46 U.S.C. § 815 (1982).
In Capitol Transportation, Inc., the First Circuit reviewed the Commission’s imposition
of a reparation award based on a violation of section 16. Capitol Transportation, Inc. v. United
States, 612 F.2d 1312 (1st Cir. 1979). Maritime Service Corporation (“MSC”), a central
collection agency for the billing and collection of container demurrage charges owed to ocean
carriers, billed Capitol for demurrage charges under commercial bills of lading naming Capitol
as consignee, but Capitol did not pay. MSC filed a complaint with.the Commission seeking a
reparation award for the amount owed. The Commission found that Capitol operated as an
NVOCC and as consignee on the shipments and was liable for the demurrage charges. The
Commission affirmed the administrative law judge’s holding that “by knowingly and willfully
refusing to pay demurrage owing under published tariffs, [Capitol] in effect obtained
transportation by water at less than the applicable rates and thus violated section 16 of the
Shipping Act.” Capitol Transportation, 612 F.2d at 1317.
Capitol filed a petition with the Court of Appeals for the First Circuit for review of the
Commission’s decision. The court denied Capitol’s petition for review. Regarding section 16, the
court stated that “a carrier’s mere stubborn but good faith refusal to pay a disputed rate or
charge” does not constitute an “unjust or unfair device or means” within the meaning of section
16 but that a refusal to pay accompanied by an “element of fraud or concealment” would suffice
to show an “unjust or unfair device or means.” 612 F.2d at 1323. The court agreed with the
Commission’s finding that the “requisite element of fraud or concealment was established in this
case by Capitol’s ‘unexplained and apparently unjustified avoidance of any payment of the
amounts found due and owing.’” Capitol Transportation, 612 F.2d at 1323.
The Commission could properly find on this record that Capitol’s refusal to pay
had never been based upon a good faith legal defense, but simply reflected a
calculated judgment to fight MSC to the end, forcing it to pay in blood, sweat and
treasure for every penny eventually collected. On the merits of the demurrage
claim, Capitol failed to present a legal defense of any substance, and belatedly
raised a variety of ever-changing contentions after the time for discovery or
hearing was over. Those facts, coupled with earlier correspondence indicating an
adamant and legally unexplained resistance to the notion of MSC’s centralized
demurrage billing procedure entitled the Commission to conclude that Capitol
was not only knowing and willful in its refusal to pay, but that its policies,
conducted as they were in bad faith, were tantamount to an unjust or unfair means
of obtaining transportation by water at lower than applicable rates. Although it
would not be proper to extend this rationale to cases involving refusal to pay
based on honest differences, we think the conduct reflected in the present record
was sufficiently egregious to support the Commission’s finding that the requisite
element of fraud or concealment was here established.... A calculated effort in
bad faith to avoid the payment of demurrage legitimately owing would, if
19

0324

successful, allow shippers and consignees to accomplish what Section 16 was
intended to prevent[,] the receipt of carrier service at less than applicable rates and
at less than rates charged to competitors. Thus while this case undoubtedly nears
the outer limits of Section 16, we uphold the Commission’s finding of violation.
Capitol Transportation, 612 F.2d at 1323-1324.
In 1992, the Commission published a proposed interpretive rule intended to clarify
jurisdiction in proceedings under section 10(a)(1) of the 1984 Act (the successor to section 16 of
the 1916 Act). See Unpaid Freight Charges, FMC No. 92-46, 58 Fed. Reg. 7190 (Feb. 5, 1993),
26 S.R.R. 735 (FMC 1993). The Commission promulgated a final interpretive rule based in part
on the Capitol Transportation decision expressing its conclusion that use of an unjust or unfair
device or means is an essential element of a section 10(a)(1) violation.
Section 10(a)(1) of the Shipping Act. . . states that it is unlawful for any person to
obtain or attempt to obtain transportation for property at less than the properly
applicable rates, by any “unjust or unfair device or means.” An essential element
of the offense is use of an “unjust or unfair device or means.” In the absence of
evidence of bad faith or deceit, the .. . Commission will not infer an “unjust or
unfair device or means” from the failure of a shipper to pay ocean freight. An
“unjust or unfair device or means” could be inferred where a shipper, in bad faith,
induced the carrier to relinquish its possessory lien on the cargo and to transport
the cargo without prepayment by the shipper of the applicable freight charges.
46 C.F.R. § 545.2.
2.

Respondent Acted as an NVOCC

The Shipping Act defines and regulates a number of different types of entities that are
involved in the international shipment of goods by water, including two types of ocean
transportation intermediaries (“OTI”). “The term ‘ocean transportation intermediary’ means an
ocean freight forwarder or a non-vessel-operating common carrier.” 46 U.S.C. § 40102(20).
“The term ‘ocean freight forwarder’ means a person that - (A) in the United States, dispatches
shipments from the United States via a common carrier and books or otherwise arranges space
for those shipments on behalf of shippers; and (B) processes the documentation or performs
related activities incident to those shipments.” 46 U.S.C. § 40102(19).
“The term ‘non-vessel-operating common carrier’ means a common carrier that (A) does not operate the vessels by which the ocean transportation is provided; and (B) is a
shipper in its relationship with an ocean common carrier.” 46 U.S.C. § 40102(17). To be an
NVOCC, the entity must meet the Shipping Act’s definition of “common carrier.”
The term “common carrier” - (A) means a person that - (i) holds itself out to the
general public to provide transportation by water of passengers or cargo between
the United States and a foreign country for compensation; (ii) assumes
responsibility for the transportation from the port or point of receipt to the port or
20

0325

point of destination; and (iii) uses, for all or part of that transportation, a vessel
operating on the high seas or the Great Lakes between a port in the United States
and a port in a foreign country.
46 U.S.C. § 40102(7).
The statutory definitions are echoed in the Commission’s regulations:
Ocean transportation intermediary means an ocean freight forwarder or a nonvessel-operating common carrier. For the purposes of this part, the term

0)

Ocean freight forwarder (OFF) means a person that - (i) In the United
States, dispatches shipments from the United States via a common carrier
and books or otherwise arranges space for those shipments on behalf of
shippers; and (ii) Processes the documentation or performs related activities
incident to those shipments; and

(2)

Non-vessel-operating common carrier (NVOCC) means a common carrier
that does not operate the vessels by which the ocean transportation is
provided, and is a shipper in its relationship with an ocean common carrier.

46 C.F.R. § 515.2(m).
Common carrier means any person holding itself out to the general public to
provide transportation by water of passengers or cargo between the United States
and a foreign country for compensation that:

0)

Assumes responsibility for the transportation from the port or point of
receipt to the port or point of destination, and

(2)

Utilizes, for all or part of that transportation, a vessel operating on the high
seas or the Great Lakes between a port in the United States and a port in a
foreign country ....

46 C.F.R. § 515.2(e).
The Commission promulgated regulations providing examples of NVOCC services
performed by OTIs.
Non-vessel-operating common carrier services refers to the provision of
transportation by water of cargo between the United States and a foreign country
for compensation without operating the vessels by which the transportation is
provided, and may include, but are not limited to, the following:
(1)

Purchasing transportation services from a common carrier and offering
such services for resale to other persons;
21

0326

(2)

Payment of port-to-port or multimodal transportation charges;

(3)

Entering into affreightment agreements with underlying shippers;

(4)

Issuing bills of lading or other shipping documents;

(5)

Assisting with clearing shipments in accordance with U.S. government
regulations;

(6)

Arranging for inland transportation and paying for inland freight charges
on through transportation movements;

(7)

Paying lawful compensation to ocean freight forwarders;

(8)

Coordinating the movement of shipments between origin or destination and
vessel;

(9)

Leasing containers;

(10)

Entering into arrangements with origin or destination agents;

(11)

Collecting freight monies from shippers and paying common carriers as a
shipper on NVOCC’s own behalf.

46 C.F.R. § 515.2(k).
A prior case summarized the Commission’s work to ensure that shippers were protected &
from underfinanced NVOCCs.
Because the licensed ocean freight forwarder was in a position to harm its
shipper-customers and because such forwarders were often underfinanced and
negligent in their duties, Congress required that they be bonded so that shippercustomers of the forwarders who were injured by the forwarders’ derelictions of
duty would have recourse to a surety to ensure that their financial losses would be
made good. After May 1, 1999, the effective date of OSRA, the other type of
intermediary, the NVOCC located in the United States, was also required to be
licensed and bonded. This act of Congress was welcome because even before the
passage of OSRA, NVOCCs, like freight forwarders, had engaged in negligent
conduct with respect to their handling of shippers’ cargoes and like some
forwarders, they were underfinanced and disdainful of their duties toward their
shipper-customers. See, e.g., Hugh Symington v. Euro Car Transport, Inc., 26
S.R.R. 871 (1993); Adair v. Penn-Nor die Lines, 26 S.R.R. 11 (I.D., finalized,
1991); Total Fitness Equipment, Inc. v. Worldlink Logistics, Inc., 28 S.R.R. 534
(1998), affirmed as Worldlink Logistics, Inc. v. F.M.C., 203 F.3d 54 (D.C. Cir.
1999), cases in which NVOCCs took shippers’ moneys and failed to make sure
22

0327

that the shipments were carried and delivered timely, causing shippers financial
harm.
•
Crowley Liner Services, Inc. and Trailer Bridge, Inc. v. Puerto Rico Ports Authority, 29 S.R.R.
394, 2001 FMC LEXIS 7 at *71-72 (ALJ 2001) (Respondent PRPA’s Motion to Dismiss or for
Partial Summary Judgment Denied; Complainants Crowley’s and Trailer Bridges Motion to
Dismiss Granted for the Most Part; Complaint Dismissed) (Settlement Approved, 29 S.R.R. 971
(ALJ 2002)).
The evidence shows that Respondent issued a house bill of lading for the door to port
movement; listed its registration number as FMC # 023229N where N is used to denote an
NVOCC; was solely licensed as an NVOCC; and was still licensed when the shipment took
place. Further, the Shipping Agreement issued by Respondent contains the terms for movement
of the shipment and directs payment to be made to Respondent, consistent with acting as an
NVOCC. In addition, the terms of the movement was for door to port movement but Respondent
only engaged Troy to ship the container from Port to Port, indicating that Respondent undertook
responsibility for shipment and provided transportation from Complainant’s door to the port in
Karachi while Troy provided transportation from the port in the United States to the port in
Karachi. Accordingly, the evidence demonstrates that Respondent acted as an NVOCC on this
shipment.
3.

Section 41102(a) Elements
a.

Knowingly and Willfully

Complainant contends that Respondent acted knowingly and willfully, for example by
providing inaccurate information about the failure to pay.
To justify why Respondent failed to pay ocean freight charges, the Respondent
falsely claimed that she paid a third party to pay TROY for ocean and shipping.
The Respondent made up this fictitious story to try and convince the Complainant
to pay ocean and shipping dues in Karachi, so she could keep the ocean and
shipping charges for herself. It is highly unlikely and would have been
unreasonable for the Respondent to pay a third party when all she had to do was
pay TROY directly. This demonstrates that the Respondent knowingly and
willfully acted in bad faith and deceit showing utter disregard for the law.
Complainant Brief at 3. Complainant also asserts that Respondent admitted “that she reasonably
suspected that her company would close at the time the booking was done in February 2019” and
that she “concealed this information.” Reply Brief at 7.
Respondent claims that Complainant has a lack of knowledge of the shipping process,
Respondent is a professional “very aware of the outcome of nonpayment of ocean shipment,”
and that she “never had any intentions of not paying the ocean as she is well aware of her
personal liability.” Respondent Brief at 1-2.
,
23

0328

Section 41102(a) of the Shipping Act prohibits any person from “knowingly and
willfully” obtaining or attempting to obtain ocean transportation of property by various false
activities, including false billing or classification, or by “any unjust or unfair device or means.”
A person is considered to have “knowingly and willfully” violated the Shipping Act if the person
had knowledge of the facts of the violation and intentionally violated or acted with reckless
disregard, plain indifference, or purposeful, obstinate behavior akin to gross negligence. Rose
International, Inc. v. Overseas Moving Network International, Ltd., 29 S.R.R 119, 164-165
(FMC 2001); Portman Square Ltd., 28 S.R.R. 80, 84-85 (ALJ 1998) (Admin, final 1998); Ever
Freight Int’l, 28 S.R.R. 329, 333 (ALJ 1998) (Admin, final 1998). “A calculated effort in bad
faith to avoid the payment of demurrage legitimately owing would, if successful, allow shippers
and consignees to accomplish what Section 16 was intended to prevent[,] the receipt of carrier
service at less than applicable rates and at less than rates charged to competitors.” Capitol
Transportation, 612 F.2d at 1324.
Respondent has not alleged a good faith legal defense for her failure to pay but rather a
variety of ever-changing contentions. The evidence includes emails in which Respondent
repeatedly blamed the failure to pay on an unnamed third party. For example, Respondent stated:
•

“Also, as I have advised there was another company involved, I am checking to see
why they didn’t pay.” C. App. Ex. 21.

•

“We have paid the shipping costs to a third party .... give me an hour or 2 to see
why this was not paid, even though we have sent the payment.” C. App. Ex. 23.

•

“I paid the fees you have to believe me, I talked to the company and they are sending
the payment today, but it may take a few days.” C. App. Ex. 24.

•

“Once I received your payment, I paid it to the third party I used to book your
shipment.” C. App. Ex. 27.

•

“The company I paid the money to, needs to know if to refund me, so I can refund
you , or should they pay the ocean directly ?” C. App. Ex. 28.

•

“They promised to pay it today or tomorrow.” C. App. Ex. 30.

•

“I have been asking them to pay it for the last 4 days, they should be able to pay it
today or tomorrow. I will send you the proof once it was paid.” C. App. Ex. 32.

•

“I will keep following up with them and make sure they pay , but it may take another
day , and in the meantime you are paying additional fees. I paid these fees a day after
you submitted your payment to me, just so you know !” Respondent’s email response
filed October 1, 2019, Ex. 5.

However, Respondent no longer claims that a third party was responsible for the failure to pay
and Respondent now admits that she failed to make the payment. The statements in the
contemporaneous emails regarding a third party are not credible. This type of active
24

0329

e:

misinformation and deceit demonstrates knowledge and willfulness and caused a significant
delay in obtaining the cargo.
Respondent knowingly and willfully continued to promise a refund but failed to refund
Complainant for the shipping costs he paid to Troy. C. App. Ex. 33 (“I am also confirming that ‘
the money was sent back to me, and I should be able to pay by Friday !”); C. App. Ex. 34 (“I will
send you a refund shortly”); C. App. Ex. 35 (“The payment will be concluded in a day or 2, of
course I will try to pay you as much as I am responsible for !”); C. App. Ex. 36 (“A wire for
$1025 was initiated yesterday. You should have the payment by tomorrow in the bank account
you have provided. The amount is the ocean cost that we failed to pay in time.”). This failure to
refund despite repeated promises mirrors Respondent’s failure to initially pay the shipping
charges, further undermines Respondent’s credibility, and demonstrates that her conduct was
knowing and willful.
•
Respondent indicated that she did not know whether Troy had been paid and blamed
Complainant for a lack of knowledge of the shipping process, for example, not knowing the
shipment’s arrival date and for requesting changes to the bill of lading. Respondent Brief at 4;
C. App. Ex. 27; RPFF at 2-3. The evidence shows that Respondent did not provide Complainant
with a copy of the bill of lading until after his shipment arrived and there is only one bill of
lading in evidence. C. App. Ex. 5, 16, 17. The evidence does not support Respondent’s argument
that changes to the bill of lading were made and even if a change was made, such a change does
not excuse Respondent’s failure to pay the shipping charges. Moreover, Respondent, as a
knowledgeable shipping professional, should have checked on the arrival date, ensured that the
bill of lading was provided timely and accurately, and ensured that timely payment was made to ,
Troy.
The evidence demonstrates that when Respondent accepted Complainant’s booking,
Respondent knew The Right Move might be closing. Although Respondent claims in some
emails that The Right Move did not close until March of 2019, the evidence shows that
Respondent knew the business might be closing when she accepted this booking in February of
2019. C. App. Ex. 23, 36; R. App. Ex. 1, 2. Respondent acknowledges that her company’s
financial problems stemmed from problems with prior shipments. C. App. Ex. 27 (describing an
abandoned shipment); RPFF at 2 (“I was informed that the freight was on hold, and It seems as
the payment that was submitted was applied towards an old shipment that was still pending.”).
Financial hardship does not justify the failure to pay shipping charges for subsequent shipments.
Respondent knowingly and willfully opened a personal bank account to accept
Complainant’s payment for this shipment, with the intent of keeping these funds separate from
company funds. In a contemporaneous email, Respondent stated that the “booking was done
under another company license, because I knew we may get to the point we have to close.”
C. App. Ex. 27. She then explains problems with another shipment and says that “[sjince I didn’t
want your shipment to be effected in this process, I opened a bank account that was a business
account, but had my name on it in order to be not associated it with the The Right Move, Inc
financial burden.” C. App. Ex. 27; see also Complainant Brief at 10; C. App. Ex. 3. Opening a
separate bank account to avoid comingling this transaction with her company’s funds indicates
that she was acting knowingly and willfully.
25

* .0330

Respondent asserts that she was an experienced professional and the evidence shows that
she was a licensed NVOCC. Respondent deflected Complainant’s questions about payment for
his shipment with misinformation about a third party and promises to pay, as well as opening a
separate account for this transaction. This evidence is sufficient to demonstrate that she acted
knowingly and willfully, as required for a violation of section 41102(a).
b.

Unjust or Unfair Device or Means

Complainant asserts that Respondent used an unjust or unfair device or means, including
fraud and deceit, arguing that:
There is an abundance of evidence in the record that establishes fraud and deceit
by the Respondent. In February 2019, the Respondent knew or reasonably
suspected that her company may close soon, but failed to disclose this material
information to the complainant when they entered into an agreement.... This was
a deliberate act of omission by the Respondent who knowingly and recklessly
misled the Complainant just to obtain Complainant’s business.
Complainant Brief at 4. Complainant also asserts that “Complainant made non-credible,
inconsistent and deceitful claims about ocean payment” when she “in bad faith continued to
deceitfully claim via email that she had paid the shipping dues albeit via a third party and that the
payment should clear soon.” Complainant Brief at 5.
Respondent asserts that she was an experienced professional aware of her
responsibilities; that she continued to communicate with and try to help Complainant, even
suggesting that he contact the FMC; and that she did not know when she accepted the booking
that she would be unable to pay the shipping charges. Respondent Brief at 2.
To establish a violation of section 41102(a), “fraud or concealment is a necessary
ingredient in the proof of an unjust or unfair device or means.” United States v. Open Bulk
Containers, 727 F.2d 1061, 1064 (11th Cir. 1984); see also Rose Int’l, 29 S.R.R. at 163;
Waterman S.S. Corp. v. General Foundries, Inc., 26 S.R.R. 1424, 1429 (FMC 1994). “In the
absence of evidence of bad faith or deceit, the Federal Maritime Commission will not infer an
‘unjust or unfair device or means’ from the failure of a shipper to pay ocean freight.” 46 C.F.R.
§ 545.2. “It is such fraud or concealment that in fact makes the practice unjust or unfair.” Open
Bulk Containers, 727 F.2d at 1064.
The decision in Nordana Lines states:
Complainant acknowledges that the Commission now requires more than a
showing that a respondent has failed to pay freight due because of a stubborn but
good-faith refusal to pay a disputed rate or charge to support a claim that section
10(a)(1) has been violated. As complainant correctly contends, to support such a
charge, complainant must show some element of falsification, deception, fraud or
concealment or some evidence of bad faith or deceit. Complainant cites several
Commission decisions establishing these principles. Complainant argues that
26

0331

[Respondent] has demonstrated deceit and bad faith by obtaining Nordana’s
transportation services and thereafter making a series of false promises to
Nordana regarding its intention to pay the freight owed.
Nordana Line AS v. Jamar Shipping, Inc., 27 S.R.R. 233, 1995 FMC LEXIS 8 at *7-8 (ALJ
1995) (Notice not to review, April 19, 1995) (footnote omitted).
The First Circuit, in Capitol Transportation, accepted the Commission’s finding that “the
requisite element of fraud or concealment was established in this case by Capitol’s “unexplained
and apparently unjustified avoidance of any payment of the amounts found due and owing.”
Capitol Transportation, 612 F.2d at 1323.
In this case, there is clear evidence that Respondent used unjust or unfair means.
Respondent issued a house bill of lading from Alexandria, Virginia, to Karachi Port, Pakistan,
and assumed responsibility for Complainant’s shipment. Respondent in bad faith failed to pay
Troy, forcing them to collect ocean freight payment from Complainant in Karachi, Pakistan,
even though she knew that the freight was prepaid by Complainant. When asked about the
shipment, Respondent stated that a third party was handling the payment. C. App. Ex. 21, 23.
There is no evidence in the record that a third party was used and it appears that this statement to
Complainant was a material misrepresentation. In addition, Respondent misrepresented the status
of her business when the shipment was booked and failed to timely disclose to the other common
carriers and to Complainant that her business was in the process of closing. C. App. Ex. 23, 36;
R. App. Ex. 1, 2. If Complainant had known this information before booking, he would have
selected a different ocean transportation intermediary for his shipment.
This case is unusual because none of the Respondent’s communications with Troy and
Maersk, who handled the shipment, are in the record. Respondent would have copies of these
emails in her control and her failure to produce them leads to the inference that they are adverse
to her interests. It is a reasonable inference that her communications with Troy were not entirely
accurate. For example, Troy would only have shipped the cargo with the expectation of payment.
Since CP World required proof from Complainant that he had prepaid the shipment, it is likely
that Respondent failed to disclose to Troy that the shipment was prepaid, misleading them to
assume that payment would be made either by Respondent or by Complainant after the shipment
arrived in Karachi, Pakistan. C. App. Ex. 18. If, as Respondent states, she made a payment that
was applied to a different shipment, that would be evidence that this was not a unique situation
but rather that Respondent had failed to pay for prior shipments. RPFF at 2 (“I was informed that
the freight was on hold, and It seems as the payment that was submitted was applied towards an
old shipment that was still pending.”); C. App. Ex. 27 (describing a previous abandoned
shipment).
Some of Respondent’s arguments are hard to understand, for example, she states that the
Complainant does not understand the challenges facing companies that ship household goods
(seasonal business and lack of repeat customers) and states that “year after year after year, I have
been through this same cycle” and that “it worked for 8 years prior and the business was
successful.” This implies that the challenges were foreseeable and manageable. However, she
also says that “[ajsking the respondent to foresee difficulties is unreasonable” and that “[a]t time
27

0332

of accepting the shipment, the respondent had no way of knowing she is facing harder times than
usual.” Complainant Brief at 2. In this proceeding, foreseeability is not at issue. Rather, the issue
is whether or not Respondent utilized unjust or unfair means or devices.
Failing to pay the ocean shipping charges, hiding the financial state of the company to
induce Complainant to book with her, making a series of false promises, and blaming the lack of
payment on a fictitious third party while Complainant’s goods were in limbo, support the finding
that there was fraud or concealment. Accordingly, the evidence demonstrates unjust or unfair
means, as required by the Shipping Act to establish a section 41102(a) violation.
c.

Obtaining Transportation at Less than Applicable Rates

Complainant asserts that:

.

Respondent was required to pay TROY port of loading and ocean freight shipping
charges, and by failing to pay TROY; the Respondent in bad faith, breached the
shipping agreement between the Complainant and the Respondent. All Respondent
had to do was pay $1040.00 to TROY via credit card, money order, cashier’s
check, money transfer or a regular check. The Respondent had already received
$2595.00, so she had the money to pay TROY, but failed to do so in bad faith.
Complainant Brief at 4.

•v

Respondent admits that she failed to make the payment for the ocean transportation.
Respondent’s Answer to Complainant’s Discovery Request (titled Motion to Compel) at 1.
Respondent does not contest this element, conceding that the transportation occurred and that she
did not make a payment for it. She argues, instead, that she intended to pay for the ocean
transportation. Respondent Brief at 5.
Actions speaker louder than words. Although Respondent repeatedly said that she
intended to pay the ocean shipping, she did not pay the shipping charge and did not refund
Complainant after he paid. Her failure to pay and promises to pay delayed Complainant’s ability
to obtain his shipment. If her payment was applied to another shipment, RPFF at 2, that just
demonstrates that this violation was not an isolated occurrence, a finding supported by
Respondent’s acknowledgement of problems with other shipments. Financial problems do not
justify the failure to pay for shipping. In addition, Respondent failed to pay the demurrage
charges by Maersk that accrued on the container due to her failure to pay freight owed for the
shipment. Respondent profited from obtaining transportation of this shipment without making
any payment.
Pursuant to the Shipping Act, a shipper may not “obtain or attempt to obtain”
transportation for less than applicable charges. As an NVOCC, Respondent was the shipper in
relation to Troy. Respondent obtained transportation of the cargo without making any payment
for the shipment, instead, keeping the payment for herself. The evidence shows that Complainant
paid Respondent for the shipment and then had to pay Troy for the shipment. C. App. Ex. 3, 9,
28

0333

41. Accordingly, Respondent obtained transportation at less than applicable rates as Respondent
has not paid anything to Troy, Maersk, or Complainant for the shipment.
d.

Conclusion

Respondent operated as an NVOCC when it issued a bill of lading assuming
responsibility for transportation of cargo by water between the United States and a foreign port.
For the shipment, Respondent was a shipper in relation to Troy within the meaning of the Act.
46 U.S.C. § 40102(22)(E). Complainant establishes by a preponderance of the evidence that
Respondent engaged in fraud or deceit as required to establish use of an unjust or unfair device.
In addition, the evidence establishes that Respondent obtained transportation without making any
payment and that Respondent acted knowingly and willfully. Therefore, the evidence shows that
Respondent knowingly and willfully, by means of an unjust or unfair device or means, obtained
transportation by water for property at less than the rates or charges which would otherwise be
applicable in violation of section 41102(a) of the Shipping Act. Accordingly, Complainant has
established by a preponderance of the evidence that Respondent violated section 41102(a) of the
Shipping Act when she shipped Complainant’s household goods without making any payment.
4.

Reparations
a.

Personal Liability

Complainant sued Respondent in her individual name, doing business as The Right
Move. Complaint at 1. Complainant argues that the corporate veil should be pierced to find
Respondent personally liable for the damages, relying in significant part on Respondent’s failure
to respond to discovery.
Respondent argues that “the Right Move Inc is a closed company, and that the FMC
license was terminated. The only way to compensate the complainant at this point will be
through the company bond that was in place at the time of conducting business.” Respondent
Brief at 5.
The Commission has addressed when it is appropriate to pierce the corporate veil, stating
that the “federal common law that has been developed generally recognizes a two-prong test to
determine whether to disregard corporate form: the evidence must show (1) control and
domination over the shell corporation, and (2) a federal violation.” Rose Int’l, 29 S.R.R at 166.
The factual tests vary from circuit to circuit, but some of the major factors used to
determine domination and control, and which we will consider, are as follows:
(1) the nature of the ownership and control; (2) failure to maintain corporate
minutes or adequate corporate records and failure to follow corporate formalities;
(3) commingling of funds and other assets; (4) inadequate capitalization;
(5) diversion of the corporation’s funds or assets to non-corporate uses; (6) use of
the same office or business location by the corporation and its shareholders;
(7) overlapping ownership, officers, directors and personnel; (8) the amount of
29

0334

business discretion displayed by the allegedly dominated corporation and
(9) whether the corporations are treated as independent profit centers.
Roselnt’l, 29 S.R.R at 167-168. Among the factors the Commission has considered in piercing
the corporate veil are: “the nature of the corporate ownership and control, the failure to maintain
adequate corporate records and minutes, and the failure to follow corporate formalities, including
the approval of stock issues by an independent board of directors.” Ariel Mar. Group, Inc., 24
S.R.R. 517, 530 (FMC 1987).
Complainant contends that on “February 13, 2019, Respondent told Complainant to wire
transfer payment to her personal-bank account which was under her name ‘Michelle Franklin.’
On February 14, 2019, the money was transferred to Respondent Michelle Franklin’s personal
account.” Complainant Brief at 10; C. App. Ex. 3. Respondent refused to answer Complainant’s
discovery requests regarding business accounts, information exclusively under the control of
Respondent.
Because Respondent failed to provide discovery, there is limited information in the
record. Moreover, comments made by Respondent to Complainant lack credibility. However,
given that Respondent’s contemporaneous statements are the most directly relevant evidence in
the record, they are probative. On April 9, 2019, Respondent sent a long email which stated that
the “booking was done under another company license, because I knew we may get to the point
we have to close.” C. App. Ex. 27. She then explains problems with another shipment and says
that “[sjince I didn’t want your shipment to be effected in this process, I opened a bank account
that was a business account, but had my name on it in order to be not associated it with the The
Right Move, Inc financial burden.” C. App. Ex. 27. This statement that Respondent used a
different, new account for this shipment is consistent with Complainant’s allegations. This
evidence, coupled with her failure to produce discovery, establishes that this shipment involved
Michelle Franklin’s personal bank account, separate from her regular company account, and is
evidence of commingling of funds and inadequate capitalization.
~
Respondent’s refusal to provide discovery also supports findings proposed by
Complainant that: Michelle Franklin is or was the sole owner of The Right Move, Inc.; from
February 2019 to date, Michelle Franklin has been and still is the sole spokesperson,
representative, owner, advocate, and employee of The Right Move; The Right Move has failed to
observe corporate formalities in terms of documentation; The Right Move is not a separate entity
from Michelle Franklin; The Right Move is or was taxed through Michelle Franklin’s personal
tax returns; Michelle Franklin treated the funds and assets of the Right Move as her own; and,
The Right Move was being used by Michelle Franklin as a facade for her personal financial
dealings and not as a separate corporate entity. C. App. Ex. 3; Respondent’s failure to respond to
Complainant’s discovery: Request for the Production of Documents and Interrogatories. These
factors weigh in support of piercing the corporate veil and finding Michelle Franklin personally
liable.
Respondent’s argument that the only way to compensate the Complainant is through the
company bond addresses the issue of collecting any reparations awarded. The Commission does
not assist with collections of reparations awards and the Complainant may seek any available
30

0335

means to obtain compensation, including through the company bond (by contacting the bond
company directly), from the Respondent, or other appropriate means. Moreover, Respondent’s
license was revoked for failure to maintain the bond. It is reasonable to conclude that the bond
may not have been in force at the time of the shipment at issue and may not be available to pay
the claim.
‘
■
Although Michelle Franklin was sued in her own name, during the transactions at issue,
she acted in the company’s name. Therefore, it is necessary to pierce the corporate veil to find
her personally responsible for any reparations. As discussed above, the evidence is sufficient to
show that the corporate veil should be pierced. Accordingly, Michelle Franklin is liable in an
individual capacity in addition to The Right Move for any reparations award.
b.

Calculation of Damages

Complainant seeks a reparations award of $5,985.40, including shipping charges,
container demurrage charges, and costs incurred while in Karachi obtaining release of his cargo;
$73 in costs to file this complaint; and, $2,595 in restitution of fees paid to Respondent.
Complainant Brief at 8-9. Complainant has the burden of proving entitlement to reparations.
Respondent objects to the additional costs beyond the ocean freight, arguing that it was
Complainant’s inexperience which caused delays, and also argues, in contradiction, that the
customs clearance process in Pakistan is difficult and 17 to 20 days is a reasonable amount of
time to clear customs. Respondent’s Response at 4-5.
Pursuant to section 11(g) of the Shipping Act, “[i]f the complaint was filed within the
period specified in section 41301(a) of this title, the Federal Maritime Commission shall direct
the payment of reparations to the complainant for actual injury caused by a violation of this
part.” 46 U.S.C. § 41305(b).
Commission case law states that: “(a) damages must be the proximate result of violations
of the statute in question; (b) there is no presumption of damage; and (c) the violation in and of
itself without proof of pecuniary loss resulting from the unlawful act does not afford a basis for
reparation.” Waterman v. Stockholms Rederiaktiebolag Svea, 3 F.M.B. 248, 249 (FMB 1950);
see also James J. Flanagan Shipping Corp. v. Lake Charles Harbor & Terminal Dist., 30 S.R.R.
8, 13 (FMC 2003).
The statements of the Commission in [California Shipping Line, Inc. v. Yangming
Marine Transport Corp., 25 S.R.R. 1213 (FMC 1990)] and the other cited cases
are in the mainstream of the law of damages as followed by the courts, for
example, regarding the principles that the fact of injury must be shown with
reasonable certainty, that the amount can be based on something less than
precision but something based on a reasonable approximation supported by ■
evidence and by reasonable inferences, the principle that the damages must be
foreseeable or proximate or, in contract law, within the contemplation of the
parties at the time they entered into the contract, the fact that speculative damages
are not allowed, and that regarding claims for lost profits, there must be
31

0336

reasonable certainty so that the court, can be satisfied that the wrongful act caused
the loss of profits. . • • .
. . ■.
. .
Tractors and Farm Equipment Ltd. v. Cosmos Shipping Co., Inc., 26 S.R.R. 788, 798-799 (ALJ
1992) (Admin, final 1992).
The evidence support’s Complainant’s argument that the delay in obtaining the cargo and
additional costs from the delay were caused by Respondent’s failure to pay the shipping charges,
which led to a hold on the shipment, and promises to pay, which delayed Respondent from
paying the shipping charges earlier. There is not sufficient evidence in the record to support
Respondent’s claims that the delay was caused by Complainant’s inexperience, changes to the
bill of lading, or that customs clearance could have started earlier.
Complainant seeks $1,107.97 for the shipping charges that he paid and $935 in container
demurrage charges caused by the Respondent’s delay. Complainant provides receipts supporting
these amounts. C. App. Ex. 9, 10, 11, 12, 13, 41. The container in question was shipped to
Pakistan and Complainant is not entitled to receive free shipping for his container.
Complainant’s request for the shipping charges he paid for his container is therefore denied.
However, the evidence shows that the delay in obtaining the cargo was caused by Respondent’s
actions. Therefore, Complainant has provided sufficient evidence to support his claim for
container demurrage charges, totaling $935.
In addition, Complainant seeks costs incurred while in Karachi obtaining release of the
cargo, including $116.40 in taxi charges, $2,350 for lodging, and $1,476 for meals and
incidentals. Complainant provides receipts for the taxi and lodging charges and refers to
government regulations for the meals and incidental charges. C. App. Ex. 14, 41. Respondent’s
arguments regarding the time spent by Complainant are confusing, as she says both that 17-20
days is reasonable and that the delay was caused by Complainant’s lack of knowledge. Her a
arguments are not convincing. On the other hand, Complainant attaches appropriate
documentation and support for the time spent to retrieve his belongings clearly delayed by
Respondent’s failure to pay the shipping charges. Complainant has provided sufficient evidence’
to support his claim for costs obtaining release of his cargo, totaling $3,942.40.
Complainant seeks compensation for the $73 in costs to file this complaint. Although
attorney fees may be awarded, costs for filing the complaint are generally not awarded as they
' are not part of the actual injury determination nor the attorney fees. Accordingly, the request for
costs to file the complaint is denied.
Complainant also seeks restitution of the $2,595 that he paid the Respondent on
February 14, 2019, for this shipment. Complainant Ex. E. In addition to profit, a portion of this
fee may have been for trucking from Alexandria, VA, to Baltimore’s seagirt terminal or other
charges, but because Respondent failed to provide evidence of these costs and refused to answer
discovery related to transportation costs for the shipment, they cannot be deducted. C. App. Ex.
5. Complainant has provided sufficient evidence to support his claim for restitution, totaling
$2,595.
32

0337

Complainant has established that his actual injury caused by Respondent’s violation of
the Shipping Act is in the amount of $7,472.40 ($935 container demurrage charges + $3,942.40
taxi, meals, and lodging + $2,595 shipping charges paid to Respondent). Respondent is ordered
to pay reparations in the amount of $7,472.40 to Complainant. The shipment arrived in Karachi,
Pakistan, on March 31, 2019. C. App. Ex. 39. Therefore, interest on the reparation award runs
from March 31, 2019, to be calculated by the Commission when this decision becomes
administratively final. See 46 C.F.R. § 502.253.
IV.

ORDER

Upon consideration of the record herein, the arguments of the parties, the findings and
conclusions set forth above, and the determination that Muhammad Rana established that
Michelle Franklin, also known as Michal Franklin or Micah Franklin, doing business as The
Right Move, Inc., violated the Shipping Act, 46 U.S.C § 41102(a), it is hereby
ORDERED that Muhammad Rana’s complaint for reparations against Michelle Franklin,
also known as Michal Franklin or Micah Franklin, doing business as The Right Move, Inc., be
GRANTED. It is
FURTHER ORDERED that Michelle Franklin and The Right Move, Inc. are jointly and
severally ordered to pay Muhammad Rana reparations in the amount of $7,472.40 with interest
on the reparations award running from March 31, 2019. It is
FURTHER ORDERED that any other pending motions or requests be DISMISSED AS
MOOT.

iC/P-T^

. La)la

Erin M. Wirth
Chief Administrative Law Judge

33

0338

Appendix H

-f

*«>•

0339

Reprint
as at 1 September 2017

*

u

mm

ill

W!\ ** I

I
r;
I .'A

ll-Vl
\ llv

Bit!

vi‘< Hi

m

&

Carriage of Goods Act 1979
Public Act
Date of assent
Commencement

1979 No 43
14 November 1979
see section 1(2)

Carriage of Goods Act 1979: repealed, on 1 September 2017, by section 345(l)(a) of the Contract
and Commercial Law Act 2017 (2017 No 5).

Contents
Page
1
2
3
4
5
6
7
8

Title

2

Short Title and commencement
Interpretation
Meaning of unit of goods
Act to bind Crown
Application of Act
Other remedies affected
Contracting out
Kinds of contract of carriage

2
2
4
5
5
6
6
6

Liability of carriers
9
10
11
12
13

Liability of contracting carrier
Liability of actual carrier
Rights of contracting party where contracting carrier insolvent or
cannot be found
Special rules relating to liability of carrier in respect of baggage
Contracts of successive carriage by air

8
10
11
12
12

Note
Changes authorised by subpart 2 of Part 2 of the Legislation Act 2012 have been made in this official reprint.
Note 4 at the end of this reprint provides a list of the amendments incorporated.
This Act is administered by the Ministry of Business, Innovation, and Employment.
1

0340

s1

14
15
16

17
18
19
20
21
22
23
24
25

26
27

28
29
30

31

Carriage of Goods Act 1979

Carrier not liable in certain circumstances
Limitation of amount of carrier’s liability
Liability of employees
Liability of carrier’s employee
Warranty by contracting parties
Contracting party to warrant condition of goods, etc
Actions against carriers
Notice of claim of damage or partial loss to be given within 30
days
Limitation of actions
Actions by consignee if not contracting party
Rights of carriers
Right to sue for freight
Actions for recovery of freight
Carrier’s liens
Storage and disposal of unclaimed or rejected goods
Disposal of perishable goods
Disposal of dangerous goods
Liability of carrier extinguished
Miscellaneous provisions
Common carrier of goods abolished
Proceedings against New Zealand agent of overseas carrier
Certain other Acts not affected
Amendments and repeals
Schedule 1
Enactments amended
Schedule 2
Enactments repealed

Reprinted as at
1 September 2017

13
13
14

14
15
16
17
17
17
18
19
19
20
20
20
20
20

21
22
23

An Act to restate and reform the law relating to the carriage of goods within
New Zealand
1
(1)
(2)

Short Title and commencement
This Act may be cited as the Carriage of Goods Act 1979.
This Act shall come into force on 1 June 1980.

2

Interpretation
In this Act, unless the context otherwise requires,—

2

0341

t*

Reprinted as at
1 September 2017

Carriage of Goods Act 1979

s2

actual carrier, in relation to the carriage of any goods, means every carrier
who, at any material time, is or was in possession of the goods, or of any con­
tainer, package, pallet, item of baggage, or any other thing in or on which the
goods are or were believed by him to be, for the purpose of performing the car­
riage or any stage of it or. any incidental service; and includes the contracting
carrier where he performs any part of the carriage
carriage includes any incidental service; and carry has a corresponding mean­
ing

carrier means a person who, in the ordinary course of his business, carries or
procures to be carried goods owned by any other person, whether or not as an
incident of the carriage of passengers; and, except in sections 21 to 24, includes
a person who, in the ordinary course of his business, performs or procures to be
performed any incidental service in respect of any such goods
checked baggage means baggage, personal effects, or other articles, checked
or registered with the carrier, or put in any place at the carrier’s direction, or in
any other way handed over to and accepted by the carrier (whether or not a
check or form of receipt is issued), as baggage intended to be carried incidental
to a contract for carriage of a passenger
contract of carriage means a contract for the carriage of goods
contracting carrier, in relation to a contract of carriage, means the carrier
who, whether as a principal or as the agent of any other carrier, enters or has
entered into the contract with the contracting party.
contracting party, in relation to a contract of carriage, means the consignor or
(as the case may require) the consignee of the goods who enters or has entered
into the contract with the contracting carrier
court means any court of competent jurisdiction
goods means goods, baggage, and chattels of any description; and includes ani­
mals and plants; and also includes money, documents, and all other things of
value
hand baggage means baggage, personal effects, or other articles, not being
checked baggageincidental service, in relation to any goods, means any service (such as that
performed by consolidators, packers, stevedores, and warehousemen) the per­
formance of which is to be or is undertaken to facilitate the carriage of the
goods pursuant to a contract of carriage
international carriage,—
(a) in relation to the carriage of goods by air, means carriage in which, ac­
cording to the contract of carriage, the place of departure and the place
of destination (whether or not there is a break in the carriage or a tran­
shipment) are within the territories of 2 countries, or within the territory

3

0342

s3

Carriage of Goods Act 1979

Reprinted as at
1 September 2017

of a single country if there is an agreed stopping place within the territo­
ry of another country:
(b) in relation to the carriage of goods by sea, means carriage from any port
in New Zealand to any port outside New Zealand, or to any port in New
Zealand from any port outside New Zealand, commencing when the
goods are loaded onto a ship and ending when they are discharged from
a ship
loss, in relation to any goods, includes the non-delivery or destruction of the
goods
passenger means a person carried pursuant to a contract of carriage of that per­
son
ship means any vessel used for the carriage of goods by sea.
Compare: 1948 No 66 s 2; 1967 No 151 s 18

3

(1)

(2)

Meaning of unit of goods
In this Act, unless the context otherwise requires, unit of goods or unit,—
in relation to bulk cargo, means the customary freight unit; that is, the
(a)
unit of bulk, weight, or measurement upon which the freight for that type
of cargo is customarily computed or adjusted:
provided that, where the freight payable under a contract of carriage is
computed or adjusted upon a specified unit of bulk, weight, or measure­
ment, references in this Act to unit of goods or unit shall be deemed, for
the purposes of the carriage of goods pursuant to that contract, to be ref­
erences to that specified unit:
(b) in relation to goods contained in a container, means the container load of
goods; and includes, where the container is provided by the contracting
party, the container:
(c) in relation to goods loaded on a pallet, means the pallet load of goods;
and includes, where the pallet is provided by the contracting party, the
pallet:
(d) in relation to goods contained in a package that is not contained in a
larger package or in a container, nor loaded on a pallet, means the pack­
age of goods:
(e) in relation to goods that are unitised for the purposes of carriage in any
manner not referred to in any of the preceding paragraphs of this subsec­
tion, means the unit of goods as so unitised:
(0 in relation to goods (other than baggage) not referred to in any of the
preceding paragraphs of this subsection, means each item of the goods:
(g) in relation to baggage, means each item of baggage.
For the purpose of determining the limit of the liability of any carrier, the limit
of liability prescribed by section 15 in respect of each unit of goods relates to

4

0343

Reprinted as at
1 September 2017

Carriage of Goods Act 1979

s5

the unit of goods as accepted for carriage by the actual carrier or, where the
carriage is undertaken by more than 1 carrier, by the first actual carrier, wheth­
er or not that unit is subsequently packed, repacked, or unpacked, or otherwise
aggregated with or segregated from any other goods, at any stage of the car­
riage.
4

(1)
(2)

Act to bind Crown
Subject to subsection (2), this Act binds the Crown.
Nothing in this Act applies to—
(a) the carriage of goods by the New Zealand Defence Force or the Ministry
of Defence, except for the purpose of providing a public service in New
Zealand or elsewhere for payment (other than payment by or on behalf
of the military authorities of any other State).
(b) [Repealed]
Compare: 1948 No 66 s 9; 1967 No 151 ss 2, 19(3)
Section 4(2): substituted, on 1 April 1990, by section 105(1) of the Defence Act 1990 (1990 No 28).
Section 4(2)(b): repealed, on 1 April 1998, by section 62(1) of the Postal Services Act 1998 (1998
No 2).

5

Application of Act

(1)

Subject to subsections (4) and (4A) and to section 4, this Act applies to every
carriage of goods, not being international carriage, performed or to be per­
formed by a carrier pursuant to a contract entered into after the commencement
of this Act, whether the carriage is by land, water, or air, or by more than 1 of
those modes.
Subject to subsection (1), this Act applies to every carriage of goods whether
the carriage is or is not incidental to the carriage of passengers.
Subject to subsection (1), this Act applies to every carriage by air or by water
whether or not the aircraft or ship by which the carriage takes place is at the
same time also engaged in international carriage.
This Act does not apply to any carriage by air performed as part of an air trans­
port service for the carriage of passengers operated by any club that is affiliated
with the Royal New Zealand Aero Club (Incorporated), if the carriage is per­
formed in an aircraft owned or hired by the club, and if all persons carried on
the aircraft, whether as crew or passengers, are members of the club with full
rights of membership:
provided that the provisions of this subsection do not apply in any case where
any such passenger is not carried by reason of the fact that he is a member of
the club but for the purpose of carrying out a function not related to his mem­
bership.

(2)
(3)

(4)

(4A) This Act does not apply to the carriage of letters by a postal operator, whether
by the postal operator’s agents or otherwise.
5

0344

•s 6

Carriage of Goods Act 1979

Reprinted as at
1 September 2017

(4B) For the purposes of subsection (4A), the terms postal operator and letter have
the same meaning as they have in the Postal Services Act 1998.
•
(5) [Repealed]
Compare: 1940 No 31 s 2; 1967 No 151 s 19(1), (2), (4)
Section 5(1): amended, on 1 April 1998, by section 62(1) of the Postal Services Act 1998 (1998
No 2).
Section 5(4A): inserted, on 1 April 1998, by section 62(1) of the Postal Services Act 1998 (1998
No 2).
Section 5(4B): inserted, on 1 April 1998, by section 62(1) of the Postal Services Act 1998 (1998
No 2).
Section 5(5): repealed, on 1 February 1995, by section 212(2) of the Maritime Transport Act 1994
(1994 No 104).

6

7

Other remedies affected
Notwithstanding any rule of law to the contrary, no carrier shall be liable as
such, whether in tort or otherwise, and whether personally or vicariously, for
the loss of or damage to any goods carried by him except—
(a) in accordance with the terms of the contract of carriage and the provi­
sions of this Act; or
(b) where he intentionally causes the loss or damage.
Contracting out
The parties to a contract of carriage are free to make their own terms in respect
of any matter to which any of sections 10, and 18 to 27 apply; and, where they
do so, the relevant section or sections shall, in relation to that matter, have ef­
fect subject to those express terms.
Compare: 1940 No 31 s 4; 1948 No 66 ss 4, 5; 1967 No 151 s 30

8
(1)

Kinds of contract of carriage
For the purpose of determining upon whom liability for the loss of or damage
to any goods is to fall, every contract of carriage shall be one of the following
kinds:
(a) a contract for carriage at owner’s risk, under which the carrier shall not
be liable for the loss of or damage to any goods, except where the loss or
damage is intentionally caused by the carrier:
(b) a contract for carriage at limited carrier’s risk, under which the carrier
shall be liable for the loss of or damage to any goods in accordance with
sections 9, 14, and 15:
a contract for carriage at declared value risk, under which the carrier
(c)
shall be liable for the loss of or damage to any goods up to an amount
specified in the contract and otherwise in accordance with sections 9, 14,
and 15:

6

0345

v*"

Reprinted as at
1 September 2017

Carriage of Goods Act 1979

s8

(d)

(2)

(3)

(4)

(5)

(6)

(7)

a contract for carriage on declared terms, under which the carrier shall
be liable for the loss of or damage to any goods in accordance with the
specific terms of the contract.
Subject to the succeeding provisions of this section, where in any contract of
carriage the term “at owner’s risk” or the term “at limited carrier’s risk” or the
term “at declared value risk” or the term “on declared terms” is used, the con­
tract shall be deemed for the purposes of this Act to be one to which paragraph
(a) or paragraph (b) or paragraph (c) or paragraph (d) (as the case may require)
of subsection (1) applies. ,
■.
Subject to the succeeding provisions of this section, the kind of contract of car­
riage to be entered into in a particular case is a matter for agreement between
the parties.
Where the contract does not purport to be of a particular kind, it shall be
deemed for the purposes of this Act to be a contract for carriage at limited
carrier’s risk.
No contract of carriage purporting to be a contract for carriage at owner’s risk
shall have effect as such (but instead shall have effect as a contract for carriage
at limited carrier’s risk) unless—
(a) the contract is— .
(0 in writing; and
(ii) expressed to be at owner’s risk; and
(iii) signed by the parties or their agents; or
(b) before, or at the time when, the goods are accepted for carriage, the con­
tracting party or his agent signs a statement in the following terms:
“These goods are to be carried at owner’s risk. This means that the carri­
er will pay no compensation if the goods are lost or damaged, unless he
intentionally loses or damages them.”
For the purposes of this paragraph, that statement may be included in the
consignment note or any other document relating to the carriage, but in
that case the statement shall be conspicuous and shall be separately
signed by the contracting party or his agent.
No contract of carriage purporting to be a contract at declared value risk shall
have effect as such (but instead shall have effect as a contract for carriage at
limited carrier’s risk) unless the contract is in writing.
No contract of carriage purporting to be a contract for carriage on declared
terms shall have effect as such (but instead shall have effect as a contract for
carriage at limited carrier’s risk) unless the contract is—
(a) freely negotiated between the parties; and
(b) in writing; and
(c) signed by the parties or their agents.
7

0346

s9

(8)

(9)

(10)

(11)

(12)
(13)
(14)

Carriage of Goods Act 1979

Reprinted as at
1 September 2017

Where, in any proceeding, the question of whether any contract of carriage was
or was not freely negotiated is in issue, the court in determining that question
shall have regard to the following matters:
(a) the respective bargaining strengths of the parties:
(b) the course of dealing between the parties in respect of the particular
transaction in question, and any other transactions between them:
(c) the value of the transaction:
(d) any extraordinary features of the goods to be carried or the route over
which they are to be carried:
(e) any other matters that the court considers may properly be taken into ac­
count,—
and either party may adduce evidence relating to any such matter.
No contract of carriage at owner’s risk or at declared value risk shall have ef­
fect as such (but instead shall have effect as a contract for carriage at limited
carrier’s risk) unless the amount by which the freight charged by the contract­
ing carrier under the contract differs from the amount that he would have
charged for the same carriage at limited carrier’s risk is fair and reasonable,
having regard to the difference in the risk actually undertaken by the carrier
and the risk that he would have undertaken if the carriage had been at limited
carrier’s risk.
For the purposes of subsection (9), any rate of freight prescribed by or under
any enactment in respect of any mode of carriage pursuant to any kind of con­
tract of carriage shall be deemed to be a fair and reasonable rate to charge for
such carriage.
Any contract of carriage entered into by a contracting carrier with an actual
carrier, or between actual carriers, may be of any kind, regardless of the kind of
contract that subsists between the contracting carrier and the contracting party;
but subsections (5) to (8) shall not apply in respect of any such contract.
The provisions of sections 9, 14, and 15 apply to contracts for carriage at limit­
ed carrier’s risk and to contracts for carriage at declared value risk.
Sections 9(1), 14, and 15 do not apply to contracts for carriage at owner’s risk
or to contracts for carriage on declared terms.
Notwithstanding anything in section 7, the provisions of subsections (2) to (7)
of section 9 apply to contracts for carriage at owner’s risk and to contracts for
carriage on declared terms, subject to any express term in the contract.
Liability of carriers

9
(1)

Liability of contracting carrier
Subject to the other provisions of this Act, a contracting carrier is liable as such
to the contracting party for the loss of or damage to any goods occurring while

8

0347

G

*

Reprinted as at
1 September 2017

(2)
(3)

(4)

(5)
(6)

(7)

Carriage of Goods Act 1979

s9

he is responsible for the goods in accordance with the succeeding provisions of
this section, whether or not the loss or damage is caused wholly or partly by
him or by any actual carrier.
The responsibility of the contracting carrier for goods begins when the goods
are accepted for carriage in accordance with the contract.
Subject to subsection (4), the responsibility of the contracting carrier for goods
ends—
(a) in a case where the goods are to be delivered to the consignee,— .
0) when they are tendered to the consignee in the manner expressed
or implied in the contract; or
(ii) where any amount by way of freight is due and payable to or on
behalf of the contracting carrier at any time before, or at the time
at which, the goods are to be tendered to the consignee under the
contract and that amount has not been paid in full, when the con­
tracting carrier or (as the case may require) the last actual carrier
is capable of tendering the goods to the consignee in accordance
with the contract and gives notice to any person liable to pay the
amount or (as the case may require) the balance of the amount that
he is so capable:
(b) in a case where the goods are to be collected by the consignee,—
when the goods are collected by the consignee; or
(i)
on the expiry of the 5th day (excluding any day on which the
(ii)
carrier’s premises are not open for the collection of goods) after
the date on which the contracting carrier or (as the case may re­
quire) the last actual carrier notifies the consignee that the goods
are available for collection.
In any case where, at the time when the contracting carrier or (as the case may
require) the last actual carrier is able to tender the goods to the consignee in
accordance with the contract, the consignee’s whereabouts are unknown to that
carrier, the responsibility of the contracting carrier for the goods ends when he
or (as the case may require) the last actual carrier has taken reasonable steps to
find the consignee and notify him of the matters referred to in paragraph (a)(ii)
or (as the case may require) paragraph (b)(ii) of subsection (3).
No notice referred to in subsection (3)(a)(ii) shall take effect until it is received
by the person liable to pay the freight.
Notwithstanding any of the foregoing provisions of this section, the responsi­
bility of a contracting carrier who contracts for the carriage of goods to a des­
tination outside New Zealand ends for the purposes of this Act at the time
when the international carriage of those goods begins.
Notwithstanding any of the foregoing provisions of this section, the responsi­
bility of a contracting carrier who contracts for the carriage of goods from a
9

0348

Carriage of Goods Act 1979

s 10

Reprinted as at
1 September 2017

destination outside New Zealand to a destination in New Zealand begins for the
purposes of this Act at the time when the international carriage of those goods
ends.
Compare: 1948 No 66 s 7

10
(1)

(2)

(3)

(4)

(5)

(6)

Liability of actual carrier
The provisions of this section apply, subject to the other provisions of this Act,
where a contract of carriage is to be or is performed wholly or partly by 1 or
more actual carriers other than the contracting carrier (whether or not the con­
tracting carrier himself performs part of the carriage).
In any case to which this section applies where 1 actual carrier is involved, that
carrier is, subject to the terms of his contract with the contracting carrier, liable
as such to the contracting carrier for the loss of or damage to any goods occur­
ring while the actual carrier is separately responsible for the goods in accord­
ance with subsection (6), whether or not the loss or damage is caused wholly or
partly by the actual carrier.
In any case to which this section applies where more than 1 actual carrier is
involved,—
(a) subject to subsection (4), the actual carriers are, subject to the terms of
their respective contracts, jointly liable as such to the contracting carrier
for the loss of or damage to any goods occurring while the actual carriers
are jointly responsible for the goods in accordance with subsection (5),
whether or not the loss or damage is caused wholly or partly by the ac­
tual carriers or any of them:
(b) each actual carrier is, subject to the terms of his contract, separately
liable as such to the contracting carrier for the loss of or damage to any
goods occurring while he is separately responsible for the goods in ac­
cordance with subsection (6), whether or not the loss or damage is
caused wholly or partly by the actual carrier.
No actual carrier is liable under subsection (3)(a) if he proves that the loss or
damage occurred otherwise than while he was separately responsible for the
goods in accordance with subsection (6).
For the purposes of subsection (3)(a), the actual .carriers are jointly responsible
for the goods from the time when the goods (or the container, package, pallet,
item of baggage, or any other thing in or on which the goods are believed to
be) are accepted for carriage until the time when the contracting carrier’s re­
sponsibility ends in accordance with subsection (3) or subsection (4) of section
9.
For the purposes of subsections (2) to (4), each actual carrier is separately re­
sponsible for the goods from the time when the goods (or the container, pack­
age, pallet, item of baggage, or any other thing in or on which the goods are
believed to be) are accepted by him for carriage until the time—

10

0349

f

Reprinted as at
1 September 2017

Carriage of Goods Act 1979

s 11

(a)

(7)

(8)

(9)

when they are duly tendered by him to the next actual carrier in accord­
ance with the contract of carriage; or
(b) in the case of the last actual carrier, when the contracting carrier’s re­
sponsibility ends in accordance with subsection (3) or subsection (4) of
section 9.
For the purposes of subsection (3)(a), the actual carriers shall be liable in pro­
portion to the amount of freight or other consideration payable to each of the
actual carriers for the carriage performed by him.
For the purposes of subsection (7), where the contracting carrier himself per­
forms any part of the carriage, the amount of freight or other consideration pay­
able to him shall be the difference between the total amount payable under the
contract of carriage and the aggregate amount payable to the actual carriers.
For the purposes of subsections (7) and (8), where any actual carrier (in this
subsection referred to as the secondary actual carrier) performs any part of
the carriage pursuant to a contract with any other actual carrier (in this subsec­
tion referred to as the primary actual carrier) (and not pursuant to a contract
with the contracting carrier), the amount of the freight or other consideration
payable to the primary actual carrier shall be the difference between the
amount actually payable to him and the amount payable by him to the secon­
dary actual carrier.

11

Rights of contracting party where contracting carrier insolvent or cannot
be found

(1)

Notwithstanding anything in section 10, where the contracting carrier is liable
to the contracting party for the loss of or damage to any goods but the contract­
ing carrier is insolvent or cannot with reasonable diligence be found, the con­
tracting party shall be entitled to the same rights (if any) against the actual car­
rier as the contracting carrier has under section 10(3)(b).
Where the liquidator or assignee in bankruptcy of an insolvent contracting car­
rier brings any proceeding against an actual carrier in respect of any right re­
ferred to in subsection (1), the sum recovered from the actual carrier, less all
costs and expenses reasonably incurred by the liquidator or assignee in bring­
ing and prosecuting the proceeding and not recovered by him from the actual
carrier, shall be held by the liquidator or assignee upon the following trusts:
(a) for or towards the payment of the whole of the sum payable by the con­
tracting carrier to the contracting party in respect of the loss of or dam­
age to the goods:
(b) subject to that payment, as an asset in liquidation or bankruptcy.
Where the contracting party brings any proceeding against an actual carrier in
respect of any right referred to in subsection (1),—
(a) the actual carrier shall have the same rights (if any) against the contract­
ing party (including the right of set-off) as he would have had under the

(2)

(3)

ll

0350

s 12

(4)

Carriage of Goods Act 1979

Reprinted as at
1 September 2017

contract if the proceeding had been brought against him by the contract­
ing carrier:
(b) if judgment in the proceeding is awarded against the actual carrier, that
judgment shall be an absolute bar to the bringing by the contracting car­
rier, or by any person claiming through the contracting carrier, of any
proceeding to enforce the same right.
This section applies notwithstanding anything in the Companies Act 1993 or
the Insolvency Act 2006 or any other enactment.
Section 11(4): amended, on 5 December 2013, by section 14 of the Companies Amendment Act 2013
(2013 No 111).
Section 11(4): amended, on 3 December 2007, by section 445 of the Insolvency Act 2006 (2006
No 55).

12
(1)

(2)
(3)

(4)

(5)

Special rules relating to liability of carrier in respect of baggage
A carrier is not liable as such with respect to baggage that is left in his custody
pending his acceptance of it for carriage, or pending its collection from him
after the completion of the carriage.
Nothing in section 8, or in subsections (1) to (5) of section 9, or in sections 10,
11, and 13 shall apply to the carriage of hand baggage.
Subject to subsection (2), in respect of the carriage of hand baggage and
checked baggage, the provisions of this Act shall apply, with the necessary
modifications, as if that carriage were or were to be performed pursuant to a
contract of carriage of goods.
A carrier is liable as such for the loss of or damage to any hand baggage occur­
ring during the period in which the passenger is on board the mode of transport
or in the course of any of the operations of embarking or disembarking, if the
loss or damage is caused wholly or partly by the negligence or wilful default of
the carrier.
Without limiting section 14, if, in respect of the loss of or damage to any hand
baggage, the carrier proves that the loss or damage was contributed to by the
negligence or wilful default of the passenger, the court may, in accordance with
the provisions of the Contributory Negligence Act 1947, exonerate the carrier
from any part of his liability.
Compare: 1967 No 151 ss 23, 24

13
(1)

Contracts of successive carriage by air
In this section the term contract of successive carriage means a contract or
contracts for the carriage of any goods exclusively by air, where the carriage—
(a) is or is to be performed by 2 or more carriers in successive stages; and
(b) is regarded by the parties as a single operation;—
and the term successive carrier has a corresponding meaning.

12

0351

.7
fi

V¥.
•75>c

Reprinted as at
1 September 2017

(2)
(3)

(4)

(5)

(6)

Carriage of Goods Act 1979

s 15

Nothing in sections 8 to 12 applies in respect of a contract of successive car­
riage.
Subject to subsection (4) and to the other provisions of this Act, the successive
carriers under a contract of successive carriage are jointly and severally liable
as such to the contracting party for the loss of or damage to any goods occur­
ring while the carriers are jointly responsible for the goods in accordance with
subsection (5), whether or not the loss or damage is caused wholly or partly by
the carriers or any of them.
No successive carrier is liable under subsection (3) if he proves that the loss or
damage occurred otherwise than while he was separately responsible for the
goods in accordance with subsection (6).
The successive carriers are jointly responsible for the goods from the time
when the goods are accepted by the first successive carrier for carriage in ac­
cordance with the contract until the time when, if the contract were not a con­
tract of successive carriage, the contracting carrier’s responsibility would have
ended in accordance with subsection (3) or subsection (4) of section 9.
Each successive carrier is separately responsible for the goods from the time
when the goods are tendered to him in accordance with the contract until the
time—
(a)
(b)

when they are duly tendered by him to the next successive carrier in ac­
cordance with the contract of carriage; or
in the case of the last successive carrier, when, if the contract were not a
contract of successive carriage and he were the contracting carrier, his
responsibility would have ended in accordance with subsection (3) or
subsection (4) of section 9.

Compare: 1940 No 31 s 3; 1967 No 151 ss 25-27

14

Carrier not liable in certain circumstances
Notwithstanding any of the other provisions of this Act, a carrier is not liable
as such for the loss of or damage to goods occurring while he is responsible for
them under a contract of carriage to the extent that he proves that the loss or
damage resulted directly and without fault on his part from—
(a) inherent vice; or
(b)
(c)
(d)

15
(1)

any breach of either of the terms implied in the contract by section 17; or
seizure under legal process; or
saving or attempting to save life or property in peril.

Limitation of amount of carrier’s liability
For the purposes of this Act,—
(a)
(b)

the liability of the contracting carrier to the contracting party; and
the separate liability of any actual carrier to the contracting carrier; and
13

0352

, Carriage of Goods Act 1979

s 16

Reprinted as at
1 September 2017

the joint liability of any actual carriers (where there are more than 1) to
the contracting carrier; and
(d) the joint and several liability of every successive carrier under a contract
to which section 13 applies,—
is limited in amount in each case to the sum of $2,000 for each unit of goods
lost or damaged or, in the case of a contract at declared value risk, the amount
specified in the contract.
The limitation of amount for the time being specified in subsection (1) does not
apply to—
(a) any liability for the loss of or damage to any goods intentionally caused
by the carrier; or
(b) any liability arising out of the terms of the contract for damages other
than for the loss of or damage to the goods; or
(c) any liability arising out of the terms of the contract for damages conse­
quential upon the loss of or damage to the goods.
(c)

(2)

Compare: 1940 No 31 s 6; 1948 No 66 s 6; 1967 No 151 s 28
Section 15(1): amended, on 17 June 2014, by section 4 of the Carriage of Goods Amendment Act
2013 (2013 No 147).

Liability of employees
16
(1)

(2)

Liability of carrier’s employee
Every employee of a carrier who, in the course of his employment, intentional­
ly causes the loss of or damage to any goods being carried by the carrier shall
be liable to the owner of the goods for that loss or damage.
Subject to subsection (1), no employee of a carrier shall be liable as such,
whether under this Act or otherwise, to the owner of any goods being carried
by the carrier for the loss of or damage to any of those goods.
Warranty by contracting parties

17
(1)

Contracting party to warrant condition of goods, etc
In every contract of carriage there shall be implied on the part of the contract­
ing party a term—
(a) that, except as disclosed in accordance with subsection (2), the goods are
fit to be carried and stored in accordance with the contract in the condi­
tion and packed in the manner in which they are tendered for carriage:
(b) that, except as disclosed in accordance with subsection (2), the provi­
sions of every other enactment (if any) that he is required to comply with
relating to the consignment for carriage of the goods to be carried pur­
suant to the contract have been complied with.

14

0353

£

Reprinted as at
1 September 2017

Carriage of Goods Act 1979

s 18

(2)

If, before the goods are accepted for carriage, the contracting party notifies the
contracting carrier or the first actual carrier of any material particular that
would otherwise constitute a breach of either of the terms specified in subsec­
tion (1), the carrier may refuse to carry the goods, or undertake to carry them
subject to such reasonable terms and conditions as he may require having re­
gard to the circumstances of the case.

(3)

Notwithstanding anything in section 7, the provisions of this section apply,
with the necessary modifications, to contracts of carriage between contracting
carriers and actual carriers, and between actual carriers, subject to any express
term in the contract.
Actions against carriers

18

Notice of claim of damage or partial loss to be given within 30 days

(1)

Subject to the succeeding provisions of this section, and except in the case of
fraud by the carrier, no action may be brought against a contracting carrier for
damage to or partial loss of goods occurring while he is responsible for them
under this Act unless written notice giving reasonable particulars of the alleged
damage or partial loss is given, in accordance with subsection (4), within 30
days after the date on which, in accordance with section 9, the carrier’s respon­
sibility for the goods ceased.

(2)

Subject to the succeeding provisions of this section, and except in the case of
fraud by the actual carrier, no action may be brought by the contracting carrier
against an actual carrier for damage to or partial loss of goods occurring while
the actual carrier is responsible for them under this Act unless the contracting
carrier, within 10 days after receiving notice of a claim under subsection (1),
notifies the actual carrier of that claim.

(3)

No notice is required if it is apparent from all the circumstances of the case that
the carrier is or ought to be aware of the damage or partial loss.

(4)

Notice for the purpose of subsection (1) shall be given—

(5)

(a)

where the contract was performed entirely by the contracting carrier, to
that carrier; or

(b)

where the contract was not performed entirely by the contracting carrier,
(i)

the actual carrier or, as the case may require, the last actual carri­
er; and

(ii)

the contracting carrier, unless (where notice of the claim is to be
given by the consignee) the identity of the contracting carrier is
unknown to the consignee.

A carrier may consent to an action being brought against him notwithstanding
that notice of the claim was not properly given.

15

0354

s 19

(6)

(7)

Carriage of Goods Act 1979

Reprinted as at
1 September 2017

Where the carrier does not consent, application may be made to the court, after
notice to the carrier, for leave to bring the action at any time before the expir­
ation of the period prescribed by subsection (1) or (as the case may require)
subsection (2) of section 19.
On an application under subsection (6), the court may, if it thinks it just to do
so, grant leave accordingly, subject to such conditions (if any) as it thinks just
to impose, where it considers that the failure to give notice was occasioned by
mistake of fact or by mistake of any matter of law (other than the provisions of
this section) or by any other reasonable cause, and that the intended defendant
was not materially prejudiced in his defence or otherwise by the failure to give
proper notice.
Compare: 1950 No 34 s 262A; 1967 No 151 s 38
Section 18(1): amended, on 23 December 1980, by section 2 of the Carriage of Goods Amendment
Act 1980 (1980 No 102).

19
(1)

(2)

(3)
(4)

(5)

Limitation of actions
Subject to subsections (2) to (5), and except in the case of fraud by the carrier,,,
no action may be brought against a carrier for the loss of any goods occurring,,
while he is responsible for them under this Act after the expiration of a period .
of 12 months from the date on which the carriage should have been completed
in accordance with the contract.
Subject to subsections (3) to (5), and except in the case of fraud by the carrier,
no action may be brought against a carrier for damage to or partial loss of any.
goods occurring while he is responsible for them under this Act after the expir­
ation of a period of 12 months from—
(a) the date on which notice is served on the carrier under subsection (1) or
(as the case may require) subsection (2) of section 18; or
(b) where no such notice is served in proper reliance on subsection (3) of
that section, the date on which, in accordance with section 9, the con­
tracting carrier’s responsibility for the goods ceased.
A carrier may consent to an action being brought against him notwithstanding
that the period specified in subsection (1) or subsection (2) has expired.
Where the carrier does not consent, application may be made to the court, after
notice to the carrier, for leave to bring the action at any time within 6 years
after the relevant date referred to in subsection (1) or subsection (2).
On an application under subsection (4), the court may, if it thinks it just to do
so, grant leave accordingly, subject to such conditions (if any) as it thinks just
to impose, where it considers that the delay in bringing the action was occa­
sioned by mistake of fact or by mistake of any matter of law (other than the
provisions of this section) or by any other reasonable cause, and that the inten-

16

0355

Reprinted as at
1 September 2017

Carriage of Goods Act 1979

s 22

ded defendant was not materially prejudiced in his defence or otherwise by the
delay.
Compare: 1967 No 151 s 39

20

(1)

(2)

Actions by consignee if not contracting party
Notwithstanding anything in this Act or any rule of law to the contrary, an ac­
tion against a contracting carrier in respect of the loss of or damage to any
goods occurring while he is responsible for the goods in accordance with sec­
tion 9 may, if the property in the goods has passed to the consignee and he is
not the contracting party, be brought by the consignee.
Where the consignee brings an action in accordance with subsection (1),—
(a) he shall be deemed to be the contracting party and be entitled to sue and
recover under the contract accordingly:
(b) the contracting carrier shall be entitled to raise the same defences and to
make the same counterclaims as he would have been entitled to raise or
make if the action had been brought against him by the contracting party.
Rights of carriers

21

(1)

(2)
22

(1)

(2)

Right to sue for freight
The right to sue for the recovery of freight payable under a contract of carriage
arises—
(a) in the case of a contracting carrier, when he ceases to be responsible for
the goods in accordance with section 9:
(b) in the case of an actual carrier, when he ceases to be separately respon­
sible for the goods in accordance with section 10.
Nothing in subsection (1) shall limit or affect the right of any carrier to refuse
to accept any goods for carriage unless the freight is prepaid.
Actions for recovery of freight
Notwithstanding anything in this Act or any rule of law to the contrary, an ac­
tion for the recovery of freight may, if the property in the goods has passed to
the consignee and he is not the contracting party, be brought against the con­
signee.
Where the action is brought against the consignee in accordance with subsec­
tion (1),—
(a) he shall be deemed to be the contracting party and be liable for the pay­
ment of freight under the contract accordingly:
(b) he shall be entitled to raise the same defences and to make the same
counterclaims as the contracting party would have been entitled to raise
or make if the action had been brought against him.

17

0356

s 23

23

(1)

(2)

(3)

(4)

(5)

(6)

(7)

Carriage of Goods Act 1979

Reprinted as at
1 September 2017

Carrier’s liens
In this section,—
owner, in relation to any goods, means the person whom, under any contract of
carriage or in accordance with section 22, the carrier is entitled to sue for re­
covery of freight due in respect of the carriage of those goods
recoverable expenses, means all expenses and charges that the carrier, in ac­
cordance with subsection (6)(b), is entitled to recover from the owner of any
goods in respect of which the carrier is exercising or has exercised a lien in ac­
cordance with this section.
As from the time when, in accordance with section 21(1), a carrier’s right to
sue for the recovery of freight arises, the carrier is entitled to an active and par­
ticular lien over the goods, which may be exercised in accordance with this
section.
Every carrier claiming a lien over any goods under this section shall give no­
tice of his claim to the owner of the goods, specifying the amount and particu­
lars of his claim, and requiring the owner to pay or secure to the carrier the: £
amount of the freight claimed and all recoverable expenses.
Pending settlement of the claim,—
(a) the carrier may remove the goods to any suitable premises for storage
(such premises being reasonably convenient to enable the owner of the
goods, or any other person entitled to the goods, to collect them on pay­
ment of all freight owing and recoverable expenses so far incurred), and.
shall notify the owner of the goods of the address of the premises:
(b) the carrier shall take all reasonable steps to preserve the goods.
If, within 2 months after the date on which the carrier serves notice of his claim
on the owner of the goods in accordance with subsection (3), payment in full of
all freight owing and recoverable expenses so far incurred has not been ten­
dered to the carrier, he shall be entitled to sell the goods by public auction.
From the proceeds of such sale, the carrier shall be entitled to deduct—
(a) the amount of freight owing to him in respect of the carriage of the
goods; and
(b) all expenses reasonably incurred by him in removing, preserving, and
storing the goods pending settlement of his claim, and in arranging and
conducting the sale of the goods,—
and shall pay the balance (if any) to the owner of the goods.
Where the amount of the proceeds is less than the amount of freight owing to
the carrier and all recoverable expenses, the deficiency constitutes a debt due to
the carrier by the owner of the goods.

18

0357

Reprinted as at
1 September 2017

Carriage of Goods Act 1979

s 25

ee

Nothing in this section shall limit or affect the right to have and enforce a gen­
eral lien over any goods to which a carrier may be entitled by virtue of any pro­
vision expressed or implied in the contract of carriage.

24

Storage and disposal of unclaimed or rejected goods
Where, under any contract of carriage,—
(a) any goods are to be collected by the consignee and they are not collected
by him forthwith after the responsibility of the contracting carrier for the
goods ends in accordance with section 9; or
(b) any goods are to be delivered to the consignee and he cannot be found or
(otherwise than because of any default by the carrier) he refuses to ac­
cept the goods,—
the carrier is entitled to remove the goods, at the consignee’s expense, to suit­
able premises for storage.
In respect of any goods held by the carrier under this section, the carrier is en­
titled to an active and particular lien over the goods, which may be exercised in
the same manner and to the same extent as if it were a lien to which section 23
applies, and the provisions of that section, so far as they are applicable and
with the necessary modifications, shall apply accordingly.
Notwithstanding any of the foregoing provisions of this section, before selling
any goods to which this section applies, the carrier shall offer to carry the
goods to, or to the order of, the consignor, at the cost in all things of the con­
signor.

(1)

(2)

(3)

Compare: 1967 No 151 s41

25

(1)

(2)

(3)

Disposal of perishable goods
Notwithstanding any of the other provisions of this Act, if, at any time while
any perishable goods are subject to a contract of carriage (including any time
while they are held under section 23 or section 24), the goods appear to be de­
teriorating and likely to become offensive, the carrier may—
(a) sell the goods to the best advantage; or
(b) if sale is not reasonably practicable, destroy or otherwise dispose of the
goods.
If the goods are sold, the carrier may deduct from the proceeds of sale the
amount of freight or other consideration owing to him in respect of the carriage
of the goods and all reasonable expenses incurred by him in holding the goods
and in conducting the sale, and shall tender the balance (if any) to the consign­
ee.
If the goods are destroyed or otherwise disposed of, the reasonable expenses
incurred by the carrier shall be recoverable by him from the contracting party.
Compare: 1967 No 151 s 42

19

0358

s 26

26
(1)

(2)

27

Carriage of Goods Act 1979

Reprinted as at
1 September 2017

Disposal of dangerous goods
Notwithstanding any of the other provisions of this Act, if, at any time while
any goods are subject to a contract of carriage (including any time while they
are held under section 23 or section 24), the carrier believes on reasonable
grounds that the goods are in or are about to enter a dangerous state and that it
is necessary, in order to avoid the threat of harm to any persons or property, to
destroy or otherwise dispose of the goods forthwith, he may do so.
In any such case, the reasonable expenses incurred by the carrier in destroying
or otherwise disposing of the goods shall be recoverable by him from the con­
tracting party.
Liability of carrier extinguished
Notwithstanding any of the other provisions of this Act, where any goods are
sold or destroyed or otherwise disposed of under and in accordance with any of
sections 23 to 26, neither the contracting carrier nor any actual carrier shall be
under any liability (whether under this Act or otherwise) in respect of that sale,
destruction, or other disposition; but that sale, destruction, or other disposition
shall not affect any liability for any loss or damage that had already occurred in t
respect of the goods before the sale, destruction, or other disposition.
’
Miscellaneous provisions

28
(1)

(2)

■l
Common carrier of goods abolished
Notwithstanding any rule of law, but subject to the provisions of any enactment^
and of any contract entered into by the carrier, no carrier is under any duty or
obligation to accept or carry goods that are offered to him for carriage.
Every reference in any other enactment to the liability of common carriers as
such shall be deemed to be a reference to the liability of carriers under this Act.

29

Proceedings against New Zealand agent of overseas carrier
Subject, in the case of a contract for carriage by sea, to section 11 of the Sea
Carriage of Goods Act 1940, proceedings arising out of a contract of carriage
may be brought in accordance with the provisions of this Act against a New
Zealand agent, whether acting under general or special authority, of an overseas
contracting carrier if—
(a) the contract is or is to be performed wholly or partly in New Zealand;
and
(b) the agent plays some part in relation to the contract.

30

Certain other Acts not affected
Nothing in this Act shall limit or affect any of the provisions of the Explosives
Act 1957, the Restricted Drugs Act 1960, the Radiation Safety Act 2016, the
Dangerous Goods Act 1974, or any other enactment relating to goods of a par-

20

0359

j.

Reprinted as at
1 September 2017

Carriage of Goods Act 1979

s 31

ticular nature or class; and in any case where any of the provisions of this Act
are inconsistent with any of the provisions of any such other enactment, the
provisions of that other enactment shall prevail.
Compare: 1967 No 151 s 44
Section 30: amended, on 7 March 2017, by section 99 of the Radiation Safety Act 2016 (2016 No 6).

31
(1)
(2)

Amendments and repeals
The enactments specified in Schedule 1 are hereby amended in the manner in­
dicated in that schedule.
The enactments specified in Schedule 2 are hereby repealed.

21

0360

Schedule 1

Carriage of Goods'Act 1979

Reprinted as at
1 September 2017

Schedule 1
Enactments amended
S 31(1)

Carriage by Air Act 1967 (1967 No 151)
Amendments) incorporated in the Act(s).
Government Railways Act 1949 (1949 No 40) (Reprinted 1973, Vol 2, p 1403)
Amendment(s) incorporated in the Act(s).
Government Railways Amendment Act 1962 (1962 No 13) (Reprinted 1973,
Vol 2, p 1516)
Amendment(s) incorporated in theAct(s).
Government Railways Amendment Act 1963 (1963 No 124) (Reprinted 1973,
Vol 2, p 1517)
Amendment(s) incorporated in the Act(s).
Harbours Act 1950 (1950 No 34) (Reprinted 1966, Vol 3, p 2395)
Amendment(s) incorporated in the Act(s).
Shipping and Seamen Act 1952 (1952 No 49) (Reprinted 1965, Vol 3, p 1631)
Amendment(s) incorporated in the Act(s).

22

0361

Reprinted as at
1 September 2017

Carriage of Goods Act 1979

Schedule 2

Schedule 2
Enactments repealed
s 31(2)

Carriers Act 1948 (1948 No 66) (Reprinted 1979, RS Vol 1, p 423)
Carriers Amendment Act 1962 (1962 No 14) (Reprinted 1979, RS Vol 1, p 427)
Sea Carriage of Goods Act 1940 (1940 No 31) (1957 Reprint, Vol 13, p 709)
Amendment(s) incorporated in the Act(s). ,

23

0362

f

Carriage of Goods Act 1979

Notes

Reprinted as at
1 September 2017

Reprints notes
1

General
This is a reprint of the Carriage of Goods Act 1979 that incorporates all the
amendments to that Act as-at the date of the last amendment to it.

2

Legal status
Reprints are presumed to correctly state, as at the date of the reprint, the law
enacted by the principal enactment and by any amendments to that enactment.
Section 18 of the Legislation Act 2012 provides that this reprint, published in
electronic form, has the status of an official version under section 17 of that
Act. A printed version of the reprint produced directly from this official elec­
tronic version also has official status.

3

Editorial andformat changes
Editorial and format changes to reprints are made using the powers under sec­
tions 24 to 26 of the Legislation Act 2012. See also http://www.pco.parliament.govt.nz/editorial-conventions/.

4

Amendments incorporated in this reprint
Contract and Commercial Law Act 2017 (2017 No 5): section 345(l)(a)
Radiation Safety Act 2016 (2016 No 6): section 99
Carriage of Goods Amendment Act 2013 (2013 No 147)
Companies Amendment Act 2013 (2013 No 111): section 14
Insolvency Act 2006 (2006 No 55): section 445
Postal Services Act 1998 (1998 No 2): section 62(1)
Maritime Transport Act 1994 (1994 No 104): section 212(2)
Defence Act 1990 (1990 No 28): section 105(1)
Carriage of Goods Amendment Act 1980 (1980 No 102)

Wellington. New Zealand:
Published under the authority of the New Zealand Government—2017

24

0363

1

parliamentary
COUNSEL.OPP 1C E
TBTARI TOHUTOHU
PA.REMATA

New Zealand Legislation

Maritime Transport Act 1994
Warning: Some amendments have not vet been incorporated

Schedule 5
The Amended Hague Rules
s 209(1)

Article 1
In this convention the following words are employed with the meanings set out below:
(a)

“Carrier” includes the owner or the charterer who enters into a contract of carriage with a shipper.

(b) ' “Contract of carriage” applies only to contracts of carriage covered by a bill of lading or any similar document of title,
in so far as such document relates to the carriage of goods by sea, including any bill of lading or any similar document
as aforesaid issued under or pursuant to a charter party from the moment at which such bill of lading or similar
document of title regulates the relations between a carrier and a holder of the same.
(c)

“Goods” includes goods, wares, merchandise, and articles of every kind whatsoever except live animals and cargo
which by the contract of carriage is stated as being carried on deck and is so carried.

(d)

“Ship” means any vessel used for the carriage of goods by sea.

(e)

“Carriage of goods” covers the period from the time when the goods are loaded on to the time they are discharged from
the ship.

Article 2
Subject to the provisions of Article 6, under every contract of carriage of goods by sea the carrier, in relation to the loading,
handling, stowage, carriage, custody, care and discharge of such goods, shall be subject to the responsibilities and liabilities,
and entitled to the rights and immunities hereinafter set forth.

Article 3
l.

The carrier shall be bound before and at the beginning of the voyage to exercise due diligence to—
(a)

Make the ship seaworthy.

(b)

Properly man, equip and supply the ship.

(c)

Make the holds, refrigerating and cool chambers, and all other parts of the ship in which goods are carried, fit
and safe for their reception, carriage and preservation.

2.

Subject to the provisions of Article 4, the carrier shall properly and carefully load, handle, stow, carry, keep, care for,
and discharge the goods carried.

3.

After receiving the goods into his charge the carrier or the master or agent of the carrier shall, on demand of the
shipper, issue to the shipper a bill of lading showing among other things—
(a)

The leading marks necessary for identification of the goods as the same are furnished in writing by the shipper
before the loading of such goods starts, provided such marks are stamped or otherwise shown clearly upon the

0364

goods if uncovered, or on the cases or coverings in which such goods are contained, in such a manner as should
ordinarily remain legible until the end of the voyage.
(b)

Either the number of packages or pieces, or the quantity, or weight, as the case may be, as furnished in writing
by the shipper.

(c)

The apparent order and condition of the goods.

Provided that no carrier, master or agent of the carrier shall be bound to state or show in the bill of lading any marks,
number, quantity, or weight which he has reasonable ground for suspecting not accurately to represent the goods
actually received, or which he has had no reasonable means of checking.
4.

Such a bill of lading shall be prima facie evidence of the receipt by the carrier of the goods as therein described in
accordance with paragraph 3(a), (b) and (c). [However, proof to the contrary shall not be admissible when the bill of
lading has been transferred to a third party acting in good faith.]
The words in square brackets were added by the Protocol of 23 February 196S. ■

5.

The shipper shall be deemed to have guaranteed to the carrier the accuracy at the time of shipment of the marks,
number, quantity and weight, as furnished by him, and the shipper shall indemnify the carrier against all loss, damages
and expenses arising or resulting from inaccuracies in such particulars. The right of the carrier to such indemnity shall
in no way limit his responsibility and liability under the contract of carriage to any person other than the shipper.

6.

Unless notice of loss or damage and the general nature of such loss or damage be given in writing to the carrier or his
agent at the port of discharge before or at the time of the removal of the goods into the custody of the person entitled to
delivery thereof under the contract of carriage, or, if the loss or damage be not apparent, within three days, such
removal shall be prima facie evidence of the delivery by the carrier of the goods as described in the bill of lading.
The notice in writing need not be given if the state of the goods has, at the time of their receipt, been the subject of
joint survey or inspection.
[Subject to paragraph 6bis the carrier and the ship shall in any event be discharged from all liability whatsoever in
respect of the goods, unless suit is brought within one year of their delivery or of the date when they should have been
delivered. This period may, however, be extended if the parties so agree after the cause of action has arisen.] +
The words in square brackets were substituted by the Protocol of 23 February 1968.

In the case of any actual or apprehended loss or damage the carrier and the receiver shall give all reasonable facilities
to each other for inspecting and tallying the goods.
[6bis. An action for indemnity against a third person may be brought even after the expiration of the year provided-for in the
preceding paragraph if brought within the time allowed by the law of the court seized of the case. However, the time
allowed shall be not less than three months, commencing from the day when the person bringing such action for
indemnity has settled the claim or has been served with process in the action against himself.]
The words in square brackets were added by the Protocol of 23 February 1968.

7.

After the goods are loaded the bill of lading to be issued by the carrier, master, or agent of the carrier, to the shipper
shall, if the shipper so demands, be a “shipped” bill of lading, provided that if the shipper shall have previously taken
up any document of title to such goods, he shall surrender the same as against the issue of the “shipped” bill of lading,
but at the option of the carrier such document of title may be noted at the port of shipment by the carrier, master, or
agent with the name or names of the ship or ships upon which the goods have been shipped and the date or dates of
shipment, and when so noted, if it shows the particulars mentioned in paragraph 3 of Article 3, shall for the purpose of
this article be deemed to constitute a “shipped” bill of lading.

8.

Any clause, covenant, or agreement in a contract of carriage relieving the carrier or the ship from liability for loss or
damage to, or in connection with, goods arising from negligence, fault, or failure in the duties and obligations provided
in this article or lessening such liability otherwise than as provided in this convention, shall be null and void and of no
effect. A benefit of insurance in favour of the carrier or similar clause shall be deemed to be a clause relieving the
carrier from liability.

Article 4
l.

Neither the carrier nor the ship shall be liable for loss or damage arising or resulting from unseaworthiness unless
caused by want of due diligence on the part of the carrier to make the ship seaworthy, and to secure that the ship is
properly manned, equipped and supplied, and to make the holds, refrigerating and cool chambers and all other parts of
the ship in which goods are carried fit and safe for their reception, carriage and preservation in accordance with the

0365

• :*• '

provisions of paragraph 1 of Article 3. Whenever loss or damage has resulted from unseaworthiness the burden of
proving the exercise of due diligence shall be on the carrier or other person claiming exemption under this article.
2.

Neither the carrier nor the ship shall be responsible for loss or damage arising or resulting from—
(a)

Act, neglect or default of the master, mariner, pilot, or the servants of the carrier in the navigation or in the
management of the ship.

(b)

Fire, unless caused by the actual fault or privity of the carrier.

(c)

Perils, dangers and accidents of the sea or other navigable waters.

(d)

Act of God.

(e)

Act of war.

(f)

Act of public enemies.

(g)

Arrest or restraint of princes, rulers or people, or seizure under legal process.

(h)

Quarantine restrictions.

(i)

Act or omission of the shipper or owner of the goods, his agent or representative.

(j)

Strikes or lock-outs or stoppage or restraint of labour from whatever cause, whether partial or general.

(k)

Riots and civil commotions.

(0

Saving or attempting to save life or property at sea.

(m)

Wastage in bulk or weight or any other loss or damage arising from inherent defect, quality or vice of the goods.

(n)

Insufficiency of packing.

(o)

Insufficiency or inadequacy of marks.

(p)

Latent defects not discoverable by due diligence.

(fr)

Any other cause arising without the actual fault or privity of the carrier, or without the actual fault or neglect of
the agents or servants of the carrier, but. the burden of proof shall be on the person claiming the benefit of this
exception to show that neither the actual fault or privity of the carrier nor the fault or neglect of the agents or
servants of the carrier contributed to the loss or damage.

;

3.

The shipper shall not be responsible for loss or damage sustained by the carrier or the ship arising or resulting from any
cause without the act, fault or neglect of the shipper, his agents or his servants.

4.

Any deviation in saving or attempting to save life or property at sea or any reasonable deviation shall not be deemed to
be an infringement or breach of this convention or of the contract of carriage, and the carrier shall not be liable for any
loss or damage resulting therefrom.

|5.

(a)

Unless the nature and value of such goods have been declared by the shipper before shipment and inserted in
the bill of lading, neither the carrier nor the ship shall in any event be or become liable for any loss or damage
to or in connection with the goods in an amount exceeding 666.67 units of account per package or unit or 2
units of account per kilogramme of gross weight of the goods lost or damaged, whichever is the higher.]
|(b) The total amount recoverable shall be calculated by reference to the value of such goods at the place and time
at which the goods are discharged from the ship in accordance with the contract or should have been so
discharged.
The value of the goods shall be fixed according to the commodity exchange price, or, if there be no such
price, according to the current market price, or, if there be no commodity exchange price or current market
price, by reference to the normal value of goods of the same kind and quality.
(c) Where a container, pallet or similar article of transport is used to consolidate goods, the number of packages
or units enumerated in the Bill of Lading as packed in such article of transport shall be deemed the number of
packages or units for the purpose of this paragraph as far as these packages or units are concerned. Except as
aforesaid such article of transport shall be considered the package or unit.]
[(d) The unit of account mentioned in this Article is the Special Drawing Right as defined by the International
Monetary Fund. The amounts mentioned in subparagraph (a) of this paragraph shall be converted into
national currency on the basis of the value of that currency on a date to be determined by the law of the court
seized of the case.
The value of the national currency, in terms of the Special Drawing Right, of a State which is a member of the
International Monetary Fund, shall be calculated in accordance with the method of valuation applied by the
International Monetary Fund in effect at the date in question for its operations and transactions. The value of the
national currency, in terms of the Special Drawing Right, of a State which is not a member of the International
Monetary Fund, shall be calculated in a manner determined by that State.
Nevertheless, a State which is not a member of the International Monetary Fund and whose law does not permit the

0366

application of the provisions of the preceding sentences may, at the time of ratification of the Protocol of 1979 or
accession thereto or at any time thereafter, declare that the limits of liability provided for in this Convention to be
applied in its territory shall be fixed as follows:
(i)
in respect of the amount of 666.67 units of account mentioned in subparagraph (a) of paragraph 5 of
this Article, 10,000 monetary units;
(ii) in respect of the amount of 2 units of account mentioned in subparagraph (a) of paragraph 5 of this
Article, 30 monetary units.
The monetary unit referred to in the preceding sentence corresponds to 65.5 milligrammes of gold of millesimal
fineness 900'. The conversion of the amounts specified in that sentence into the national currency shall be made
according to the law of the State concerned.
The calculation and the conversion mentioned in the preceding sentences shall be made in such a manner as to
express in the national currency of the State as far as possible the same real value for the amounts in subparagraph
(a) of paragraph 5 of this Article as is expressed there in units of account.
States shall communicate to the depository the manner of calculation or the result of the conversion as the case may
be, when depositing an instrument of ratification of the Protocol of 1979 or of accession thereto and whenever there
is a change in either.]
[(e) Neither the carrier nor the ship shall be entitled to the benefit of the limitation of liability provided for in this
paragraph if it is proved that the damage resulted from an act or omission of the carrier done with intent to
cause damage, or recklessly and with knowledge that damage would probably result.
(f)
The declaration mentioned in subparagraph (a) of this paragraph, if embodied in the Bill of Lading, shall be
prima facie evidence, but shall not be binding or conclusive on the carrier.
(g) By agreement between the carrier, master or agent of the carrier and the shipper other maximum amounts than
those mentioned in subparagraph (a) of this paragraph may be fixed, provided that no maximum amount so
fixed shall be less than the appropriate maximum mentioned in that subparagraph.
(h) Neither the carrier nor the ship shall be responsible in any event for loss or damage to, or in connection with,
goods if the nature or value thereof has been knowingly mis-stated by the shipper in the Bill of Lading.]
Paragraph 5(a) was inserted by the Protocol of 21 December 1979.
Paragraphs 5(b) and 5(c) were inserted by the Protocol of 23 February 1968.
Paragraph 5(d) and the succeeding unlettered paragraphs were inserted by the Protocol of 21 December 1979.
Paragraphs 5(e) to 5(h) were inserted by the Protocol of 23 February 1968.

6.

Goods of an inflammable, explosive or dangerous nature to the shipment whereof the carrier, master or agent of the
carrier has not consented with knowledge of their nature and character, may at any time before discharge be landed at
any place, or destroyed or rendered innocuous by the carrier without compensation and the shipper of such goods shall
be liable for all damages and expenses directly or indirectly arising out of or resulting from such shipment. If any such
goods shipped with such knowledge and consent shall become a danger to the ship or cargo, they may in like manner
be landed at any place, or destroyed or rendered innocuous by the carrier without liability on the part of the carrier
except to general average, if any.

[Article 4bis
l.

The defences and limits of liability provided for in this Convention shall apply in any action against the carrier in
respect of loss or damage to goods covered by a contract of carriage whether the action be founded in contract or in
tort.

2.

If such an action is brought against a servant or agent of the carrier (such servant or agent not being an independent
contractor), such servant or agent shall be entitled to avail himself of the defences and limits of liability which the
carrier is entitled to invoke under this Convention.

3.

The aggregate of the amounts recoverable from the carrier, and such servants and agents, shall in no case exceed the
limit provided for in this Convention.

4.

Nevertheless, a servant or agent of the carrier shall not be entitled to avail himself of the provisions of this Article, if it
is proved that the damage resulted from an act or omission of the servant or agent done with intent to cause damage or
recklessly and with knowledge that damage would probably result.]
This article was inserted by the Protocol of 23 February 1968.

Article 5
A carrier shall be at liberty to surrender in whole or in part all or any of his rights and immunities or to increase any of his
responsibilities and obligations under this convention, provided such surrender or increase shall be embodied in the Bill of
Lading issued to the shipper. The provisions of this convention shall not be applicable to charter parties, but if bills of lading

0367

are issued in the case of a ship under a charter party they shall comply with the terms of this convention. Nothing in these
rules shall be held to prevent the insertion in a Bill of Lading of any lawful provision regarding general average.

Article 6
Notwithstanding the provisions of the preceding articles, a carrier, master or agent of the carrier and a shipper shall in regard
to any particular goods be at liberty to enter into any agreement in any terms as to the responsibility and liability of the carrier
for such goods, and as to the rights and immunities of the carrier in respect of such goods, or his obligation as to
seaworthiness, so far as this stipulation is not contrary to public policy, or the care or diligence of his servants or agents in
regard to the loading, handling, stowage, carriage, custody, care and discharge of the goods carried by sea, provided that in
this case no bill of lading has been or shall be issued and that the terms agreed shall be embodied in a receipt which shall be a
non-negotiable document and shall be marked as such.
Any agreement so entered into shall have full legal effect.
Provided that this article shall not apply to ordinary commercial shipments made in the ordinary course of trade, but only to
other shipments where the character or condition of the property to be carried or the circumstances, terms and conditions
under which the carriage is to be performed are such as reasonably to justify a special agreement.

Article 7
Nothing herein contained shall prevent a carrier or a shipper from entering into any agreement, stipulation, condition,
reservation or exemption as to the responsibility and liability of the carrier or the ship for the loss or damage to, or in
connection with, the custody and care and handling of goods prior to the loading on, and subsequent to the discharge from the
ship on which the goods are carried by sea.

Article 8
The provisions of this Convention shall not affect the rights and obligations of the carrier under any statute for the time being
in force relating to the limitation of the liability of owners of sea-going vessels.

[Article 9
This Convention shall not affect the provisions of any international Convention or national law governing liability for nuclear
damage.

Article 10
The provisions of this Convention shall apply to every Bill of Lading relating to the carriage of goods between ports in two
different States if:
(a) The Bill of Lading is issued in a Contracting State, or
(b) The carriage is from a port in a Contracting State, or
(c) The contract contained in or evidenced by the Bill of Lading provides that the rules of this Convention or legislation
of any State giving effect to them are to govern the contract
whatever may be the nationality of the ship, the carrier, the shipper, the consignee, or any other interested person.
Each Contracting State shall apply the provisions of this Convention to the Bills of Lading mentioned above.
This Article shall not prevent a Contracting State from applying the rules of this Convention to Bills of Lading not included
in the preceding paragraphs.]
Articles 9 and 10 were added by the Protocol of 23 February 1968.

0368

t■' .- v:_r'^
i*

^■m?4 m
MsdhuI«m»ar*m«dhu.bimirde@flm«n.eom^
Lv/<.'(OO^k’

S>oHip>rr

Unload
Fiona Conroy <fionac@conroy.co.nz>
To: Madhu Sameer <madhu.bambroo@gmail.com>
Cc: Rodney White <rodneyw@conroy.co.nz>, Mark Carter <markc@conroy.co.nz>

Fri, Aug 21, 2015 at 2:28 PM

Good Afternoon Madhu

Rodney and Mark have reported back to me following your visit.

To confirm, the container will be unloaded tomorrow morning, beginning at 0830 and re-stowed into.2 x 20ft containers at our yard. .Until full
clearance received all goods must remain on site.

YX31

X. This is for both your benefit and ours,, so that there is a thorough-condition report available fo( allpartie£
We will undertake al^ew inventoi
^
^
concerned. We havenet-chargdid for the new inventory but do beliejve necessaryTs critic^tf for all parties concerned.
I trust the concern you had in regards to Quarantine has been resolved. This fee can either be paid by credit card or internet banking . There is no
surcharge for internet banking. Inspection is booked for next Tuesday and the fee must be paid in full by then.

Any further queries please come to me directly.

Thanks & regards
Fiona

3^1

;

